<html>
<title> - ACID DEPOSITION CONTROL ACT</title>
<body><pre>[Senate Hearing 105-945]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 105-945
 
                      ACID DEPOSITION CONTROL ACT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
        CLEAN AIR, WETLANDS, PRIVATE PROPERTY AND NUCLEAR SAFETY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

                                S. 1097

        A BILL TO REDUCE ACID DEPOSITION UNDER THE CLEAN AIR ACT

                               __________

                            OCTOBER 6, 1998

                               __________

  Printed for the use of the Committee on Environment and Public Works

                               ----------

                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON : 1999

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington DC 
                                 20402



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       one hundred fifth congress
                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director
                                 ------                                

  Subcommittee on Clean Air, Wetlands, Private Property, and Nuclear 
                                 Safety

               JAMES M. INHOFE, North Carolina, Chairman

TIM HUTCHINSON, Arkansas             BOB GRAHAM, Florida
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               BARBARA BOXER, California

                                  (ii)


                            C O N T E N T S

                                                                   Page

                            OCTOBER 6, 1998
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...  3, 9
Moynihan, Hon. Daniel Patrick, U.S. Senator from the State of New 
  York...........................................................    13
    Article, Acid Precipitation and Scientific Fallout, by 
      Senator Moynihan...........................................    18
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     4
    Article, Atmospheric Dust and Acid Rain, Scientific American, 
      December 1996..............................................     5

                               WITNESSES

D'Amato Hon. Alfonse M., U.S. Senator from the State of New York.     9
    Prepared statement...........................................    52
Kropp, Edward, Assistant Chief, West Virginia Office of Air 
  Quality........................................................    25
    Prepared statement...........................................    62
McLean, Brian J., Director, Acid Rain Division, Environmental 
  Protection Agency..............................................    22
    Prepared statement...........................................    53
    Responses to additional questions from:
        Senator Chafee...........................................    60
        Senator Inhofe...........................................    61
        Senator Moynihan.........................................    57
        Senator Sessions.........................................    59
Melewski, Bernard, Counsel and Legislative Director, Adirondack 
  Council........................................................    27
    Prepared statement...........................................    63
    Responses to additional questions from Senator Moynihan......    67
Solomon Hon. Jerry, U.S. Representative from the State of New 
  York...........................................................     1
    Prepared statement...........................................    51
Tyndall, William F., Vice President, Environmental Service, 
  Cinergy Corporation............................................    28
    Prepared statement...........................................    68
    Responses to additional questions from:
        Senator Moynihan.........................................    74
        Senator Sessions.........................................    72

                          ADDITIONAL MATERIAL

Letter, Northeast States for Coordinated Air Use Management 
  (NESCAUM)......................................................   105
Recommendations, STAPA/ALAPCO....................................    97
Report, Air Pollution Delays in Motor Vehicle Inspection Programs 
  Jeopardize Attainment of the Ozone Standard, General Accounting 
  Office.........................................................    82
Resolution, Adirondack Park Agency...............................    93
Statements:
    Adirondack Park Agency.......................................    90
    Hubbard Brook Research Foundation............................    98
    New York State Attorney General Dennis C. Vacco..............    94
    New England Council..........................................   100
    Ozone Attainment Coalition...................................   100
    Northeast States for Coordinated Air Use Management (NESCAUM)   101
Support Document, Alternative Proposal by Southeast/Midwest 
  Governors' Ozone Coalition.....................................   107
Text of S. 1097, Acid Deposition Control Act.....................   136


                      ACID DEPOSITION CONTROL ACT

                              ----------                              


                        TUESDAY, OCTOBER 6, 1998

                               U.S. Senate,
         Committee on Environment and Public Works,
Subcommittee on Clean Air, Wetlands, Private Property, and 
                                            Nuclear Safety,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m. in 
room 406, Senate Dirksen Building, Hon. James M. Inhofe 
(chairman of the subcommittee) presiding.
    Present: Senators Inhofe, Allard, Sessions, and Chafee [ex 
officio].
    Senator Inhofe. The subcommittee will please come to order.
    We have several simultaneous meetings taking place right 
now. I know I had one, the Readiness Committee, downstairs. I 
know that Representative Solomon has his committee meeting.
    So, I'll forego my statement and go ahead and recognize you 
at this time to make any statement you want, then we'll go back 
to the regular order, in deference to your schedule. Is that 
all right?
    Mr. Solomon. Senator, I would deeply appreciate that. I 
have to bang the gavel to send you Senators some vital 
legislation so we can get out of here in a few days.
    Senator Inhofe. Well, I have to say that one of the only 
regrets I have about leaving the House is I left your 
companionship on a regular basis.
    Mr. Solomon. We're very proud of having you over here 
representing my personal views, because you and I think a lot 
alike, Senator.

 STATEMENT OF HON. JERRY SOLOMON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Solomon. Senator, let me thank you again for the 
opportunity to speak on this subject here today. I also would 
like to thank my colleague, Senator Moynihan, who I understand 
has the flu and probably will not be able to be here today. He 
is vitally interested in this legislation as well, as is 
Senator D'Amato, who will be here, for their valuable work on 
an issue that is so very important to my particular district, 
but the entire northeast as well.
    And that issue is the very real and necessary changes that 
need to be made to strengthen the Clean Air Act, to continue 
fighting acid rain and air pollution. The legislation before 
the committee today as introduced in this body by again, my 
good friends, Senator Moynihan and Senator D'Amato, will build 
on the Clean Air Act and the provisions dealing with the 
pollution most responsible for acid rain.
    And I was pleased to introduce this companion legislation 
in the House and to have the support of the entire New York 
delegation as well as all Democrats and Republicans from al of 
the New England States. That's how serious the issue is, Mr. 
Chairman.
    Although we've made tremendous progress in cutting 
pollution through the original Clean Air Act, it hasn't been 
enough to reduce the pollution responsible for acid rain and 
excessive air contamination that we suffer in the northeast. 
The forest and the waterways of the Hudson Valley, including 
the Catskills and the Adirondacks where I live, as well as the 
Green Mountains of Vermont and New Hampshire and on into Maine, 
have literally become a dumping ground for this pollution and 
they will be destroyed if we don't do something about it.
    In fact, in studies as early as 1984, 20 percent of the 
Adirondack lakes, and we have literally hundreds and hundreds 
of lakes throughout the Adirondacks, 20 percent of them were 
dead. That means no fish, entirely. And 55 percent were highly 
acidic and that means that they are going to suffer the same 
results.
    These statistics will only get worse in the future. And as 
an outdoorsman myself and a lifelong hunter and fisherman, and 
a lifelong resident of this beautiful region, I witnessed with 
my own eyes, as have my children and now my grandchildren, the 
slow deterioration of the woods, the lakes and streams. It's 
truly heartbreaking, Mr. Chairman, to think that we in the 
Congress have not been able to produce legislation to reverse 
the pollution that continues its daily destruction.
    And you know, Mr. Chairman, I am not one of these flaming 
environmentalists. I try to look at things from a practical 
point of view. And as a matter of fact, Mr. Chairman, you know 
that even thought I'm one of the northeasterners, I always vote 
with those west of the Mississippi and Oklahomans and those 
from western States on their special issues, because they do 
have different issues than we might have in the northeast and 
we all need to consider each other's.
    I've got an extended written testimony that goes into 
specifics on the details, Mr. Chairman. But I do have to get 
back to my committee. Let me ask unanimous consent to submit 
that for the record and then urge the committee to pass this 
legislation.
    It's time that we really all recognized that acid rain is a 
serious problem. There's only one way to do it, and that's to 
not make drastic changes but make changes that will allow us to 
begin to reverse that course. That will save those mountains.
    Senator Inhofe. Without objection, your entire statement 
will be in the record. Let me ask you one question before you 
leave, and I know you do have to leave. You drafted your 
legislation prior to the EPA taking action a couple of weeks 
ago on the SIPs and NOx. Is the main difference between yours 
and the new rules that the EPA came out with subsequent to your 
drafting your legislation the regional aspect and the level of 
the cap?
    Mr. Solomon. Yes. That's one of the primary differences. In 
other words, Mr. Chairman, again, we only want to go back to 
1984. We don't want to make drastic changes. But if we could go 
back to that level, it would reverse, in other words, the acid 
rain, it would make all the difference in the world.
    And again, I'd be glad to submit specific answers for you 
in writing if you would like.
    Senator Inhofe. That's fine.
    Congressman Solomon, we're very happy to have you here. 
Your entire statement will be in the record, and you may go to 
your meeting.
    Mr. Solomon. Thank you very much. I'd like to apologize to 
my good Senator and my great friend from New York, I've got to 
go bang the gavel to send you over some vital legislation, so 
that you can get out of here at a reasonable time, too.
    Thank you very much, and thank you for the good job you're 
doing.
    Senator Inhofe. Thank you, Congressman Solomon.
    Senator D'Amato, we have foregone our opening statements, 
and if you're on a short time line, we'll let you go ahead and 
make your statement now if you'd like. If not, we'll make our 
statements for the record, and the choice is yours.
    Senator D'Amato. Mr. Chairman, I'm deeply appreciative of 
your holding this hearing. And indeed, inasmuch as Congressman 
Solomon has already finished and you've been so accommodating. 
Let me thank you for holding this hearing at this late date. We 
in the northeast and New York in particular that have this 
problem are tremendously concerned. And we really are looking 
for relief. So I'd be very pleased to pass up your generous 
offer and listen to the Chairman and my friend, Senator 
Sessions, make their remarks.
    Senator Inhofe. All right, Senator D'Amato. You're probably 
aware, I understand that Senator Moynihan will not be able to 
be here. We will be putting his statement in. He's suffering 
from the flu right now.
    Senator D'Amato. Yes.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Before we go any further, I'd like to point 
out that today is the twelfth hearing of our subcommittee this 
Congress. We've covered a broad range of issues. We actually 
had six hearings on the NAAQS issue, which is one that endured 
a year and a half, we had hearings on regional haze, mercury, 
wetlands, Nuclear Regulatory Commission and FEMA. In addition, 
we have marked up the FEMA bill and passed it into law, a very 
important amendment on the NAAQS standards, which was included 
in the highway bill.
    Those who talk about a do-nothing Congress are ignoring one 
of the most important roles of Congress, and that is oversight. 
An important measure of the Congress is how it performs its 
oversight responsibilities. And I'm proud of the number of 
oversight hearings we have held on a variety of topics. We will 
continue to do that in future years.
    In today's hearing, of course, Senator Moynihan is not 
going to be able to be here. We've already heard from 
Congressman Solomon. We will hear in a moment from Senator 
D'Amato.
    This hearing follows by 2 weeks the recent rulemaking by 
the EPA to reduce nitrogen oxides in the eastern 22 States area 
through the OTAG process. That rulemaking places limits on NOx 
emissions by State. While the Clean Air Act does not authorize 
a trading program for NOx, I certainly support market based 
approaches, such as that which is contained in your bill.
    I'd like to ask the witnesses to keep two points in mind 
today, and that is, the need to incorporate more market-based 
approaches into the Clean Air Act. For example, by broadening 
the cap and trade programs, in effect, this legislation, in 
light of the recent OTAG rule. In other words, Senator D'Amato, 
your legislation was drafted prior to the rule that came out 2 
weeks ago. And we'd like to have your idea and your assessment 
as to how your legislation would compare to that.
    We'll have a second group coming in right after, a second 
panel after we complete this. And I'd ask at this time, Senator 
Sessions, if you have any opening comments to make before we 
hear from Senator D'Amato.
    Senator Sessions. Just briefly, Mr. Chairman.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. You have really spent a lot of time and 
effort on these issues, and I appreciate that. The country has 
benefited from it. I have been with you on field hearings and 
many hearings here in Washington.
    There are a number of successful programs that have already 
been implemented to control nitrogen oxide and sulfur dioxide. 
EPA emissions data indicates 1995 sulfur dioxide emissions were 
reduced almost 40 percent below their required level. Further 
reductions will occur in 2000 when phase two of the Acid 
Deposition title of the Clean Air Act is implemented.
    I'm concerned, however, about additional restrictions 
future regulations will have on the utility industry. All of us 
utilize the power that comes from that industry. EPA proposed a 
one-size-fits-all OTAG implementation plan despite some 
scientific conclusions that regional reductions would have 
minimal impact on long range non-attainment areas. As Senator 
Robert Byrd said on the Floor the other day, we may be imposing 
very high costs in one area, yet little or virtually no benefit 
in another area.
    The further reduction of nitrogen oxides and sulfur dioxide 
as proposed by this bill, while beneficial in many ways, in 
light of recent OTAG call for the upcoming implementation of 
their phase two acid rain program, it raises some questions for 
me. I'm concerned about over-burdening the States with 
additional regulations and believe it's important for the 
existing regulations to take effect so we can ascertain the 
impacts of those regulations before going forward with another 
initiative.
    I would say this to Senator D'Amato, I am certainly, I 
respect him and his leadership in this body. And I know that he 
is determined to make sure that the health and safety and 
environmental conditions in his State and area are properly 
protected. I am certainly open to that, and look forward to 
considering this legislation.
    We've got to be careful that what we do has a scientific 
basis and does in fact produce benefits in comparison to the 
cost that's imposed. And I would mention as an example of that, 
an article that I circulated to every member of this committee 
within weeks of my arriving here. I read it in Scientific 
American on the airplane coming up to my first visit to the 
U.S. Senate. It was in Scientific American in December 1996.
    It talked about the unintended consequence of some of our 
actions, because it reduces the base particles in the air, 
which are the particles that neutralize acid. The conclusion 
was that even though we've made some very huge changes in what 
we've done, we may not have impacted the acidity problem as 
much as we thought, because we were reducing the neutralizing 
base at the same time we were reducing acid.
    So I am open-minded about this. I look forward to working 
with you, and Mr. Chairman, thank you for conducting this 
hearing.
    [The referenced article follows:]
                     Atmospheric Dust and Acid Rain
                 (by Lars O. Hedin and Gene E. Likens)
  emissions of acidic air pollutants have fallen dramatically. why is 
 acid rain still a problem? atmospheric dust may be part of the answer.
    For the past several decades, scientists have been studying acid 
rain and how it affects the environment. As the harmful consequences of 
acidic air pollutants became increasingly clear, governments in North 
America and Europe began to regulate emissions of these compounds. 
Countries in the European Union enacted a variety of laws to control 
the release of sulfur dioxide and nitrogen oxides; the Clean Air Act 
imposed similar regulations in the U.S. Policymakers expected these 
reductions to rejuvenate forests lakes and streams in many regions. In 
some respects, the issue seemed wrapped up.
    But the problem of acid rain has not gone away. Why is the rain 
falling on parts of Europe and North America still acidic, despite 
tighter controls on pollution? And why do some natural ecosystems--in 
particular, forests--show levels of damage from acid rain ``rearer than 
scientists originally predicted?
    Recent findings suggest that acid rain is a much more complex 
phenomenon than previously though!. Results from several studies point 
to the unexpected but critical role of chemicals in the atmosphere 
known as bases, which can counteract the effects of acid rain by 
neutralizing acidic pollutants. We have found that all the attention 
given to acidic compounds in the atmosphere has obscured the fact that 
emissions of bases have also decreased. A number of factors seem to be 
diminishing the level of these atmospheric bases and in the process 
aggravating the ecological effects of acid rain. Ironically, among 
these factors are some of the very steps that governments have taken to 
improve air quality.
    Acids and bases are measured by what is known as the phi scale: 
solutions with a pH of less than 7 are acidic; those with a pH greater 
than 7 are basic; those with a pH of 7 are neutral Common acids around 
the home include vinegar, orange juice and beer; ammonia, baking soda 
and antacid tablets are all bases. Most of the bases in the atmosphere 
can be found in airborne particles referred to as atmospheric dust. 
These dust particles are rich in minerals such as calcium carbonate and 
magnesium carbonate, which act as bases when they dissolve in water.
    Atmospheric dust particles originate from a combination of sources. 
Fossil fuel combustion and industrial activities, such as cement 
manufacturing, mining operations and metal processing, generate 
particles that contain bases. Constructionsites, farms and traffic on 
unpaved roads also contribute. Sources such as forest fires and erosion 
caused by wind blowing over arid soils with little vegetation are 
considered natural yet can still be linked to human activity.
A Natural Antacid
    In the air, dust particles can neutralize acid rain in a manner 
similar to the way antacids counteract excess acid in an upset stomach. 
In a sense, when an acid and a base combine, they cancel each other 
out, producing a more neutral substance. Neutralization in the 
atmosphere lakes place as dust particles dissolve into acidic cloud-
waler droplets or combine directly with acidic gases such as sulfur 
dioxide or nitrogen oxides. These reactions also generate so-called 
base cations--a term used to describe the positively charged atoms of 
elements such as calcium and magnesium that arise when mineral bases 
dissolve in water.
    In addition to lowering the acidity of precipitation, atmospheric 
base cations also neutralize acid rain once they reach the ground--
although the chemistry is a bit different than in the atmosphere. Small 
particles of clay and humus (decayed organic matter) in soil bear 
negative and thus attract positively charged cations, such as calcium 
and magnesium; as a result, soils contain a natural store of base 
cations attached to these particles. As acidic rainwater drains into 
the ground, the base cations give up their places to the positively 
charged hydrogen ions found in acids, which bind more tightly to the 
soil particles. Because these particles sequester hydrogen ions, the 
acidity of the water that flows through the soil stays low. In some 
soils the process becomes more complex: acid rain triggers the 
dissolution of toxic aluminum ions that also displace the base cations.
    As long as the soil has an abundant supply of base cations, this 
buffering system, known as carton exchange, protects forests from the 
harmful effects of acid rain. But the natural reserves of base cations 
can become depleted if soils that are naturally poor in bases are 
exposed to acid rain over decades, as has been the case in regions of 
Europe and North America. In these areas, hydrogen ions and aluminum 
ions have displaced a large part of the available base cations in 
soils, allowing levels of aluminum to rise and leaving the soil highly 
acidic. Furthermore, such acidified soils can no longer protect 
downstream ecosystems from acid rain: waters that drain these forests 
carry both acids and aluminum into streams, lakes and rivers.
    Dust particles may serve one other important role. Elements such as 
calcium and magnesium, as well as sodium and potassium--all of which 
can be found in mineral dust--are essential nutrients for most plants. 
Acid rain not only dislodges these elements from clay and humus 
particles, from which plants get most of their nutrients, it also 
washes them into rivers and streams, depleting the ecosystem of its 
store of minerals.
    With the exception of early work in the 1950's by Hans Egner of 
Uppsala Agricultural University in Sweden and Eville Gorham of the 
Freshwater Biological Association laboratory in England, scientists 
have not paid much attention to the idea that the atmosphere can be a 
major source of base cations found in soils. Scientists have 
traditionally thought that the slow dissolution of minerals and rocks 
in deeper parts of the soil replenished base cations, in a natural 
process called chemical weathering.
    But recent findings, including our own studies, are now revising 
the general view of how bases enter soils and how forests depend on 
atmospheric inputs of minerals and nutrients. In some forests the 
atmosphere actually appears to be the main source of base canons. These 
new results suggest that many forests are more sensitive to changes in 
atmospheric chemistry than scientists once believed.
Less Dust, More Damage
    Efforts to reduce emissions of acidic air pollutants offered 
encouraging results at first: levels of atmospheric sulfur, for 
instance, have dropped dramatically over the past three decades in much 
of Europe and eastern North America. The two of us became concerned, 
however, that policymakers and scientists alike might be neglecting the 
role of atmospheric bases in their attempts to evaluate whether these 
reductions in sulfur compounds have benefited the environment. 
Considering the significance of basic chemicals to both forest growth 
and the prevention of acid rain, we decided to investigate whether 
levels of atmospheric dust have also changed over rime in response to 
lower emissions imposed by new regulations.
    Regulations to limit emissions of dust were enacted because, as 
scientists have known for some time, microscopic particles suspended in 
the air can cause a range of health problems when inhaled; they also 
degrade visibility and contribute to a host of other environmental 
problems. Governments in North America and Europe have for over 90 
years designated acceptable air-quality standards for particulate 
matter; these regulations were quite distinct from those focusing on 
acidic pollution. (Atmospheric dust from other sources appears to have 
dropped off as well: Gary J. Stensland and Donald F. Gatz of the 
Illinois State Water Survey have found that emissions of particles 
containing bases have fallen in response to less traffic on unpaved 
roads.)
    Working together with European scientists, we began by evaluating 
the longest records of precipitation chemistry that can be found in 
eastern North America and western Europe. By measuring base cations 
dissolved in snow and rainwater we can keep track of the levels of 
mineral bases in the atmosphere and monitor the input of these base 
cations into forest ecosystems. Our findings were startling: we 
discovered that atmospheric bases have declined at unexpectedly steep 
rates during the past 10 to 30 years. The longest existing North 
American record, collected at the Hubbard Brook Experimental Forest in 
New Hampshire, showed a 49 percent drop in atmospheric base cations 
since 1965.
    On the other side of the Atlantic we found that the longest-running 
high quality European record, from the forested area of Sjoangen in 
southern Sweden, showed a 74 percent decrease in base cations since 
1971. Our analyses of several other records confirmed with few 
exceptions that atmospheric bases have declined precipitously across 
extended areas of Europe and North America.
    But have these cuts in atmospheric bases been strong enough to 
counteract--or even nullify--the environmental benefits of reductions 
in acidic emissions? Our research indicates that this indeed has been 
the case. We found that the decline in bases has often mirrored the 
downturn in atmospheric sulfur, at rates sharp enough to offset a large 
part of the drop in sulfur compounds. For example, we found that the 
decrease in base cations canceled out between 54 and 68 percent of the 
reductions in atmospheric sulfur in Sweden and up tO 100 percent at 
some locations in eastern North America. These trends mean that 
declines in bases have kept the atmosphere sensitive to acidic 
compounds despite reduced emissions of these chemicals. When we began 
this work, we certainly did not anticipate that reductions in one form 
of pollutants--dust particles--would be found to decrease the success 
of reductions of another pollutant, sulfur dioxide.
    The numerous sources of dust particles and the often sketchy 
information on emissions of particulates make it difficult to determine 
why these sharp reductions in atmospheric bases have occurred. We do 
know that new and cleaner industrial techniques, developed in 
accordance with regulations on the release of particulate matter, have 
been an important factor. For example, improved combustion efficiency 
and the practice of scrubbing particles from smokestacks have curtailed 
particulate pollution associated with the burning of fossil fuels. 
Evaluating the contribution of more diffuse sources of dust--traffic, 
agricultural methods and wind erosion, for instance--has been more 
difficult. But our studies suggest that the decline in dust particles 
mainly reflects changes in human behavior as opposed to natural 
variations.
A Major Source of Nutrients
    Scientists have watched for years as calcium, magnesium and 
potassium levels have dropped in forest soils around the world. For 
example, Leif Hallbacken and Carl Olof Tamm, both at Uppsala 
Agricultural University in Sweden, have documented losses of 56 tO 74 
percent of the available cations in Norway spruce forests over the past 
60 years. Other reports show similarly dramatic losses of base cations 
in England, Germany and the U.S. Several recent studies of ailing 
forests show that the precipitous loss of base cations can be a key 
factor in the phenomenon of forest decline. Ernst-Detlef Schulze and 
his colleagues at the University of Bayreuth have argued that depletion 
of magnesium in soils has played a significant role in the dwindling of 
spruce forests in the Fichtelgebirge of Germany. Although their 
evidence is less clear, researchers at Oak Ridge National Laboratory in 
Tennessee, led by Samuel B. McLaughlin, have found that the slowdown in 
growth of red spruce trees in the southern Appalachian Mountains 
correlates with lower availability of calcium in soils. Interestingly, 
small-scale experiments involving fertilization of some forests with 
base cations, particularly calcium and magnesium, have ameliorated 
damage--in the sugar maple forests of Quebec, for instance, and in 
Norway spruce and silver fir forests of Germany and France.
    Reports such as these made us wonder whether certain soils are 
suffering not only because of continued exposure to acid rain but also 
because they do not receive enough base cations from the atmosphere. 
Scientists can now pinpoint the origin of base cations and trace their 
movements through forest ecosystems by looking at the natural isotopes 
of the element strontium (determined by evaluating the number of 
neutrons in the nucleus of a strontium atom), which can be used as a 
tracer for calcium. Strontium atoms that derive from the bedrock and 
those that come from the atmosphere tend to exist as different mixtures 
of isotopes. This technique has illustrated that atmospheric dust is in 
fact a critical source of mineral ions in many forest ecosystems.
    Moreover, in certain regions, where soils tend to be damaged by 
acid rain or naturally low in base cations, most of the calcium appears 
to come from the atmosphere rather than the bedrock. For instance, we 
have determined that in unpolluted forests of Chile, the dominant tree 
species, the southern beech, feeds on calcium that originates almost 
exclusively in the atmosphere.
    These observations suggest that many forests depend quite heavily 
on the atmosphere for a supply of mineral bases; the drops in 
atmospheric base cations have therefore led to a slower replenishment 
of critical bases and nutrients in forest soils. Of course, natural 
levels of atmospheric dust have always varied, but across centuries or 
millennia. Studies conducted by Paul A. Mayewski and his coworkers at 
the University of New Hampshire on ice cores from Greenland indicate 
that the amounts of dust and calcium in the atmosphere have been 
strongly affected by climate variations over the past 20,000 years. In 
the coldest and driest global climates, high levels of calcium and dust 
prevailed, whereas wetter and warmer periods saw low concentrations. 
Analysis of modern trends, from around 700 A.D. to the present, 
suggests that current quantities of dust are relatively low compared 
with conditions during the past 20,000 years. One notable exception was 
the Dust Bowl, the extended drought of the mid-1930's in the western 
U.S.
Remaining Questions
    As scientists have discovered the importance of bases in the 
atmosphere and, more recently, the link between emissions of 
atmospheric dust and nutrients in the soil, they have begun to paint a 
new picture of how forests respond to atmospheric pollution. This 
emerging view suggests that the effects of acid rain are more complex 
than expected and that the damage caused by the pollution is more 
serious than predicted. For instance, the widely quoted conclusion from 
the 1990 National Acid Precipitation Assessment Program (the most 
recent evaluation of the problem of acid rain by the U.S. government), 
that there was no clear evidence linking acid rain to forest damage, no 
longer seems tenable.
    It is entirely feasible that continuing acid rain, in combination 
with limited supplies of base cations, could produce environmental 
conditions to which many plant species, particularly in sensitive 
ecosystems, have never been exposed in the course of Heir evolution. 
Consequently, predicting how they will respond over the next several 
decades will be extremely difficult. And effects may not be limited to 
plants. Jaap Graveland and his colleagues at the University of 
Groningen, have noted chat certain birds, such as the great tits of the 
Netherlands produce thinner, more fragile eggs in forests that have 
been heavily damaged by acid rain and have low stores of calcium in the 
soil.
    What can we do about acid rain and atmospheric dust? Suggestions 
range from the improbable to the feasible. After the publication of one 
of our recent papers, a reader wrote proposing that forests might be 
saved by a hot-air balloon campaign to drop calcium-rich particles from 
the skies--a costly and impractical solution. Deliberate increases in 
the release of particulates are also unrealistic and would set back 
progress in air pollution control by decades. One reasonable 
suggestion, however, is to reduce emissions of acidic pollutants to 
levels that can be buffered by narural quantities of basic compounds in 
the armosphere; such a goal would mean continued reductions in sulfur 
dioxide and nitrogen oxides, perhaps even greater than those prescribed 
in the 1990 Amendments to the Clean Air Act in the U.S.
    The ecological dilemma of atmospheric dust will very likely be widh 
us for some time: base cations take years to buildup in soils, and it 
may take decades or more for forests to recover Their depleted pools of 
nutrienrs, even if levels of acidic air pollution continue to fall. In 
the meantime, researchers and governments must develop careful 
strategies not only for monitoring the current health of forests but 
also for predicting Their stability in the next century and beyond. 
Simple solutions do not always work in complex ecosystems.
    Senator Inhofe. Thank you, Senator Sessions.
    I think also we have a concern about the layering and 
layering of these regulations. If everything you and I said at 
this table the last year and a half, and have gone over this, 
and this has a cumulative effect that makes us noncompetitive 
and makes us question the sound science. So I know we share 
those concerns.
    Senator D'Amato, if you'd like to make your statement.
    Senator D'Amato. Mr. Chairman, I want to thank you and 
Senator Sessions, particularly yourself for holding this 
hearing as late as this in the session. I'm deeply appreciative 
of that. I want to express appreciation of the Senior Senator 
from New York, Senator Moynihan, who as you have indicated, 
will not be able to be with us. He does have a case of the flu 
and could not be here.
    I'm going to ask that my full statement be placed in the 
record as if read in its entirety.
    Senator Inhofe. Without objection.
    Senator D'Amato. A magnificent statement, it is a beautiful 
statement.
    [Laughter.]
    Senator Inhofe. Before we do that, I have a magnificent 
opening statement, too. So without objection, mine will be in 
there with yours.
    [The prepared statement of Senators Inhofe follows:]
   Statement of Hon. James M. Inhofe, U.S. Senator from the State of 
                                Oklahoma
    Before we begin today's hearing, I would like to point out that 
today is the twelfth hearing of our subcommittee this Congress. We have 
covered a broad range of issues:--a series of six hearings on the NAAQS 
standards, ozone and PM,--hearings on Regional Haze and Mercury,--a 
hearing on wetlands,--the first NRC hearing in 4 years, and--the first 
general FEMA hearing in 7 years.
    In addition we marked up a FEMA Bill and passed into law a very 
important amendment on the NAAQS standards which was included in the 
Highway Bill. Those who talk about a do-nothing Congress are ignoring 
one of the most important roles of Congress, that of oversight. An 
important measure of a Congress is how it preforms its oversight 
responsibilities. I am proud of the number of oversight hearings we 
have held and the variety of topics. However, I will say for every 
hearing held there is probably another ten topics that deserve 
hearings. In the next Congress, it is my intention to increase the 
oversight responsibilities of this Subcommittee.
    Today's hearing is on Senator Moynihan and Senator D'Amato's acid 
rain bill, S. 1097. The Bill calls for a new Cap and Trade program for 
nitrogen oxides and a lowering of the current Cap for sulfur dioxide, 
in order to reduce acid rain.
    This hearing, follows by 2 weeks, the recent rulemaking by the EPA 
to reduce nitrogen oxides in the Eastern 22 State area through the OTAG 
process. That rulemaking places limits for NOx emissions by State. 
While the Clean Air Act does not authorize a trading program for NOx, I 
certainly support market-based approaches, like the one in S. 1097, for 
dealing with pollution. Three weeks ago I gave a Clean Air 
Reauthorization speech in which I called for more market-based 
approaches to be incorporated into the Act. I intend for 
reauthorization hearings to cover this topic next year.
    I would like to ask today's witnesses to keep these two points in 
mind during your testimony.
    1) The need to incorporate more market-based approaches into the 
Clean Air Act, for example by broadening the cap and trade programs, 
and
    2) The effect of this legislation in light of the recent OTAG rule.
    I do have concerns, however, in how the EPA is layering regulation 
upon regulation. Just in the last year we have had the new ozone 
standard, the Particulate Matter standard, and the Regional Haze rule; 
all addressing the same particles. Now we have the new SIP call for 
NOx. While it appears that they are trying to turn these particles into 
endangered species; the effect is they are turning jobs into endangered 
species; particularly coal miners. This next year, I will be asking the 
General Accounting Office to examine the cumulative impacts of all of 
these regulatory programs on the economy.
    We have a very distinguished first panel today, the primary 
sponsors of the legislation. Senators Moynihan and D'Amato and 
Congressman Solomon, the lead sponsor for the House companion Bill. 
While I may not agree with everything in the legislation, we can 
certainly find common ground in their market-based approach to the 
problem.

 STATEMENT OF HON. ALFONSE M. D'AMATO, A UNITED STATES SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator D'Amato. It is filled with the kind of data and 
information that I think the former Attorney General of 
Alabama, who is a man of detail, will find interesting. And I 
think it's important.
    But indeed, the essence of S. 1097, the Acid Deposition 
Control Act, which has been introduced by Senator Moynihan and 
myself, has been the product of a number of years worth of 
study. You know, people generally think of New York in the 
context of New York City. It's understandable, because it's the 
Big Apple that gets written about.
    When things aren't going well, we all hear about the crime, 
the infestation, the welfare rolls. When things go well, we 
hear about the renaissance. And we're pleased that people have 
been hearing about the renaissance, have been coming to the 
city, enjoying the great restaurants, the theaters, and of 
course, our hopefully world championship Yankees this year. 
They play this evening, they play Cleveland. I notice none of 
the members of the panel are from Ohio, so I can do a little 
braggadocio. We want to even the score. They knocked us out, as 
you know, last year.
    Having said that, that is not an accurate picture. Even the 
great city of New York is not an accurate picture of what New 
York is about. It's about magnificent lakes and rivers and 
forests, forests that are among the greatest in this country. 
The Adirondack Range, 2,800 lakes, magnificent, magnificent.
    It is about farming. It is about an agricultural community 
of tens of thousands of dairy farmers, vegetable farmers, apple 
farmers. We have the second largest apple crop in the United 
States of America. We're about fourth in dairy. I daresay, many 
people are not aware of that. We're a $4 billion industry in 
agriculture.
    You see, we are not really understood by many. By many even 
within the State, forget about being out of the State. When do 
you ever hear about the great agriculture? When do you ever 
hear about the pristine lakes and rivers, etc., that are about 
our State? About the 6.7 million people who live west of the 
Hudson who encompass it and who create a major part of that.
    Of course, Congressman Solomon represents a significant 
portion of that area covered by the Adirondacks. Significant, 
not all of it. But a significant portion.
    So it is with this in mind that I place in front of you 
that we have been assaulted by airborne terrorism for far too 
long. We have complied with all the EPA requirements, and 
indeed, in terms of dealing with the waste, with the emissions, 
have made remarkable strides. We could close all of our power 
plants, all of our factories, and never be able to accomplish 
the attainment called for because of that airborne terrorism.
    Now, I want to say to you in all fairness, gentlemen, if we 
were to eliminate every moving truck, car, every factory and 
still have airborne terrorism knocking out our lakes, and by 
the year 2040, it is estimated that of the 2,800 lakes, 43 will 
be so acidic that we can't use them.
    And we know where it's coming from. We know that if you 
build giant smokestacks 600 and 700 and 800 feet into the air, 
you discharge your pollutants, so that the State or the place 
where the emissions are coming from never feel them. They enter 
the jet stream and carry to the northeast.
    Now, it's pretty good to say, now, listen, I have to worry 
about the cost of this, and what will the cost be, if you're 
not the State or the people being bombarded. But if you're 
being bombarded and your lakes and your forests are being 
knocked out, that is not good enough.
    I note that the Senator, and the Chairman indicated quite 
correctly that the public-private working together, the 
purchase by those in non-attainment zones, etc., those work. 
They haven't provided that, the EPA, it doesn't relate to 
nitrogen oxide. However, in terms of the sulfur dioxide, where 
they once estimated it would cost $1,500 a ton, they're doing 
it for $150 a ton. It does work. It does not have to put 
businesses out.
    But you can no longer, because the great Senator from West 
Virginia is worried that coal, dirty coal, will have a maybe 
less economic impact, maybe others will turn to natural gas, 
maybe it will not have the economic value to his region, you 
can't permit the bombardment of the northeast into these 
forest. It's just not right.
    And I would suggest that if we had the reverse taking 
place, that any one of my colleagues and their States, they 
would have an absolute right and an obligation to say, come on, 
let's take a look at this, how do we deal with this. That's 
what we're talking about here.
    So while it's easy to say what is the cost and should we 
take a look at it, let's take a look at the cost of not doing 
it. We've lost 500 of the 2,800 lakes already. They're lost. If 
we continue this, we're going to lose the majority of these 
lakes. It's not what we can or should be about.
    So that's why we offered this legislation. And it is 
prudent legislation, it provides an opportunity over a period 
of time. But it does call for the kinds of reductions that 
people have a right to know that their Government does care 
about the quality of life.
    And we didn't even get into the asthma, we didn't get into 
the health situation. And that is a problem, and it is a 
problem precipitated by that kind of flow.
    Last but not least, I want to say that the measures offered 
by the EPA, I think they call it the SIP program, are not 
nearly adequate enough. You may have some questions here and 
think they are over-reaching. They are not. Let me say that 
they give us some relief during the summer, none during the 
winter. I cannot understand for the life of me why they would 
engage in that. Maybe in an attempt to minimize the cost.
    But the fact is that what happens is during the winter, 
your snow, the accumulation of the snow will have this acid in 
it, and thereafter, when you have the spring thaw, it is a 
bombardment into those lakes. The acidity is incredible.
    So it is not adequate, and Senator Moynihan's legislation 
and mine goes to that. We set up reductions, we set up 
standards, we set up timetables. We have done this with the 
help of some of the great scientists. We did not just pick 
numbers out, working with our State environmental people and 
others, to arrive at these figures, bringing about annual 
reductions.
    I think it's prudent. I hope that staff will have an 
opportunity to look at it, to examine it, to see in detail what 
kinds of changes may or may not be suggested.
    But that's the problem. We have this airborne terrorism. 
And again, we can never, never protect those lakes. If we were 
to shut down every moving vehicle in New York, close all of our 
factories, we would still have this same degradation of the 
quality of life.
    And so that's the problem that I put forth to my 
colleagues. I would hope we would have an understanding. It's 
more than simply saying, what will the costs be. What's the 
cost if we don't? And how can we do this within reason?
    We're not looking to hurt any region. Believe me, we're 
not. But I have to tell you, if we're not burning dirty coal, 
and if we had to put in scrubbers where we are burning coal, 
and we do have to reduce that. We've had to turn to natural 
gas. And how and why is it that we should allow the 
continuation of this? Because there are some who took advantage 
of the existing law, which does not, and which provided them 
with the opportunity of building the big stacks to avoid that 
kind of cost.
    That cost is being borne by others. And the degradation to 
our quality of life continues. So it's real, it's a real 
problem, it's not imaginary. I wouldn't come here and tell you, 
and make this up because it sounds good. It is a real problem 
for us.
    I thank the committee for their patience, for their 
understanding, and you, Mr. Chairman, in particular for your 
thoughtfulness, from the fact that you have held a dozen 
hearings to look and see where is the proper balance in terms 
of legislation and the impact that legislation will have to try 
to improve all of our qualities of life.
    Senator Inhofe. Thank you, Senator D'Amato. And your 
observation is very accurate. I know most of my adult life, 
I've thought of New York as being New York City, until I had 
occasion to spend time up there. Everything you say is true, 
and you certain champion the cause of the potential harm that 
can be done to that area. I'm sure people are appreciative of 
it.
    I think you've answered my question, when I asked the 
question that the EPA rules that came out after you had already 
drafted your legislation, you still feel are inadequate, is 
that correct?
    Senator D'Amato. Yes, absolutely. Again, as I mentioned to 
you, Mr. Chairman, there is no factory, I think it works for 4 
months in the winter time, there's no controls whatsoever. The 
buildup, the deposition of the acidity is such that when you 
have the spring thaw, it is an actual shock to the lake, when 
you have the runoff, it's an incredible shock. So the aquatic 
life will be tremendously impacted.
    I understand what they're trying to do, they're trying to 
do a balancing act. It doesn't work. So while we don't get the 
direct assault immediately, we get it during the spring, an 
acidic accumulation of all that that has been deposited in the 
snowbanks.
    Senator Inhofe. The EPA, and I'm sure we'll hear it again 
today, has told us that the sulfur dioxide emissions have been 
reduced. Have you noticed that in terms of impact on New York?
    Senator D'Amato. Yes, there has been an overall drop in the 
level of emissions of sulfur dioxide. It's not having the 
anticipated effect in the State. For example, levels of acidity 
in our soil and water have not dropped. It was thought that the 
levels of acidity would drop with the enactment.
    In order to see that, we think there has to be a much 
greater reduction. We have not had the impact. Because we have 
been bombarded over the years. So it does not have the kind of 
impact.
    Senator Inhofe. Do you think enough time has gone by that 
you would be able to determine that impact?
    Senator D'Amato. Yes. We would.
    Senator Inhofe. All right, Senator Sessions.
    Senator Sessions. I would say this, I am familiar with the 
threat to the forests and the lakes of New York. It's a very 
real thing in the northeast, and in some other areas of the 
country. It's not something we ought to ignore. We need to 
establish good public policy that deals with it.
    You have again confirmed your reputation as being an 
articulate advocate for views that you feel strongly about, 
Senator D'Amato, and we will certainly give those 
consideration.
    Senator D'Amato. I thank the General. I call you the 
General, because I have such respect for those who have been 
Attorney General, for the great job you did, Senator, and we're 
delighted to have that thoughtfulness.
    Let me just, if I might, Mr. Chairman, and Senator 
Sessions, conclude. Think about this, it's not really fair or 
responsible to have people evading, and I say evading, the 
intent of the law by building a giant smokestack that brings 
its pollution, the worst kind, that would never be permitted in 
your State, in either of our States, to then take that and 
carry that stuff by way of the jet stream hundreds and hundreds 
of miles away and say, well, our environment is fine. Whether 
it's in Indiana or Illinois, and those are two of the States, 
and Ohio, States that contributed. I've nothing against 
Indiana, Illinois and Ohio. I hope they have great, wonderful 
environments and that their lakes aren't bombarded.
    But I do have a problem with that kind of an attitude, that 
they save money because they build a huge stack. We have 
scrubbers, we have to burn natural gas. We understand that. 
That's the price you have to pay.
    But there's something wrong, and we've got to change it. 
And so that's where we're coming from. This is something that 
will not go away. This is not something born of the days of 
political process, where there's an election. This is something 
that Senator Moynihan and I have been working on. And I am more 
determined than ever to attempt to do something.
    And I would hope with the great leadership and the strength 
of this committee, that we could come to some kind of 
reasonable solution to begin to move us in the process of 
fairness. And that's what we're looking for, fairness. And I'm 
really deeply appreciative of my colleagues' sensitivity and 
your patience.
    Thank you.
    Senator Inhofe. Well, thank you very much, Senator D'Amato. 
You have presented a very strong case, and we appreciate your 
presence here this morning.
    We would also like to say that due to his illness, Senator 
Moynihan is not going to be here, but we do have a statement 
which will be in the record in its entirety.
    [The prepared statement of Senator Moynihan follows:]
Statement of Hon. Daniel Patrick Moynihan, U.S. Senator from the State 
                              of New York
    Good morning, Mr. Chairman. Thank you for holding this hearing on 
acid deposition. I appreciate the opportunity to testify on two bills 
Senator D'Amato and I have introduced, S. 1097 and S. 2377, legislation 
to require additional reductions in utility sector emissions of sulfur 
dioxide (SO<INF>2</INF>) and nitrogen oxides (NOx), and to reduce the 
sulfur content in gasoline, respectively.
    We have come a long way in understanding the causes and effects of 
acid deposition and ways to control it. But we have a long way to go 
yet. We have learned, for instance, that the SO<INF>2</INF> emissions 
reductions required under the Clean Air Act Amendments of 1990 (``1990 
Amendments'') are insufficient to prevent the continued acidification 
of many lakes and further damage to sensitive ecosystems. We also have 
learned that legislation containing regulatory flexibility and market 
incentives is preferable to the traditional ``command and control'' 
approach.
    Perhaps most importantly, since the 1990 Amendments were enacted, 
we have learned that nitrogen oxides, which we largely ignored 8 years 
ago, are significant ``precursors'' of acid deposition. And we have 
learned that acid deposition does not cause environmental degradation 
just in remote, high-elevation forests and lakes in the Adirondacks and 
northern New England. Rather, it poses a continuing and significant 
threat to the environmental quality of lakes, streams, forests, bays, 
and estuaries in numerous regions of the country, and to the health of 
the people who reside in these regions.
    And so Senator D'Amato and I have introduced two bills, each of 
which addresses different facets of the acid deposition problem: one 
targets stationary sources of SO<INF>2</INF> and NOx, the other targets 
mobile sources of NOx. The first, S. 1097, is modeled after and builds 
on the Environmental Protection Agency's (EPA) Sulfur Dioxide Allowance 
Program. The second, S. 2377, requires a reduction in gasoline sulfur 
using existing and readily available refinery technology. The cost of 
gasoline would rise under S. 2377--by a nickel a gallon at the retail 
level, at most. For a car driven 15,000 miles per year that achieves 15 
miles per gallon, the cost of S. 2377 would be $50 annually. Keep in 
mind, however, that gasoline prices, adjusted for inflation, are 
cheaper now than they have been at any time since 1950 (the beginning 
point of our analysis). And the benefits to human health and the 
environment of reducing gasoline sulfur far outweigh this modest cost.
    I think these are good bills--good for human health and the 
environment, good for New York and the United States--and I am 
optimistic that their essential features will be incorporated into 
legislation this Subcommittee and, eventually, the full Committee will 
report to reauthorize the Clean Air Act. Certainly, I welcome the 
scrutiny this hearing affords, and I look forward to working with other 
Committee Members on fashioning sound legislation to control acid 
deposition.
Background
    Mr. Chairman, as far back as the 1960's, fisherman in the 
Adirondacks began to complain about more than ``the big one that got 
away.'' Fish, once abundant in the pristine, remote Adirondack lakes, 
were not getting harder to catch. They were gone.
    At first, pollution seemed an unlikely cause. The lakes are in a 6 
million acre park protected by the New York State Constitution. And 
most of them are all but inaccessible, except to determined fishermen 
lured by their solitude and beauty, and by what was once an enormous 
bounty. But the lakes, it turned out, are accessible to something 
besides fishermen: the winds that blow in from coal country, 
Appalachia.
    In time, pioneering scientists such as Cornell University's Carl 
Schofield, Eugene Likens, and Charles Driscoll established a strong 
inferential link between ``acid'' deposition--principally caused by 
burning coal upwind--and the diminished ability of lakes in the 
Adirondacks to sustain healthy fish populations. Water made acidic by 
atmospheric deposition was leaching inorganic aluminum from the granite 
bedrock surrounding the lakes, and the aluminum was poisoning the fish, 
primarily through their gills.
    Acid rain. Now there is a powerful image. Not always so. There were 
days when dark plumes of smoke were a sign of prosperity. During the 
Depression, New York City's Jim Farley, who was Postmaster General, 
liked nothing more than to open a new Post Office and hire a WPA artist 
to paint murals on its walls depicting busy factories belching smoke 
from their chimneys. No longer.
    By the early 1970's, environmentalists were alarmed. 
Environmentalism is nothing if not an ethic of responsibility. Our 
first responsibility is to the facts. Facts about cause and effect. 
Facts about costs and benefits. It is not knowledge that we should 
fear, but the lack of knowledge.
    When I entered the Senate in 1977, there was much we needed to 
learn about acid rain. So I introduced the first Federal legislation to 
address our ``knowledge deficit'' about acid rain: the Acid 
Precipitation Act of 1979. My bill was enacted into law as Title VII of 
the Energy Security Act, which Congress passed in June 1980 (Public Law 
96-264). Title VII established the National Acid Precipitation 
Assessment Program (NAPAP), an interagency program charged with 
assessing the causes and damages of acid deposition, and reporting its 
findings to Congress.
    NAPAP created a network of long-term atmospheric deposition 
monitoring stations, permanent forest plots, and lake sampling regimes. 
These stations and sites, which comprise the infrastructure of the 
National Science Foundation's Long Term Ecological Research (LTER) 
network, provide scientists with data sets now spanning decades across 
a variety of ecosystems. One of these sites, the Hubbard Brook 
Experimental Forest in New Hampshire, has been under continuous study 
for 35 years. The availability of long-term data is critical for the 
study of complicated ecosystems.
    NAPAP spawned tremendous academic interest in the subject of acid 
deposition. Between 1970 and 1979, only two doctoral degrees were 
issued in the ``field'' of acid deposition--if it could be called such 
at the time. From 1980 through 1989, after NAPAP was established, 71 
individuals earned doctoral degrees in the field. And between 1990 and 
1995, another 35 scientists earned their Ph.D.s in the field.
    More than 1,700 research papers describing the results of NAPAP-
funded research were published in technical journals by October 1989, 
when debate on reauthorization of the Clean Air Act was under way. This 
is a good indicator of new findings. Authors must compete for limited 
space in these publications. Poor science and shopworn discoveries are 
usually rejected. As we began consideration of the 1990 Amendments, we 
could glean from the technical ``state-of-science'' reports that at 
least 800 lakes and 2,200 streams in the eastern United States had been 
made acidic by acid deposition; at least 200 additional streams, about 
10 percent more, would become acidic over the next decade without 
additional legislation to control emissions.
    In all, some $570 million was spent to underwrite the scientific 
research contained in the first NAPAP report to Congress. Except for 
space and weapons research, NAPAP had become the Federal Government's 
biggest scientific undertaking in history. It continues.
    I was an original co-sponsor of the Clean Air Act Amendments of 
1990, and I am proud of what we accomplished through that landmark 
legislation. Title IV of the 1990 Amendments established a ``Sulfur 
Dioxide Allowance Program.'' Its creation represented a radical 
departure from the traditional ``command and control'' approach to 
environmental regulation common at the time. This program was the first 
national, statutorily mandated, market-based approach to pollution 
control. It has been tremendously successful.
    The SO<INF>2</INF> Allowance Program is successful because of the 
flexibility it affords the affected utilities. The EPA allocated a 
number of allowances to each utility under the Program. Each allowance 
represents the limited authority of the utility to emit one ton of 
SO<INF>2</INF>. EPA ``capped'' the number of allowances to ensure an 
overall reduction in emissions. Each utility may choose to reduce its 
own emissions, or to purchase unused allowances from another utility. 
Further, utilities may choose to ``bank'' their allowances, which may 
be used or sold at a later date. The allowances trade quite freely, as 
stocks do. In fact, members of my legislative staff recently purchased 
two such allowances, at a discounted price of $100, which they donated 
to the New York-based Adirondack Council. The Council, in turn, 
``retired'' the two allowances, which is their right under the Program.
    This past August, NAPAP issued another report. It states that we 
have made progress under the SO<INF>2</INF> Allowance Program toward 
our goal of protecting sensitive ecosystems from the scourge of acid 
rain since 1990. In 1995, the first year of the program, SO<INF>2</INF> 
emissions declined dramatically, to nearly 5 million tons below 1980 
levels--a reduction which was 39 percent ahead of the Program's target. 
Large areas of the eastern United States saw up to a 25 percent 
decrease in sulfate concentration levels in the air and in the acidity 
levels of wet deposition. Between 1989 and 1995, monitoring stations at 
eastern sites showed dry deposition of sulfur dioxide and sulfates 
decreased by 35 and 26 percent, respectively. Concentrations of 
sulfates in lakes and streams have decreased in many areas, with 
evidence of some recovery from acidification in New England.
    Resources For the Future (RFF) scientists and economists conducted 
an analysis to estimate the benefits from reduced risk of human health 
effects resulting from SO<INF>2</INF> emissions reductions required 
under Title IV of the 1990 Amendments. The RFF analysis estimates 
mortality benefits ranging from $1,075 to $15,020 per ton of reduction 
in SO<INF>2</INF> emissions. Even the lowest benefit exceeds the cost 
per ton of emissions reduction by more than a factor of ten. (The price 
of allowances reflects the control costs for SO<INF>2</INF> emissions 
reductions. The price of an allowance has dropped from an estimated 
$500 per ton when the 1990 Amendments were passed to about $100 per ton 
currently.)
    The median value of benefits from reduced risk of human morbidity 
effects estimated in the RFF analysis is an additional $475 per ton of 
SO<INF>2</INF> emissions reduction. The RFF analysis is consistent with 
analyses conducted by EPA staff on the magnitude of health benefits.
    Reductions in SO<INF>2</INF> emissions have provided substantial 
improvements in visibility, especially in the eastern United States. 
EPA estimates that reductions in SO<INF>2</INF> emissions so far have 
resulted in a 20 percent reduction in regional haze in large areas of 
the eastern United States. Researchers have estimated monetary benefits 
to residential areas in 31 eastern states and to national parks in the 
southeastern states of $3.4 billion (1994 dollars) in 2010, or about 
$377 per ton of SO<INF>2</INF> reduction.
    Perhaps the most pleasant development with regard to the 
SO<INF>2</INF> Allowance Program has been program compliance and cost. 
Because of the Program's flexibility, the compliance rate is 100 
percent. The cost of compliance has been less than half of what was 
projected in 1990. Actual costs of compliance for 1995, for instance, 
are estimated at $726 million. The General Accounting Office (GAO) had 
estimated in 1994 that the costs of compliance for 1995 would be $1.2 
billion. Estimates of total costs of Title IV compliance continue to be 
revised downward.
    The market flexibility provided by allowance trading promotes 
innovation and competition in emissions reduction technologies. This 
flexibility has allowed reductions to be made at sites where they could 
be achieved in the most cost-effective manner. Studies conducted since 
1990 have estimated that the cost savings due to emissions trading, 
compared to the cost of a traditional command-and-control approach, has 
been between $230 million and $600 million per year.
S. 1097: Addressing Stationary Sources of SO<INF>2</INF> and NOx
    We can be proud of our accomplishments thus far. But we must look 
carefully at the scientific data before we conclude that our work is 
done in controlling SO<INF>2</INF> emissions. The data indicate that 
the 1990 Amendments did not go far enough to prevent continued damage 
from acid rain. For example, the August 1998 NAPAP Report contains an 
assessment of long-term data collected at monitoring sites in the 
Southern Appalachians which indicates that sulfate concentrations of 
surface waters have been increasing consistently for more than a 
decade. The majority of Adirondack lakes have not shown recovery from 
acidity levels, and the most sensitive Adirondack lakes continue to 
acidify.
    So Senator D'Amato and I introduced S. 1097, the Acid Deposition 
Control Act of 1997. Our bill would require additional reductions in 
emissions of 50 percent for SO<INF>2</INF>, and 70 percent for NOx, 
from the electric utility sector. It would also require the EPA to 
develop measurable indicators of ecosystem health to evaluate the 
effectiveness of the Agency's Acid Rain Program.
    S. 1097 would require reductions in SO<INF>2</INF> emissions beyond 
those provided for in Phase II of the existing Program. In light of the 
impressive success and cost effectiveness of the SO<INF>2</INF> 
Allowance Program, our bill is designed to build onto it as seamlessly 
as possible. In effect, our bill establishes a ``third phase'' under 
the existing SO<INF>2</INF> Allowance Program. Under the proposed Phase 
III, total utility emissions of SO<INF>2</INF> would be reduced to just 
under 4.5 million tons per year--a 50 percent reduction.
The Importance of Nitrogen
    We have learned a great deal about the science of acid rain in the 
years since the 1990 Amendments. Perhaps the most important insight we 
have gained from the last decade of scientific research is that the 
emission of nitrogen oxides (NOx) contributes significantly to acid 
deposition. We now know that nitrogen is quantitatively as--or, in some 
cases, more--important than sulfur as a cause of both chronic and 
episodic acidification.
    Normally, terrestrial and aquatic plant growth is limited by the 
availability of nitrogen. Inputs of new nitrogen from atmospheric 
deposition (as opposed to nitrogen recycled within the ecosystem) have 
caused some forests to become ``nitrogen saturated.'' Nitrogen 
saturation is accompanied by depletion of soil base cations (which are 
nutrients) such as calcium that buffer the soil from acidity. The soil 
chemistry changes, affecting forest health. And increases in soil 
acidity affect the pH of drainage water which empties into lakes and 
streams. Chronically high nitrate concentrations have been documented 
in lakes and streams in a variety of locations throughout the United 
States, including the San Bernardino and San Gabriel Mountains within 
the Los Angeles air basin, the Front Range of Colorado, the Allegheny 
Mountains of West Virginia, the Catskill Mountains of New York, and the 
Great Smoky Mountains of Tennessee.
    We also have gained an improved understanding of the importance of 
episodic acidification. In 1990, the best science available at the time 
indicated that chronic acidification posed the greatest threat to 
sensitive ecosystems. We now know that episodic acidification--short-
term drops in the pH of lakes and streams during periods of high water 
flow, such as storms and snow melt--can be extremely damaging to 
ecosystems, too. We now understand that nitrogen plays a more important 
role in these acidic episodes than does sulfur.
    Episodic acidification is ubiquitous in our surface waters. Nearly 
all lakes and streams throughout the United States, Canada, and Europe 
experience increased acidification during high water flow events. 
Biological effects on fish in acidified lakes and streams are largely 
attributable to increased concentrations of dissolved aluminum. The 
aluminum is transported to drainage waters from soils which have been 
leached by excess nitrates. We know that much of the nitrates 
accumulate in the soil as a result of acid deposition.
    Since 1990, we have become much more aware of the problem of 
eutrophication of bays and estuaries. Through a combination of 
monitoring, experimental research, and modeling, scientists better 
understand the effects of atmospheric deposition of nitrogen to these 
near-coastal waters. Excessive nitrogen loading causes eutrophication, 
which is the increase in the rate of supply of organic matter to an 
ecosystem. The consequences of eutrophication include massive die-offs 
of estuarine and marine plants and animals; loss of biological 
diversity; growth of nuisance algae potentially toxic to humans and 
marine animals, such as pfisteria; and damage to ecosystems which 
endangers the sustainability of local fisheries resources.
    Atmospheric deposition is a significant source of nitrogen loading 
to coastal waters stretching from the Gulf Coast around and up the 
entire length of the eastern seaboard. For example, the Chesapeake Bay 
is believed to receive 27 percent of its nitrogen load directly from 
the atmosphere. For Tampa Bay, the figure is 28 percent. For the 
coastal waters of the Newport River in North Carolina, between 35 and 
80 percent.
    In 1997, the Ecological Society of America convened a workshop to 
consider atmospheric nitrogen deposition to coastal watersheds. The 
participants in the workshop included eminent scientists, coastal 
managers, and national policymakers. The workshop report concludes that 
atmospheric deposition of nitrogen must be included in policy and 
coastal management plans to address coastal eutrophication problems 
successfully.
EPA NOx SIP Call
    Just 2 weeks ago, the EPA released its Final Rule to reduce the 
emissions of nitrogen oxides from the utility sector. The EPA plan, 
patterned after the highly successful ``cap-and-trade'' allowance 
program for SO<INF>2</INF> emissions, is designed to reduce levels of 
NOx emissions which contribute to ground-level ozone in urban areas. 
The Final Rule is likely to increase the air quality significantly in 
urban areas during the summer ``ozone'' season, and to protect urban 
populations from the deleterious health effects caused by exposure to 
ozone.
    The EPA's Final Rule, however, is not designed to solve the 
problems caused by acid deposition. The EPA's NOx ``cap-and-trade'' 
allowance program outlined in the Final Rule is seasonal, regional, and 
voluntary. While the Final Rule is an appropriate way to address urban 
ozone levels, solving the problems of acid deposition will require a 
more comprehensive approach.
    Nitrogen emissions contribute to acid deposition to forests, lakes, 
streams, and estuaries on a year-round basis. From an environmental (as 
opposed to health) standpoint, acid deposition may be more important 
during the winter months than during the summer. NOx emissions during 
the winter months contribute to stockpiles of acidified snow, which 
cause extremely acidic episodes in lakes and streams during the spring 
thaw. Many aquatic systems are most biologically sensitive at precisely 
this time, during the spring spawning season.
    Recognizing the need for reductions in nitrogen emissions 
throughout the year, our bill--S. 1097--establishes a year-round cap-
and-trade program for NOx emissions from the utility sector. Because of 
the particular health risks of urban ozone formation during the summer 
months, S. 1097 requires utilities to surrender two allowances for each 
ton of NOx emitted between the months of May through September. During 
the remainder of the year, only one allowance is required to produce 
one ton of NOx emissions. In this way, utilities are encouraged to make 
their most stringent emissions reductions during the summer months, 
when the collective risk to human health is higher.
    The NOx cap-and-trade program proposed by EPA is a regional program 
because it has been envisioned as a response to a regional problem--the 
problem of urban ozone. The problem of acid deposition, however, is not 
limited to the Northeast. As I noted earlier in my testimony, 
eutrophication is adversely affecting the coastal waters throughout the 
eastern seaboard, including the Chesapeake Bay and Long Island Sound, 
and the Gulf of Mexico. Forests, streams, and rivers in the Southern 
Appalachians, the Front Range of Colorado, and the San Bernardino 
Mountains in California are also showing the effects of acidification 
and nitrogen saturation.
    The best scientific data available indicate that emissions of NOx, 
like SO<INF>2</INF>, are transported across state lines. A recent 
report released by Northeast States for Coordinated Air Use Management 
(NESCAUM) concludes that several northeastern states will be unable to 
attain the health-based air quality standards set by EPA without 
reductions in the emissions levels transported to the Northeast from 
upwind states. Moreover, several urban centers in the western part of 
the country have already recorded numerous ``exceedances'' of 
permissible air pollution levels established by EPA. Consequently, a 
national emissions reduction program for NOx--as well as 
SO<INF>2</INF>--is required.
S. 2377: Addressing Mobile Sources of NOx
    It is worth noting that utility emissions are not the only 
significant source of NOx emissions. When we designed the 
SO<INF>2</INF> Allowance Program in 1990, our task was simplified by 
the fact that over 85 percent of SO<INF>2</INF> emissions originated in 
fossil fuel-fired electric utilities. Emissions from utilities account 
for just under 30 percent of total NOx emissions, roughly speaking. The 
share from utilities is certainly large enough that any serious program 
to reduce NOx emissions must address the utility sector. But another 
major source of NOx emissions, the transportation sector, must be 
addressed as well.
    Earlier this year, I introduced S. 2377, the Clean Gasoline Act of 
1998. This bill establishes a national, year-round cap on the sulfur 
content of gasoline sold in the United States. The bill would extend 
the so-called California gasoline sulfur standard nationwide. The 
benefits of reducing gasoline sulfur would be dramatic and virtually 
immediate.
    The transportation sector accounts for nearly half of national NOx 
emissions. A large portion of these emissions are in the form of 
tailpipe exhaust from our national vehicle fleet. In recent years, 
advances in vehicle technology have produced Low Emission Vehicles 
(LEVs)--vehicles designed to reduce vehicle emissions by 90 percent. 
These vehicles were first sold in New York last fall, beginning with 
the 1998 model year. Unfortunately, New York will not see the full air 
quality benefits these vehicles are capable of providing because New 
Yorkers do not have access to the higher quality, lower sulfur gasoline 
these vehicles have been designed to use.
    Low Emission Vehicles were first marketed in California, where 
their use has contributed to significant improvements in local air 
quality. One reason for the success of these vehicles in California is 
that California adopted a maximum level for gasoline sulfur content, 
beginning in June 1996. In California, gasoline sulfur levels average 
about 30 parts per million (ppm). The national average, outside of 
California, is more than ten times greater--about 330 parts per 
million.
    The presence of sulfur in gasoline increases vehicle emissions 
because sulfur poisons the catalytic converter used in the vehicle's 
emissions control system. Sulfur is a pollutant only: its presence (or 
absence) does not effect engine performance. In the 1970's, we fought 
to remove lead from gasoline to make possible the introduction of 
catalytic converters. Until recently, we did not appreciate that sulfur 
is a catalyst poison, too. The problem is not limited to LEVs, although 
these vehicles are especially sensitive to gasoline sulfur. All 
vehicles in the national fleet with catalytic converters--virtually all 
vehicles--produce higher levels of emissions because of the high levels 
of sulfur in the gasoline they burn.
    A recent study by the State and Territorial Air Pollution Program 
Administrators and the Association of Local Air Pollution Control 
Officials (STAPPA-ALAPCO) found that reducing gasoline sulfur levels to 
40 parts per million, the California standard, would bring an air 
quality benefit equivalent to removing nearly 54 million vehicles from 
our national fleet. New York City alone would have a benefit equal to 
removing 3 million vehicles from its streets.
    As I mentioned earlier, I am proud of what we accomplished in 
enacting the Clean Air Act Amendments of 1990. The SO<INF>2</INF> 
Allowance Program established by that legislation has achieved 
extraordinary benefits at program compliance costs less than half of 
initial projections. The efficacy of the approach is proven. The 
current science indicates, however, that we did not go far enough in 
1990 in setting our emissions reduction targets. The bills I have 
introduced, S. 1097 and S. 2377, endeavor to buildupon our 
accomplishments thus far, and to begin the work which remains to be 
done.
                                 ______
                                 
               Acid Precipitation and Scientific Fallout
                  (By Senator Daniel Patrick Moynihan)
    In the 1960's, fishermen in the Adirondacks began to complain about 
more than the big ones that got away. Fish, once abundant, were not 
just getting harder to catch. They were gone.
    At first, pollution seemed an unlikely cause. After all, the lakes 
lie in a park protected by the New York State Constitution from most 
disturbances at the hand of man. Most are all but inaccessible, except 
to fishermen--and the winds that blow in from coal country, Appalachia.
    It didn't take pioneering scientists (including Cornell 
University's Eugene Likens, Carl Schofield , and Charles Driscoll) long 
to establish a strong inferential link between increasing deposition of 
acid sulfates in rainfall, primarily from burning coal, and the absence 
or deformity of fish in lakes with clear water and low pH.
    This was precisely the phenomenon of acid rain first observed by 
Robert Angus Smith in Manchester, England, in 1852. More recently, acid 
rain had been of concern in Scandinavia. Acids lofted into the 
atmosphere from tall smokestacks in the industrial basin of the Ruhr 
River were falling on watersheds that were, in many places, little more 
than bare rock. Closer to the source, acid rain was blamed for 
Waldsterben, the death of Germany's prized Black Forest.
Imagery and Science
    Acid rain. Now there is a powerful image. By 1982, popular 
magazines, including Time, Sports Illustrated, and National Geographic, 
warned that acid rain was the most serious environmental threat of the 
decade. One year later, major Senate bills to reduce sulfur dioxide 
emissions to the atmosphere were being debated in the 97th Congress. 
Acid rain was blamed for everything from poisoning cisterns to the 
death of trees on mountain tops.
    In Senate hearings as early as 1976 it was clear that acid rain was 
a prime suspect. But neither the extent of the damage nor a 
quantitative, causal link between controlling emissions of sulfur 
dioxide and the resulting environmental benefits had been established 
with any confidence. And so the question arose, what would happen to 
fish or forests if we reduced emissions of sulfur dioxide by half? Or 
ninety percent? Or not at all? If we thought that a powerful image was 
all we needed, we were wrong. Science is more complicated.
    In June 1980, Congress passed the Energy Security Act, Public Law 
96-264. Title VII consisted of a bill I introduced in 1979, the Acid 
Precipitation Act of 1980. It created the National Acid Precipitation 
Assessment Program (NAPAP)--an interagency research program to develop 
the scientific basis for a Federal policy regarding acid rain.
    A decade later, in Hilton Head, South Carolina, scientists 
worldwide gathered to discuss the results. What they learned is that, 
in many areas of the Northeast, what was going to happen had happened. 
We could glean from the technical ``state-of-science'' reports that at 
least 800 lakes and 2,200 streams in the eastern United States had been 
made acidic by acid rain; at least 200, about 10 percent more, would 
become acidic over the next decade without additional legislation.
    And, as had been expected, small sulfur-dioxide particles in the 
atmosphere caused a haze that reduced visibility in the eastern United 
States. Sulfur dioxide had contributed to forest ``decline'' in some 
high elevation forests, and corrosion of stone and metal structures had 
accelerated, but we know less about these problems, at least 
quantitatively.
    NAPAP also made projections, based on scientific principles coded 
into computer models, about what would happen if we did one thing or 
another about sulfur dioxide controls. One of the options studied was 
similar to what was proposed in Senate bill S. 1630, the Clean Air Act 
Amendments of 1990. Figure I was prepared from NAPAP data by Larry 
Cupitt, an Environmental Protection Agency Congressional Fellow 
detailed to my staff during debate on the bill. It shows the projected 
emissions of sulfur dioxide with no new legislation, compared to the 
10-million ton reduction in emissions specified in S. 1630.
    Without enactment of any Federal law to control acid rain, 
replacement of old, inefficient generating facilities with new, 
efficient ones would reduce sulfur-dioxide emissions to approximately 
the same level as under S. 1630 by 2030. S. 1630 would reduce the 
projected 890 million tons of sulfur-dioxide emissions from 1990 to 
2030 by only 240 million tons.
    When all was said and done, we enacted acid rain controls to reduce 
sulfur-dioxide emissions by 10 million tons below 1985 levels. This is 
expected to have some beneficial effects. Additional acidification of 
lakes and streams will largely cease, and many of the acidified waters 
will recover. It will be a noticeable, but not overwhelming, effect.
    Visibility will increase, and acidification of soil and 
deterioration of materials will be reduced, all by an unknown amount. 
The legislation may reduce the incidence of respiratory disease, but we 
are less sure about that. In any case, we estimated that such benefits 
would cost between $2.7 and $4 billion per year. Paul Portney of 
Resources for the Future suggested later that the number might prove 
closer to $5 billion.
    These were our results. But a CBS 60 Minutes program in December 
1990 concluded that, after spending $570 million on NAPAP, the program 
was all but ignored in the debate over the Clean Air Act Amendments of 
1990. Articles in The Washington Post and The New York Times echoed 
this assessment, as did Science. And, sad to say, so did some of my 
Senate colleagues who supported the original bill. I hope to moderate, 
if not to dispel, this perception.
What NAPAP Found
    NAPAP discovered much that was new about the phenomenon of acid 
rain. More than 1,700 research papers describing the results of NAPAP-
funded research were published in technical journals by October 1989. 
This is a good indicator of new findings. Authors must compete for 
limited space in these publications. Poor science and shopworn 
discoveries are usually rejected. But were the new findings relevant? 
An Oversight Review Board, led by Milton Russell of The University of 
Tennessee and Oak Ridge National Laboratory, concluded that NAPAP's 
scientific findings will be of ``extraordinary value'' to the United 
States and other countries making decisions about acid deposition. Did 
NAPAP really contribute nothing to the debate? Consider this quote from 
a letter submitted as testimony to the Senate Environment and Public 
Works Committee in June 1981, by a group of eminent environmental 
scientists:

  Scientific information is necessary but not sufficient to determine 
    policy. Environmental policymakers receive information on the 
    extent of known and anticipated damages caused by certain 
    practices, together with information on possible remedies. They 
    then decide whether to alleviate some or all of the damages by 
    comparing the societal consequences of changing the practices 
    responsible for them.
    Policy makers who are convinced that the identified damage to 
lakes, streams, materials, and visibility are unacceptable will 
advocate a policy to reduce them. Policy makers who believe the 
identified damages are too small to justify action may require 
additional evidence or greater certainty regarding causes and remedies, 
however.

    I would say that NAPAP provided just such ``additional evidence'' 
and ``greater certainty,'' at least with respect to the problems noted 
by fishermen. NAPAP research told us how many acid lakes and streams we 
had. It told us how many more would become acidic if we did nothing. It 
told us how many would recover if we did something. The rest, as the 
scientists pointed out, was up to policymakers. Russell and his 
colleagues on the Oversight Review Board subsequently summed it up:

  [NAPAP] demonstrated that the Nation does not confront an acid 
    deposition problem of a size or of an urgency that puts substantial 
    resources at major near-term risk or that threaten human health, at 
    least in a major way. In doing so, NAPAP established the scientific 
    range of policy decisions that our society could take with 
    substantial confidence, while denying such support to other 
    decisions at either extreme of action or inaction.

    The NAPAP results appeared to justify our hesitancy to undertake 
draconian measures to reduce sulfur-dioxide emissions in the early 
1980's.
    During 1989, the Bush administration became determined to see a 
bill enacted that would reduce sulfur-dioxide emissions 10 million tons 
per year below 1980 levels. The question has been posed whether this 
decision was informed by NAPAP research. In fact, much of the critical 
NAPAP data on surface waters were presented to EPA Administrator Lee 
Thomas in briefings during the summer of 1987. The most important data 
from the National Surface Water Survey, the NAPAP project that 
estimated the number of acidic lakes and streams, were published in 
scientific journals in 1988 and 1989. Given this, what is the basis for 
the arguments that NAPAP was money wasted?
    I believe that this perception arises from several problems. These 
can, and in my opinion should, be rectified as NAPAP continues. First, 
scientific findings were not assimilated into a form suitable for use 
by Congress and the public. This inadequacy of interpretation and 
communication was duly noted by the NAPAP Oversight Review Board. The 
board observed that scientists are not always eager to take time away 
from their research to explain complex, quantitative issues to a non-
technical, and perhaps hostile, audience. They must be persuaded, and 
assisted, to do so in the future.
    More important, the effort to disseminate NAPAP's findings became 
mired in a quest to arrive at a consensus on the meaning of the data. 
Such a quest can be complicated by differing norms for reaching 
consensus in the two types of science identified by political scientist 
Mark Rushefsky. In ``normal science,'' results are incrementally added 
to a ``paradigm,'' a widely accepted framework for interpreting new 
data. But in the newer practice of ``regulatory science,'' research is 
brought to bear, wholesale, to answer a specified (often complex) 
question as well as possible within a limited time. Jay Messer, a 
former environmental engineering professor on my staff in the 102d 
Congress, thinks that consensus on what constitutes acceptability of 
new results in normal science may be easier to reach simply because 
regulatory science sometimes hasn't sufficient time to generate its own 
paradigm.
    If true, then in regulatory science dissenting views, biases 
acknowledged, are valuable. In NAPAP, scientists from agencies with 
biases (I might say appropriate ones about producing energy or 
protecting the environment) spent months, years, trying to reach 
consensus on how best to interpret their results. At best, there was 
the high opportunity cost of delaying any scientific input to the 
debate. Worse, good scientists not persuaded to the majority view 
became alienated. They withdrew. The resulting consensus often was a 
lowest common denominator. We learn in elementary school mathematics 
that simplification comes at a cost.
NAPAP Redux
    Four things can be done to improve NAPAP as it enters its second 
decade. They are offered in order of increasing difficulty.
    First, we should recognize dissenting and concurring opinions in 
regulatory science. The value of a multi-agency assessment group is 
that the viewpoints of agencies with different interests can shed 
different lights on the same facts. Provided the supporting analyses 
and underlying data stand up to the level of technical scrutiny 
expected of publication in scientific journals, these differences are 
too valuable to be disregarded.
    Second, we should devote particular attention to developing 
communication skills needed to inform decisionmakers. This is not 
eliminating jargon and complicated equations. Scientists must be able 
to enter into a colloquy with decisionmakers that defines the 
scientific questions to be answered. Both must establish the timeframe 
in which the answers will be needed and how the answers might be used 
to make decisions. Results of research in progress, reported in a 
format readily accessible to nonscientists, can be of use in signaling 
mid-course corrections.
    Third, Congress should involve scientists more directly in the 
decisions we make. During the months of debate on the Clean Air Act 
Amendments of 1990, we heard from industry, government agencies, and 
environmental organizations--everyone but the professional scientists 
carrying out $570 million worth of acid rain research. For the most 
part, professional congressional staff, which includes some of the 
brightest graduates of the nation's best universities, could not access 
this information directly.
    Staff members work tirelessly on behalf of environmental 
legislation. But their education in matters of science is seldom 
sufficient to critically evaluate research in progress. We might do 
well to integrate a larger number of scientists with research 
experience into the staff of the Environment and Public Works Committee 
of the U.S. Senate. I have remarked that it would be easier for a 
diabolist to enter a nunnery, but I hope I exaggerate.
    Fourth, and perhaps most important, we must correct the virtual 
disregard of economics in NAPAP. How do we calculate the value of 
increased visibility in the Smoky Mountains? What is it worth? We 
cannot yet say it is worth 50 cents, but the minute you ask yourself 
the question you already know more about the subject. Try to put a 
number on anything, and you have learned about it.
    I offered amendments to S. 1690 that I hope will henceforth 
characterize the environmental program of the Federal Government. 
Environmentalism is nothing if not an ethic of responsibility, and our 
first responsibility is to the facts--facts about costs and facts about 
benefits. It is not knowledge that we should fear but the lack of 
knowledge.
    This is not a new concept in government. The analytical foundations 
of cost/benefit analysis as a discrete discipline date back to an 1844 
article by J. Dupuit entitled ? On the Measurement of the Utility of 
Public Works. ? These methods were applied systematically to dams and 
reservoir projects following passage of the Flood Control Act of 1936, 
but their application to matters of environmental protection is a 
relatively new endeavor. We have some experience in quantifying costs 
but little in quantifying benefits.
    These are complex things. Acid-rain controls will mean there are 
going to be coal miners who lose their jobs. This will occur at a point 
in life when getting another job, finding another occupation, is 
difficult. We also will create jobs--people who make scrubbers and 
commodity traders who deal in emissions allowances. More fishermen may 
return to some of the Adirondack lakes, and more tourists to the Blue 
Ridge Parkway to enjoy the view. We must not be frightened of the 
complexity, but we must be sure that there will be long-term 
measurements. We must know what happened.
    We have always known a lot about this country, and we know how to 
learn more. One of the greatest problems facing countries that 
practiced central economic planning is that they now have no data. They 
(and we) believed that they were succeeding because they listened to 
their leaders instead of listening to the facts. We were largely able 
to avoid this problem because data were available from the Bureau of 
the Census, the Bureau of Labor Statistics, and the Department of 
Commerce. But before NAPAP, we had precious little data on what it 
means to change the atmosphere.
    NAPAP has given us 10 years of data. Ten years from now, we will 
have 20 years of data, and 30 years from now we will have 40 years of 
data, and we will know something about what happens when we intervene 
in the natural environment. We will know some of the costs and some of 
the benefits.
    There were days when dark plumes of smoke coming out of factory 
chimneys were signs of prosperity. There was nothing Jim Farley liked 
to do better in the 1930's than to put up a new Post Office and hire an 
artist to paint on its walls prosperity returning. Black columns of 
smoke reaching up to the sky--strong colors for what we hoped would be 
a strong economy.
    Times change, but NAPAP is an opportunity to go someplace that we 
are not now. A place where we will know what we have done and, 
possibly, to adjust to the consequences of what we have learned.
    Thank you very much, Senator D'Amato.
    We will now ask our second panel of witnesses to come to 
the table. Our second panel consists of Mr. Brian McLean, 
Director, Acid Rain Division, Office of Air Radiation in the 
Environmental Protection Agency; Mr. Edward ``Skip'' Kropp, 
Deputy Director, Office of Air Quality, West Virginia 
Department of Environmental Protection; Mr. Bernard Melewski, 
Counsel and Legislative Director, the Adirondack Council; and 
Mr. William F. Tyndall, Vice President, Environmental Services, 
Cinergy Corporation.
    With that, I will ask Mr. McLean to begin his testimony. 
And I would like at this time to ask if Senator Sessions would 
be good enough to chair the meeting for a few moments. 
Simultaneous to this, I have another committee meeting where we 
have Secretary Bill Cohen down there. I'm due to ask some 
questions, and I'll be right back as soon as he gives his 
answers, which I'm sure will be adequate.
    Senator Sessions [assuming the Chair]. Thank you.
    I know you'll ask some tough ones over there, Mr. Chairman. 
I know you're deeply concerned about the state of our Nation's 
defense.
    Our panel today, and I'll run through this and then give 
you an opportunity to give your remarks in this order. Mr. 
Brian McLean, Director of Acid Rain Division, Office of 
Environmental Protection Agency; Mr. Skip Kropp, who's the 
Deputy Director of West Virginia Department of Environmental 
Protection; Mr. Melewski, Adirondack Council; and Mr. Tyndall.
    Mr. McLean, we'd be delighted to hear from you.

 STATEMENT OF BRIAN J. MC LEAN, DIRECTOR, ACID RAIN DIVISION, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. McLean. Thank you, Mr. Chairman.
    I'm very pleased to be here today to have the opportunity 
to testify on S. 1097, the Acid Deposition Control Act. I will 
focus on the impacts of acid deposition and its precursor 
emissions, the progress of current efforts to reduce these 
emissions, and our reactions to the bill.
    In 1980, driven in particular by Senator Moynihan's 
interest in acid rain, Congress passed the Acid Precipitation 
Act, which established the National Acid Precipitation 
Assessment Program to study the causes and effects of acid rain 
and other pollutants. NAPAP concluded that acid deposition and 
its precursor emissions, sulfur dioxide and nitrogen oxides, 
acidify lakes and streams, impact high elevation forests, 
damage materials, impair visibility and impact human health.
    NAPAP also documented the long-range transport of 
pollution, making apparent the need for a broad, regional 
approach to address this broad, regional problem.
    The wealth of information developed under NAPAP provided 
the underpinning for Title IV of the Clean Air Act amendments 
of 1990. In creating Title IV and establishing the Acid Rain 
program, Congress moved environmental protection in a new 
direction, away from traditional command and control 
regulation. First, Congress focused on reducing the emissions 
that cause acid rain, rather than relying on regionally 
variable deposition standards and State by State implementation 
plans.
    Second, Congress translated its 10 million ton 
SO<INF>2</INF> reduction goal into a nationwide cap on 
emissions and allowed the industry 20 years to achieve that 
goal. Third, Congress provided EPA with a new tool to achieve 
the reduction, an innovative, market-based allowance trading 
system. The cap and trade approach allowed industry 
unprecedented flexibility in how to achieve the needed emission 
reductions. In return for this flexibility, sources were to 
provide a full accounting of their emissions through continuous 
monitoring and reporting, and would be subject to severe 
consequences if they failed to hold enough allowances to cover 
their emissions.
    The objective here was for sources to find the most cost-
effective means for limiting emissions and to be responsible 
then for achieving those reductions. In 1995, the first year of 
compliance under the acid rain program, SO<INF>2</INF> 
emissions declined dramatically, by over 3 million tons that 1 
year.
    Over the first 3 years of the program, emissions from phase 
one units have been 30 percent below their allowable levels, 
and sulfate deposition has been reduced by as much as 25 
percent. Further emissions reductions will be required 
beginning in the year 2000 to achieve the full 10 million ton 
reduction goal.
    Cost savings have exceeded expectations. In 1990, EPA 
projected the cost of full compliance with trading of $4 
billion per year. In 1994, the General Accounting Office 
projected the cost to be less than $2 billion per year. And the 
most recent estimate published this year is approximately $1 
billion per year.
    Senator Sessions. Can I interrupt you? Is that based on 
estimates, or what you estimate the actual cost to have been 
that year?
    Mr. McLean. No, this is projected to be the full cost by 
the year 2010, when the full reduction is in place. So it's the 
maximum annualized cost.
    Control of nitrogen oxides from coal-fired utility boilers 
under the acid rain program began in 1996. Emissions from phase 
one utility units declined by 35 percent. By the year 2000, NOx 
from utility boilers will be reduced by a total of 2 million 
tons per year.
    However, without further reduction in rates, NOx emissions 
would be expected to begin rising. Because there is no cap on 
emissions for NOx.
    Most of what we currently know about acid rain impacts was 
published in NAPAP's assessment report, released in August this 
year. I'll mention a few points here from that report.
    Sulfur deposition has declined, and so have sulfate 
concentrations in some surface waters. Surface water nitrate 
levels, however, have not changed significantly, which is 
consistent with the lack of change in nitrate deposition.
    Lakes in New England have begun to show some recovery. But 
Adirondack lakes in New York have exhibited either no trend or 
further acidification. Other sensitive watersheds in the 
southeastern U.S., such as Virginia trout streams, appear to be 
so saturated with sulfur that they may get worse before there 
are signs of recovery.
    Through improved modeling, we have confirmed that the 
number of acidic lakes would be increasing substantially if it 
were not for the emission reductions that are taking place 
under the 1990 amendments. But we also have projected that 
additional reductions in both sulfur dioxide and nitrogen 
oxides may be necessary to fully protect the most sensitive 
systems.
    We also have a better understanding now of the broader 
effects associated with nitrogen deposition on coastal waters. 
We believe that reducing NOx year-round would increase 
protection of coastal ecosystems along our east and Gulf coast. 
We believe that reducing SO<INF>2</INF> and NOx year-round 
would reduce the number of acidic lakes and streams in various 
sensitive regions of the country.
    We also believe that reducing ambient sulfates and nitrates 
year-round would reduce risks to human health and improve 
visibility throughout the United States.
    Let me turn now to S. 1097. In general, S. 1097 builds on 
those elements of the Clear Air Act that are working well. The 
bill relies on the successful market-based mechanism introduced 
in the 1990 amendments, and applies it to both NOx and 
SO<INF>2</INF>. The bill reduces and caps emissions of NOx. The 
NOx emissions cap in the recent SIP Call is broadened under 
this bill to cover the entire year in the 48 contiguous States, 
making the bill consistent with our latest understandings 
coming from ecological research.
    The bill further reduces SO<INF>2</INF> emissions in a way 
that tries to minimize the disruption to the existing acid rain 
program.
    While the direction of the bill is generally consistent 
with EPA's views, the timing of some of the provisions may need 
to be further considered. For example, the timing of the 
SO<INF>2</INF> cap reductions should be examined for its 
potential impact on the allowance market that has now been 
created. We should also consider these reductions in the 
context of the fine particle standard review that we're going 
through, as well as our efforts to reduce regional haze.
    I would like to conclude by noting that the electric power 
industry and EPA continue to discuss current and upcoming air 
pollution control decisions and how they might best be 
coordinated to achieve the multiple environmental goals at the 
lowest possible cost. EPA recognizes the appropriateness of 
engaging in long-term integrated planning and the need to 
explore the use of market-based approaches, such as that 
demonstrated under the acid rain program, which the regulated 
community generally regards as working well.
    We understand that this subcommittee is planning to hold 
hearings in the next Congress regarding the Clean Air Act 
reauthorization. And we believe bills such as S. 1097, which 
address regional, multi-State air pollution issues in ways that 
could improve and strengthen the Act ought to be considered in 
those discussions.
    Thank you for the opportunity to appear, and I'd be glad to 
answer questions.
    Senator Sessions. Thank you very much.
    Mr. Kropp?

   STATEMENT OF EDWARD KROPP, ASSISTANT CHIEF, WEST VIRGINIA 
                     OFFICE OF AIR QUALITY

    Mr. Kropp. Good morning. My name is Edward Kropp and I'm an 
Assistant Chief of the West Virginia Office of Air Quality. I 
appreciate the opportunity to appear before you this morning.
    One of the important aspects of S. 1097, the Acid 
Deposition Control Act, is the continued effort to regulate 
emissions of nitrogen oxides, which has already been the 
subject of regulation in the 1990 Clear Air Act amendments, and 
in addition, is an ozone precursor.
    West Virginia is concerned about the imposition of 
additional stringent controls on nitrogen oxide emissions from 
sources in West Virginia which appear to be based on politics 
and rhetoric rather than environmental science. Indeed, on 
September 24, 1998, EPA announced a final rule which would 
require 22 States and the District of Columbia to drastically 
reduce emissions of nitrogen oxide in an effort to mitigate the 
long-range transport of ozone into the northeast.
    West Virginia believes that neither the EPA NOx reduction 
rule, known as the Ozone Transport Assessment Group, or OTAG, 
SIP Call, nor any additional nitrogen oxide controls which 
might be imposed under S. 1097, can be economically justified 
when compared to the relatively insignificant environmental 
benefits which might result.
    EPA sponsored OTAG, which was a stakeholder process, taking 
place between approximately May 1995 and June 1997. The OTAG 
process included scientific modeling to test a hypothesis that 
long-range, on the order of 600 or so miles, transport of ozone 
was occurring from the midwest and southeast to the northeast, 
exacerbating non-attainment of the 1-hour ozone standard in the 
northeast.
    A key conclusion of the OTAG process was that emission 
reductions yield the greatest benefit locally, and that 
benefits decrease as distance from the controlled source 
increases. Further, OTAG concluded that regional nitrogen oxide 
reductions produce regional ozone reduction benefits.
    Finally, OTAG modeling data indicates that literally 
shutting down all man-made sources of nitrogen oxide sources in 
the midwest will not result in the northeast attaining the old 
1-hour ozone standard.
    In November 1997, EPA proposed its OTAG SIP Call to reduce 
nitrogen oxide and requested comments on the proposed rule. 
West Virginia and 12 other States, all subject to the SIP Call, 
time and again submitted comments to EPA without ever receiving 
a formal response to our comments.
    Moreover, West Virginia and five other States jointly 
submitted an alternative to the proposed EPA rule on June 25, 
1998. The alternative proposal focused on attaining the new 8-
hour standard, rather than mitigating transport, to solve the 
northeast attainment problems with the old 1-hour standard. 
Seven other States submitted alternate proposals which focused 
on attainment of the new standard as well.
    Regrettably, EPA has continued to ignore the efforts of all 
13 States to collaborate with EPA to attain the 8-hour 
standard, instead focusing on EPA's effort to reduce nitrogen 
oxide emissions primarily from midwest and southeast power 
plants.
    In addition to proposing power plant nitrogen emission 
reductions of 85 percent and overall State nitrogen oxide 
emission reductions of as much as 51 percent from 1990 levels 
in the case of West Virginia, EPA counts the new nitrogen oxide 
reduction rule as being flexible, because it allows sources in 
the midwest and southeast to trade emissions between sources in 
order to distribute the emission reduction burden.
    West Virginia believes that such flexibility must be tied 
to air quality science. And in the case of the EPA rules, 
submits that EPA has once again ignored science in order to 
level economic playing fields. That is, controlling midwest 
nitrogen oxide power plants to raise the cost of electricity to 
levels more nearly equal to those in the northeast.
    West Virginia has on numerous occasions attempted to 
provide EPA with input regarding the nitrogen oxide rule. And 
our position remains both unchanged and scientifically 
supported. West Virginia believes that power plant nitrogen 
oxide reductions of 65 percent from 1990 levels will result in 
attainment of the new 8-hour standard in most, if not all, of 
West Virginia.
    In addition, power plant reductions in excess of 65 percent 
may be necessary to ameliorate any ozone transport from West 
Virginia occurring in the 150 to 200 mile range which OTAG 
concluded was likely to occur. The EPA OTAG SIP Call will 
result in the expenditure in West Virginia alone of 
approximately $1 billion in excess of the cost of 65 percent 
reductions, while providing virtually no discernible 
concomitant benefit in the northeast.
    West Virginia urges that EPA be required to reconsider its 
ill-conceived, one-size-fits-all OTAG SIP Call to reduce 
nitrogen oxide emissions and that any further midwest and 
southeast power plant nitrogen emission reductions which might 
be required as a result of S. 1097 be deleted from the Act.
    Thank you for your attention.
    Senator Sessions. Thank you, Mr. Kropp.
    First, let me say I'm glad to be joined by the Chairman of 
our full Committee, Senator Chafee. If you have any remarks 
you'd like to make at this time, we'd be glad to hear them.
    Senator Chafee. Thank you very much, Senator Sessions. I 
wanted to come by the meeting of the subcommittee and hear 
these witnesses. This is important, and I appreciate your 
conducting the hearing, and I look forward to hearing the 
balance of the witnesses. Thank you very much.
    Senator Sessions. Thank you.
    All right, Mr. Melewski.

    STATEMENT OF BERNARD MELEWSKI, COUNSEL AND LEGISLATIVE 
                  DIRECTOR, ADIRONDACK COUNCIL

    Mr. Melewski. Thank you, Senator.
    I want to thank you for the opportunity to be here. My name 
is Bernard Melewski. I'm the Counsel and Legislative Director 
for the Adirondack Council, which is a not-for-profit 
organization located in New York State, that focuses on 
enhancing and protecting New York's Adirondack Park, which is a 
6 million acre park, which is the largest in the lower 48 
States, approximately 6 million acres.
    We've had a long involvement in the acid rain issue. We 
were instrumental in New York State's acid deposition act in 
1984, the first in the Nation. And the inclusion of an 
innovative trading proposal in that law which was later adopted 
in 1990 by Congress. We are very much involved in the Clean Air 
Act amendments as well.
    Shortly after the Clean Air Act amendments were put into 
place, we were interested to see an EPA administrator announce 
simultaneous with the release of the regulations implementing 
the law that the regulations now put an end to acid rain in the 
Adirondacks. Certainly that was the intent of Congress, but we 
believe that Congress wisely commissioned two reports in later 
years to take an assessment of the Act and how it was 
performing.
    Those reports are now both in. The first came in 1996 from 
EPA, and it reported that the benefits, the environmental 
benefits from the Clean Air Act amendments perhaps were not 
going to be as substantial as envisioned. And to the stunning 
of many New Yorkers, also revealed for the first time that much 
of the lakes of the Adirondack Park may be lost, and that a 
substantial portion of our streams will be chronically 
acidified in the next 30 years.
    Just this past summer, NAPAP reported with a more 
comprehensive study, and I think the significant thing about 
the NAPAP report is not just that it confirmed EPA's earlier 
findings, but that it illustrated that it's not just an 
Adirondack problem. NAPAP's report extensively documents in 
peer-reviewed scientific review that the highlands of the 
United States, whether it's New England, the central 
Appalachians, the Smoky Mountains, the Rocky Mountains, the 
mountains of California, are all suffering similar problems 
from acid rain. They also document that the estuaries, the 
coastal estuaries, whether it be the bays of Rhode Island, of 
Long Island Sound, Chesapeake Bay, of Tampa Bay, are all too 
suffering from airborne deposition of nitrogen.
    Other studies have also been released but were not peer 
reviewed yet by NAPAP. Environment Canada called for extensive 
new reductions, both in their country and in here to address 
Canada's problem. Trout Unlimited this summer released a study 
of Virginia's trout streams which indicates without further 
cuts in sulfur in particular, we may see a loss of 35 percent 
of the trout streams of Virginia, which they extrapolated in 
the southern Appalachians to thousands of miles of trout 
streams throughout the east coast.
    And our publication, which I hope to provide to the 
committee, on acid rain, also documents this phenomenon around 
the country and the basic findings in the NAPAP report.
    I think both reports come to two conclusions. One is that 
the mechanism that Congress put in place, the cap and trade 
program, is working extremely well. The second conclusion of 
both reports, I feel, is that the goals of Congress to protect 
sensitive environmental areas, have not yet been met.
    That's why we very much favor S. 1097, the Acid Deposition 
Control Act. Because I think it does three things, in short. 
One, it capitalizes on the success of the sulfur program by 
creating a third phase to achieve an additional 50 percent cut 
from sulfur. Second, it creates a parallel NOx program 
capitalizing on the market mechanism that clearly is working 
very well.
    And I do want to mention that we have preferred the 
proposal, the NOx program, in this bill to the trading and SIP 
Call proposal from EPA for some time. Because we feel that this 
proposal is year-round, it addresses a national problem, it 
addresses problems other than the immediate problems that OTAG 
was focusing on. And we believe that it also has some 
advantages of having statutory authority. There is a report out 
of the Congressional Budget Office that basically came to some 
similar conclusions. I'm sure you have access to that.
    Third, the bill provides a continuation of the research 
monitoring that has led us to the scientific certainty that we 
have now that we need to address the problem. I think it's 
quite clear that Congress wisely set up a reporting mechanism. 
Those reports are now in. We have now some scientific certainty 
as to what's going on out there, and the time is now for a mid-
course correction. We urge you to support this bill.
    Thank you.
    Senator Sessions. Thank you very much.
    Mr. Tyndall.

STATEMENT OF WILLIAM F. TYNDALL, VICE PRESIDENT, ENVIRONMENTAL 
                  SERVICE, CINERGY CORPORATION

    Mr. Tyndall. Thank you, Mr. Chairman.
    My name is William Tyndall, and I'm a vice President of 
Environmental Services for Cinergy Corporation. I should add 
that up until about 7 weeks ago, I was a counsel on the House 
side for Mr. Dingell and was working on these issues. I'm not 
sure which I enjoy more. They seem a lot harder from this side.
    Senator Sessions. I can vouch for that, Mr. Tyndall.
    Mr. Tyndall. As one of the first utilities to endorse an 
acid rain title as part of the 1990 Clean Air Act amendments, 
Cinergy retains a keen interest in any further consideration of 
legislation on this subject. To summarize our views, we are 
committed to addressing the environmental consequences of 
emissions from our power plants. But we believe it's premature 
to adopt any new acid rain legislation, certainly acid rain 
legislation standing alone, until the existing acid rain 
provisions of the Clean Air Act are fully implemented, and more 
importantly, until EPA's recent initiatives on NOx transport, 
the new national ambient air quality standards and regional 
haze, are understood if not implemented.
    Senator Sessions, when I was listening to you, I jotted 
down the things that I sit here in my new job trying to manage. 
They include a new 8-hour standard, a new PM<INF>2.5</INF> 
standard, a new NOx SIP Call, possible mercury controls, 
possible CO<INF>2</INF> controls, and acid rain. I would say, 
although EPA talks about the need to coordinate these things, 
at this moment in time, each of these regulatory initiatives is 
proceeding singly on different time scales, different 
timeframes and we are madly trying to figure out if and how you 
comply and what the best strategy is, as we also move forward 
into a deregulated environment.
    Senator Sessions. Just based on your experience with the 
House and this initiative, have you ever seen this many new 
regulatory initiatives coming on the scene at one time?
    Mr. Tyndall. No, but in self-interest, I should say 
probably it is what got me hired.
    [Laughter.]
    Senator Sessions. You've become an important person, I've 
no doubt.
    Mr. Tyndall. Cinergy Corporation and its subsidiaries own 
and operate fossil-fired and hydroelectric generating 
facilities in Indiana, Kentucky and Ohio. Cinergy is one of the 
Nation's largest coal-burning utilities. We are confident that 
coal will continue to be an important fuel source for 
electrical generation in the future.
    Because of this, Cinergy accepts its obligation to assure 
that all of its use of this fuel meets current environmental 
standards as well as future environmental standards.
    EPA has already talked to the committee about how much 
progress has been made under the existing both Clean Air Act 
and specifically the Acid Rain program. This is not to say that 
everything is done. But as the committee considers S. 1097, it 
is necessary to bear in mind not only the environmental 
progress we have made, but what additional reductions we can 
expect in the future. Under the Acid Rain program phase two, 
there are an estimated 4.6 million tons of sulfur dioxide 
emissions and an additional 1.6 million tons of nitrogen oxide 
emissions that will be removed from the air.
    Second, EPA has adopted in the last few years, as I've 
stated, a number of new emission initiatives that will lead to 
emission reductions by utilities and nearly every other 
business. For instance, EPA has recently finalized its NOx SIP 
Call rule for 22 eastern States and the District of Columbia. 
Under the rule, utility nitrogen oxide emissions will fall by 
over 1 million tons. The estimated capital cost to utilities in 
the 22 State region is over $14 billion.
    Cinergy estimates its capital costs to comply with this 
rule alone are approximately $500 million to $600 million, 
which by the way based on the figures from EPA is more than the 
entire States of New York and New Jersey will spend to comply 
with a SIP Call. I'm sorry Senator D'Amato isn't here to hear 
that.
    Beyond the NOx SIP Call, last year EPA tightened the 
national ambient air quality standard for ozone, created a new 
national ambient air standard for fine particles and proposed 
new regional haze regulations. In doing so, it set in motion a 
myriad of State and local planning activities that will result 
in further reductions in air pollutants beyond those called for 
by the Clean Air Act amendments of 1990. Of course, further 
reductions of these pollutants will directly affect acid 
deposition.
    I should also point out that as a result of Senator 
Inhofe's amendment to the Transportation Bill enacted last 
spring, Congress has established implementation milestones for 
the new ozone and fine particle standard. For the new PM 
standard, the Inhofe amendment extended the implementation 
schedule to allow States to site, install and operate a new 
monitoring network. Senator Inhofe's amendment received the 
support of EPA, the States, and Members of Congress from both 
sides of the aisle, because of the universal recognition that 
States could not design effective fine particle implementation 
programs without the data from the new monitoring network.
    In conference, the House and Senate agreed to tie the 
timing of the regional haze program to the timing of the fine 
particle standard implementation. In doing so, Congress 
recognized that the compounds blamed for regional haze, such as 
SO<INF>2</INF>, are also the precursors to fine particles, thus 
moving ahead on regional haze would defeat the point of the 
Inhofe amendment, to allow States to build their implementation 
strategies, using the data generated by the new monitoring 
program.
    I bring all this up, because the committee should apply the 
same logic to S. 1097 as it considers this measure. Since the 
pollutants at issue are the same, any new acid rain program 
should be coordinated with the implementation of the new 
particle standard.
    In conclusion, as a result of the Clean Air Act, we've made 
tremendous progress in reducing emissions of pollutants 
associated with acid rain. We can expect further progress 
through implementation of the rest of the acid rain program. 
Whether these reductions standing alone will eliminate 
acidification of the Nation's lakes and streams may be in 
dispute.
    But it is no longer the relevant question. EPA has set in 
motion many new programs that will result in further reductions 
in the relevant pollutants. This committee should not act on 
this bill or any similar legislation until we have a full 
understanding of the reductions that these initiatives will 
trigger.
    More importantly, any legislation on this topic must be 
coordinated with the Inhofe amendment to ensure that further 
reductions are based on sound science and coordinated with 
implementation of the new air quality standards.
    Before I conclude, I would also like to agree completely 
with the statements made by West Virginia, in that 13 States 
put proposals before EPA, including the three States that we 
operate, that Cinergy operates in. There was never a formal 
response, there was never any attempt to see whether the 
differences between Senator Chafee's State and other States 
could be bridged, without getting into a situation where we may 
have States suing directly to set this aside, we may have 
States fighting EPA over what is going to be in their SIPs.
    And we may very well end up with a lot of regional 
skirmishing instead of reaching some agreement that 
accommodates both sides, so we can move forward.
    I think there are solutions that could have satisfied both 
sides. They probably deal more with the timing than the 
stringency. But we never got a chance to explore those, and I 
think that's a lost opportunity.
    I'll conclude with that. Thank you very much.
    Senator Sessions. Thank you very much, Mr. Tyndall.
    We're glad to be joined by Senator Wayne Allard. Senator 
Allard, do you have any comments?
    Senator Allard. Not right now. I wanted to listen to the 
testimony here. I'm not particularly excited about looking at a 
reallocation that might impact my State on this issue. Because 
we do have coal-generated electricity in the State, although 
it's clean coal. And I want to approach this particular piece 
of legislation very cautiously, so I understand how this might 
impact the State of Colorado.
    Senator Sessions. Mr. Chairman, I'd be glad to recognize 
you for any questions you may have.
    Chairman Chafee. Well, aren't you nice, Senator.
    Why don't you go ahead. I came in on the latter part, and I 
will have some questions. But you go ahead, and I'll pick up 
when you're through.
    Senator Sessions. Mr. Kropp and Mr. Tyndall have both said, 
Mr. McLean, that they went to some considerable effort, being 
representatives of their States, to submit some proposals to 
EPA. And they were not, in their opinion, adequately responded 
to or respected, and no dialog ensued.
    To me, I think EPA at a minimum ought to engage very 
seriously these departments of environmental management or 
private sector experts, and really attempt to confront and 
grapple with the science of this problem. Do you think that's a 
valid criticism and would you comment on that?
    Mr. McLean. I think the suggestion is a good one. And I 
think over the last 3 years, EPA has tried several times to 
engage the industry in a dialog on particularly integrating 
various regulatory requirements that we saw approaching.
    In 1995, we met with the utility industry and States and 
other interests and said, would it be helpful if we tried to 
sit down and evaluate all the different requirements that we 
saw coming up over the next several years, revisions to the 
NAAQS, mercury requirements, regional haze requirements, even 
climate requirements. And said, would it be good if we tried to 
evaluate these and come up with a more comprehensive approach 
that would lay out a strategy for 10 to 15 years, so that we 
wouldn't have this layer upon layer of requirement that was 
referred to earlier.
    We got general support from the industry that we should 
approach this. And a few months later, we held our first 
meeting. And we were attacked by the same people who had said 
we should approach this issue.
    Senator Sessions. Attacked in terms of, they disagreed with 
your proposals? Or attacked for having the hearing?
    Mr. McLean. Well, attacked about the process. They said 
this is an extra regulatory process. We told them this is what 
we would do, and then they turned around and disagreed with the 
approach.
    Senator Sessions. Well, do you see anything wrong with 
fundamentally an informal meeting as you develop or receive 
information from a multitude of sources, when you've got 12 or 
13 States who wish to share that with you, just to sit down and 
enter into dialog with them?
    Mr. McLean. Well, we did. In fact, Cinergy came to us 
earlier this year, relative to the SIP Call, and had some 
suggestions about a way that we might find a middle ground 
approach. And we did sit down and talk to them about that 
approach. And shortly thereafter, they formed a larger group 
and they backed away from the proposal and put forth a proposal 
that did little beyond the current Act.
    So we interpreted that as a moving away from a position 
where we might find common ground.
    Senator Sessions. Well, let me ask Mr. Tyndall. How would 
you respond to that?
    Mr. Tyndall. I think it would also be appropriate to ask 
West Virginia. But Cinergy worked very hard in the last year to 
put together a coalition of utilities and try and put something 
constructive on the table. Eventually an alternative was put 
forward by 13 States of the 22 States that were subject to the 
SIP call. And it basically was a two-step approach. One was an 
emissions reduction of 65 percent, and EPA ended up with 
approximately 85 percent. But that was a first step.
    And the second step was further reductions as necessary to 
meet the new 8-hour standard, which isn't supposed to be 
implemented until 2005, although in appearances before the 
committee I staffed, EPA regularly talked about a 2010 or 2012 
implementation date when they were on the selling side of the 
new air quality standard.
    But they went with an 85 percent due in 2003, both because 
of the----
    Senator Sessions. An 85 percent reduction?
    Mr. Tyndall. Due by 2003, because in their view it's 
necessary for both the 1-hour and the 8-hour, that the 8-hour, 
if you're not supposed to be in compliance with the 8-hour 
standard in 2005, it makes little sense to us why you would 
structure the decision that way.
    So it was a two-step reduction generally supported by 13 
States and if you look through EPA's 1,600 pages that they put 
out the week before last, you will not find a direct discussion 
of that. So even in the formal rulemaking, I must say, I can't 
guarantee in the whole 1,600 pages, I looked pretty carefully, 
I couldn't find it, other people have looked pretty carefully, 
they couldn't find it.
    Instead, what you find is some references to commentors. 
The States were reduced to being commentors. And they were 
treated no differently than anybody else in the public. 
Essentially what there is, is a brief discussion of the 
modeling that shows that the lower reductions may be just as 
effective as the higher reductions and especially when there's 
a guarantee that there would be a second step to see if more 
reductions are necessary.
    Then EPA said, well, we're not going to deal with that 
modeling. Instead, we'll do our own, which they put out at the 
same time as the new rule without any input from anybody.
    I had to deal with the press a lot on the date this rule 
came out. What I said time and time again is, there's a lost 
opportunity here. We have a regional war going on. We could 
have tried to come up with something that resolved it. EPA 
essentially stoked the fires.
    Senator Sessions. Mr. Kropp, how would you comment on that?
    Mr. Kropp. On March 9, which was the comment date for the 
November 1997 EPA SIP Call rule, the State of West Virginia and 
nine other States submitted a letter to EPA Administrator 
Browner and President Clinton. And in that letter, we committed 
to having an alternative proposal done by August 1, 1998 to the 
OTAG SIP Call.
    EPA's response was to open the comment period not to August 
1, but to June 25. So we redoubled our efforts, and we had a 
meeting in May in North Carolina with representatives----
    Senator Sessions. You mean they'd already set the August 1 
date, or is that a date you requested?
    Mr. Kropp. That was the date we requested. And then the 
publication came out on, saying that the close of the comment 
period was June 25.
    In early May 1998, ten of us, different State 
representatives, met with EPA in North Carolina. During that 
meeting, we raised the issue of our perception problem. The 
perception was that we had all submitted comments by the March 
9 deadline, and none of us had gotten any response to any of 
our comments. And yet, EPA had proposed supplemental rules 
after receiving our comments. In the supplemental rules, they 
did not incorporate the bulk of our comments.
    We did submit, six States wound up being in the Southeast-
Midwest Governors Ozone Coalition. We submitted the alternative 
proposal by the end of the comment date on June 25. And I, like 
Mr. Tyndall, confess that I have not read word for word the 
1,600 pages of rules. But I do not find, nor has West Virginia, 
nor to my knowledge any other State, received any kind of a 
formal response even acknowledging the existence of the 
Governors Ozone Coalition.
    And I believe, as well, that it's a lost opportunity. The 
Governors Ozone Coalition proposal supported a two phase 
reduction which would begin with 65 percent reduction for 
utilities by the year 2004, followed by whatever it took. And 
if that was 85 percent, fine, if it was 95 percent, fine. But 
we believe that the science still needs to be defined in order 
to decide what emission reductions will be necessary to attain 
the 8-hour standard.
    Senator Sessions. Thank you very much.
    Mr. Chairman?
    Senator Inhofe [resuming the Chair]. Thank you, Senator 
Sessions.
    Again, I apologize, we have two committee meetings 
simultaneous right now. One's an Armed Services Committee, so I 
was going back and forth. But I'm here for the duration now.
    Mr. Tyndall, it's nice to have you here in your new 
position. People say there's no such thing as bipartisanship, 
and yet your old boss and I worked together for 12 years. You 
performed great services for him and then for us. And I 
appreciate that very much.
    In the event that questions have already been asked, I 
would like to ask one question, then go on to the Chairman. Mr. 
Kropp, you took part in the midwestern Governors conference 
this summer, I believe, didn't you?
    Mr. Kropp. Which conference?
    Senator Inhofe. In the midwestern Governors counterproposal 
that they came up with to the EPA's recommendation on their SIP 
Call?
    Mr. Kropp. Yes.
    Senator Inhofe. And in that, I believe you stated in your 
testimony that shutting down all man-made sources of NOx 
emissions in the midwest will not result in the northeast 
attaining the old 1-hour ozone standard. Is that accurate?
    Mr. Kropp. That's correct, and that's based on OTAG 
modeling, not modeling that our Governors coalition did.
    Senator Inhofe. All right. Mr. Melewski, he has pointed out 
that even if the midwest eliminates all emissions, the 
northeast will still not comply with the ozone standard. Mr. 
Tyndall points out that only 29 percent of NOx emissions come 
from utilities, while 49 percent come from the transportation 
sector.
    It would seem to me that the northeast is trying to blame 
everybody else for their problems. Would you respond to that 
statement in terms of the transportation, the NOx emissions 
coming from utilities, while the 49 percent come from the 
transportation sector?
    Mr. Melewski. Senator, I'm sorry you missed our testimony.
    Senator Inhofe. If you answered in your testimony, then 
don't respond any more. That's fine. I'll get it from the 
record. I do apologize.
    Mr. Melewski. Well, the short answer, sir, is that the two 
reports to Congress which Congress commissioned in 1990 support 
our contention that a cap and trade program on NOx is both 
desirable and very effective to address not only the acid rain 
problem, but also the ozone problem.
    Senator Inhofe. All right, sir, thank you very much.
    The Chairman.
    Chairman Chafee. Thank you very much, Mr. Chairman.
    I didn't hear all the testimony, but I heard some of it. 
Mr. Kropp, we've got a problem here from the northeast point of 
view. And I can understand the approach that you have here. As 
the Chairman mentioned, you indicated that if you just shut 
down everything, all coal burning out in your section, it would 
have relatively insignificant environmental benefits.
    What is the answer? Is it the mobile sources that the 
Chairman was mentioning?
    Mr. Kropp. Senator, my understanding from the OTAG modeling 
data was that the previously thought hypothesis of long-range 
transport on the order of 600 miles or so has been proven 
wrong, and that in fact, in the case of West Virginia, we 
believe that our emissions absolutely are impacting Western 
Pennsylvania, and we intend to do something about that. But we 
believe that local solutions are the answer on the order of 150 
to 200 miles from those local problems.
    Chairman Chafee. Well, let's take New England as an entity, 
since it's geographically not that large. I'll give you a bit 
of incidental information. Did you know Maine is as big as the 
rest of New England put together?
    Mr. Kropp. I did not know that.
    Chairman Chafee. Well, chalk that up as a bit of trivia.
    [Laughter.]
    Chairman Chafee. But taking New England as a whole, you're 
saying the solution is local. In other words, our problem as 
you see it is generated by our own power plants?
    Mr. Kropp. I think it's an oversimplification to say that 
the problem is power plants only. In the case of ozone, there 
are two precursors, nitrogen oxide emissions and organic 
compounds. There is a vast inventory of both, more than enough 
being emitted all over the northeastern part of the United 
States to go around.
    We believe, for example, in West Virginia, that we had some 
ozone non-attainment areas with the old 1-hour standard. In our 
case, we implemented very, very severe and stringent VOC 
reduction requirements and our ozone levels dropped. We are now 
in attainment with the old 1-hour standard.
    We haven't had to designate yet and won't be required until 
June or July 1999 to designate non-attainment areas under the 
new 8-hour standard.
    Chairman Chafee. Mr. Tyndall, I want to welcome you here. 
It was interesting what you said on page 6, and I wonder if Mr. 
McLean would agree with this. You say the SO<INF>2</INF> 
emissions are currently the lowest in the United States in the 
past 50 years. Mr. Tyndall, do you stand by that?
    Mr. Tyndall. It's in my written testimony? I completely 
stand by it.
    [Laughter.]
    Chairman Chafee. I'd ask you to review page 6 of your 
testimony.
    [Laughter.]
    Mr. Tyndall. Senator Chafee, I do recall that. And I do 
stand by it.
    Chairman Chafee. Start on the second paragraph, 
SO<INF>2</INF> emissions in the United States are the lowest in 
50 years as a result of these existing programs.
    Now, I might say, your not being absolutely conversant with 
every part of your testimony is not grounds for chastisement. I 
think most of us have that similar experience.
    Mr. Tyndall. I was actually responding more, in the House 
we swear everybody in, at least in the Oversight Investigations 
Committee. So when you're asked a question like that, you have 
to make very sure it really was in your testimony.
    But I certainly stand by the statement that's in there.
    Chairman Chafee. So you feel since you weren't sworn here, 
you can be a little more casual?
    [Laughter.]
    Mr. Tyndall. I would refer to my earlier statement.
    Chairman Chafee. Mr. Melewski, what do you say? You've 
spent a lot of time studying this, and representing the 
incredible park that you do, and the council that deals with 
the park. I think it is always interesting to us to realize the 
size of that park. It is, as you point out, twice the size of 
Yellowstone.
    Mr. Melewski. Yes. You could put Yellowstone and Yosemite 
combined inside the Adirondack Park.
    Chairman Chafee. Well, that's incredible. And indeed, 
protected by the constitution of the State of New York.
    Mr. Melewski. Yes. Actually, that has been unique to the 
world, that the State constitution, since 1895, makes all 
public lands inside the park, which is both public and private, 
forever wild, it's in Article 14 of our constitution.
    Chairman Chafee. Now, you heard the testimony of Mr. Kropp 
and others here, that you've got a particular problem, and 
we're aware of your problem, having Senator Moynihan serving in 
this committee for so many years. I think he's served in this 
committee ever since he came here.
    But you heard the others say that if they shut down ever 
SO<INF>2</INF> emission in West Virginia, it wouldn't make a 
bit of difference in the east, minimal. What do you say to 
that?
    Mr. Melewski. Well, I would refer you to the two reports 
that Congress commissioned. I think they take exception to that 
conclusion. I also take exception to the notion that we----
    Chairman Chafee. I guess I said SO<INF>2</INF>. I guess 
it's the NOx emissions. Go ahead.
    Mr. Melewski. I also take exception to the notion that 
further delay is warranted. While I did not elaborate in my 
oral testimony, my full testimony indicates that the reports to 
Congress did not come here without some considerable struggle 
and the threat of litigation. And they were much delayed.
    The delayed reports now indicate that we have a very small 
timeframe in which to literally save the Adirondack Park and to 
make any kind of substantial progress on cleaning up our 
coastal estuaries. Perhaps there will be other impacts across 
the east coast.
    Our observation is that the scientific evidence is fairly 
well conclusive that further cuts are necessary, and that the 
sources to New York State, for example, are dramatically 
outside the State, especially with regard to sulfate, which is 
in excess of 90 percent of the total loading in the States, 
comes from outside our borders.
    Chairman Chafee. Do you think it may well be that problems 
that are manifesting themselves now are just as a result of 
years and years of accumulation and you passed over the 
threshold where now the dangers and the damage coming from the 
accumulations that have been there and caused there year after 
year after year, so even though circumstances haven't changed, 
and if you go along with Mr. Tyndall's sworn testimony that the 
emissions have been reduced, nonetheless, any emissions now put 
you over the border? Do you think that's the case?
    Mr. Melewski. Well, Senator, you must have read the NAPAP 
report as well. That's exactly their conclusion, that we are at 
a saturation point, not only in the Adirondacks, but also in 
the southern pine forests of the United States, and even in the 
highlands of Colorado. That is the most dramatic aspect of the 
NAPAP report, that we are near saturation. Certainly we're past 
saturation in the Adirondacks, but we're near saturation 
throughout a good portion of the east coast and highland areas 
in California and Colorado as well.
    So I agree with you completely that we need to dramatically 
drop loading, just to get back, as Senator D'Amato has 
mentioned, to a 1984 level in the Adirondacks, basically.
    Chairman Chafee. Well, thank you. Thank you, Mr. Chairman.
    This is a knotty problem. This is a problem that is of 
great concern to the section of the country I come from, and I 
appreciate the effort you went to to put together this panel, 
and thank all the members of the panel for taking the trouble 
to be with us.
    Senator Inhofe. Thank you, Senator Chafee.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. I want to followup 
on my further comment. I apologize for missing your earlier 
testimony, but it couldn't be avoided.
    In the legislation, we have taken and we're allocating the 
NOx from 22 States over to all 48, the lower? Is that what 
we're doing? Mr. McLean, would you explain how that would 
impact the other 26 States that we have out there? Has there 
been some study to make an evaluation on those other 26 States?
    Mr. McLean. We haven't done an analysis of this particular 
bill. But what the bill does is it expands geographically and 
throughout the year the NOx reduction that would be done in the 
east for the SIP Call. What it results in the 23 jurisdictions 
of the SIP Call is about the same reduction that the SIP Call 
called for. But it calls for a slightly lower reduction in the 
winter and a reduction throughout the 48 States.
    Senator Allard. With that, though, there is this allocation 
of shares based on NOx emissions, is that right, from the 
plants, which is actually under the allowance program? So then 
you bring in more States into the allowance program, is that 
correct?
    Mr. McLean. Right.
    Senator Allard. And so when you do that, what does that do 
to the other, what happens to the dynamics of all this, when 
you bring in all these 26 States, or 25 or whatever we're 
talking about?
    Mr. McLean. Well, the first thing that we consider when 
someone makes a proposal for trading, we look at the geographic 
area of the trading, the level of control. And we evaluate it 
through economic models as to what is likely to happen in terms 
of shifting of emissions. Our first concern is environmentally, 
is it going to produce a shift in emissions that would be 
detrimental. Or is it going to result in minimal shifts in 
emissions, and actually just obtain the economic benefits of 
having the trading.
    And when we looked at Title IV, when that was being 
proposed for sulfur, and when we looked at the SIP Call, where 
we looked at a 23 State jurisdiction, we did that kind of 
examination to assure ourselves that the result would not be 
any major shift in emissions away from areas where we thought 
the control would be most important.
    We would want to do the same thing with this bill to see 
that if we enlarged the geographic area and enlarged throughout 
the year, made the reductions throughout the year, that in fact 
the reductions would be what would be desirable. I think the 
goal of the bill was to get slightly more reductions in the 
summer time, where we have an ozone problem, as well as to get 
some reductions in the winter time to deal with the acid rain 
issue and eutrophication issues.
    Senator Allard. See, I'm particularly concerned, because I 
come from a higher altitude State. We have a little different 
dynamics, because we tend to have less complete combustion. And 
so I would like to see some information as to how it's going to 
have an impact on these 26 other States. Do you plan on doing 
some work on that?
    Mr. McLean. Well, we got a request from Senator Moynihan's 
office to look at the bill, and we will try to do that. We've 
been a little backlogged this year, but we're going to try to 
get to that analysis.
    Senator Allard. Yes. I don't know if there's any plan to 
push this thing through in the last minute of this session. If 
there is, I'd be concerned about that. But I guess what I would 
like to know is, if you could do that evaluation. Because I'd 
be interested in what is happening in the other 25, 23 States 
through the allowance program in nitrous oxide emissions, if 
it's allocated through that, and see how these other States are 
impacted.
    I realize this is an issue that is faced pretty much in the 
midwest to New England States. But we also, with this bill, it 
also brings in another 25 to 26 States. And in our focusing on 
those States, I hope we don't lose sight of the total picture, 
which I'm trying to accomplish here. So if you could get us a 
report on that, I would appreciate it.
    Mr. McLean. OK.
    Senator Allard. Maybe the committee would like to have that 
report, Mr. Chairman, in which case we could have him send it 
to the committee, too.
    Senator Inhofe. That would be a good idea. I think we can 
respond to your question about something being passed through 
in this last week. It would be most unlikely. It's not going to 
happen.
    [Laughter.]
    Senator Inhofe. In my opening testimony, which I didn't get 
the whole part out, I talked about the layering of regulation 
after regulation of the PM of ozone, regional haze, the SIP 
Call and all the rest. What I didn't read in my statement, but 
it's in my written statement, is that next year I will be 
asking the General Accounting Office to examine the cumulative 
impacts of all these regulatory programs on the economy.
    Now, Mr. Tyndall, I would like to ask you, has your company 
done any work in this direction to see what is the cumulative 
effect of all these regulations?
    Mr. Tyndall. Well, I guess the answer is yes and no. We 
have done in EEI, Edison Electric Institute, has done some work 
in looking at the cumulative impact. I don't think anybody has 
completed an analysis so that we know what each of these things 
are going to do.
    The timing is, because of your efforts, the timing of 
regional haze and the fine particulate standard are now joined 
together. But there still is the question of the 8-hour ozone 
standard. There is also mercury, CO<INF>2</INF>, acid rain, and 
how they fit together, they are each independently set up under 
the Act to the extent there's legal authority for what EPA is 
doing. And that's part of the problem when EPA brings everybody 
into a room and says, well, let's work voluntarily on trying to 
rationalize all these. There are several different statutory 
deadlines involved that EPA can't move unilaterally.
    So it becomes very difficult to try and put them all 
together. It's very important, and probably the most important 
thing from our point of view, that Congress should look at as 
it considers reauthorization.
    Unfortunately, we're making business decisions today about 
implementing all of these, and trying to make guesses. The 
reality is that the legislative cycle is going to be well 
behind our business decisions.
    Senator Inhofe. Well, while we do have some things locked 
in, so that it's easier to analyze the costs of particulate 
matter, ozone, regional haze, and I hate to say it, but I think 
your guess is probably as good or better than our guess would 
be on the rest of these things. But any information you have, 
if you would share with GAO to help them come up with 
something.
    I think it's very significant. I think certainly those of 
us on this committee who are here today and the majority of the 
committee are going to be more concerned about cost benefit 
analyses and things that we have not been as concerned as we 
should have been before.
    Mr. McLean, in your testimony you seemed to suggest that in 
some areas it may get worse before it gets better, but it 
ultimately is going to get better, if I read that correctly. 
Are we on the road to recovery for acid rain? And is the 
current program working?
    Mr. McLean. Well, what I tried to characterize there, it is 
complex. There are areas where we're clearly seeing benefits as 
a result of the 1990 amendments and the reductions that are 
occurring. And we expect to see some continued benefits from 
that.
    At the same time, over the last 8 years, we have continued 
to evaluate the situation using our latest understanding of the 
science and the models and bring them to bear on this issue, 
and find that with the full implementation of the Act, there 
will probably still be some areas where we are not achieving 
the full goals that we set out to achieve. And I do think that 
one of them clearly is in the Adirondacks, which is one that 
we've pointed out in reports that we've done and NAPAP has 
done. And it looks like throughout the mid-Atlantic region 
there will be some areas that do not fully recover with the 
current program.
    Senator Inhofe. You heard in the first panel, when we 
talked to the representatives who were here, representing the 
State of New York, that they came out with their 
recommendations, and with this bill, prior to the changes that 
the EPA had come out with. Do you agree with their response 
that we need to go ahead with these restrictions or these 
regulations? Or with the bill, as opposed to going with the new 
rules that they're proposing?
    Mr. McLean. Well, what we did want to talk about is perhaps 
more next year, when you get into the reauthorization hearings, 
is to talk about these issues and how they can be better 
integrated into the Act.
    Senator Inhofe. But for right now, you think the new rules 
that you have put out there would be adequate?
    Mr. McLean. I think the new rules we've put out will be 
adequate for the summer ozone problem in the east, reducing the 
transport of summer ozone in the east. They do not address the 
winter acid deposition.
    Senator Inhofe. That Senator D'Amato talked about. Any 
other comments about that?
    Mr. Tyndall. On the question of, EPA's NOx SIP Call is a 
summer requirement. But when you look at what power plants will 
do to comply with that, some of the things they will do, fuel 
switching, new burner technology, are things that you basically 
will do year-round. So it's not clear that because it's a 
seasonal standard that it will only be implemented on a 
seasonal basis by power plants.
    Senator Inhofe. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Mr. Kropp, you raised the 150-200 mile range in which you 
really get some impact from containing NOx emissions or 
SO<INF>2</INF> emissions, how strongly do you feel about it? 
How big a disagreement do we have here? Is this a close 
question? Our people from New York say no doubt that, I suppose 
those in Alabama, are causing their acid rain. Are they 
correct? And what can we say with certainty about that?
    Mr. Kropp. Senator, I'm not sure that we can say anything 
with certainty. However, the OTAG process came out with a 
number of significant conclusions and recommendations.
    Senator Sessions. This is a process that included EPA and 
environmental groups?
    Mr. Kropp. Yes. It was a stakeholder process. And my 
understanding was it was funded for the most part by EPA. And 
that process used computer models to predict the impact of 
various control scenarios. And if one accepts the validity of 
those computer models, then I think what the results were, and 
what the OTAG process concluded, was that the extremely long-
range transport hypothesized simply is not occurring to any 
great extent.
    The results that we've looked at indicate that the 
imposition of the, for example, the OTAG Sip Call on sources in 
the midwest, may result in an ozone improvement on an episode 
day in the north to northeast of something----
    Senator Sessions. An ozone improvement?
    Mr. Kropp. An ozone improvement, yes, on the order of a few 
parts per billion. There are some scientists who say that on a 
120 part per billion standard, which the old standard was, 
models can't even detect that, it's within the noise. So you 
have to accept the premise that those models work.
    If you do, it seems to say that controlling only power 
plants in the midwest is not going to accomplish the attainment 
of the old standard in the northeast.
    Senator Sessions. Now, that's what Senator Byrd said. I was 
in the chair and heard his speech. He said it will have an 
infinitesimal and virtually no benefit. His challenge is, 
should we have these heavy burdens if they're not going to 
produce any benefits.
    Mr. McLean, I believe you'd like to comment on that.
    Mr. McLean. Yes. I think to try to understand this issue, 
people try to draw boundaries, 150, 200, 600. It's like saying 
you have an impact up to that point, and then the next mile, 
you have no impact.
    These are a gradually reducing impacts over distance. You 
have a dispersion of pollutants, you have a reaction of 
pollutants. You have changing wind directions.
    So when people, depending on your point of view, you can 
either try to bring that line in and say it has a short impact, 
or you're going to try to stretch that line out and say it has 
a long impact. The fact is, it's a gradually declining impact.
    But we have thousands of sources and dozens of States that 
are impacting dozens of non-attainment areas throughout the 
eastern United States. So, you don't look at one power plant, 
look at one non-attainment area and say, does this have a 
significant impact.
    Senator Sessions. What about these models, though? Don't 
they take that into account?
    Mr. McLean. The models take all of that into account. And 
it's very difficult to characterize the result of a model with 
a single sentence, you know, it's 150 miles. What the model 
shows you is the picture of all the sources over time having 
impacts on all the non-attainment areas, and giving you a sense 
of the degree of impact it has on all the different areas.
    I think it was interesting this morning that we heard 
Senator D'Amato say that if I shut down all the industry in New 
York, it wouldn't solve my problem. Yet West Virginia is 
saying, if we shut down all the industry in West Virginia, it 
wouldn't solve New York's problem.
    Well, the truth is, we don't want to shut down anyone's 
industry. What we want to do is control industries in a cost-
effective way, to bring about a reduction and a solution to 
these problems. We believe we're going to need to reduce 
emissions in both New York and West Virginia if we're going to 
be solving this issue. You can't cordon off one State from 
another.
    Senator Sessions. Has there been any research on worldwide 
transport of these pollutants, for example, we know what kind 
of problem there is in China if you're there. To what extent 
are some of our problems coming from international sources, 
where we happen to have much less stringent pollution laws? 
Anybody want to comment on that?
    Mr. Melewski. I can comment that, in the late 1980's and 
1990, the Clean Air Act amendments were adopted in 
consideration of bilateral agreements with Canada, who also 
engaged in a program to reduce their emissions substantially. 
Because they were having an impact on New England and western 
New York in particular.
    They have followed through on that program, and that's one 
reason why we find it so significant now that Environment 
Canada is calling on their government to pursue a renewal of 
the bilateral agreement with much lower targets.
    So yes, there is cross boundary pollution issues with 
regard to acid rain in Canada and the United States.
    Senator Sessions. Mr. Melewski, with regard to the 
northeast, are you familiar with the December 1996 Scientific 
American article and/or the study that went behind it, dealing 
with the question that with regard to dust particles and other 
particulate matter, that they are in fact natural antacids, 
much as an antacid helps your stomach? And they note that in 
addition to the lowering of acidity, precipitation, atmospheric 
base casseins also neutralize acid rain, once they reach the 
ground.
    And they go on and have some charts in this article that 
say, parallel decreases, parallel decreases in acidic sulfur 
pollutions and the base casseins that neutralize them cancel 
out much of the expected benefits from reducing pollutants. And 
they cite a Swedish study and a northeast United States study. 
And they go on to note that other studies have shown that 
levels of the base casein calcium have decreased in the trees 
of a New Hampshire forest over the past several decades. Such 
decreases in essential nutrients weakens the forest further.
    The authors say, when we began this work, we certainly did 
not anticipate that reduction in one form of pollution, dust 
particles, would be found to decrease the success of reductions 
of another pollutant, sulfur dioxide. Are you familiar with 
that? I guess that's one reason we've got on parallel track, PM 
ozone, OTAG, haze, NOx, sulfur dioxide, all these things going. 
And is anybody thinking about how it's going to come out in the 
end?
    Mr. Melewski. I am familiar, not with the article, but with 
the issue. It is a fascinating dynamic. It's explored much more 
extensively again in the NAPAP report, which was delivered in 
August to Congress. But it raises, the implications are quite 
profound for our forestry industry. The depletion of mineral 
resources, retarding growth, exposing forests to more insect 
infestation, basically weakening our forest industry from Maine 
to Alabama, I think is a very serious consideration.
    One of the things that NAPAP pointed out is that 
approximately 59 percent of the southern pine area is now to a 
saturation level which this type of leachate of basic minerals 
may affect long-term viability of the forests. So it's a much 
bigger dynamic than the particulates being removed and 
affecting the total chemistry. But the impacts for us are quite 
severe. It appears to us that the most predictable and viable 
resolution is simply to minimize the total loading of sulfur 
and nitrogen, which is what the bill seeks to accomplish.
    Senator Sessions. Well, that's what the article pointed 
out, we have been doing those things and we haven't received 
some of the benefits we expected to receive from it because of 
the countervailing scientific events.
    Mr. Chairman, I thank you.
    Senator Inhofe. Senator Sessions, do you have more 
questions to ask? First of all, let me apologize for having to 
go back and forth, but I'm in the Senate Armed Services 
Committee and I've got to go on down there. We will be keeping 
the record open when we adjourn this meeting for 7 days. There 
will be questions that will be submitted, because we have a lot 
of staff people here who will be submitting for their members.
    So we'll hopefully be looking forward to your responding to 
those questions. And I appreciate your attendance here very 
much.
    But let me, if you don't mind, go ahead and go back to the 
Armed Services Committee meeting, and you go ahead and complete 
the Chair in this meeting.
    Senator Sessions. Very good.
    Senator Inhofe. Thank you, Senator Sessions.
    Senator Sessions [assuming the Chair]. Mr. Melewski, 
installation of the expensive SO<INF>2</INF> NOx and mercury 
control technologies could lead utilities to decide to continue 
the use of coal indefinitely. In addition, SO<INF>2</INF> 
scrubbers, which would be required to achieve a 50 percent 
reduction in SO<INF>2</INF> actually increase CO<INF>2</INF> 
emissions.
    What implications do these facts have on the current 
concerns about CO<INF>2</INF> that we've been dealing with?
    Mr. Melewski. Well, I can't speak directly to the 
CO<INF>2</INF> issue, I have no expertise in that area. I can 
say that the benefits of the bill's structure is that they take 
advantage of the marketing mechanism that has now been 
demonstrated to be quite effective. There is maximum 
flexibility for the utilities to come in compliance. There's 
maximum opportunity to use pollution allowances in an openly 
traded market mechanism.
    And the expense can be mitigated through sound business 
planning. That's the basis for the trading mechanism. I think 
it's been very successful so far. The costs are much lower than 
what was projected. And the impact on every utility and its own 
business decisions, whether to fuel switch or to add scrubbers 
or to discontinue the unit I think are going to be very dynamic 
and this is a perfect mechanism. They are going to be 
especially dynamic as States deregulate their utility industry, 
as New York is doing.
    Senator Sessions. Anyone else?
    Mr. Tyndall. I would add that to provide an advantage to 
business planning, you have some certainty. When there are 
seven things coming at you, you have no certainty. To the 
extent this bill were to schedule every one of these things, 
setting aside what the stringency levels would be, that may 
begin to give you some certainty. But since this is the bite 
for acid rain, and there are five more major things coming at 
you, you don't have the certainty.
    Senator Sessions. Well, Mr. Tyndall, you've been on both 
sides of the table now.
    Mr. Tyndall. Seven weeks on this side of the table.
    Senator Sessions. Well, is it possible to have a more 
comprehensive bill and a more comprehensive set of regulations 
that could give more predictability and certainty to business 
as they go about investing?
    Mr. Tyndall. It's theoretically possible for Congress to 
resolve a number of these issues. The dynamic that has 
developed that I saw when I worked with the staff here on these 
issues and that members who have worked on this have run into 
is that EPA has been pretty much taking positions on one side 
of the spectrum. And States that are benefited by that don't 
see any reason to even begin to move legislation, because it 
will only diminish where they are right now.
    So we haven't gotten to a situation where there are 
compromises.
    But any one of these issues and certainly, you add to the 
political troubles when you add the issues. But any one of 
these issues is a candidate to be resolved here versus 
administrative action, since the administrative action in most 
cases is tenuous at best in terms of its relationship to the 
Clean Air Act. And hasn't been done in a manner that gets you a 
compromise so that we're not all sitting here, with Senator 
D'Amato calling Ohio airborne terrorists and us telling him to 
put some controls on the taxi drivers and leave the voters of 
Ohio alone.
    That's not going to be a productive way to go.
    Mr. McLean. Senator, with all due respect to Mr. Tyndall, 
dynamics change. And I think that the atmosphere while he was 
staffing and the atmosphere now, there are several dynamics 
that have occurred in that 7 weeks. One of them is that the 
NAPAP report has been delivered. The second is that EPA has 
proposed its own ozone regulations.
    I think he's being a little disingenuous that the acid rain 
legislation that is before us for discussion today will not 
have a positive impact and a predictable impact in coming into 
compliance with many of the other regulatory efforts that EPA 
has deservedly advanced. So I think that quite the contrary, 
the perspective that the legislature is a mire and won't be 
able to resolve these problems I think is shortsighted. I think 
that Congress, by taking another look at this particular 
program, may open up avenues to resolve some other conflicts.
    Mr. Tyndall. But the question would be, would, if we pass 
this and there were the SO<INF>2</INF> reductions in this bill, 
would that be all utilities or any other business would have to 
do to comply with the fine particulate standard that's coming 4 
years from now or 5 years from now.
    Senator Sessions. What do you think, from the commercial 
side? What are the most difficult challenges? We have 
particulate matter, ozone, regional haze. We've got NOx and 
SO<INF>2</INF> and those kinds of things. What are the ones 
that are most challenging, briefly, you think are going to be 
most difficult to meet or most costly to meet?
    Mr. Tyndall. I think that we view the NOx, the 
SO<INF>2</INF> reductions that may be required as part of the 
fine particle standard, mercury to be all very difficult issues 
that we face. Then the CO<INF>2</INF>, I am told this dwarfs 
the costs associated with the others. I know the basic U.S. 
strategy for complying involves utility sector not making 
reductions, really, but buying 85 percent or some incredibly 
high percentage of our reduction credits from overseas.
    Senator Sessions. I really am very troubled by that.
    Mr. Kropp, do you have any comment on that?
    Mr. Kropp. I guess in terms of the complexity, Senator, 
West Virginia, while not being the smallest State 
geographically, has a population of only about 1.8 million. 
Unfortunately, in our agency, we have about six of us that have 
to worry about ozone and regional haze and PM fine and large 
particulates and the odor complaints and all the other aspects 
that we deal with.
    I believe that it would be much easier for a small agency 
like ours to deal with a comprehensive bill, instead of having 
differently timed deadlines and different regulatory 
initiatives to deal with all in a row. We are stretching our 
resources.
    Senator Sessions. Mr. McLean, are we ``ad hoc''-ing here, 
and if we see a problem we jump on it, and we look back later 
and we've really created a mosaic of rules and regulations that 
could be simplified?
    Mr. McLean. Well, it certainly, going back to what Bill 
said theoretically, you could bring these things together. I 
think you have to look at the Clean Air Act, for instance, just 
on the air quality side, over a 30 year history of raising 
issues, defining issues, asking for action to be taken on 
issues. It's a learning process. We didn't know 30 years ago 
all these issues. We've learned about them as time has gone on.
    There is a feeling that as we define an issue that we 
should take action to address the issue. But I also think it's 
worthwhile taking stock periodically of all the things we have 
on the plate and seeing whether we can't do it in a more 
efficient manner. We have tried to do that. The Act is somewhat 
difficult in places, because it has these specific mandates 
throughout it. We do try to coordinate those mandates as best 
we can.
    And as I said, back a few years ago, we saw these things 
coming, standard changes, mercury, regional haze. Perhaps 
additional acid rain concerns, climate concerns. And we said, 
maybe we can find a way to coordinate these. And we tried.
    But it's very difficult. The industry is not of one mind. 
There isn't one person out there who represents all the 
industry that's affected either. So when you try to sit down, 
you have different interests. And different years, different 
months of that year you're going to get a different reaction.
    It's a very difficult task to try to bring everybody 
together. But one of the options we were not considering was 
delaying everything. We said, we have to reach some compromise. 
Some things we might be able to delay. Some things----
    Senator Sessions. But standards are coming on board every 
year that are tougher than the year before. We didn't pass a 
single law, isn't that correct?
    Mr. McLean. Well, the standards are supposed to be reviewed 
every 5 years, and we haven't changed the ozone standard for 
almost 20 years. So it's not like the agency has been throwing 
new standards at people for ozone.
    Senator Sessions. No, not you, but I mean the standards are 
tougher in a lot of these areas each year.
    Mr. McLean. It goes where the science leads you. As studies 
are done, health studies are done and ecological studies are 
done, we need to take that new information into account. The 
statute says every 5 years review the information and decide 
whether this leads you to change the standard. We didn't change 
the ozone standard for almost 20 years, and we did this time, 
because of the work that's been done over the last 20 years.
    So I think that when you look at all of them, it looks like 
a lot. If you look at one of these at a time, there are long 
gaps between action on an individual issue. It's a very complex 
issue.
    Senator Sessions. Well, I've been here 2 years, and I'm 
seeing a lot of new ones coming up.
    Mr. McLean. These are all, a lot of them are set in the 
1990 amendments as actions to be taken by the agency. Some of 
these have actually been delayed considerably. The ozone SIP 
Call really is a result of a failure to act in 1994. We gave 
the States extra time and evaluated the issue together with 
them over 2 years. The SIP Call is a result of a failure to 
actually solve the problem 4 years ago.
    Senator Sessions. Briefly, I'll ask you this. How do you 
evaluate the progress, some general progress, I understand, in 
acid rain in the forests and lakes of the northeast? How do you 
evaluate that? I see Adirondacks are level, they didn't show 
any progress, basically. But other areas have. How would you 
evaluate that?
    And then second, the legislation that's being proposed 
would cost as we understand it four times what EPA's proposals 
are. Do you feel like your proposals will continue to show 
progress, if your standards are adhered to?
    Mr. McLean. Well, first on the progress. I think we have 
and are making progress and will continue to make some progress 
on acid rain, with reductions in both sulfur and nitrogen.
    Senator Sessions. Based on current standards?
    Mr. McLean. Based on current standards. And I think Mr. 
Melewski would agree with me. I think his concern and our 
concern that we share is that based on the work we've done, we 
can project this probably will not be enough.
    Senator Sessions. How would you say it would not be enough 
if you have a steady improvement?
    Mr. McLean. Because the improvement will end. We know the 
reduction that's being called for, we have achieved over half 
of that reduction in sulfur already. So we can see the effects 
of that. Just as we did in 1990, we modeled the future. I mean, 
in 1990, it was based, the decision to take 10 million tons out 
of the air was based on our best scientific assessment of what 
would happen if we were to take 10 million tons out of the air. 
And it was a scientific judgment and a political judgment about 
what was acceptable.
    We analyzed 8 to 12 million tons and picked 10. It wasn't a 
guarantee that it was going to solve every problem. But it was 
an understanding that it would go a long way toward solving the 
problems. And it will go a long way in several areas. But it 
appears that it won't go far enough in terms of solving all the 
problems we have out there.
    We look at S. 1097 as not a bill that's going to pass this 
week. But we look at it as a constructive proposal to deal in 
the long term with these issues and lay out a long term 
strategy. The reductions called for in that bill--although the 
impositions will be early in some cases because of the trading 
and banking program--full effects won't occur for another 10 to 
15 years. So it's not a precipitous kind of approach, and it is 
something that should be considered when there are 
deliberations on the whole Clean Air Act.
    Senator Sessions. And how do you deal with the argument 
that vehicles and other sources of pollution are significant? 
One thing, as an economist, we know that there's no free lunch, 
that everything has a cost. In economic terms, I consider it 
the absolute equivalent of a tax to require a private industry 
to spend $500 million. It's no different economically than 
taxing that corporation $500 million and having EPA spend $500 
million to reduce pollution.
    So I guess I'm asking, are we making the right assessments 
of cost on our private sector? And with regard to other areas, 
there's not s many voters in utility areas, because the 
ratepayers don't recognize that these costs on utilities get 
passed on to them in rates. They don't feel it like we would if 
we passed a tax in this Congress. They'd know it, they wouldn't 
like it.
    So we by subterfuge a lot of times put this cost on them by 
mandates and say, we didn't raise your taxes. But we've raised 
their cost to live, because they have to have electricity and 
gasoline.
    With regard to that, I think we ought to ask ourselves, 
which is the most cost beneficial to the public, automobiles or 
other areas, or is it utilities? Do you have any comments on 
that?
    Mr. McLean. Yes. I agree with you that whatever we do when 
we impose costs, they affect the economy. Our goal is to try to 
keep those costs to a minimum.
    We do believe that those costs are there, not just like a 
tax, but they are there to provide some benefit.
    Senator Sessions. Well, taxes have benefits, too. We might 
tax $500 million and use it for health care and save more lives 
than on ozone.
    Mr. McLean. Well, the tax itself doesn't, but the use of 
the tax does. So I'm saying that the use of the money, it's 
supposed to be for a benefit. So far the cost benefit analyses 
we've done of the Clean Air Act shows tremendous benefits far 
exceeding the costs.
    As to what people pay, I think it was interesting, we got a 
letter a few months ago from a citizen in Ohio. The State of 
Ohio asks the electric companies to include on their billing 
statements the cost of meeting acid rain requirements, so that 
individual citizens could see the impact of this requirement on 
their electric bill.
    This citizen complained that his bill had gone up from $70 
to $80 a month and this was a tremendous cost, and that the 
cost of the acid rain control was 18 cents of that $10 
increase. I think that it showed that that 18 cents, we 
probably wouldn't disagree with. We think that the cost was 
probably in that range. We don't believe that is a significant 
cost, given that in the State of Ohio, the health benefits 
alone from the SO<INF>2</INF> reduction would be $3 billion a 
year. So there'd be tremendous health benefits from the 
reduction of sulfur in the State of Ohio and surrounding States 
that we think would be worth that cost.
    And that's the kind of thing that we try to weigh.
    Senator Sessions. I think we need to be right up front with 
these costs, and compare that to the benefit. I think that's a 
healthy way to do it.
    But what about the cost of utilities versus automobiles and 
things of that nature?
    Mr. McLean. That's also a concern.
    Senator Sessions. What would get you the best bang for your 
buck in terms of clean air?
    Mr. McLean. Exactly. And some of the direction we get from 
Congress itself and the statute as to which areas to control 
and how far to control them, and in other cases, the decision 
is left up to the agency through the regulatory process to 
determine what seems to be the most cost-effective way to go 
about solving the problem.
    When we look at the NOx issue, for instance, that we've 
been addressing, about a third of the emissions come from 
utilities. About a third of them come from automobiles. About a 
third of them come from heavy duty vehicles and other 
industrial sources. They're spread throughout the economy.
    When it comes to reducing them, we look at what will the 
cost be of taking a ton out of the air from each of these 
different sectors. We look at the automobile sector, where the 
NOx control levels on new cars are over 90 percent now. They've 
been ratcheted down over the past 30 years. The cost is in the 
thousands of dollars per ton.
    We look at some of the small industries and businesses. We 
find that the cost of control for some of the smaller sources 
may be in the thousands of dollars per ton, because the costs 
tend to go up as your size goes down, in terms of cost 
effectiveness.
    When we look at large utility boilers and some large 
industrial boilers, we found in this particular NOx SIP Call 
that the average cost would be about $1,500 a ton. Yet they 
were the lowest cost of all the major sectors that we could 
find to reduce nitrogen oxide.
    Senator Sessions. Does Mr. Tyndall agree with that? That 
sounds like the ball's in your court.
    Mr. Tyndall. No, he was talking about the large, nonutility 
industrial boilers.
    Mr. McLean. And utility boilers.
    Mr. Tyndall. But on this issue in general, another way of 
saying it is that there's no free lunch, there's no low-hanging 
fruit, either.
    Senator Sessions. In other words, the easy progress has 
already been made?
    Mr. Tyndall. Having served with Mr. Dingell, I'm completely 
aware of what the reductions have been from the automobile 
sector, in terms of the tailpipe emission standards. And I'd be 
the last to say that there's not any problem with what they've 
done.
    But you know, you have a third of the emissions, the NOx 
emissions for instance, coming from automobiles and other 
transportation and off-road engines, including things like weed 
whackers and stuff, which have tremendous emissions.
    Senator Sessions. Those things have a lot, weed whackers 
and lawn mowers really do contribute?
    Mr. Tyndall. Yes, they have big emissions. An hour on a 
lawn mower is like 400 miles on a new car.
    Mr. McLean. That shows you the progress that's been made in 
the automotive sector. That wasn't true 30 years ago. The car 
would have been far heavier.
    Mr. Kropp. Senator, may I respond to that?
    Senator Sessions. Yes.
    Mr. Kropp. One of the problems that we see with that kind 
of an analysis, and we've tried to offer EPA comments, is that 
cost per ton removed may or may not be the proper metric. In 
the case of ozone, for example, we have suggested, and the EPA 
rule suggests, that a ton of NOx removed from a source in Ohio 
has the same impact as a ton of NOx removed from a source 50 
miles from a non-attainment area. We don't believe that's the 
case.
    So perhaps the proper metric is, what is the cost per part 
per billion of ozone in the atmosphere reduced. That takes into 
account the transport phenomena, and that is not being taken 
into account in the OTAG SIP Call.
    Mr. Tyndall. To emphasize that, because that is a key 
problem here, you take a source very close to where the 
nonattainment area is, there's complete consensus that those 
reductions are going to impact that area regularly. They aren't 
going to just impact it when the 4-hours of the year when the 
wind is at the absolute worst for transport. They're going to 
impact every day. And those impacts are basically going to be 
one ton removed equals one ton removed from the atmosphere.
    You go to one of our power plants 250 miles away or 
whatever, you know, the transport is either nil or it's one 
one-hundredth, or it's one-tenth, whatever we end up fighting 
about. In other words, the ratepayers are going to remove ten 
tons to get one ton of reduction at the local area concerned 
about after the transport. And again, that's only going to 
happen for the 4 hours, I mean, the OTAG process, this 
multiState process was modeling the four worst 1-hour episodes.
    So you're looking at 4 hours and making these decisions. 
And that ton reduced locally is helping air quality every 
single hour of every single day.
    EPA, when it looked at this issue, it essentially said, 
well, we're going to presume that everybody influences 
somebody, and therefore, we're justified in making these across 
the board. They're pretty far from the statute, and they may 
get into trouble on that in court.
    But the cost effectiveness, which they then throw in your 
face, is really unfair. Because you've got to look at what the 
ratepayers are doing is reducing ten tons for the one ton or 
the one pound, whatever it ends up being, of transport that 
occurs.
    Senator Sessions. Well, American business is incredibly 
sophisticated, and it is prepared, and the reason it remains 
competitive in the world, in my opinion, is because you're able 
to fine tune everything. I think Government's got to get better 
at that.
    Would you respond to that, Mr. McLean, that we ought to, 
that if we want to deal with areas that are not in attainment, 
primarily, it would seem to me to be appropriate that we would 
put more stress on the industries and utilities who are right 
there daily, polluting, rather than those who have only 
incidental impact?
    Mr. McLean. I think to understand the transport SIP Call, 
it was not designed to achieve attainment in each non-
attainment area. We consider ozone to have two major elements 
to it. There's the transported component and there's the local 
component. They tend to merge at certain points.
    But we have been focusing on the local component for 30 
years. We have been asking States and localities to reduce 
emission sources in local areas to attain their standard.
    And when we got to 1994, the comment we got from a lot of 
people was the same comment we got from Senator D'Amato this 
morning: if I shut down all my industry to attain this standard 
in my State, I can't do it. There was a recognition that 
transport was a component of the problem. It wasn't the whole 
problem, but it wasn't a zero part of the problem. It was a 
portion of the problem.
    So we embarked on the whole OTAG process to try to 
understand the significance of that component and then to take 
action to deal with that component. That's what the SIP Call 
does. You can go ahead and----
    Senator Sessions. I understand that, but if you've got a 
plant that blows out over the Atlantic 90 percent of the year, 
and one part of the year it blows in the non-attainment zone, 
you're just not going to get as much health benefit as if you 
deal with the plant that's right there, seems to me.
    Mr. McLean. Right. And the local areas are free and 
encouraged to deal with the plants that they feel have the most 
significant impact on the problem. But those local areas were 
getting transported air pollution. They could not control the 
transported air pollution which came in from different States 
on different days from different directions.
    Now, we don't have the capability to dispatch pollution 
control the way we dispatch electricity. We don't sit there and 
say, on July 7, I'm going to control this plant in northern 
Ohio and on July 8, I'm going to control the plant in southern 
Ohio. We're not that sophisticated to move our dispatch around 
with the wind flows and the weather. So we've adopted an 
approach which reduces overall background because that air 
blows somewhere. And it may blow in a curvilinear path and end 
up in another non-attainment area. So because it didn't hit 
Pittsburgh yesterday doesn't mean that it's not going to hit 
Erie, Pennsylvania or Philadelphia on another day.
    So we look at this more as a comprehensive set of sources, 
collective set of sources that are causing a collective 
problem. And by tracking one individual source, we have not 
solved this problem in 30 years. So we felt that----
    Senator Sessions. We've made remarkable progress.
    Mr. McLean. We've made progress, but we've run up against a 
wall, where we were focusing only on one way of going about 
solving it. And we decided that it was appropriate to bring 
down the background, so that the local areas could take the 
additional steps needed to bring the areas into attainment. So 
this transport SIP Call is bringing down background levels so 
people can have a chance at finishing the job and solving their 
local nonattainment problems.
    Senator Sessions. Well, there we have it, I think, bringing 
down the background. And I hope that we can take time and, as 
the science comes in over the years, determine whether or not 
that's an effective way to make our air more healthy.
    Any of you have any final comments? I'm sure you may have 
something at this point you feel you need to say.
    Mr. Melewski. I actually want to go back to your question 
earlier to Mr. McLean about if we're seeing some progress in 
the reductions from sulfur, why continue to examine the 
problem. I think it also goes to Senator Chafee's question 
about the saturation issue. What we're seeing as a result of 
the 1990 amendments in the Adirondacks, per se, is that the 
time line has been stretched for the loss of our lakes. Instead 
of losing them in 10 years, we're going to lose them in 40 
years. It's still an unacceptable resolution for us.
    Senator Sessions. But I thought the lakes were actually 
getting cleaner or healthier in areas of New England.
    Mr. Melewski. Yes, in many ways it's a dynamic of the 
buffering capacity of lakes and the soils around them. Which 
also goes to Senator Chafee's question about the saturation of 
the soils. If you can illustrate it as a sponge and you're 
applying water at a certain rate, if you slow that rate, you 
may fill up the sponge, but you won't exceed the sponge's 
capacity.
    And in many areas outside of the Adirondacks, we're well 
past that point, in many areas outside the Adirondacks, from 
Maine down the east coast, soils are saturated with acidic 
components. If we continue the rate in which we're going to 
deposit nitrogen and sulfur dioxide, even with the new 
amendments, we will fill up that sponge, if I can use that 
analogy. And you're going to start seeing the same kinds of 
problems, loss of trout fisheries, loss of lakes, severe loss 
of the spruce and other tree species that you're seeing in a 
very dynamic and aggressive way in the Adirondacks now.
    Senator Sessions. Thank you, that's an insight that we 
should consider. Do you have any comment about that sponge 
theory, Mr. Kropp?
    Mr. Kropp. Senator, I don't have a comment about the sponge 
theory. But I guess I would like to respond to one of the 
comments that Mr. McLean made, indicating that the OTAG SIP 
Call occurred because of failures in SIPS in 1994. And I simply 
want to point out that my understanding is that West Virginia 
has never had a SIP Call as a result of ozone. West Virginia 
had ozone non-attainment areas. We dealt with them locally. We 
don't have ozone non-attainment areas any more. We may have 
some under the new standard.
    We put controls on our sources when we had non-attainment 
problems to deal with the 1-hour ozone standard. The failures 
in 1994, my understanding, are the result of many of the 
northeast States to default on absolute requirements under the 
Clean Air Act to have, for example, enhanced inspection and 
maintenance programs for vehicles by 1994. Those States do not 
have those programs today. And the idea that we need the OTAG 
SIP Call to deal with transport, rather than dealing with the 
local problems and the local mandates of the Clean Air Act, is 
something that West Virginia thinks needs to be resolved first.
    Senator Sessions. Well, I think that's some of the issues 
we've been dealing with, and I appreciate your sharing that.
    Seeing there are no further questions, I want to thank all 
of you for your testimony. It's been extraordinarily 
interesting and insightful and beneficial to me. And should 
there be additional questions, I'm sure members of the 
committee may submit those to you in writing.
    No other questions. We are in adjournment.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Text of S. 1097 and statements submitted for the record 
follow:]
Statement of Hon. Jerry Solomon, U.S. Representative from the State of 
                                New York
    Mr. Chairman, I want to thank you for the opportunity to speak 
today. also would like to thank my colleagues, Senator Moynihan and 
Senator D'Amato for their valuable work on an issue that is very 
important to my district as well as much of the northeast and in fact 
the entire country. That issue is the very real and necessary changes 
that need to be made to strengthen the Clean Air Act to continue 
fighting acid rain and air pollution.
    The legislation before the committee today, as introduced in this 
body by my good friends Senator Moynihan and Senator D'Amato, will 
build on the Clean Air Act and the provisions dealing with the 
pollutants most responsible for acid rain. I was pleased to introduce 
this companion legislation in the House and to have the support of many 
in the New York delegation.
    Although we've made tremendous progress in cutting pollution 
through the original clean air act, it hasn't been enough to reduce the 
pollution responsible for acid rain and excessive air contamination we 
suffer from in New York.
    The forests and waterways of the Hudson Valley and the Adirondacks 
have become a dumping ground for this pollution and will be destroyed 
if we don't do something to stop it. In fact, in studies as early as 
1984, 19 percent of the Adirondack lakes were dead and 55 percent were 
highly acidic. This statistic will only get worse in the future. As an 
outdoorsman and lifelong resident of this beautiful region, I'm not 
going to stand by and watch our area and many others like it be 
destroyed.
    This legislation, entitled the Acid Deposition Control Act of 1997, 
focuses on further reductions in the emissions of nitrogen oxide (NOx) 
and sulfur dioxide (SO<INF>2</INF>), the two primary components of acid 
rain. Sulfur dioxide emissions have been declining under the emissions 
cap currently in place, but not fast enough for environmentally 
sensitive areas like the Adirondack mountains, the Hudson River Valley 
as well as much of the eastern seaboard. This bill would cut the amount 
of SO<INF>2</INF> emitted in half in 2003 so dirty power plants won't 
be able to continue business-as-usual and get around pollution 
restrictions.
    But even more important, this proposal finally takes on dangerous 
nitrogen oxide emissions. The Clean Air Act, as it stands, virtually 
ignores nitrogen oxide which in many ways is the most dangerous 
pollutant because of its devastating contribution to acid rain and 
ozone pollution which can cause significant health risks for people 
suffering from respiratory problems, like asthma.
    This bill creates a market-based ``cap and trade. system for NOx 
emissions similar to that already in place under the clean air act of 
1990 that regulates SO<INF>2</INF>. Under such a trading system, states 
are given pollution allowances directly related to the percent of power 
the utilities in their state produce. The state then divides up these 
allowances to each utility in whatever manner they choose.
    The system provides incentives for utilities to produce less' 
pollution than allotted because they can sell extra allowances to other 
utilities. However, if a utility exceeds its emission allowances, even 
after buying additional credits, they will be subject to serious 
financial penalty.
    Another important provision dealing with NOx emissions seeks to cut 
these emissions at the most dangerous point of the year for many 
elderly and children afflicted with respiratory problems. The bill cuts 
in half the NOx allowance during the summer months of May, June, July, 
August and September when the heat and sunshine combine with NOx and 
other pollutants to create hazardous ozone pollution.
    I am pleased with the support this legislation has already received 
from many environmental organizations and industry groups. We need to 
continue working with all members in the House and Senate that are 
serious about reducing pollution in this country. I urge the committee 
to pass this legislation and become committed to this cause. It's time 
for all of us to get together to fight against acid rain for the health 
of our citizens and the health of our vital natural resources!
                               __________
 Statement of Hon. Alfonse M. D'Amato, U.S. Senator from the State of 
                                New York
    Good morning. I appreciate this opportunity to present my testimony 
to the Clean Air Subcommittee regarding S. 1097, the Acid Deposition 
Control Act. This measure, introduced by Senator Moynihan and myself, 
and combined with companion legislation in the House sponsored by 
Congressman Gerald Solomon will help protect the sensitive ecological 
regions of our nation, including the Adirondack Mountains of New York, 
from the scourge of acid rain.
    Mr. Chairman, I have likened the assault on our lakes, our rivers 
and our forests by acid rain as a form of ``airborne terrorism.'' For 
decades, power plant smokestacks--hundreds of feet high--have been 
spewing pollutants into the air where they are carried via the jet-
stream to our state. Once over New York and other Northeastern states, 
they fall to earth, poisoning our environment. These pollutants have 
had a devastating effect. In fact, right now in the Adirondacks--New 
York's 6 million acre state park--500 of the areas 2,800 lakes and 
ponds are too acidic to support life. Further, according to the EPA, if 
nothing else is done to reduce acid rain by the year 2040, 43` of the 
Adirondacks water-bodies will be acidic. That's just plain wrong. The 
steps we have taken to combat acid rain have been important, but, they 
have not been enough. We can do more and we must do more.
    When Congress passed the 1990 Clean Air Act Amendments, we thought 
we had tackled the pollution problem that sulfur dioxide was causing. 
Today, nearly a decade later, it is abundantly clear that the steps 
taken under the Clean Air Act to reduce sulfur dioxide emissions are 
insufficient to protect regions such as the Adirondacks from acid rain. 
Scientists now tell us that, along with sulfur dioxide, nitrogen oxides 
(NOx) play an important role in the acid rain problem. EPA's own 
reports -? released only under the threat of litigation--clearly show 
that additional steps are needed, and this is the purpose of the 
legislation sponsored by Senator Moynihan and myself and Congressman 
Solomon in the House.
    Critics of our bill will point out that the EPA recently issued a 
State Implementation Plan--or SIP call--for 22 states. This SIP call 
will reduce emissions of nitrogen oxides or NOx, from large stationary 
sources (power plants) by over 75 percent in the summer months, but, 
less than 40 percent annually. While a step in the right direction, I 
do not believe that the EPA's actions will be sufficient to end the 
acid rain problem in the Northeast. In fact, I believe that additional 
measures will be required.
    Our bill includes provisions to reduce annual nationwide NOx 
emissions by 70` from 1990 levels and not the 40` average annual 
reduction under the SIP call. Unlike the SIP call, our bill provides 
EPA with a clear legislative authority to establish a NOx ``cap-and-
trade'' program patterned after the successful sulfur dioxide cap-and-
trade program that was created under the Clean Air Act. Our bill also 
would require 50` more reductions of sulfur dioxide emissions annually 
beyond those called-for in the 1990 Clean Air Act.
    Critics of this bill are going to say that it costs too much. I 
disagree. When the Clean Air Act was enacted, it was expected that an 
allowance to emit a single ton of sulfur dioxide would cost over $1,500 
on the open market. Today, that allowance costs between $150 and $200. 
It is a clear example that, given the chance, business and industry 
will devise the most cost? effective means to meet pollution reduction 
goals. It also demonstrates that additional reductions of sulfur 
dioxide are both achievable and cost effective.
    In addition, EPA's SIP call is aimed at reducing NOx emissions 
during the summer to reduce ozone. Our bill requires emission 
reductions all year round, with special emphasis on the summer months. 
However, one important fact is our bill does not ignore the critical 
winter months. What many people forget is acid deposition, falling as 
snow, accumulates over the winter in the snow-pack. When warm weather 
comes, and the snow melts, the accumulated acid in the snow is released 
into water bodies in a single shock-load during Spring runoff. Such a 
massive influx has a harmful effect on the development of fish and 
other aquatic life.
    Finally, I want to make it clear that the acid rain problem is not 
limited to New York; this is not just a bill to cut down on acid rain 
in our state alone. We believe that a number of states will benefit 
from our bill. For example:
    1) An organization of New England States and the Eastern Provinces 
of Canada has issued a resolution calling for action to decrease the 
impact of acid rain in their region with detailed steps to reduce their 
own emissions. Their recommendations are nearly identical to those 
called-for in our bill.
    2) The same emissions that cause acid rain in the Adirondacks are 
causing nutrient-loading in the Chesapeake Bay and Long Island Sound. 
This process depletes oxygen from the water, killing fish and other 
aquatic life.
    3) According to the National Acid Precipitation Assessment Program 
(NAPAP) report released this summer, acid deposition is damaging forest 
lands around the Nation including the Colorado Rockies and from the 
southern Appalachians to the tip of Maine.
    4) The national sportsmen's group, Trout Unlimited, recently 
released a study of Virginia's trout streams indicating the need to 
reduce the levels of acid deposition by 70` to prevent the 
acidification of half of Virginia's trout streams.
    In conclusion, Mr. Chairman, the EPA's initiative in issuing the 
SIP call to combat ozone is the right thing to do. However, the EPA's 
measure is clearly not enough to protect the nation's sensitive water-
bodies and forests from acid rain. To fully combat the effects of acid 
rain--this ``airborne terrorism'' -? we need this legislation to make 
the significant cuts in the pollutants that cause acid rain. Those of 
us in states that are being subjected to this onslaught are saying 
enough. We have no more tolerance for this assault on our health and 
the environment.
    Thank you, Mr. Chairman, for holding this hearing today.
                               __________
      Statement of Brian J. McLean, Director, Acid Rain Division, 
                    Environmental Protection Agency
    Mr. Chairman and members of the subcommittee, I am pleased to have 
the opportunity to testify on S. 1097, the ``Acid Deposition Control 
Act.'' My testimony will focus on several major themes pertaining to 
the impacts of acid deposition and its precursor emissions sulfur 
dioxide (SO<INF>2</INF>) and nitrogen oxides (NOx), the progress and 
cost-effectiveness of current efforts to reduce these emissions, and 
our reactions to the provisions in S. 1097. This hearing provides an 
opportunity to examine where we are, what we have learned since the 
1990 Clean Air Act Amendments, and how successful mechanisms such as 
those in the current Acid Rain Program may be used in future efforts to 
address air pollution.
Background
    In 1980, driven in particular by Senator Moynihan's interest in 
acid rain, Congress passed the Acid Precipitation Act. In that Act, 
Congress mandated a 10-year scientific, technological and economic 
study to examine the relationships among fossil fuel combustion, acids 
and other pollutants formed by emissions, and the effects on the 
environment and human health. The National Acid Precipitation 
Assessment Program (NAPAP) was established to coordinate and administer 
the study. NAPAP drew several significant conclusions. First, NAPAP 
concluded that the effects of acid deposition and its precursor 
emissions SO<INF>2</INF> and NOx are broad. They include acidification 
of lakes and streams, damage to certain high elevation forests, 
depletion of essential forest soil nutrients, damage to materials, 
particularly those of historical and cultural significance, and 
visibility impairment and human health effects associated with ambient 
sulfates and nitrates. Second, the source-receptor research performed 
in the 1980's recognized and documented long? range transport of air 
pollution and revolutionized clean air policy regarding regional air 
pollution issues. It became apparent that a broad regional approach 
would be needed to address a broad regional air pollution problem. 
Third, the emissions inventories developed under NAPAP revealed 
critical information regarding the source of acid rain forming 
emissions. Two-thirds of the SO<INF>2</INF> emissions and one-third of 
the NOx came from electric power generation. The wealth of data and 
analyses developed under NAPAP provided the underpinning for Title IV 
(Acid Deposition Control) of the Clean Air Act Amendments of 1990. At 
that time, Congress also reauthorized NAPAP to periodically report to 
Congress on the costs, benefits and effectiveness of Title IV.
Innovative ``Cap and Trade'' Design to Reduce SO<INF>2</INF>
    In creating Title IV and establishing the Acid Rain Program, 
Congress drove environmental protection in a new direction, away from 
traditional command and control regulation. First, to address the 
problem of acid rain, Congress focused on reducing the SO<INF>2</INF> 
and NOx emissions that cause acid deposition rather than relying on 
regionally variable deposition standards and state-by-state 
implementation plans. Second, Congress translated its 10 million ton 
SO<INF>2</INF> reduction goal into a nationwide cap on emissions from 
electric generating sources and allowed the industry 20 years to 
achieve it. Third, Congress provided EPA with a new tool to achieve 
this reduction--an innovative market-based allowance trading program, 
where one allowance is a limited authorization to emit one ton of 
SO<INF>2</INF>, allowances are allocated to sources based on 
performance standards, and they can be freely traded.
    This ``cap and trade'' approach allowed industry unprecedented 
flexibility in how to achieve the needed emission reductions. They 
could install pollution control equipment such as ``scrubbers'', switch 
fuel, conserve energy, rely more on renewables, trade SO<INF>2</INF> 
allowances, or any combination of these. In return for this 
flexibility, sources were to provide a full accounting of their 
emissions through continuous monitoring and reporting, and there would 
be severe consequences for failing to hold sufficient allowances to 
cover one's emissions. The objective was for sources to find the most 
cost-effective means for limiting SO<INF>2</INF> emissions and to be 
responsible for achieving those emissions reductions. There would be no 
government second guessing and lengthy permit reviews.
Progress of the Acid Rain Program--Significant Reductions at Low Costs
    In 1995, the first year of compliance under the Acid Rain Program, 
SO<INF>2</INF> emissions declined dramatically--by over 3 million 
tons--resulting in a nearly 5 million ton SO<INF>2</INF> reduction from 
electric power generation from 1980 levels. Over the first 3 years of 
the program, emissions from Phase I units emissions were more than 30 
percent below their allowable levels and sulfate deposition has been 
reduced by as much as 25 percent. Of particular importance is that the 
most significant emissions reductions occurred in the highest emitting 
states and regions of the country. Phase II will begin in 2000 and 
further emissions reductions will be required to achieve the total 10 
million ton reduction in SO<INF>2</INF> under the Program.
    Cost savings have exceeded expectations. In 1990, EPA projected the 
cost of full implementation of the SO<INF>2</INF> emissions reduction 
with trading at $4 billion per year. In 1994, GAO projected the cost to 
be less than $2 billion per year. The most recent estimate of 
annualized cost of compliance published this year by Resources for the 
Future is approximately $1 billion per year.
    Control of NOx from coal-fired utility boilers under the Acid Rain 
Program began in 1996. For Phase I utility units, the average NOx 
emission rate declined by 42 percent (from 0.69 lb/mmBtu to 0.40 lb/
mmBtu). These same units exhibited about a 35 percent reduction in tons 
of NOx (approximately 400,000 tons between 1990 and 1997). However, NOx 
emissions in 1997 increased slightly from 1996, because of greater 
electricity production. In 2000, NOx from electric utility boilers will 
be further reduced to a total reduction of over 2 million tons per 
year. However, without further requirements to reduce emission rates, 
such as those in the Agency's final ozone transport rule (``NOx SIP 
Call''), NOx emissions would be expected to rise with increased 
utilization.
    The success of the cap and trade approach is being adapted for 
other programs. In 1996, the Ozone Transport Commission (OTC), composed 
of 12 northeastern states and the District of Columbia, asked EPA to 
help develop and administer an emissions trading program, modeled after 
the SO<INF>2</INF> program, to control summer NOx emissions in the OTC 
region. More recently, the cap and trade approach was included as an 
option for states in the NOx SIP Call. When implemented, that rule will 
achieve significant, cost-effective summertime NOx emissions reductions 
in 22 states and the District of Columbia.
Environmental Trends, Modeling and Continued Concerns for Natural 
        Resources
    Environmental data are beginning to reflect improvements 
accompanying the downward emissions trend, but fundamental concerns 
regarding recovery persist. The nation's deposition monitoring networks 
have shown significant reductions in sulfate concentrations measured in 
both wet and dry forms. Results from an analysis of long-term surface 
water monitoring data have confirmed that acid sensitive lakes have 
experienced significant declines in sulfate concentrations in response 
to declining sulfate deposition. Surface water nitrate levels, however, 
have not shown significant upward or downward trends which is also 
consistent with trends in nitrate concentration levels in deposition.
    Acid neutralizing capacity (ANC) is a measure of alkalinity or 
buffering ability and is most often used as a primary indicator of 
surface water response, or recovery. Lakes in New England have begun to 
show some recovery while Adirondack lakes in New York have exhibited 
either no trend or further acidification (decrease in ANC). Other 
sensitive watersheds in the southeastern U. S. (e.g., Virginia trout 
streams) appear to be so saturated with sulfur that they may get worse 
before there are signs of recovery.
    In August of this year, NAPAP reported that some forest soils are 
beginning to ``leach'' sulfates or nitrates or both due to decades of 
exposure to high sulfur and nitrogen deposition loads. High elevation 
lakes in the western U. S. are also vulnerable to sulfur and nitrogen 
loadings. In 1995, the EPA sent to Congress its Acid Deposition 
Standard Feasibility Study. This study drew several conclusions: 1) The 
number of acidic waters would be expected to increase substantially 
without the SO<INF>2</INF> and NOx emissions reductions required by the 
1990 Amendments. 2) The study projected that although there is 
uncertainty and regional variability regarding a specific ``protective 
threshold'' the direction and magnitude of the modeled results indicate 
that additional reductions in both sulfur dioxide and nitrogen oxide 
emissions may be necessary to fully protect sensitive resources. 3) 
This study, as well as numerous other research studies in the peer 
reviewed literature, identifies nitrogen as a major contributor to both 
short? term (episodic) and long-term (chronic) acidification.
    Recent evidence also points to atmospheric nitrogen deposition as a 
significant contributor to total nitrogen loading to coastal waters 
along the East and Gulf coasts and nutrient loading in large river 
basins. Excessive nitrogen levels have been found in all East and Gulf 
coast estuaries including for example the Narragansett Bay, Long Island 
Sound, the Chesapeake Bay, Albemarle and Pamlico Bays, Tampa Bay, 
Galveston Bay and the ``hypoxia zone'' along the Gulf coast. Recent 
analyses of estuaries along the East and Gulf coasts have estimated the 
nitrogen contribution from atmospheric sources to range from 10 to 45 
percent. Excessive nitrogen or nutrient over-enrichment is associated 
with adverse ecological effects such as eutrophication and extreme 
anoxic (low oxygen) conditions in some locations. These conditions have 
important implications for the biological communities.
  multiple effects associated with sulfur dioxide and nitrogen oxides 
                                emission
Reducing SO<INF>2</INF> and NOx provides multiple environmental and 
        human health benefits
    <bullet>  Reduced number of acidic lakes and streams in various 
sensitive regions of the country (e.g., Northeastern, Mid-Atlantic, 
Southern Blue Ridge, Upper Midwest and high elevation Western regions) 
and more sensitive ecosystems will be capable of sustaining diverse 
aquatic life. In particular, annual reduction of NOx emissions ensures 
greater ecosystem protection (i.e., against acidification, 
eutrophication), particularly during spring when highly sensitive 
biological aquatic life stages (i.e., spawning) are most susceptible to 
acidic pulses from snowmelt and heavy rainfall.
    <bullet>  Increased protection of coastal ecosystems and estuarine 
aquatic life due to a reduction in nitrogen deposition onto coastal 
waters and their larger watersheds.
    <bullet>  Reduced leaching of essential soil nutrients, addressing 
the ``saturation'' of certain forested watersheds due to many years of 
high sulfur and nitrogen deposition, to a state in which recovery can 
occur.
    <bullet>  Increased protection of sensitive structural materials, 
particularly objects of cultural and historical significance. The 
effects of dry acidic compounds and their reactions are now understood 
to cause the most deleterious loss of structural integrity.
    <bullet>  Reduced ambient sulfates and nitrates with consequent 
reduced risks to human health.
    <bullet>  Reduced ground-level ozone concentrations with consequent 
reduced risks to human health.
    <bullet>  Reduced ambient sulfates and nitrates with consequent 
improvements in reducing haze that impairs scenic visibility.
Comments on S. 1097
    In general, S. 1097 builds on those elements of the Clean Air Act 
that are working well.
    <bullet>  The Bill relies on the successful market-based mechanism 
introduced in the 1990 Amendments and applies it to both NOx and 
SO<INF>2</INF> Trading allowances provides flexibility to sources and 
competition across compliance options, and the emissions cap ensures 
that the pollution reduction goals are met and maintained into the 
future. Contrary to early concerns over trading and the potential for 
``hot spots,'' SO<INF>2</INF> trading has not led to significant 
geographical emissions shifting from one state to another.
    <bullet>  The Bill reduces and caps emissions of NOx. It builds 
upon the existing NOx reduction requirements under the acid rain 
program and the recent ozone transport rule. The level of summertime 
NOx emission reductions is similar to that under EPA's recent SIP Call; 
however, the NOx emissions cap is broadened to cover the entire year 
and the 48 contiguous states. By requiring the retirement of two 
allowances for every ton of NOx during the five summer months, the Bill 
ensures greater reductions in the summer when the health impacts of 
ozone are of primary concern. By requiring NOx reductions year-round, 
the Bill is consistent with the latest research on ecological 
protection during biologically sensitive times of the year.
    <bullet>  The Bill further reduces SO<INF>2</INF> emissions from 
the utility sector by requiring two SO<INF>2</INF> emissions allowances 
to be surrendered for each ton of SO<INF>2</INF> emitted, thereby 
cutting the current cap in half. EPA prefers an approach which 
minimizes disruption to implementation of the current SO<INF>2</INF> 
allowance system under the Acid Rain Program.
    <bullet>  The Bill emphasizes measurement of emissions by requiring 
the industrial sector to install continuous emissions monitoring 
systems. Continuous monitoring generated by this requirement would 
improve the accuracy in emissions inventories for that sector, however 
EPA would need to analyze the associated costs. The Bill does not 
require emissions reductions from that sector.
    <bullet>  The Bill places significant emphasis on monitoring and 
assessment by requiring EPA to report to Congress periodically on 
environmental progress and to take further regulatory action if 
reductions are insufficient to achieve environmental objectives. This 
emphasis on assessment and evaluation is consistent with the Agency's 
current plans to maintain the capabilities to monitor progress and 
assess recovery. The requirement to periodically report to Congress and 
take action as needed, although potentially resource intensive, 
provides an ongoing mechanism to respond to new scientific research. 
The Bill also recognizes, as does the Agency, areas of needed research 
particularly to address uncertainties associated with nitrogen 
deposition on sensitive watersheds and coastal waters.
    In addition, the Bill places importance on addressing mercury. 
Recent information on mercury emissions warrants further attention. 
Electric power plants, and specifically coal-fired powerplants are the 
largest source category of mercury emissions in the U.S., accounting 
for fully one-third of all man made mercury emissions in this country, 
and they are uncontrolled. EPA is currently working to obtain further 
data on mercury emissions from electric utility sources and additional 
information on cost-effective control technologies.
    Overall, while the direction of the Bill is consistent with EPA's 
views, the timing of the provisions in the Bill may not be consistent 
with that of EPA. For example, the reduction of the SO<INF>2</INF> 
allowance cap in the Bill is to occur in 2003. This timeframe may be 
disruptive to the allowance market and industry planning for 
compliance, leading to higher compliance costs. Additionally, since 
such a reduction could affect achievement of the broader range of human 
health as well as ecological benefits, the timing of such reductions 
should be considered in the context of the National Ambient Air Quality 
Standard (NAAQS) review for particulates and the efforts to address 
regional haze. The Agency anticipates completion of national 
particulate monitoring networks by 2000, completion of another 5-year 
scientific review of the NAAQS by 2002, nonattainment designations 
completed between 2002 to 2005 and implementation plans due between 
2005 and 2008. However, it is certainly conceivable that a broad 
emission reduction approach using market-based mechanisms could be 
utilized to achieve cost-effective reductions. Another timing issue is 
the Bill's phasing in of NOx emissions reduction in 2000 and 2003. 
Since the Bill was first introduced in 1997, the Agency has proposed 
and finalized NOx emissions reductions under the NOx SIP Call and 
resolved litigation allowing NOx reductions under the Acid Rain Program 
to proceed on schedule by the year 2000. Therefore, the Bill's first 
phase of NOx emission reductions may no longer be necessary. 
Furthermore, analysis of costs and benefits would be necessary to 
better understand the impacts of the Bill before the Administration can 
take a position.
Integrating Pollution Control Strategies
    The electric utility industry and EPA continue to discuss current 
and upcoming air pollution control decisions and how they might best be 
coordinated to achieve environmental goals at the lowest possible cost. 
The EPA recognizes the appropriateness of engaging in long? term 
integrated planning and the need to explore the use of market-based 
approaches such as that being used for the Acid Rain Program. The 
regulated community has also acknowledged that the mechanism employed 
by the Acid Rain Program works well. Congress has been kept informed 
through periodic congressional hearings in 1993,1994 and 1996, as well 
as with reports by the General Accounting Office in 1994 and 1996, on 
the progress and costs of the Acid Rain Program. The pressing policy 
question is how to best respond to continued and evolving concerns for 
the multiple health and environmental effects of SO<INF>2</INF> NOx, 
mercury and other pollutants resulting from combustion of fossil fuels. 
It is our understanding that this Subcommittee is planning on holding 
hearings in the next Congress regarding Clean Air Act reauthorization. 
Should the Committee hold such hearings, we believe that bills, such as 
S. 1097, which address regional, multi-state air pollution issues ought 
to be considered in those discussions.
    Thank you for the opportunity to appear here today to discuss S. 
1097 and our experiences implementing acid deposition control under the 
Clean Air Act. I would be happy to respond to any questions you may 
have.
                                 ______
                                 
Responses of Brian McLean to Additional Questions from Senator Moynihan

    Question 1. This bill calls for an allowance reduction for 
SO<INF>2</INF> beginning in 2003. When would the full effect of this 
reduction be seen?
    Response. Most likely, emissions levels would decline gradually 
with the full additional 50 percent reduction in SO<INF>2</INF> 
occurring sometime between 2010 and 2015 due to allowances ``banked'' 
by sources that over-controlled prior to 2003.

    Question 2. In your testimony, you noted that S. 1097 would impact 
the existing SO<INF>2</INF> market. With adequate lead time, could 
these impacts on the market be mitigated?
    Response. Yes, the impact on the SO<INF>2</INF> market could be 
reduced by providing industry with an advance indication of the future 
allowance availability level. Sending an early signal would enable 
sources to plan ahead for their future compliance strategy and permit 
allowance prices to adjust to this new information.

    Question 3. What costs are incurred by States in implementing the 
existing SO<INF>2</INF> Allowance Program?
    Response. Since the Allowance Program is federally implemented, 
States have spent very few resources implementing the Program. EPA has 
provided adequate resources to the States through section 105 Grants to 
cover establishment of the permitting programs and emission monitoring 
systems.

    Question 4. What have overall program costs of the acid rain 
program been, and how do these costs compare to the costs projected in 
1990?
    Response. There have been several cost estimates of the 
SO<INF>2</INF> trading program since 1990. Following is a description 
of how these estimates have changed over time. All of these estimates 
have been converted to 1990 dollars (based on a GDP deflator) for easy 
comparison. In addition, unless noted otherwise, all of these estimates 
represent scenarios of full and efficient emissions trading. Finally, 
all of these estimates are for annualized cost of the program in the 
year that the 8.95 million ton cap on SO<INF>2</INF> is projected to be 
achieved (i.e., either 2009 or 2010).
    EPA Study: In 1990, EPA estimated the cost of complying with the 
SO<INF>2</INF> emissions reduction through a market trading approach at 
approximately $4.6 billion per year by 2010. EPA's 1990 study also 
included a lower cost estimate ($1.4 billion in 1990$) based on 
assumptions of low energy use. However, this number was deemed so 
improbable that it was not used in Congressional testimony, press 
releases, or the public debate.
    In 1994, the cost was re-evaluated by the General Accounting Office 
and estimated to be $ 1.9 billion by 2009 (see General Accounting Of 
rice, ``Allowance Trading Offers an Opportunity to Reduce Emissions at 
Less Cost'', 1994, page 74, Table I.1). GAO also estimated that if 
there was only trading within companies instead of between companies, 
costs for 2009 would equal $2.8 billion in 2009.
    Most recently, researchers at Resources for the Future conducted 
two studies using two different methodologies to project the costs of 
the SO<INF>2</INF> trading program. A 1997 study used an engineering 
cost model developed by Argonne National Laboratory to project a point 
estimate of annualized costs in 2010 of $0.8 billion (see, Burtraw et. 
al., ``Costs and Benefits of Reducing Air Pollutants Related to Acid 
Rain'', Contemporary Economic Policy, Vol. XVI, October 1998.) A 1998 
study used an econometric model to project a ``best estimate'' of 
annualized compliance costs for 2010 of $0.87 billion per year (see 
Carlson et. al., ``Sulfur Dioxide Control by Electric Utilities: What 
are the Gains from Trade?'', RFF Discussion Paper 98-44, July 1998.).
    There are several reasons that estimates of the total costs of 
Title IV have been revised downward. First, railroad deregulation has 
opened up Western coals to the mid-Western electric utility market and 
has led to a collapse of the premium paid for low sulfur coal. The 
flexible structure of Title IV allowed these cost savings to be 
realized. Second, some of the cost savings associated with more recent 
analyses can be linked to reductions in scrubber costs by almost 50 
percent since 1989. There is also evidence that competition between 
different compliance options and the integration of the allowance and 
fuels markets may have a downward impact on compliance costs.

    Question 5. What collateral benefits would the additional 
SO<INF>2</INF> and NOx reductions called for in S. 1097 have on human 
health? On regional visibility?
    Response. Human health and visibility benefits of additional 
SO<INF>2</INF> and NOx reductions called for in S. 1097 would be 
substantial, particularly since these emission reductions are expected 
to result in significant reductions of fine inhalable particulates (see 
EPA, 1997 Regulatory Impact Analyses for the Particulate Matter and 
Ozone National Ambient Air Quality Standards and Proposed Regional Haze 
Rule) EPA has not yet estimated benefits of the bill explicitly, 
however. Based on EPA's Acid Deposition Standard Feasibility Study 
Report to Congress, 1995, additional SO<INF>2</INF> and NOx reductions 
would also provide further benefits to ecosystems e.g., lakes and 
streams suffering from acidification, coastal ecosystems affected by 
eutrophication, forests, as well as monuments and structures which can 
weaken and degrade in the presence of acidic deposition.

    Question 6. Does S. 1097 adequately deal with industrial boilers? 
In what ways could this aspect of the bill be strengthened ?
    Response. The bill includes a provision to monitor emissions of 
industrial boilers with a capacity of 100 mmBtu/hour or greater. 
Monitoring will provide needed information about the magnitude of 
emissions from this source category. In general, EPA believes that it 
is already cost effective and feasible to monitor and control NOx 
emissions from industrial boilers with a heat capacity of 250 mmBtu/hr. 
EPA's recent NOx SIP call calculated State-wide summertime NOx 
emissions budgets which assumed a 60 percent reduction in emissions 
from industrial boilers with a heat capacity of 250 mmBtu/hour or 
greater. States may control this source category as part of their NOx 
budget strategy.

    Question 7. If enacted, would S. 1097 add costs to utilities in the 
East beyond the costs these utilities are likely to incur under the 
recently released NOx SIP Call Final Rule?
    Response. EPA has not analyzed costs of the bill thoroughly, 
however, in general, this bill would result in NOx controls on 
utilities in the East to be used for 12 months rather than 5 months 
under the SIP call. Extending the NOx control period to 12 months might 
raise costs by between 10--30 percent in the East. A very rough 
calculation estimates that costs for annual NOx controls nationwide 
would be about double the costs estimated for controlling similar 
sources at levels specified by the recent SIP call, which covered 
summertime emissions (May through September) for 22 Eastern States. 
(Total SIP call costs were estimated at $1.7 billion, $1.4 for utility 
NOx controls.)
    Nationwide total annual costs of the additional SO<INF>2</INF> 
reductions in the Moynihan bill may be around $2.6 billion dollars, 
based on EPA's Regulatory Impact Analyses for the Particulate Matter 
and Ozone National Ambient Air Quality Standards and Proposed Regional 
Haze Rule, page 6-30, costs for National PM2. 5 Strategy (EPA, 1997). 
Costs for the additional SO<INF>2</INF> reductions in the East have not 
been calculated separately. Monitoring of mercury emissions would also 
result in additional costs for utilities.

    Question 8. What are the primary conclusions of the Scientific 
American article, ``Atmospheric Dust and Acid Rain,'' (December 1996) 
mentioned during the hearing?
    Response. Lars O. Hedin and Gene E. Likens, authors of 
``Atmospheric Dust and Acid Rain'' (Scientific American. Dec., 1996), 
examined the phenomenon of continued environmental problems associated 
with acid rain despite reduced emissions of acid rain precursors. They 
point out that the problem is much more complex than previously 
thought, particularly the role that dust particles (e.g. base cations 
such as calcium, magnesium, etc.) play in neutralizing acidic 
pollutants. Sources of dust particles include industrial emissions, 
agricultural processes, construction, traffic on unpaved roads, forest 
fires, and erosion of and soils from wind. Dust particles deliver 
nutrients to forest soils providing some level of protection from acid 
rain. According to Hedin and Likens, the atmosphere is a much more 
important source of particles for soils than was previously thought.
    Since 1965, atmospheric dust has dropped substantially. Although 
these particles can help forest soils resist the affects of acid rain, 
they are also known to cause adverse human health effects, degrade 
visibility and cause other environmental problems. Recognizing that any 
deliberate increases in these particulates would set back progress in 
air pollution control by decades, Hedin and Likens suggest ``reducing 
emissions of acidic pollutants to levels that can be buffered by 
natural quantities of basic compounds in the atmosphere.'' EPA has 
continued to reduce sulfur dioxide and nitrogen oxides through the Acid 
Rain Program. The authors suggested path would require continued and 
perhaps even greater reductions in sulfur dioxide and nitrogen oxides 
beyond those prescribed in the 1990 Clean Air Act Amendments.
                                 ______
                                 
Responses of Brian McLean to Additional Questions from Senator Sessions

    Question 1. What standards for mobile and stationary sources have 
states in the North East imposed to meet state and Federal air 
emissions limits?
    Response. The attached list which was put together by the State and 
Territorial Air Pollution Program Administrators (STAPPA) and 
Association of Local Air Pollution Control Of finials (ALAPCO) has been 
used by the states of the Northeast and the rest of the country in 
developing their strategies for achieving the 1-hour ozone standard. 
The states in the Northeast have regulated many of the sources listed 
on these tables with different states using different size cutoffs 
depending on the severity of their ozone problem. In 1994, 12 of the 
Northeast states located in the Ozone Transport Region adopted a NOx 
budget program to control NOx emissions from large combustion sources 
to be implemented in phases, the final phase in 2003 resulting in 
reduction levels similar to those in the NOx transport SIP call for 
such sources. In addition, the states are moving forward as necessary 
to adopt additional local measures to address their local contribution 
to their ozone problem.
    With respect to controls on mobile sources, as you may know, states 
to a large extent are preempted by the Clean Air Act from establishing 
emission standards on new vehicles and engines. Because of the nature 
of vehicles, these emission requirements are set nationally by EPA. 
Northeast states, however, have taken actions within their authority to 
control mobile source emissions. Many nonattainment areas in the 
Northeast have opted to join the reformulated gasoline program to get 
the benefits of that cleaner burning fuel. Also, some Northeast states 
have improved their vehicle emission inspection programs and other 
states are moving ahead with similar enhancements. Finally, as a result 
of Northeast state action to consider adoption of California's Low 
Emission Vehicle (LEV) program, EPA was able to get agreement from auto 
companies to participate in the National Low Emission Vehicle (NLEV) 
program. This program will result in the sale of new cars meeting more 
stringent tailpipe standards in the Northeast states beginning with the 
1999 model year and the rest of the country in 2001 .

    Question 2. What standards has California imposed for mobile and 
stationary sources to meet state and Federal air emissions limits?
    Response. The STAPPA/ALAPCO list is a good indicator of the types 
of industries and rules that have been imposed by California to achieve 
the 1-hour ozone standard. Generally, California has regulated much 
smaller sources than the other states.
    The Clean Air Act allows California, because of its severe air 
pollution problems, to establish its own motor vehicle and fuels 
control programs. Other states are preempted from such actions, 
although the law does permit other states the option of adopting 
programs identical to California's. California is often a leader in 
adopting more stringent mobile source controls, such as the second 
phase of their Low Emission Vehicle (LEV2) program just recently 
adopted by the California Air Resources Board.

    Question 3. Which would be most effective in improving air quality 
for the North East, adopting local standards similar to those in effect 
in California or reducing background levels?
    Response. A combination of reducing background (transported) levels 
of ozone and placing local controls on ozone precursor emissions will 
likely be needed to bring the North East into attainment of the ozone 
NAAQS. Under the Clean Air Act, each state is required to identify and 
implement all control measures necessary to bring its areas into 
attainment with the National Ambient Air Quality Standard (NAAQS) for 
ozone by its appropriate attainment date. In addition each state's plan 
must prohibit emissions from its state which contribute significantly 
to nonattainment in, or interfere with the maintenance by, any other 
state with respect to the national ambient air quality standards. Many 
areas in the Eastern U.S. including the North East have imposed 
substantial controls locally to address ozone. However, the interstate 
contributions to these ozone problems have not previously been 
addressed. It is the emissions that contribute to the interstate 
transport of ozone and its precursors that EPA addressed with its ozone 
transport rule.
    The emission reductions required under EPA's ozone transport rule 
will reduce the upwind contributions to ozone nonattainment and will be 
achieved much more cost effectively than local control measures. These 
reductions alone will not be sufficient to meet the 1-hour ozone 
standard, and may not be sufficient to meet the revised 8-fur ozone 
standard, in all areas of the East so individual states will still be 
adopting additional local controls as necessary to meet these standards 
by their appropriate attainment date.
                                 ______
                                 
 Responses by Brian McLean to Additional Questions from Senator Chafee

    Question 1. Mr. Tyndall and Mr. Kropp indicated that comments from 
States and industry regarding EPA's SIP Call were largely disregarded. 
Please describe the comments that EPA received from States and industry 
representatives during the comment period on the proposed SIP Call and 
explain the manner and substance of EPA's response to these comments.
    Response. Summary of Major Comments from the States and Industry on 
Proposed NOx SIP Call Rule
    Eleven Governors (from CT, DE, ME, MD, MA, NH, NJ, NY, PA, RI and 
VT) sent a letter to the President expressing their strong support for 
EPA's efforts to reduce NOx emissions in the eastern U.S. and their 
position that the rule is technically and legally sound.
    Environmental commissioners from six states in conjunction with 
executives from more than a dozen industry commenters or groups 
representing industry (including PSE&G, Niagara Mohawk, Consolidated 
Edison, Florida Power & Light, PECO, United Illuminating, US Generating 
Company) wrote to Administrator Browner characterizing the rule as 
``extremely important, both in the interests of protecting public 
health and in the economic interests of a wide range of businesses 
across the affected states''.
    Six Governors representing Alabama, Michigan, Ohio, Tennessee, 
Virginia, and West Virginia submitted an alternative to EPA's proposed 
ozone transport rule which included a two phased approach to utility 
emissions and delayed implementation of controls until 2007
    Other states such as Illinois, Indiana, and Kentucky also favored 
some form of a 2-phase approach.
    Two states, North Carolina and South Carolina, commented that they 
should not be included in the ozone transport rule.
    A number of industry commenters including the Alliance for 
Constructive Air Policy supported a similar approach to the 6 Governors 
proposal.
    A number of industry commenters such as the Utility Air regulatory 
Group (UARG) and Midwest Ozone Group objected to the ozone transport 
rule. In the end, UARG's main concerns were associated with the timing 
for installation of control equipment and the potential impact on 
electricity supplies.
    Many of these same states and industry commenters raised concerns 
about the ability of the electric utility industry to meet the 
compliance schedule of the ozone transport rule without power ``brown 
outs'' or outages.
    While generally supportive of the overall rule, other industry 
commenters including the Tennessee Valley Authority, Commonwealth 
Edison, Ohio Edison, Pennsylvania Power, Cleveland Electric 
Illuminating, and Toledo Edison preferred an allocation approach for 
energy sources which was output-based as opposed to EPA's input-based 
allocation approach.
                                 ______
                                 
  EPA's Response to State and Industry Issues and Concerns Raised by 
                             Senator Inhofe
1. EPA's Rule Is Consistent With Results from State-Run Analyses
    EPA has been working with the States since 1995 to develop on a 
solid scientific understanding of the ozone transport problem in the 
Eastern U.S. through the Ozone Transport Assessment Group (OTAG) and 
EPA's proposed rule was consistent with all of the recommendations of 
OTAG in their final report.
2. EPA Conducted Additional, New Analyses Specific to State and 
        Industry Requests and Concerns
    In response to state and industry concerns EPA performed several 
new, additional analyses including:
    Extensive additional modeling and cost analyses on a range of 
alternative control levels including the level proposed by the 
Governors. Two of the alternatives even assumed lesser levels of 
control for the Midwest and Southeast than in the Northeast. These 
analyses showed that no other alternative level delivered equal or 
better air quality benefits at equivalent or lower costs. Analysis of 
the impact on electricity supplies as a result of the level of control 
assumed on utilities used in establishing the states budgets and the 
timing of those reductions. The analysis showed that full compliance 
was possible by May 1, 2003 without disruptions in the energy supply. 
Additional analysis of the cost and impact of controlling non-utility 
stationary sources of NOx to address concerns about the equitable 
distribution of the reductions and the potential impacts on small 
businesses.
    The results of these new analyses were given full consideration in 
the final decisions on the transport rule and were all made available 
to the public.
3. EPA Changed the Rule In Response to State and Industry Concerns
    Response. EPA made a number of significant changes to the rule 
based on the more than 700 comments received during the nearly 8-month 
public comment period:
    To address concerns on the timing of implementing controls 
submitted by the six Midwest/Southeast Governors (MI, OH, TN, VA, WV, 
AL) as well as those from KY, IN, IL, MO, NC, SC, WI and other states 
and industry, EPA extended the deadline for compliance with the 
requirements from September 2002 to May 2003.
    In response to concerns about facilities' ability to comply by the 
required date and the potential effects of the rule on the availability 
of electricity, the final rule created a pool of emission credits for 
each state. The final rule provides emission credits for sources that 
achieve their emission reductions earlier than required, and/or 
demonstrate they cannot meet the compliance date. This pool of credits 
encourages early compliance, but also provides significant flexibility 
by allowing these credits to be sold to sources that might not 
otherwise meet the deadline. This will ease any lingering concerns 
about the ability of utilities (or other sources) to meet the deadlines 
of the rule and the availability of electricity to their customers.
    To address concerns about the impact of the proposed rule on small 
businesses expressed by IL, MI, MO, NC, NY and PA, EPA exempted over 90 
percent of the smaller industrial sources thereby reducing state NOx 
budgets. The number of industrial sources covered under the rule 
dropped from 13,000 to 1,200; however, associated emission reductions 
were reduced by only about 50 percent.
    To accommodate the state concerns, EPA made the final rule more 
flexible by allowing states to include all stationary NOx sources in 
emission trading programs provided the additional sources meet certain 
requirements in the ozone transport rule particularly the monitoring of 
emission requirements.
    EPA's proposed rule asked for comments on a wide range of options 
for incorporating emissions ``banking'' into the program, including an 
option that would have prohibited banking. In response to comments, 
EPA's final rule provides sources the opportunity to bank allowances 
once the program begins.
    As requested in many state proposals, the final rule lessened the 
control on large industrial boilers to 60 percent (from 70 percent in 
the proposed rule) and exempted many other non-electricity generating 
sources categories.
Support for NOx SIP Call
    Following promulgation of the ozone transport rule, a number of 
affected states and the District of Columbia communicated their support 
for as well as plans to meet the NOx SIP Call rule during in national 
and regional meetings to discuss implementation of the rule. These 
include Connecticut, Delaware, District of Columbia, Illinois, 
Kentucky, Maryland, Massachusetts, New Jersey, New York, Pennsylvania, 
Rhode Island, and Tennessee. This roster of supporting states included 
some, like Tennessee, which initially opposed the ozone transport rule.
                               __________
  Statement of Edward Kropp, West Virginia Division of Environmental 
                              Protection,
    Good morning. My name is Edward Kropp and I am an Assistant Chief 
of the West Virginia Office of Air Quality. I appreciate the 
opportunity to appear before you this morning.
    One of the important aspects of S. 1097, the Acid Deposition 
Control Act, is the continued effort to regulate emissions of nitrogen 
oxides (NOx), which has already been the subject of regulation in the 
1990 Clean Air Act Amendments and, in addition, is an ozone precursor. 
West Virginia is concerned about the imposition of additional stringent 
controls on NOx emissions from sources in West Virginia which appear to 
be based upon politics and rhetoric rather than environmental science. 
Indeed, on September 24, 1998, EPA announced a final rule which would 
require 22 states and the District of Columbia to drastically reduce 
emissions of NOx in an effort to mitigate the long-range transport of 
ozone into the Northeast. West Virginia believes that neither the EPA 
NOx reduction rule, known as the Ozone Transport Assessment Group 
(OTAG) SIP Call, nor any additional NOx controls which might be imposed 
under S. 1097 can be economically justified when compared to the 
relatively insignificant environmental benefits which might result.
    EPA sponsored OTAG, which was a stakeholder process taking place 
between approximately May 1995 and June 1997. The OTAG process included 
scientific modeling to test a hypothesis that long range (on the order 
of 600 or so miles) transport of ozone was occurring from the Midwest 
and Southeast to the Northeast, exacerbating non-attainment of the 1-
hour ozone standard in the Northeast. A key conclusion of the OTAG 
process was that emission reductions yield the greatest benefit locally 
and that benefits decrease as distance from the controlled source 
increases. Further, OTAG concluded that regional NOx reductions produce 
regional ozone reduction benefits. Finally, OTAG modeling data (copy 
attached) indicates that literally shutting down all man-made sources 
of NOx emissions in the Midwest will not result in the Northeast 
attaining the old 1-hour ozone standard.
    In November 1997, EPA proposed its OTAG SIP Call to reduce NOx, and 
requested comments on the proposed rule. West Virginia and 12 other 
states, all subject to the SIP Call, time and again submitted comments 
to EPA without ever receiving a formal response to our comments. 
Moreover, West Virginia and five other states jointly submitted an 
alternative (copy attached) to the proposed EPA rule on June 25, 1998. 
The alternative proposal focused on attaining the new 8-hour standard 
rather than mitigating transport to solve the Northeast attainment 
problems with the old 1-hour standard. Seven other states submitted 
alternate proposals which focused on attainment of the new standard as 
well.
    Regrettably, EPA has continued to ignore the efforts of all 13 
states to collaborate with EPA to attain the 8-hour standard, instead 
focusing on EPA's effort to reduce NOx emissions primarily from Midwest 
and Southeast power plants. In addition to proposing power plant NOx 
emission reductions of 85 percent and overall state NOx emission 
reductions of as much as 51 percent from 1990 levels in the case of 
West Virginia, EPA touts the new NOx reduction rule as being flexible 
because it allows sources in the Midwest and Southeast to trade 
emissions between sources in order to distribute the emission reduction 
burden. West Virginia believes that such ``flexibility'' must be tied 
to air quality science and, in the case of the EPA rule, submits that 
EPA has once again ignored science in order to level economic playing 
fields, i.e., controlling Midwest NOx power plants to raise the cost of 
electricity to levels more nearly equal to those in the Northeast.
    West Virginia has, on numerous occasions, attempted to provide EPA 
with input regarding the NOx rule and our position remains both 
unchanged and scientifically supported. West Virginia believes that 
power plant NOx reductions of 65 percent from 1990 levels will result 
in attainment of the new 8-hour standard in most, if not all, of West 
Virginia. In addition, power plant reductions in excess of 65 percent 
may be necessary to ameliorate any ozone transport from West Virginia 
occurring in the 150-200 mile range which OTAG concluded was likely to 
occur. The EPA OTAG SIP Call will result in the expenditure, in West 
Virginia alone, of approximately $1 billion in excess of the cost of 65 
percent reductions while providing virtually no discernible concomitant 
environmental benefit in the Northeast.
    West Virginia urges that EPA be required to reconsider its ill-
conceived one-size-fits-all OTAG SIP Call to reduce NOx emissions and 
that any further Midwest and Southeast power plant NOx emission 
reductions which might be required as a result of S. 1097 be deleted 
from the ct. Thank you for your attention.
                               __________
           Statement of Bernard Melewski, Adirondack Council
    Good Morning. My name is Bernard Melewski. I am the counsel and 
legislative director of the Adirondack Council. I would like to thank 
the chairman, and the members of the committee for the opportunity to 
be here with you this morning and to provide testimony on Senate Bill 
1097, the Acid Deposition Control Act.
    I would like to begin with a brief explanation of what is the 
Adirondack Park, the role of the Adirondack Council in New York, and 
why we are particularly interested in the topic of acid rain and in 
this legislation.
    The Adirondack Park is the largest park of any kind in the 
contiguous United States. It is nearly three times the size of 
Yellowstone National Park and covers one fifth of the State of New York 
making it equal in size to the State of Vermont. The Adirondack Park is 
roughly six-million acres of public and private land containing the 
largest assemblage of Old Growth forest east of the Mississippi River. 
The Adirondacks include the headwaters of five major drainage basins. 
Lake Champlain and the Hudson, St. Lawrence, Mohawk and Black rivers 
all draw water from the Adirondack Park. Within the Park are More than 
2,800 lakes and ponds, and more than 1,500 miles of rivers fed by an 
estimated 30,000 miles of brooks and streams. The Park contains 46 
mountain peaks more than 4,000 feet tall. Forty-five percent of the 
Park is publicly owned Forest Preserve protected as ``Forever Wild'' by 
the New York State Constitution since 1895. One million acres of these 
public lands are classified as Wilderness.
    The Adirondack Council was founded in 1975, it is a private, not-
for-profit organization dedicated to enhancing the natural and human 
communities of the Park through research, education, advocacy and legal 
action.
    The Council receives moral and financial support from its more than 
18,000 members and from private foundations. The Council's national and 
regional member organizations include the Natural Resources Defense 
Council, The Wilderness Society, National Audubon Society, National 
Parks and Conservation Association, Citizens Campaign for the 
Environment and the Association for the Protection of the Adirondacks.
    Our interest in the problem of acid rain is long held. We were 
active contributors to the dialog on acid rain in New York State in the 
early years of the 1980's, and helped craft the first acid rain law in 
the country which was adopted in 1984. The New York law identified both 
sulfur dioxide and nitrogen oxide as precursors to acid rain, sought 
limits on total emissions from utilities sited within the state and 
even proposed an innovative trading mechanism that Congress would adopt 
nationwide in the Clean Air Act Amendments of 1990.
    The Adirondack Council was also an active participant in the 
national debate that led to the adoption of the acid rain program in 
the clean air act amendments 8 years ago. Our publication, ``Beside the 
Stilled Waters,'' which was produced and distributed in cooperation 
with our member organizations, brought the problem of acid rain to the 
attention of the Nation and to Congress.
    We are here today because acid rain remains a continuing national 
tragedy. We ask that you now finish the job that was begun 8 years ago.
    We remember well that day when a deputy administrator for the 
Environmental Protection Agency grandly pronounced in a press release 
that the new regulations implementing the new Clean Air Act Amendments 
would mean ``the end to acid rain in the Adirondacks.''
    Certainly that was the intention of the Senate and the House. But 
wisely, Congress ordered a series of reports that would advise you of 
the success or failures of the goals of the acid rain program.
    And the acid rain program as adopted was not without controversy. 
Congress adopted an innovative ``cap and trade'' program, modeled after 
the New York legislation, which would abandon the so-called ``command 
and control'' approach to regulation, in favor of a free wheeling 
pollution allowance trading program that would provide utilities with 
the flexibility to make compliance strategies part of their long-term 
business planning. The Adirondack Council, among others raised concern 
that the cap on total emissions might not be low enough to protect 
sensitive areas. Others debated both the need for and the cost of the 
program.
    The wisdom of requiring these reports at that time is now apparent.
    The first report was due in 1993, from the Environmental Protection 
Agency (ordered under sec. 404, Title IV appendix B of the 1990 CAAA) 
and was entitled the Acid Deposition Standard Feasibility Study Report 
to Congress. The report, dated October, 1995, was finally released in 
1996 under the threat of litigation from the Adirondack Council and the 
State of New York. The report concluded that the pollution reductions 
accompanying the 1990 Clean Air Act Amendments would not be sufficient 
to allow recovery of certain sensitive ecosystems and that some would 
continue to get worse. The report was particularly compelling for New 
Yorkers because it revealed that despite the reductions expected from 
the 1990 Amendments the loss of near fifty percent of its lakes and 
acidification of most streams in the Adirondack Park could be expected.
    The second of two reports to Congress, the report of the National 
Acid Precipitation Assessment Program (NAPAP) was submitted to Congress 
as you left for the August recess (ordered under Sec. 901J of the 1990 
CAAA). It was due in 1996 and it too was released under pressure from 
Senators Moynihan and D'Amato and the threat of litigation from the 
State of New York. In short summary, it confirms and substantially 
elaborates upon the findings of the earlier report to Congress 
submitted in 1996 from the EPA.
    The NAPAP report also confirms that acid rain is not just an 
Adirondack problem.
    The damage that sulfur and nitrogen pollution causes is far from a 
regional issue. It is an issue of national, even international 
importance. Excess nitrogen in waters and in soils--``nitrogen 
saturation''--can be found in the North East and in West Virginia's 
Allegheny Mountains, Tennessee's Great Smoky Mountains, Colorado's 
Front Range of the Rockies and even as far west as the San Bernardino 
and San Gabriel Mountains. High levels of nitrogen deposition are 
causing nitrate to leach into stream water from these watersheds. This 
nitrate leaching acidifies streams and strips base cations from soils. 
In snow covered areas the flush of nitric acid stored in the snowpack 
is the leading cause of ``acid pulses'' which are responsible for fish 
kills during spring thaws.
    NAPAP found that high elevation areas in the Northeast and the 
Appalachians are bathed in acidic cloud water for extended periods of 
time. Sulfuric acid from sulfur dioxide emissions is the significant 
cause of the widespread spruce die back in these areas. The mechanism 
for the die back is the leaching of calcium from the spruce needles by 
the acidic fog which makes the trees susceptible to frost and winter 
injury.
    The coastal estuaries of the entire east coast suffer from airborne 
inputs of nitrogen that can make up nearly 40 percent of the total 
nitrogen loaded into their systems. From the Long Island Sound to the 
Chesapeake Bay to Tampa Bay in Florida, nitrogen-based pollution is 
overloading the water with nutrients. This causes ``eutrophication,''an 
overabundance of algae. These blooms are associated with fin fish 
kills, shellfish kills and human illness. When algae dies and decays, 
it depletes the water of precious oxygen needed by all aquatic animals. 
This condition is known as hypoxia.
    Perhaps even more alarming was NAPAP's finding that areas of North 
America that are not seeing damage now are likely to in the future due 
to an effect known as soil acidification. Over the long term, acidic 
deposition is slowly leaching away key soil nutrients like calcium and 
magnesium (known as base cations) that are essential for plant growth. 
This nutrient depletion is occurring in high and mid elevation forests 
in New England, New York and the Southern Appalachians. Fifty 9 percent 
of the commercial pine forest soil in all of the South East has low 
enough reserves of these chemicals to warrant concern.
    Acid deposition, whether from sulfur or from nitrogen based 
pollution, not only leads to base depletion, but also the release of 
toxic compounds from soils to living things. For example, the release 
of Aluminum from soils rapidly accelerates when pH drops below 5. The 
release of aluminum interferes with plant biochemistry. It is also the 
leading cause of fish mortality in affected lakes. In other words, it 
is not the acidity directly, but the aluminum toxicity that is 
responsible for the damage. This effect is very wide-spread. Studies 
conducted in the Shenendoah National Park show that fish species 
richness, population density, condition, age distribution, size and 
survival rate were all reduced in streams no longer able to neutralize 
acidity. A study of streams in the Adirondacks, Catskills and Northern 
Appalachians in Pennsylvania showed that episodic acidification ``acid 
pulses'' had long term adverse effects on fish populations including 
significant fish mortality. Lake acidification, whether from sulfur or 
nitrogen is also implicated in the increase in mercury concentrations 
found in fish. Acidity leads to greater conversion of mercury from its 
less toxic elemental form to methyl mercury, which is much more toxic. 
Fish consumption warnings due to mercury contamination are common in 
many states and are on the rise.
    All of this disturbing information has been exhaustively peer 
reviewed and verified by the May 1998 National Acid Precipitation 
Assessment Program Biennial Report to Congress.
    Other studies have found similar results:

    Environment Canada, in its 1997 report ``Toward a National Acid 
Rain Strategy'', said that reducing sulfur emissions significantly 
beyond the current Clean Air Act requirements in both countries would 
be needed for all of eastern Canada to be protected from acid rain. In 
southern Canada an area the size of France and Britain combined 
receives harmful levels of acid deposition. As many as 95,000 lakes in 
the region will remain damaged.
    A study recently released by Trout Unlimited that was conducted by 
the University of Virginia. The study found that without deep 
additional deposition reductions up to 35 percent of Virginia trout 
streams would become ``chronically acidic'' and would no longer support 
trout populations. The study further estimated that thousands of trout 
stream miles in the Southern Appalachians may be lost to acidification.
    We believe that a fair reading of the two reports to Congress lead 
to two very clear conclusions:

    First, that the mechanism of a national cap in emissions coupled 
with the pollution allowance trading program has been an outstanding 
success. All facilities are in compliance and there is every reason to 
believe that the target cap will be reached. The Administrative and 
implementation costs of the program are less than a traditional 
regulatory approach. Furthermore, the actual cost of the program is 
substantially less than projected at the time of adoption.
    Second, that despite the success of the regulatory scheme, the 
overall cap in emissions is too high to accomplish one of the primary 
goals of Congress, which was to protect sensitive resource areas from 
the harmful effects of acid rain.
    Senate bill 1097, is the best proposal we have seen to address the 
shortcomings of the acid rain program without doing harm to the 
positive accomplishments of the current program.
    The proposed Acid Deposition Control Act would essentially 
accomplish three things:

    First, it would build on the successful sulfur dioxide cap-and-
trade program by creating a third phase of reductions further along the 
current time line. All of the advantages of the current program are 
preserved. It is predictable, flexible, and cost-effective. The 
legislation would reduce sulfur-dioxide emissions by an additional 50 
percent.
    Second, it would create a new cap-and-trade program for nitrogen-
oxide emissions from utility smokestacks that mirrors the successful 
program already in place for sulfur. The role of nitrogen deposition 
both in high elevation waters and forests and in our coastal estuaries 
is much better understood and accepted by the scientific community. The 
proposed cap and trade program would reduce nitrogen emissions from 
utilities nationwide by approximately 70 percent of 1990 levels, 
resulting in a substantial and beneficial cut that is also reasonably 
achievable. Similar in structure to the existing sulfur program, the 
cuts would be phased in by two stages.
    We fully expect that utility executives will audibly grumble about 
the stringency of the proposal and its cost. But we fully expect that 
the additional reductions can be accomplished within the costs that 
were projected when Title IV was passed.
    It is also important to address the subject of the new air 
regulations issued just a week ago by the USEPA.
    It is a fair question to ask whether the nitrogen program proposed 
in Acid Deposition Act is necessary in light of the adoption of these 
new Federal regulations. We think the answer is quite definitely yes. 
USEPA has proposed a twenty-two state voluntary utility cap and trade 
program for nitrogen emissions as the preferred response for state 
compliance with its new ozone program.
    The EPA ozone proposal, which is only summer seasonal, will not 
address in any significant way, the acid rain problem. The issue is the 
total loading of nitrogen to sensitive areas. For high elevation areas 
the main concern stems from the buildup of nitrogen in the snow pack 
and the subsequent ``acidic pulse'' to aquatic systems in the spring of 
the year. Year-round controls will be necessary to address the nitrogen 
problem. Furthermore, only nationwide reductions will address the 
problems outside of the twenty-two state region covered by EPA's plan.
    The proposed Acid Deposition Control Act, will be a more effective 
and efficient way to accomplish both the public health goals of the 
ozone rules and the atmospheric loading of nitrogen to our sensitive 
ecological resources.
    Not only would the nitrogen program of the legislation under 
discussion today accomplish the same goals of the USEPA regulations, 
but will insure uniformity and an expanded market which will be more 
efficient and cost effective. The legislation will also level the 
competitive playing field for the utility industry. The Congressional 
Budget Office (Factors Affecting the Relative Success of EPA's Nox Cap-
and-trade Program, June 1998), identified similar benefits to providing 
additional statutory authority in a report on the proposed rules this 
summer.
    Third, the Acid Deposition Control Act would provide additional 
resources to the monitoring and research networks that on a shoe-string 
budget have provided the nation's research scientists with invaluable 
data on the actual state of affairs on the ground and in the air. The 
level of scientific certainty and confidence on acid rain has improved 
substantially since 1990 because we now have the ability know what goes 
up the stack coupled with an accurate monitoring of our air and water 
resources. The Acid Deposition Control Act would continue to improve 
our monitoring and therefor our ability to assess the success of these 
programs.
    As advocates for the preservation of the wild character of one of 
the nation's greatest parks, imagine our dismay in reading the reports 
from USEPA and NAPAP on the future of the Adirondacks.It is small 
wonder then that more than 150,000 New Yorkers have signed petitions 
urging more action on acid rain in the past year, collected by the 
Citizens Campaign for the Environment, our member organization.
    The need for additional action on acid rain is not just a New York 
perspective. In May of this year the Conference of New England 
Governors and Eastern Canadian Premiers recommended additional 
reductions in utility emissions of SO<INF>2</INF> and NOx nearly 
identical to those called for in S. 1097. The problems these pollutants 
bring are felt from the Chesapeake to Tampa Bay, and in the Rockies, 
Sierra Nevada and Appalachian Mountains. The Acid Deposition Control 
Act will improve the environment and public health to the benefit of 
virtually every American.
    Mr. Chairman, the scientific uncertainty that existed in the early 
1990's has been removed. The basis for strong action could not be 
better articulated than in the significant findings of these reports 
which we believe wholly support the actions and elements of S. 1097. We 
urge the Committee to move this bill to the floor for consideration by 
the full Senate at the earliest opportunity. Thank you again.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Responses by Bernard Melewski to Additional Questions from Senator 
                                Moynihan

    Question 1. What human health effects result from acidification of 
aquatic systems in New England?
    Response. There is extensive literature regarding large negative 
human health effects from the pollutants that cause acid rain in their 
airborne forms: sulfate aerosols and ozone. However your question is 
directed at human health effects related only to the acidification of 
aquatic systems. Acidified water bodies generally have higher levels of 
Mercury in them than non-acidified waters. This is due to higher levels 
of mercury deposition and the leaching of mercury from watersheds by 
acidity. Also, the acidity may speed the process that changes inorganic 
mercury to its more toxic organic form. The Mercury Study: a Framework 
for Action conducted by Northeast States for Coordinated Air Use 
Management (NESCAUM) and others noted that 39 of the lower 48 states 
had fish consumption advisories for mercury. Mercury is a toxic heavy 
metal associated with damaging effects on the neurological development 
of mammals and birds. The study noted that available science indicates 
that the adverse health effects associated with exposure to mercury may 
not be reversible. Many of the combustion sources that emit acid rain 
precursors also emit mercury.A study conducted by H. Simonin, et. al. 
titled, ``Mercury in Yellow Perch from Adirondack Drainage Lakes'' 
found that the pH of the lake in which perch lived was the best 
predictor of the amount of mercury in the lake's fish. In other words, 
fish from acidified lakes have more mercury (and are more dangerous to 
eat) in them than fish from healthy lakes.
    National Acid Precipitation Assessment Program (NAPAP) study State 
of Science and Technology report #23: Indirect Health Effects 
Associated with Acidic Precipitation discussed lead exposure. Acidic 
surface water used as drinking water can leach lead out of the fittings 
and solder that make up normal household plumbing systems. The report 
found that this added lead exposure could cause young children and 
pregnant women to be at increased risk of the adverse health effects 
associated with lead exposure.

    Question 2. Are there economic impacts due to acid deposition in 
the Northeast? If the economic impacts are difficult to quantify, 
please discuss the effects qualitatively.
    Response. The 1998 NAPAP report discussed a wide variety of 
negative impacts caused by acid deposition. In many cases, the actual 
economic cost of these impacts can be difficult to quantify. Where 
economic analysis would be possible in some cases, little research has 
been done.'It is nonetheless safe to say that there are very 
significant economic impacts of acid deposition.
    It is worth noting that NAPAP/98 found that the costs of 
implementing the existing acid rain program were far outweighed by the 
benefits to human health alone. A brief list of the negative effects of 
acid rain and its precursor chemicals would include damage to 
commercial farms and forests, recreational fisheries, visibility, and 
cultural and material resources. NAPAP found that roughly 900,000 
properties of historic value were at risk for damage by acid 
deposition, not including as many as 30 million grave markers. 
Structures made out of limestone and marble are particularly sensitive 
to erosion caused by acid deposition.
    The negative economic effects of this damage to the tourism, 
agriculture and forestry industries are potentially quite large.
                               __________
    Statement of William F. Tyndall, Vice President, Environmental 
                        Services, Cinergy Corp.
    Mr. Chairman and members of the Committee, my name is William F. 
Tyndall. I am Vice President of Environmental Services for Cinergy 
Corp. I am pleased to be here today to present testimony on behalf of 
Cinergy on a subject that this company probably knows too much about--
acid rain legislation and sulfur dioxide (SO<INF>2</INF>) controls. As 
of one of the very first utilities to embrace the concept of strict 
SO<INF>2</INF> controls as part of the 1990 Clean Air Act Amendments--
which this committee was instrumental in getting enacted--Cinergy is in 
a unique position to comment on S. 1097. To summarize our views, while 
we are committed to addressing the environmental consequences of our 
generating stations, we believe it is premature to adopt any new 
reduction programs until the existing Acid Rain provisions of the Clean 
Air Act Amendments of 1990 and the new regulatory requirements spawned 
by EPA's recent decisions on the National Ambient Air Quality Standards 
(NAAQS) and the rule relating to transport of nitrogen oxides (NOx) are 
given a chance to work.
    Cinergy Corp. and its operating utility subsidiaries (Cinergy) own 
and operate fossil fired and hydroelectric generating facilities in 
Indiana, Kentucky and Ohio. Cinergy was created in 1994 through the 
merger of The Cincinnati Gas & Electric Company and PSI Energy, Inc. 
The Cinergy companies serve over 1.4 million customers with natural 
gas, electricity, or both in those three states.
The Power of Coal
    Cinergy is one of the nation's largest coal-burning utilities. 
There are those in the environmental community and in government that 
see coal as a four letter word. They would have us abandon this 
valuable natural and economic resource. Coal is an important fuel 
source for electric generation, accounting for 57 percent of all power 
produced in the United States. Coal will continue to be a large part of 
our national energy strategy. Cinergy knows that coal can be used in an 
environmentally responsible fashion. In its operations, Cinergy accepts 
this obligation for ensuring protection of the environment. However, by 
endorsing the 1990 Clean Air Act Amendments, PSI Energy, Inc., a 
Cinergy subsidiary, helped signal a then new way of thinking--that 
command-and-control environmentalism was doomed to a future of market-
based solutions that actually provide incentives for companies to 
reduce their emissions.
Cinergy's View
    Cinergy remains committed to promoting cost-effective and 
innovative ways to attain cleaner air. This is particularly important 
as the industry moves toward competitive marketplaces that will add 
even more pressure to keep customer costs as low as possible. Cinergy 
believes it is paramount that industry, government, the environmental 
community and other parties work together to find common sense 
solutions to environmental concerns. We believe that success in 
business and environmental excellence can and must go hand in hand. As 
an example of its commitment to the environment, on the first day of 
business as a merged company, Cinergy's Board of Directors adopted an 
Environmental Pledge to govern corporate actions.
Cinergy Steps Forward
    In September 1997, Cinergy was the first Midwestern utility to 
voluntarily commit to additional reductions of nitrogen oxides (NOx) to 
support attainment of the existing clean air standards and to address 
the issue of NOx transport. At that time we also stated our support for 
market based solutions and for emissions trading. We also announced a 
voluntary demonstration project for the first application of Selective 
Non-Catalytic Reduction technology (SNCR) on Midwestern fuel at our 
Miami Fort Station near Cincinnati, Ohio. We realized that future 
emissions reductions were going to heavily depend upon technologies 
that were new and largely unproven on boilers of the size and 
configuration that we operate, or that use our fuel types. This 
demonstration began in June of this year and has so far been successful 
in reducing NOx emissions by 30 percent.
The Clean Air Act Is Working
    There has been tremendous success in cleaning the nation's air. The 
work accomplished under the original Clean Air Act and its subsequent 
amendments has been a major contribution to this improvement. Lest we 
forget how far we have come in this effort, consider the following 
facts as presented in EPA's ``Summary of National Emissions Trends, 
1900-1996'': \1\
---------------------------------------------------------------------------
    \1\ Summary of National Emissions Trends, 1900-1996
---------------------------------------------------------------------------
    <bullet>  Total SO<INF>2</INF> emissions for 1995 and 1996 were 
lower than in 1940 (18,552,000 and 19,113,000 vs.19,952,000 tons 
respectively)
    <bullet>  Total VOC emissions for 1995 and 1996 were less than in 
1950 (20,586,000 and 19,086,000 vs. 20,936,000 tons respectively)
    <bullet>  Total NOx emissions for 1995 and 1996 were less than in 
1980 (23,935,000 and 23,393,000 vs. 24,875,000 tons respectively)
    In addition, I am pleased to confirm that the Greater Cincinnati 
Area, Cinergy's headquarters city, has met the requirements to apply 
for re-designation to attainment status for ozone. This success has 
come through cooperation between industry, government, and the people 
of our area. It is Cinergy's request that the Senate continue to 
encourage the EPA, industry and all other parties to work cooperatively 
and in the spirit of compromise to address pollution concerns and solve 
these concerns in a cost effective fashion. In this way, environmental 
benefits do not have to come at the expense of the economy.
    This is not to say that everything is done. As the committee 
considers S. 1097, it is necessary to keep in mind not only where 
environmental programs have been, but also where they are going. We 
know we will get large additional reductions from utilities beginning 
in the next few years. Many of these programs post-date the 
introduction of S. 1097. Still other provisions are premature because 
the benefits of these further reductions are not yet realized. It is 
imperative that Congress understand the full impacts of all these 
adopted and pending measures before it legislates further.
    In my remaining remarks, I will describe several of the current 
regulatory programs that have been, or soon will be, enacted that 
greatly impact utility operations. Congress established the Acid Rain 
Program in Title IV of the Clean Air Act Amendments (CAAA) of 1990. Its 
goal was to reduce acidification of lakes and streams, damage to trees, 
structural and architectural materials, and improve visibility by 
reducing SO<INF>2</INF> and NOx emissions. The amendments placed a cap 
on SO<INF>2</INF> emissions at a level 10 million tons per year below 
1980 levels. In addition, NOx emissions were to be reduced 2 million 
tons below 1980 levels. \2\ This program has already produced 
substantial reductions in SO<INF>2</INF> and NOx. In the first year 
alone, SO<INF>2</INF> emissions fell by about 5.6 million tons. NOx 
emissions are expected to fall 400,000 tons per year by 1999. In the 
year 2000, the second phase of the Title IV program takes effect, and 
an additional 4.6 million tons of SO<INF>2</INF> reductions and 1.6 
million tons of NOx reductions will occur. \3\
---------------------------------------------------------------------------
    \2\ Source www.epa.gov/acidrain/noxts3.html
    \3\ Source www.epa.gov/acidrain/overview.html
---------------------------------------------------------------------------
Sulfur Dioxide
    Since 1990, Cinergy has reduced its emissions of SO<INF>2</INF> per 
kWh of electricity by 42 percent and emissions of NOx per kWh by 27 
percent. Cinergy further projects that it will further reduce its 
emissions per kWh by a total of 50 percent for SO<INF>2</INF> and 34 
percent for NOx when the second phase of Title IV takes effect in the 
year 2000. To achieve these results, Cinergy has made and will continue 
to make significant expenditures to reduce these acid rain precursors. 
\4\
---------------------------------------------------------------------------
    \4\ Cinergy internal estimates.
---------------------------------------------------------------------------
    <bullet>  Title IV NOx Phase I & II capital expenditures of about 
$100 million.
    <bullet>  Title IV SO<INF>2</INF> Phase I capital expenditures of 
about $333 million.
    <bullet>  Title IV additional O&M SO<INF>2</INF> expenditures of 
about $90 million for 1995 and 1996 including allowance purchases.
    In addition during the construction of the W. H. Zimmer Station, 
Cinergy and its partners spent $350 million for environmental control 
equipment including precipitators, scrubbers, and low NOx burners. This 
station began commercial operation in 1991 and was recognized by EPA 
Region V for excellence in SO<INF>2</INF> control.
    SO<INF>2</INF> emissions in the United States are the lowest in 
over 50 years as a result of these existing programs. Nationally, NOx 
emissions have remained fairly constant between 1980 and 1996, even 
with the tremendous increase in vehicular traffic, fuel combustion and 
other source activity. The second phase of SO<INF>2</INF> and NOx 
reductions under Title IV will begin in a little over 1 year. 
Additional near term reductions are expected with the new NOx SIP Call, 
the new NAAQS for PM<INF>2.5</INF>, and potentially under the proposed 
rules for Regional Haze. It will take time for the full effect of these 
new efforts to be fully seen in the environment.
    However, the environment is already seeing the benefits of these 
reductions. The first year's reductions made under Phase One of the 
CAAA's Title IV alone produced measurable differences in acid 
deposition. The U.S. Geological Survey found that when 1995 data was 
compared with that of 1983 through 1994, there was a 10 percent to 25 
percent drop in wet deposition of sulfate concentration and acidity 
particularly at some sites in the Midwest, the Northeast, and Mid-
Atlantic Regions. In addition, SO<INF>2</INF> concentrations have 
fallen 37 percent between 1986 and 1995 at ambient monitoring sites. 
\5\
---------------------------------------------------------------------------
    \5\ EPA Brochure on National Air Quality: Status and Trends, 1996.
---------------------------------------------------------------------------
NOx SIP Call
    EPA has recently finalized its NOx SIP Call rule. This rule 
establishes limits on summer NOx emissions, and places a cap on utility 
NOx emissions during the summer ozone season in 22 eastern states and 
the District of Columbia. This utility cap is based on an extremely low 
mass emissions rate of 0.15 lb NOx/mmBtu of heat input. Overall, the 
rule is expected to reduce NOx emissions during the ozone season in all 
sectors from 4.2 million tons to 3 million tons per season, or a 
decrease of 28 percent. Utility NOx will fall from 1.5 million to 0.5 
million tons per season for a 64 percent decrease. The estimated 
capital cost to utilities in the 22 state region is over $14 billion. 
Cinergy estimates its potential capital cost between now and 2003 to be 
between $500 and $600 million. Clearly utilities are bearing the brunt 
of these reductions.
    The rule requires the affected jurisdictions to modify their State 
Implementation Plans (SIPs) to incorporate the requirements of this 
rule and submit the revised plans by September 30, 1999. Many of the 
requirements of S. 1097 are contained in the final NOx SIP Call. These 
provisions include, but are not limited to:
    <bullet>  A NOx allowance program for the 22 states and District of 
Columbia affected by the rule.
    <bullet>  State by state NOx allowance allocations, and a suggested 
an allowance distribution scheme within the states.
    <bullet>  An allowance banking and tracking system and a NOx 
allowance transfer system(model trading rule) for the states to adopt 
at their discretion.
    <bullet>  A recommendation for states to establish ``new source 
set-asides'' for new sources.
    <bullet>  A proposed Federal Implementation Plan (PIP) in the event 
a state fails to submit an acceptable plan containing the requirements 
established in the SIP Rule.
    NOx and volatile organic compounds (VOCs) are the two precursors 
that form ground level ozone. The most effective approach to resolving 
ozone concerns is a mixture of NOx and VOC controls. The appropriate 
mix of these controls varies by region. In the Greater Cincinnati area 
for example, it has been shown that VOC controls are more effective for 
attaining the existing 1 hour ozone standard. The Ozone Transport 
Assessment Group (OTAG) showed that the impacts of air pollutants 
carried by air currents decrease exponentially with distance from the 
source of release. In addition, power plants currently produce only 29 
percent of all NOx emissions. The transportation sector produces 49 
percent, with the balance of 22 percent being produced by all other 
industrial and fuel combustion sources. In addition, power plants 
produce negligible amounts of VOCs. Individual conditions are very site 
specific. Therefore Cinergy believes that a local and sub-regional 
approach to controlling ground level ozone is most effective, as 
opposed to the one size fits all approach embodied in the NOx SIP Call. 
\6\
---------------------------------------------------------------------------
    \6\ The Chesapeake Bay and the Control of NOx Emissions: A Policy 
Analysis, August 1998, Discussion Paper 98-46, Resources for the 
Future, Alan Krupnick.
---------------------------------------------------------------------------
    Last summer, EPA revised the NAAQS for ozone, created the new 
PM<INF>2.5</INF> health standard, and proposed regional haze 
regulations. In doing so, it set in motion a process that will likely 
result in further reductions in many pollutant precursors, including 
SO<INF>2</INF> and NOx beyond those called for by Title IV and the NOx 
SIP Rule. Scientific research has shown that small aerosol particles 
generated from a wide variety of sources are significant contributors 
to both visibility impairment and the level of fine particulates in our 
air. An important portion of these particles is believed to be caused 
by emissions of SO<INF>2</INF> and NOx. Fine particulate emissions come 
not only from utilities but other industries and the transportation 
sources as well. In fact, many of these are in close proximity to urban 
areas. Ongoing research and monitoring efforts are designed to quantify 
the magnitude and source of these emissions. These particulate 
reductions will not only result in additional health benefits, but also 
will reduce acid deposition.
    I should point out that as a result of the Senator Inhofe's 
Amendment to the transportation bill enacted last spring, Congress 
established a schedule for implementing the new PM<INF>2.5</INF> 
standard. Senator Inhofe's Amendment was based on the consensus view 
that there should be no implementation of the new standard until the 
necessary monitoring data was collected regarding the amount and 
composition of the fine particulate matter in the air. Without this 
data, States can not make informed decisions regarding the amount or 
location of emissions reductions needed to meet the new 
PM<INF>2.5</INF> standard.
    In conference, the conferees extended the implementation schedule 
to include EPA's proposed regional haze program. In effect, Congress 
realized that the compounds blamed for regional haze--such as sulfur 
dioxide--are also the pollutants of concern for the fine particulate 
matter problem. Moving ahead on regional haze without the fine 
particulate matter monitoring program would clearly be imprudent.
    The same logic should apply to S. 1097. The new fine particulate 
matter standard, the regional haze program and the acid rain program 
all target sulfur dioxide. It makes no sense to implement them on 
separate time tables. It also makes no sense to force States to make 
arbitrary and untargeted cuts without the technical information that 
everyone--including EPA--agrees the States should have to make 
effective reduction strategies. It also allows individual or groups of 
States to balance technical and economic criteria and maintain state 
primacy of their duties without Federal preemption. In short, the 
SO<INF>2</INF> program as envisioned by this bill would conflict with 
Senator Inhofe's Amendment as ultimately included in the highway 
legislation.
Mercury
    Late last year, EPA released the ``Mercury Study Report to 
Congress''. This report was required by section 112(n)(1)(B) of the 
1990 CAAA. It is the most comprehensive study of mercury in the 
environment to date. While EPA pointed out areas where they think 
additional data is needed, and they did reach several important 
conclusions. EPA estimates U.S. anthropogenic mercury emissions from 
all sources to be about 187 tons per year. This estimate mirrors that 
of the Electric Power Research Institute. Utilities comprise only about 
one third of total emissions. In addition, total global emissions of 
mercury from all sources are estimated to be 5,500 tons per year, 
making U.S. sources only about 3 percent of the world's total. Because 
of the global nature of mercury transport, it is not clear that 
reductions in domestic mercury emissions will produce demonstrable 
reductions in exposure.
    Despite the close agreement in the estimates of mercury emissions, 
EPA has since announced a Mercury Information Collection Request (ICR) 
that currently proposes to require utilities to provide specific data 
on coal characteristics from each generating station. Cinergy 
anticipates that this ICR will not appreciably improve the currently 
available data. EPA is also considering lowering the threshold 
reporting limits for mercury under the Toxic Release Inventory program. 
\7\
---------------------------------------------------------------------------
    \7\ Mercury Study Report To Congress Volume I: Executive Summary, 
December 1997.
---------------------------------------------------------------------------
    In the same report, EPA describes its review of available control 
methods for mercury. EPA states, ``Although a number of mercury control 
technologies are being evaluated for utility boilers, most are still in 
the research stages, making it cliff cult to predict final cost 
effectiveness as well as the time to scale-up and commercialize the 
technologies. Because the chemical species of mercury emitted from 
boilers varies from plant to plant, there is no single technology that 
removes all forms of mercury.'' The report goes on to state that 
although estimates have wide variability and costs will be in the 
billions of dollars per year, more research is needed before 
technologies can be applied. \8\
---------------------------------------------------------------------------
    \8\ Mercury Study Report To Congress Volume I: Executive Summary, 
December 1997.
---------------------------------------------------------------------------
    EPA concludes that the average citizen is not at risk from mercury 
exposure. Only a small subset of the population is potentially 
impacted. The latest research indicates that the reference dose EPA 
uses to access risk is perhaps a factor of five too high. EPA's 
reference dose is based on short term, but high intensity exposures 
associated with a mercury poisoning incident in Iraq. Several studies 
from the Seychelle Islands and other locations which focus on low level 
exposures from fish consumption indicate that EPA's current reference 
dose is too conservative, even considering an appropriate safety 
factor. \9\ For this reason there is disagreement between different 
Federal agencies such as the Food and Drug Administration and the 
Agency for Toxic Substances and Disease Registry as to what this limit 
should be. The White House Office of Science and Technology Policy will 
launch an effort to resolve this conflict starting with a workshop next 
month. We encourage the EPA to work to resolve these differences by 
adopting a reference dose that considers the new scientific data and is 
also in line with that of the FDA and ATSDR, so that an appropriate 
exposure standard that is protective of public health can be agreed 
upon. Therefore there should be no regulatory action on mercury 
emissions until the Federal Government sets final exposure limits.
---------------------------------------------------------------------------
    \9\ Effects of Prenatal and Postnatal Methylmercury Exposure from 
Fish Consumption on Neurodevelopment, Davidson, Philip W., et al. 
Journal of the American Medical Association, August 26, 1998, p. 701.
---------------------------------------------------------------------------
Conclusion
    In summary, I would like to repeat that our country is benefiting 
from tremendous improvements in our air quality. This has come from the 
hard work of industry, government, the environmental community and 
other stakeholders.We know the implementation of the Clean Air Act to 
date has already brought additional emission reductions in 
SO<INF>2</INF>, NOx, and particulate matter. The benefits of these 
reductions are already being seen in the environment. Because of 
current initiatives under the existing law and ongoing regulatory 
actions, Cinergy sees no reason for Congress to pursue additional 
emission reductions at this time. As a proponent of competition in 
electric markets, Cinergy believes that many technological advances 
will be made in the coming years to make producing electricity even 
cleaner and more efficient. . The arbitrary addition of costly 
pollution control equipment at this time could actually impede such 
technological innovation by utilities and others. Once the 
implementation of the various pending environmental laws and 
regulations is complete, Congress should fully evaluate their 
effectiveness before imposing additional requirements. \10\
---------------------------------------------------------------------------
    \10\ National Acid Precipitation Assessment Program Biennial Report 
to Congress: An Integrated Assessment, National Science and Technology 
Council, Committee on environment and Natural Resources, May 1998, 
pages 23-24.
---------------------------------------------------------------------------
    I would like to thank this distinguished committee for the 
opportunity to appear before you.
                                 ______
                                 
   Responses by William Tyndall to Additional Questions from Senator 
                                Sessions

    Question 1. What standard for mobile sources have the states in the 
Northeast imposed to meet state and federal air emissions limits?
    Response. Title II of the Clean Air Act provides for EPA to set 
national ``tail pipe'' emissions standards for mobile sources. These 
national standards preempt State tail pipe standards, except in 
California, which is allowed to set more stringent standards. The Clean 
Air Act, however, does allow States to ``opt in'' to the more stringent 
California standards. Recently automobile manufacturers have offered to 
produce for sale in the Northeast (and elsewhere) automobiles meeting 
emissions standards equivalent to the California standards. States in 
the Northeast have either accepted this program or have formally opted 
in to the California mobile source program.
    The Northeast States have made less progress in adopting the 
enhanced inspection and maintenance programs called for by section 
182(f) of the Clean Air Act. These programs are designed to ensure that 
cars continue to meet tail pipe standards once they are in operation 
and are viewed as a potent and cost effective tool in the fight against 
ozone. In June 1998, Congressman Henry Waxman requested the General 
Accounting Office to determine the status of the enhanced Inspection 
and Maintenance Plans of states required to adopt such programs 
(including the Northeast). A copy of the GAO report (GAO/RCED-98-175) 
is attached to this response. For your convenience, the GAO ``Results 
in Brief'' is repeated below.
    ``Two of the 23 states had begun testing vehicles by the January 1, 
99S deadline that EPA set for implementing enhanced inspection and 
maintenance programs, and 12 had begun testing vehicles as of April 
1998. A number of factors have contributed to delays in implementing 
programs. Opposition to EPA's enhanced inspection and maintenance 
regulation--including the reluctance of some state legislatures to 
provide the legislative authority and funding needed to implement these 
programs--cause most of the 23 states to delay implementation. In 
addition, the states had difficulty in obtaining new testing equipment 
and software support from vendors.
    The delays in implementing enhanced inspection and maintenance 
programs have jeopardized the states' ability to meet the deadline for 
attaining the national ozone standard. EPA has allowed the states to 
claim credit for future reductions in emissions of volatile organic 
compounds from their enhanced inspection and maintenance programs, 
provided they demonstrated that they will achieve the required 
reductions as soon as practical after November 1996. If states cannot 
demonstrate that reductions in volatile organic compounds can be 
obtained from the mandatory enhanced inspection and maintenance 
programs, they may have to look to other mobile sources as well as 
stationary sources to meet their goals for reducing these emissions. 
However, achieving further reductions from other sources will be costly 
and take longer than achieving the reductions from enhanced inspection 
and maintenance programs.''

    Question 2. What standards has California imposed for mobile 
sources to meet state and Federal emissions standards?
    Response. California has more extensive regulations on mobile 
sources than any other state as a result of the substantial role that 
the transportation sector plays in contributing to violations of the 
national ambient air quality standards, especially in Southern 
California. As discussed, California is the only state in the Nation 
allowed to adopt their own mobile source standards.
    California has continued to evaluate the benefits of additional 
mobile controls and strengthen tailpipe and fuel standards. Attached is 
a summary of transportation emission controls strategy measures 
included in the 1994, and updated in the 1997 California South Coast 
Air Quality Management Plan. To our knowledge these are the most 
current rules being implemented in California. The first two pages are 
a list of the South Coast mobile control strategies. Note that rules 
M1-M16 are California Air Resources Board (CARB) level controls, and 
the South Coast has simply added three additional controls (MON-09, 
MON-10, and MOF-07) to the controls prescribed in the California 1994 
SIP for on-road and off-road vehicles. The next two pages are a 
description of the CARB level control M1-M-16, with implementation 
dates and reduction estimates. The final two pages contain a table 
taken from the South Coast 1997 AQMP which describes the Transportation 
Improvements and Transportation Technology Measures in more detail.
    In November of this year, CARB approved tighter emissions standards 
for light duty trucks and passenger cars. These new standards extend 
California's strict low-emission vehicle standards (LEV-II) to light-
duty trucks, mini-vans, and sport-utility vehicles. These new standards 
will cut NOx emissions 75 percent from current levels beginning with 
model year 2004. These standards also increase the life expectancy for 
tailpipe emissions control equipment from 100,000 miles to 120,000 
miles. The new LEV-II also establishes for the first time a market-
based system for automakers to help them reach a mandated 10 percent 
market share for zero-emission vehicles by 2003.

    Question 3. Which would be most effective in improving air quality 
for the North East, adopting local standards similar to those in effect 
in California or reducing background levels?
    Response. Over the past few years, substantial progress has been 
made in understanding the complex relationship between NOx and VOC 
emissions from local and remote sources to high levels of ozone in the 
Northeast.
    While the focus of the Ozone Transport Assessment Group (OTAG) 
study was not on examining local impacts, sufficient modeling was 
conducted for the group to develop the following conclusions:
    ``Based on OTAG modeling, the Regional and Urban Scale Modeling and 
Air Quality Analysis Workgroups have drawn several conclusions 
regarding the benefits to be derived from NOx and VOC controls for all 
source sectors and regarding ozone transport. Regional NOx reductions 
are effective in producing ozone benefits: the more NOx reduced, the 
greater the benefit. Ozone benefits are greatest where emission 
reductions are made and diminish with distance. Elevated and low level 
NOx reductions are both effective. VOC controls are effective in 
reducing ozone locally and are most advantageous to urban nonattainment 
areas. . . .'' (Emphasis added.)'
    The final OTAG results clearly demonstrate that local emission 
reductions in the Northeast -whether from the transportation sector or 
from local stationary sources--are more effective in lowering ozone 
concentrations than emissions reductions from States upwind of the 
Ozone Transport Region.
    During the ozone transport SIP Call comment period, many states and 
organizations outside the Northeast developed additional information 
that provided auxiliary analyses to quantify the impact of controls on 
distant sources versus additional local controls in the Northeast. One 
such example of the distinction between local versus distant source 
impacts is found in Figure 9 (attached) from the Alliance for 
Constructive Air Policy SIP Call comments. This figure shows that 
emissions from local elevated (utility and other tall smokestack 
sources) and low level (near ground level) sources comprised a 
majority, 45 percent and 17 percent respectively, of ozone 
contributions above the 1-hour standard in the metropolitan New York 
area. And ``utility'' emissions from all the distant upwind states 
combined only contribute 10 percent of the ozone associated with 1 hour 
ozone exceedances.
    A similar study was conducted by the Midwest Ozone Group that also 
examines the benefits of local controls in the Northeast versus 
controls in distant upwind state. The baseline ozone concentration is 
significantly lowered by imposing a 0.151b/mmbtu rate only on NOx 
sources located entirely within the Inner Zone and the Northeast Ozone 
Transport Region (NEOTR). Imposing controls on sources located outside 
the Inner Zone of the NEOTR at increasing levels of stringency results 
in little or no additional air quality improvement. An additional 30 
percent reduction in emissions of low level VOC and NOx from sources 
located entirely within the Inner Zone of the NEOTR also show 
significant air quality improvement. This and other studies demonstrate 
that the most effective way to meet the ozone standard will be to focus 
on additional local emission reductions.
    ``'Ozone Transport Assessment Group, Final Recommendation on Major 
Modeling/Air Quality Conclusions, Approved by the Policy Group, June 3, 
1997.''
                                 ______
                                 
   Responses by William Tyndall to Additional Questions from Senator 
                                Moynihan

    Question 1. In your testimony, you stated that it is premature to 
adopt the provisions contained in S. 1097 until the Clean Air Act 
Amendments of 1990, the 1995 National Ambient Air Quality Standards 
(NAAQS) and the recent NOx State Implementation Plan (SIP) Call have 
been fully implemented. How would you reconcile your position with the 
evidence provided by the recent National Acid Precipitation Assessment 
Program (NAPAP) report to Congress which indicates that the reductions 
of SO<INF>2</INF> and NOx emissions required by existing programs will 
not be sufficient to prevent further damages from acid deposition?
    Response. NAPAP did not and could not assess the impact of any 
recent reductions in SO<INF>2</INF> and NOx levels due to continued 
implementation of Title IV of the Clean Air Act, let alone the 
reductions that will occur due to the NOx SIP call and implementation 
of the new National Ambient Air Quality Standards for fine particles 
and ozone.
    For the most recent NAPAP Study (1996)', only the Phase I 
SO<INF>2</INF> controls were in place. Reductions from Phase II 
SO<INF>2</INF>, Phase I NOx, and Phase II NOx were not in place and 
could not be measured. In fact, NAPAP's report acknowledges this:
    ``NAPAP recognizes with the passage of the 1990 Clean Air Act 
Amendments that a complete assessment of Title IV in 1996 would be 
premature because emissions reductions did not occur until 1995. 
Further more, due to scientific uncertainties, weather variability, and 
the inherent slow response times of many ecosystems, a quantification 
of human and ecosystem responses to any changes in emissions could not 
be made with reasonable confidence in 1996. Hence, a limited assessment 
was planned for 1996, with the goal of a more comprehensive assessment 
in 2000.
    Qualitatively, Title IV has been effective in reducing acid 
deposition. However the geographical distribution and the quantitative 
measure of the changes in total deposition resulting from emissions 
reductions require a longer monitoring record and further analysis. 2
    At this time, we know that the substantial reductions brought by 
Phase I of the SO<INF>2</INF> program have improved sulfur 
concentrations in wet and dry deposition. Concentrations of sulfate in 
lake and stream waters have decreased in many areas. There is also 
evidence of recovery from acidification in New England. Although 
sulfate concentrations in many Adirondack Lakes have remained fairly 
constant, this does not signify a need to impose reductions in 
SO<INF>2</INF> emissions beyond what is required under Phase II of the 
Acid Rain program.
    National Acid Precipitation Assessment Program Biennial Report to 
Congress: An Integrated Assessment pg. 96. 2 Ibid., at pg. 94
    As noted, the 1996 NAPAP study was conducted after only 1 year of 
Phase I Acid Rain program SO<INF>2</INF> emissions reductions. Phase I 
of the program, however, includes only the largest, highest emitting 
sources in the country and allocated allowances based on a 2.5 lb/mmbtu 
emission rate. Moreover, in the years 1995 and 1996, Congress allocated 
an extra 3.5 million allowances as compliance extensions for sources 
installing scrubber technology, resulting in 3.5 millions tons of 
SO<INF>2</INF> emissions beyond what would other wise have been allowed 
in Phase I of the program.3 Thus, the majority of SO<INF>2</INF> 
emissions reductions resulting from the acid Rain program are 
anticipated to occur in Phase II, which begins in 2000, includes all 
coal- and oil-fired electricity generating units (except for very small 
units), and is based on a substantially more stringent emissions rate 
(1.2 lb/mmBtu) that was the basis for the Phase I limits.
    Furthermore, current scientific research suggests that nitrogen 
oxides may be as important as SO<INF>2</INF> in causing acidification. 
EPA's recent NOx SIP Call, which will be implemented in 2003, can be 
expected therefore to result in significant additional benefits for the 
Adirondack Lakes. Again, however, further NAPAP assessments will be 
necessary to determine the impact of these reductions on acidification.
    Finally, the Title IV acid rain program and the NOx SIP call will 
not be the last source of SO<INF>2</INF> and NOx reductions. In 1997, 
EPA promulgated a new fine particulate standard and a new ozone 
standard. According to EPA's regulatory impact analysis, these new 
standards will require reductions in SO<INF>2</INF> and NOx reductions 
below the levels required under the existing acid rain program. At a 
minimum, Congress should have a substantial understanding of the impact 
of these additional reductions on the acidification of the Adirondack 
Lakes before it considers additional acid rain legislation.

    Question 2. Please comment on the cost effectiveness of the Acid 
Rain programs established under Title IV.
    Response. The cost effectiveness of Title IV has been good as a 
result of the successful use of market mechanisms. The average 
compliance costs as quoted by EPA, EPRI, and other sources have been 
lower than predicted for Phase I and have ranged between $70 and $180 
per ton. Phase II compliance costs are expected to be between $200 and 
$400 per ton.
    While there were initial cost estimates that were significantly 
higher, they did not reflect the benefits of a fully implemented cap 
and trade program. In addition, when implementing the SO<INF>2</INF> 
reductions of Phase I of the Title IV, there was a dramatic unforeseen 
drop in the price of low sulfur coal from the Powder River Basin (PRB). 
This gave many utilities the unexpected option of using lower sulfur 
fuel. In many cases, use of PRB coal replaced the need for scrubbers. 
These dynamics fueled a vigorous market, and encouraged over-compliance 
with Phase I emission limits by some utilities in the early years of 
the program. As a result, the environment benefited from greater early 
reductions than envisioned by the CAA Amendments. However, Cinergy does 
not expect these same conditions to be present for NOx reductions under 
the SIP Call, or future SO<INF>2</INF> reductions beyond Phase II of 
Title IV, thus increasing utility compliance costs.
    3 See 42 U.S.C. Sec. 765 Id.(a)(2), (d).

    Question 3. In your testimony before the subcommittee, you noted 
that as a result of the NOx SIP Call, many utilities would adopt 
approaches to emission reductions which would in fact produce emissions 
reductions on a year-round basis (e.g. fuel switching).
    a. To what extent does Cinergy intend to adopt approaches to 
emission reduction which will result in year-round reductions?
    Response. Cinergy will consider a combination of techniques to 
reduce NOx emissions, including fuel switching and co-firing, add-on 
controls, improvements in controls and burner operations and purchasing 
allowances. Fuel switching and improvements in burner technology are 
permanent changes to units which will therefore operate year round. In 
addition, any new generation that Cinergy builds will probably consist 
of natural gas fired combustion turbines. At this time, Cinergy has not 
completed its compliance planning and cannot provide any specific 
prediction of its reliance on these types of compliance strategies.
    b. To your knowledge, which utilities have indicated they are 
likely to adopt approaches to emissions reduction which will result in 
year-round emissions?
    Response. Cinergy expects that other Mid-West utilities will 
consider using the same mix of techniques to comply with the SIP Call. 
However, at this time, Cinergy is unaware of any utility that has made 
any final decisions regarding its compliance strategy.
    c. What are the marginal costs per ton of NOx emission reduction 
under the NOx SIP Call? What would the marginal costs per ton be under 
S. 1097?
    Response. S. 1097 is an annual reduction program while the NOx SIP 
Call is a 5-month seasonal program. The marginal costs per ton of the 
two programs are not directly comparable. Under the NOx SIP Call, the 
cost of a capital addition on a specific unit is spread over all the 
reductions during the 5-month season. For S. 1097 that same capital 
cost for a specific unit would be spread over a greater number of tons 
reduced during the entire year. As more fully set forth in response to 
question 4, S. 1097 also results in a less restrictive average 
emissions rate. As a result the capital costs, operation and 
maintenance costs, and thus the total average costs per ton, would be 
lower when calculated on an equivalent basis.

    Question 4. As you noted in your testimony, some approaches to 
emission reduction (e.g., fuel switching) could result in year-round 
emission reductions. Please compare the capital costs required to meet 
the seasonal requirements of the NOx SIP Call to the capital costs 
required to meet the year-round emissions reduction provisions of S. 
1097.
    Response. S. 1097 would establish a NOx ``cap and trade'' program 
that would require additional NOx controls in all 48 contiguous states 
and would operate on an annual basis. The recently approved NOx SIP 
Call only applies to 22 Eastern States and the District of Columbia, 
and would be in effect only during the ozone season. S. 1097 would 
require more facilities to install additional NOx controls. When 
comparing the two programs, consider the following:
    S. 1097 calls for 5,400,000 NOx allowances to be issued between 
2000 and 2003. Assuming that in 1996 electric utilities emitted 
6,663,000 tons, this would be an immediate reduction of about 19 
percent in the total ton budget. This does not consider that total 
generation will increase due to economic growth.
    S. 1097 would also require that emission allowances be surrendered 
at a 2:1 rate during the ozone season. In 1997, Cinergy emitted 44 
percent of its NOx emissions during the 5 month ozone season. Assuming 
this were true for all utilities, requiring this 2:1 offset would 
result in an additional reduction of 30.6 percent. Thus without 
considering increased generation due to economic growth, total 
emissions would be reduced by 43.8 percent for the years 2000-2002 
under S. 1097.
    S. 1097 would reduce the amount of available allowances after 2002 
to 3,000,000 per year. This is an additional reduction of 44.4 percent. 
The cumulative reduction from 1997 levels, excluding economic growth 
effects would then be about 70 percent.
    The SIP Call is an effective 85 percent reduction from 1990 levels, 
which is a greater reduction in emissions rate than S. 1097. However, 
because S. 1097 is applied to all 48 states, and it is an annual 
program, it would result in more total emissions reduced.
    Considering the effects only on the utilities operating in the 
areas subject to the SIP Call, S. 1097 would allow utilities to operate 
at a higher average emissions rate, and thus would result in lower 
capital costs. However, because S. 1097 is an annual program, it is to 
be expected that utilities would consider somewhat more capital 
intensive investments in the interest of reducing total operation and 
maintenance costs.

    Question 5. On page 8 of your written testimony, you state that 
local or sub-regional controls are most effective in controlling ozone. 
Would local or sub-regional controls also address the damages of acid 
deposition included in the recent NAPAP report?
    Response. It is generally believed that long-range transport of 
SO<INF>2</INF> and other sulfates is a contributor to acid deposition. 
However, local emissions of SO<INF>2</INF>, NOx and other acid aerosols 
are also of significant concern because of their consistent and 
unadulterated impact. As a result, local or subregional controls can 
play an important role in reducing acidification. As noted above, based 
on available data, it is premature to require additional long-range or 
local controls to address acidification since the impact of existing 
control requirements has yet to be fully assessed.

    Question 6. Your written testimony indicates that Congress should 
wait until all of the relevant scientific evidence is available before 
moving to enact further reductions on SO<INF>2</INF> and NOx. Please 
identify areas of scientific research on NOx emissions, SO<INF>2</INF> 
emissions, and regional transport of these emissions that have not been 
adequately addressed by OTAG, EPA, NESCAUM, or NAPAP studies and 
reports.
    Response. As noted, we are unaware of any study that has considered 
the problem of acidification in light of the reductions of pollutants 
expected as a result of full implementation of the acid rain program, 
the recent NOx SIP Call, and the reductions inherent in EPA's decisions 
to strengthen the ozone and particulate matter standards. Each of these 
initiatives will provide real benefits to the environment, including 
areas of concern in New York. Before there can be an informed decision 
regarding the need for further reductions to address acid rain, the 
reductions in SO<INF>2</INF> and NOx emissions that these initiatives 
will bring need to be quantified and modeled so that a scientifically 
sound assessment can be made of the status of the lakes in the 
Adirondacks after these reductions are achieved.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
              GENERAL ACCOUNTING OFFICE REPORT TO CONGRESS
 Air Pollution: Delays in Motor Vehicle Inspection Programs Jeopardize 
                    Attainment of the Ozone Standard
 report (gao/rced-98-175) to the ranking minority member, committee on 
  government reform and oversight, house of representatives--june 1998

    The Honorable Henry A. Waxman,
    Ranking Minority Member,
    Committee on Government Reform and Oversight,
    House of Representatives.

    Dear Mr. Waxman: Although the United States has significantly 
improved its air quality since the 1970's, air pollution problems, such 
as ozone and carbon monoxide, continue to threaten the health of 
millions of Americans. \1\ Motor vehicles are responsible for up to 
half of the emissions of volatile organic compounds (VOC) that affect 
ozone levels and up to 90 percent of the carbon monoxide emissions 
found in urban areas. \2\ Title I of the Clean Air Act Amendments of 
1990 (P.L. 101-549, Nov. 15, 1990) requires the states with the most 
serious ozone and carbon monoxide problems--23 states have been 
identified--to implement enhanced inspection and maintenance (I&M) 
programs to reduce the emissions from motor vehicles. \3\ Under the 
amendments, these states were required to have their programs 
implemented by November 1992. However, in November 1992, despite this 
requirement, the Environmental Protection Agency (EPA) issued a 
regulation that postponed the required implementation date until 
January 1995. I&M programs test vehicles' emissions to ensure that the 
vehicles are adequately maintained and working properly. If the 
vehicles pass these tests, they are assumed not to be emitting 
excessive amounts of VOCs and carbon monoxide.
---------------------------------------------------------------------------
    \1\ The health effects of exposure to ozone and carbon monoxide 
include eye, nose, and throat irritation, as well as bronchitis, 
emphysema, and other serious lung diseases.
    \2\ Volatile organic compounds are a major contributor to the 
formation of ground-level ozone (urban smog). Ozone is formed by 
sunlight and high temperature acting on volatile organic compounds and 
nitrogen oxide.
    \3\ Twenty-two states and the District of Columbia are required to 
implement enhanced I&M programs. Hereafter, we refer to the District as 
one of the 23 states.
---------------------------------------------------------------------------
    Because of concerns about the implementation of the enhanced I&M 
programs, you asked us to determine the status of the states' programs. 
Specifically, we examined (1) the progress made by the 23 states that 
are required to implement enhanced I&M programs, including the 
difficulties that the states have encountered, and (2) the impact that 
delays in implementing enhanced I&M programs may have on the states' 
ability to comply with the national air quality standard for ozone. In 
order to address these issues, we used a mail survey to obtain 
information from the 23 states. (App. I presents the survey we used.) 
We also met with officials from EPA's program and regional offices, as 
well as with officials from two states, to discuss the implementation 
of the enhanced I&M programs.
    Two of the 23 states had begun testing vehicles by the January 1995 
deadline that EPA set for implementing enhanced inspection and 
maintenance programs, and 12 had begun testing vehicles as of April 
1998. A number of factors have contributed to delays in implementing 
programs. Opposition to EPA's enhanced inspection and maintenance 
regulation--including the reluctance of some state legislatures to 
provide the legislative authority and funding needed to implement these 
programs--caused most of the 23 states to delay implementation. In 
addition, the states had difficulty in obtaining new testing equipment 
and software support from vendors.
    The delays in implementing enhanced inspection and maintenance 
programs have jeopardized the states' ability to meet the deadlines for 
attaining the national ozone standard. EPA has allowed the states to 
claim credit for future reductions in emissions of volatile organic 
compounds from their enhanced inspection and maintenance programs, 
provided they demonstrate that they will achieve the required 
reductions as soon as practical after November 1996. If states cannot 
demonstrate that reductions in volatile organic compounds can be 
obtained from the mandatory enhanced inspection and maintenance 
programs, they may have to look to other mobile sources as well as 
stationary sources to meet their goals for reducing these emissions. 
However, achieving further reductions from other sources will be costly 
and take longer than achieving the reductions from enhanced inspection 
and maintenance programs.
    EPA determined that 23 states needed enhanced I&M programs in order 
to meet national air quality standards. Figure 1 shows the 23 states 
that are required to implement enhanced I&M programs.
    Because the ozone levels in many areas exceeded the national ozone 
standard, the Congress recognized that reducing ozone levels would be a 
long-term effort for some states and established interim goals and 
milestones in title I of the Clean Air Act Amendments of 1990. Areas 
that exceeded the national ozone standard were classified as 
``nonattainment areas,'' and according to the severity of their ozone 
problems, states were given future dates ranging from 3 to 20 years to 
attain the ozone standard. Title I required most ozone nonattainment 
areas to develop plans for EPA's approval that showed which control 
measures they would need to achieve a 15-percent reduction in VOC 
emissions by November 1996. Furthermore, the states with serious to 
extreme nonattainment areas were required to prepare plans showing how 
they would achieve additional VOC reductions beyond 1996.
    Enhanced I&M programs are designed to measure the pollution that 
vehicles release when they are operated under simulated driving 
conditions. EPA issued an enhanced I&M regulation in November 1992 that 
required the states to meet or exceed a stated performance standard 
based on a model program that included IM-240 testing equipment. \4\ 
Although the amendments required the states to implement their enhanced 
I&M programs by November 1992, EPA's regulation postponed the required 
start date to January 1995 and required full implementation of the 
program by January 1996. Appendix II describes the statutory and 
regulatory requirements for the enhanced I&M program.
---------------------------------------------------------------------------
    \4\ IM-240 is computer-controlled equipment that simulates actual 
driving conditions and measures vehicles' tailpipe emissions for 4 
minutes--240 seconds--on a dynamometer--a treadmill-like device.
---------------------------------------------------------------------------
    In August 1996, EPA recognized that the states' delays in 
implementing their enhanced I&M programs would prevent many of them 
from achieving the 15-percent reduction in VOC emissions. Subsequently, 
in February 1997, EPA issued guidance to allow the states that revised 
their enhanced I&M programs under the September 1995 revised enhanced 
I&M regulation or the National Highway System Designation Act of 1995 
(P.L. 104-59, Nov. 28, 1995) to have more flexibility in developing and 
implementing their programs. In order for the states to operate under 
the relaxed requirement, they had to demonstrate that their 15-percent 
reduction in VOC emissions would be achieved as soon as possible after 
November 1996, but no later than November 1999. The guidance allowed 
states to resubmit their VOC reduction plans to show that they would 
achieve the required reductions from the implementation of their 
enhanced I&M programs by November 1999. According to EPA, the states 
that had not implemented their enhanced I&M programs as of November 
1997 may be unable to demonstrate how they will achieve required VOC 
reductions.
         many states have not implemented enhanced i&m programs
    None of the 23 states met the November 1992 statutory date for 
implementing their enhanced I&M programs, and only 2 had begun testing 
vehicles by EPA's January 1995 deadline for starting their programs. In 
total, 12 states had begun testing vehicles under enhanced I&M programs 
by April 1998. A number of factors account for the delays in 
implementing enhanced I&M programs, including opposition to the 
stringent requirements of EPA's enhanced I&M regulation, the reluctance 
of some state legislatures to provide authority and funding for the 
programs, and difficulties in obtaining test equipment and software 
support.
    The 12 states that are testing vehicles account for 43 percent of 
the 52 million vehicles subject to the enhanced I&M testing. \5\ 
Furthermore, several of the other 11 states are scheduled to start 
testing vehicles within the next few months. \6\ For example, 
California and Georgia, which have 9.4 million vehicles that will be 
subject to enhanced I&M testing, are scheduled to start testing in June 
1998 and July 1998, respectively. Appendix III shows the implementation 
and approval status and the number of vehicles subject to enhanced I&M 
testing for each of the 23 states.
---------------------------------------------------------------------------
    \5\ EPA's Nov. 1992 technical support document for the 1992 
enhanced I&M regulation estimated that 56 million vehicles would be 
subject to enhanced I&M testing.
    \6\ While some of these states are testing vehicles under an I&M 
program, their testing does not meet all of the requirements to qualify 
as testing under an enhanced I&M program.
---------------------------------------------------------------------------
     states have encountered difficulties in implementing programs
    According to EPA, states opposed EPA's enhanced I&M regulation 
because the regulation did not allow them enough flexibility in 
designing and implementing their programs. The 1992 regulation required 
all enhanced I&M programs to meet or exceed a performance standard 
based on a model program that used computer-controlled test equipment 
and centralized ``test-only'' inspection centers. Some states believed 
that centralized programs resulted in fewer inspection centers, often 
making the testing programs less convenient for vehicle owners and 
potentially resulting in longer delays than previous I&M programs. 
Furthermore, the states believed that consumers would be inconvenienced 
by the 1992 enhanced I&M regulation because of the test-only feature of 
the model program, which required the owner of any vehicle that failed 
the inspection to go elsewhere to have repairs made and to return to 
the same inspection center for retesting. While the 1992 enhanced I&M 
regulation permitted the states to implement decentralized programs 
that allowed inspection centers to test and then repair vehicles, EPA 
determined that these programs were less effective in identifying and 
repairing vehicles with excessive emissions.
    Because of the opposition to the stringency of the 1992 regulation, 
EPA issued a revised enhanced I&M regulation in September 1995, and the 
Congress enacted the National Highway System Designation Act of 1995, 
which gave the states more flexibility to develop and implement their 
programs. For example, the revised regulation allowed the states to 
implement less stringent enhanced I&M programs if they could 
demonstrate emission reductions from other sources. The regulation also 
allowed the states more leeway in inspecting and repairing failed 
vehicles. Eight of the 23 states took advantage of the flexibility 
allowed by the revised regulation by implementing less stringent 
enhanced programs. Additionally, the National Highway System 
Designation Act of 1995--which prohibited EPA from requiring the states 
to have centralized IM-240 enhanced I&M programs--allowed the states to 
revise their programs to include decentralized testing and provided an 
18-month interim approval period for them to demonstrate that their 
revised programs could achieve the needed emissions reductions. \7\ 
Eight of the 23 states have implemented or plan to implement the more 
flexible enhanced I&M programs under the act.
---------------------------------------------------------------------------
    \7\ An ``interim approval'' is a time-limited approval action 
created by the enhanced I&M provisions of the National Highway System 
Designation Act of 1995.
---------------------------------------------------------------------------
    Even though the revised enhanced I&M regulation and the National 
Highway System Designation Act of 1995 allowed more flexibility, nine 
states indicated in response to our survey that difficulties in 
obtaining legislative authority delayed the implementation of their 
enhanced I&M programs. For example, Massachusetts had planned to start 
inspecting vehicles under an enhanced I&M program in July 1997. 
However, as of November 1997, the date to which Massachusetts had 
committed to begin program operations, the state legislature had not 
enacted the needed legal authority for an enhanced I&M program, and 
vehicle testing had not begun. In December 1997, EPA notified 
Massachusetts that its enhanced I&M program was disapproved. Currently, 
Massachusetts is planning to begin testing vehicles in May 1999. 
Similarly, the Maryland legislature attempted to make the enhanced I&M 
program voluntary instead of mandatory, as required by the Clean Air 
Act Amendments of 1990, and this attempt delayed the implementation of 
the state's program. However, the Governor's veto of this legislation 
paved the way for Maryland to start testing vehicles under its enhanced 
I&M program in the fall of 1997.
    In response to our survey, 13 states indicated that they have 
experienced problems with obtaining needed testing equipment or 
software support from vendors, which have delayed the implementation of 
their programs. These problems were especially apparent in late 1997 
and early 1998, when several states were scheduled to start testing 
vehicles. According to EPA officials, only a limited number of vendors 
supply the testing equipment and the computer software needed for 
enhanced I&M inspection centers. With the high demand for the equipment 
in recent months, vendors have been unable to fill all orders. For 
example, Georgia had planned to have 300 inspection centers operating 
under an enhanced I&M program by July 1997. However, because of the 
vendor's problem with delivering the equipment and providing software 
support, Georgia now plans to start testing vehicles in July 1998--a 
year later than originally planned.
    Overall, our survey of the 23 states identified a number of factors 
that delayed the states' efforts to implement enhanced I&M programs. 
These included opposition to the stringent requirements of EPA's 
initial program, difficulties in obtaining testing equipment, delays by 
EPA in issuing the initial regulation, difficulties in obtaining 
authority from state legislatures, and difficulties in certifying 
inspection centers and technicians. Figure 2 shows the factors cited by 
states as reasons for their delays.
        public acceptance of enhanced i&m programs is important
    The states recognize the importance of informing the public about 
the reasons for enhanced I&M programs. In fact, 14 states said that it 
was very or extremely important to educate the public about their 
enhanced I&M programs. Furthermore, seven said that they tried to 
educate the general public to a great or very great extent about the 
frequency of testing, the costs of tests, testing locations, and other 
pertinent information about the program. Seven states also said that 
they tried to educate the general public to a great or very great 
extent about the reasons for implementing enhanced I&M programs.
    For example, in implementing an enhanced I&M program, Georgia 
contracted with an advertising agency to develop and disseminate 
information through television and radio spots and distributed printed 
materials through community groups and organizations. A recent survey 
of the effectiveness of Georgia's public information campaign for its 
I&M program showed that consumers believe that cars are the largest 
contributing factor to air pollution. The study also showed that 88 
percent of Georgia's consumers were aware of the current I&M program, 
and 76 percent believed that the program was doing a good job.
    In contrast, Maine initially tried to implement an enhanced I&M 
program in 1994 with little or no public relations efforts. After very 
strong public opposition to the program, the Governor canceled it. 
According to EPA, the opposition to the program was caused, in part, by 
the perception that the enhanced I&M program was being implemented as 
an alternative to imposing control measures on certain stationary 
sources. As of April 1998, Maine's enhanced I&M program had been 
disapproved because the state's revised plan for it did not meet all of 
EPA's requirements. Even though some states have been more successful 
than others in overcoming public opposition and other obstacles to 
implementing their enhanced I&M programs, EPA has made only a limited 
effort to identify the practices these successful states have used and 
to share them with other states that are in the early stages of 
developing and implementing their programs.
  delays in implementing enhanced i&m programs have slowed efforts to 
                          reduce ozone levels
    Because of delays in implementing enhanced I&M programs, 19 of the 
23 states are in jeopardy of not meeting deadlines for attaining the 
national ozone standard. \8\ The 19 states are relying on the enhanced 
I&M programs to reduce VOC emissions. In August 1996, EPA recognized 
that the states could not achieve a significant portion of their 15-
percent VOC reductions by November 1996 because of delays in 
implementing enhanced I&M programs. It therefore examined other 
available control measures for reducing VOC emissions. EPA required the 
states to demonstrate in their VOC reduction plans that enhanced I&M 
programs were the most practical way for them to achieve the 15-percent 
reduction in VOC emissions. EPA then allowed the states to revise their 
enhanced I&M programs to claim credit for the emissions reductions that 
are based on the future implementation of their programs, provided they 
demonstrated that the required VOC reductions would be achieved as soon 
as possible after November 1996 but no later than November 1999. EPA 
also allowed the states to resubmit their VOC reduction plans to show 
that they would achieve the required VOC reductions from implementing 
their enhanced I&M programs by November 1999. EPA encouraged the states 
to customize their revised VOC reduction plans to include other control 
measures that would be the most practical for their areas to implement 
in achieving the required reduction in VOC emissions.
---------------------------------------------------------------------------
    \8\ Four states do not have to meet deadlines for attaining the 
national ozone standard. Colorado, Nevada, and Washington are required 
to implement enhanced I&M programs to reduce carbon monoxide emissions 
to help them attain the national carbon monoxide standard, and Vermont 
is required to have an enhanced I&M program because of VOC emissions 
that are transported from other states.
---------------------------------------------------------------------------
    Even with the relaxed requirement, 11 of the 19 states are at risk 
of not meeting the required VOC reductions specified under title I of 
the Clean Air Act Amendments of 1990 because they had not started 
testing vehicles as of April 1998. According to EPA, the states that 
had not implemented their enhanced I&M programs as of November 1997 may 
be unable to demonstrate how they will achieve required VOC reductions, 
and are at risk of having their VOC reduction plans disapproved because 
of the anticipated shortfall in VOC reductions. For example:
    --EPA's conditional interim approval \9\ of New Jersey's enhanced 
I&M program, which accounts for 26 percent of the state's planned 
reductions in VOC emissions, required the program to begin by November 
15, 1997, in order for all vehicles to be tested by November 1999 and 
for the state to receive full credit for the VOC reductions from the 
program. New Jersey officials advised EPA that they would not select a 
contractor to operate the program until April 1998. In December 1997, 
EPA notified New Jersey that its 15-percent reduction plan was 
disapproved because the state failed to meet the required November 1997 
start date for its enhanced I&M program. According to a New Jersey 
official, it is unclear how the state will make up the shortfall in VOC 
reductions caused by its failure to implement an enhanced I&M program.
---------------------------------------------------------------------------
    \9\ A ``conditional interim approval'' is a formal action taken on 
an enhanced I&M program plan submitted under the National Highway 
System Designation Act of 1995 that meets most but not all requirements 
for enhanced I&M programs.
---------------------------------------------------------------------------
    --The District of Columbia is required to reduce VOC emissions by 
133 tons per day to attain the ozone standard by November 1999. Even 
though the District is relying heavily upon its enhanced I&M program to 
provide 48 percent of the overall VOC reductions, it does not plan to 
start inspecting vehicles under an enhanced I&M program until April 
1999. While control measures are available to the District for reducing 
VOC emissions from other mobile and stationary sources, many of these 
measures have already been implemented, and, according to EPA 
officials, imposing further controls on these sources will not produce 
the reductions that the District is expecting to achieve with an 
enhanced I&M program.
    Many of the states that are required to implement enhanced I&M 
programs must achieve the required VOC reductions by November 1999 but 
still do not have final approval for their VOC reduction plans. Table 1 
shows the approval status of the states' VOC reduction plans as of 
April 1998.

                               Approval Status of the States' VOC Reduction Plans
                                                As of April 1998
----------------------------------------------------------------------------------------------------------------
                                                                   Approval status of VOC reduction plans
               State                   Testing vehicles   ------------------------------------------------------
                                                            15-percent reduction plan   Post-1996 reduction plan
----------------------------------------------------------------------------------------------------------------
 California.......................  No...................  Approved\1\...............  Approved
Connecticut.......................  Yes..................  Proposed conditional        Submitted--complete
                                                            approval\2\.
Delaware..........................  Yes..................  Conditional approval......  Submitted--complete
District of Columbia..............  No...................  Submitted--complete.......  Submitted--complete
Georgia...........................  No...................  Proposed conditional        Submitted--complete
                                                            interim approval.
Illinois..........................  No...................  Approved..................  Submitted--complete
Indiana...........................  Yes..................  Approved..................  Submitted--complete
Louisiana.........................  No...................  Approved..................  Submitted--complete
Maine.............................  No...................  Submitted--complete.......  Not required
Maryland..........................  Yes..................  Conditional approval......  Submitted--complete
Massachusetts.....................  No...................  Proposed conditional        Proposed conditional
                                                            interim approval.           interim approval
New Hampshire.....................  No...................  Proposed approval.........  Submitted--complete
New Jersey........................  No...................  Disapproved...............  Disapproved
New York..........................  No...................  Submitted--complete.......  Submitted--complete
Pennsylvania......................  Yes..................  Conditional interim         Not submitted
                                                            approval.
Rhode Island......................  No...................  Limited disapproval.......  Submitted--no action
Texas.............................  Yes..................  Approved--Beaumont/Port     Proposed disapproved
                                                            Arthur.
                                                           Proposed conditional
                                                            interim approval- -Dallas/
                                                            Ft. Worth, El Paso, and
                                                            Houston.
Virginia..........................  Yes..................  Conditional approval......  Submitted--complete
Wisconsin.........................  Yes..................  Approved..................  Submitted--complete
----------------------------------------------------------------------------------------------------------------
\1\ All but one of California's nine nonattainment areas that are required to submit 15-percent VOC reduction
  plans have had their plans approved. The ninth nonattainment area--Mojave Desert--has submitted a plan, but
  EPA has not yet acted on it.
\2\A ``conditional approval'' is a formal approval action taken on an enhanced I&M program plan that meets most
  but not all relevant requirements for enhanced I&M programs. A state must make a commitment to correct the
  deficiencies within 12 months of the conditional approval action.
Source: GAO's analysis of information provided by EPA and the states.

    Even though most of the states are planning to have their enhanced 
I&M programs account for a significant amount of the required 
reductions in VOC emissions, EPA and the states will not know how much 
of the needed VOC reductions will be met by enhanced I&M programs until 
each program is fully approved and operational. Thus, further delays by 
the states in implementing enhanced I&M programs jeopardize their 
efforts to achieve the required VOC reductions.
    While the states can use mobile and stationary sources in 
conjunction with the mandated enhanced I&M programs to attain the ozone 
standard these sources, especially stationary sources, have already 
made significant reductions in their VOC emissions, and, according to 
EPA, further reductions from them will be costly and take some time to 
achieve. In 1992, EPA estimated that the cost to reduce VOC emissions 
with an enhanced I&M program was $879 per ton compared with $5,000 per 
ton from stationary sources. According to EPA officials, with the less 
stringent requirements of many of the current programs, the cost per 
ton of VOC reductions from the enhanced I&M programs is probably 
higher, but not as high as further reductions from other mobile sources 
or stationary sources. However, EPA is not aware of any data that show 
current costs.
                              conclusions
    While enhanced I&M programs are an integral part of the effort to 
significantly reduce emissions from motor vehicles, states' efforts to 
implement their programs have been slow and troubled by numerous 
delays. Recognizing that states have encountered a variety of 
challenges in implementing enhanced I&M programs, we believe that EPA 
could expand its efforts at helping some of the states that are 
experiencing the most significant problems by sharing the best 
practices, such as public relations campaigns, adopted by the states 
with approved and/or operating programs.
    Furthermore, because of delays in implementing enhanced I&M 
programs, states have not realized the reductions in VOC emissions that 
they were statutorily required to achieve by 1996, nor are they likely 
to achieve additional reductions that EPA is now requiring by November 
1999 to enable them to attain the national ozone standard. Therefore, 
states will have to look to other mobile sources as well as stationary 
sources to meet their goals for reducing VOC emissions. However, 
obtaining the required reductions from other sources will be difficult 
because many of them, especially stationary sources, have already made 
major reductions in their VOC emissions, and any further reductions may 
be costly and take some time to achieve.
                             recommendation
    In view of the pivotal role that enhanced I&M programs play in 
reducing VOC emissions and the delays experienced to date in 
implementing these programs, as well as the possibility of future 
delays, we recommend that the Administrator of EPA compile information 
on the more successful practices, such as public relations campaigns, 
used by the states that have implemented their enhanced I&M programs 
and share the information with those states that are in the early 
stages of developing and implementing their programs.
                            agency comments
    We provided copies of a draft of this report to EPA for review and 
comment. In commenting for the agency, the Director of the Office of 
Mobile Sources agreed with the information presented and suggested a 
few editorial changes to clarify points but did not comment on the 
recommendation. We included EPA's comments as appropriate.
                         scope and methodology
    We gathered data on the enhanced I&M programs in the 23 states 
required to implement the programs under the Clean Air Act Amendments 
of 1990. Data were obtained through the use of a survey mailed to the 
environmental offices in each of the 23 states. The survey was 
pretested by officials from the states of Georgia, Maryland, and 
Washington, and subsequently mailed in late January 1998. Completed 
surveys were returned by all 23 states. A copy of the survey is in 
appendix I. \10\ In addition to our analyses of the data gathered from 
the survey, we asked EPA to update the data for some questions.
---------------------------------------------------------------------------
    \10\ Because much of the data are not reported in an aggregated 
format, and many of the questions asked for information unique to a 
particular state, data are not reported in the survey presented in app. 
I.
---------------------------------------------------------------------------
    We also reviewed notices in the Federal Register that provided 
information on the status of the states' enhanced I&M programs as well 
as other pertinent documentation. Additionally, we visited EPA's 
regional offices in Boston, Massachusetts; Philadelphia, Pennsylvania; 
and Atlanta, Georgia to obtain background information on issues 
concerning the enhanced I&M programs. We also visited EPA's Office of 
Mobile Sources in Ann Arbor, Michigan, and the Office of Air Quality 
Planning and Standards in Durham, North Carolina, and interviewed 
officials about the enhanced I&M program as well as issues concerning 
attaining the ozone standard. We met with officials in Massachusetts 
and Georgia to discuss the implementation of their enhanced I&M 
programs. We measured progress in terms of the states with operating 
programs that were testing vehicles as of April 1998. We did not use 
EPA's approval status to measure progress because a state's approval 
status is subject to change.
    We performed our work from July 1997 through May 1998 in accordance 
with generally accepted government auditing standards.
    As arranged with your office, unless you announce its contents 
earlier, we plan no further distribution of this report until 15 days 
from the date of this letter. At that time, we will send copies to the 
appropriate congressional committees; the Administrator of the 
Environmental Protection Agency; and the Director of the Office of 
Management and Budget. We will also make copies available to others on 
request.
    Please call me at (202) 512-6111 if you or your staff have any 
questions. Major contributors to this report are listed in appendix IV.
            Sincerely yours,

      Peter F. Guerrero Director, Environmental Protection 
                                                    Issues,
                                         General Accounting Office.
                                 ______
                                 
  changes in requirements for the enhanced inspection and maintenance 
                                program
    This appendix describes the statutory and regulatory changes 
leading to the Environmental Protection Agency's (EPA) current 
requirements for enhanced inspection and maintenance (I&M) programs.
                  the clean air act amendments of 1990
    Title I of the Clean Air Act Amendments of 1990 (P.L. 101-549--Nov. 
15, 1990) required the 23 states with the most serious ozone and carbon 
monoxide problems to implement enhanced I&M programs. Specifically, the 
states with serious, severe, or extreme ozone nonattainment areas with 
1980 urban populations of 200,000 or more; serious and certain moderate 
carbon monoxide nonattainment areas with urban populations of 200,000 
or more; and areas with a population of 100,000 or more in the Ozone 
Transport Region, regardless of their attainment status; were required 
to implement enhanced I&M programs. \11\ The enhanced I&M programs were 
required to have centralized inspection centers and perform annual 
inspections unless the state demonstrated to EPA that a decentralized 
or biennial program would be equally effective. Title I also required 
EPA to issue regulations for the enhanced I&M program by November 15, 
1991, and the states to implement their enhanced I&M programs by 
November 15, 1992.
---------------------------------------------------------------------------
    \11\ The Ozone Transport Region includes 12 states in the 
northeastern United States that have significant ozone nonattainment 
problems because much of the ozone originates in other states and is 
transported to these states by the eastern air flow patterns. These 
states are Connecticut, Delaware, Maine, Maryland, Massachusetts, New 
Hampshire, New Jersey, New York, Pennsylvania, Rhode Island, Vermont, 
and the Consolidated Metropolitan Statistical Area that includes the 
District of Columbia.
---------------------------------------------------------------------------
    Title I divided all of the ozone nonattainment areas into five 
categories--marginal, moderate, serious, severe, and extreme--and set 
timeframes for each category to reach attainment. The attainment dates 
ranged from 3 years (marginal) to 20 years (extreme) after the act was 
enacted. Title I also required the states to demonstrate how they would 
reduce volatile organic compounds (VOC) emissions--one of the major 
pollutants that contribute to the formation of ozone. The states with 
moderate to extreme ozone nonattainment areas were required to prepare 
implementation plans by November 1993 that showed how they would reduce 
VOC emissions by 15 percent within 6 years after enactment. The states 
with serious to extreme nonattainment areas also had to prepare plans 
showing how they would achieve additional VOC reductions. The plans to 
reduce VOC emissions after 1996 were due by November 1994 and were to 
show how the states planned to achieve 3-percent VOC reductions 
annually until the nonattainment areas reach attainment.
         enhanced inspection and maintenance program regulation
    EPA issued its regulation for the enhanced I&M program on November 
5, 1992. The regulation required the states with areas switching from 
test-and-repair to test-only requirements to implement programs that 
would begin testing 30 percent of all vehicles that were subject to 
enhanced I&M in the nonattainment areas in January 1, 1995, and all 
areas to begin testing all vehicles by January 1, 1996. The regulation 
also required the states to meet or exceed a performance standard that 
was based on a model program for an annual, centralized enhanced I&M 
program that included IM-240 test equipment, or an equivalent test 
protocol approved by EPA, and covered all 1968 and later model cars and 
light-duty trucks. The states that elected to implement decentralized 
programs or a program consisting of centralized and decentralized 
inspection facilities were to have their emission reduction credits 
discounted by approximately 50 percent for the decentralized portion of 
their programs, unless they could demonstrate that their programs were 
as effective as a centralized program. The regulation also included the 
requirement under the Clean Air Act Amendments of 1990 that a minimum 
expenditure of $450 for emission-related repairs was required for 
vehicles to qualify for a waiver of further repairs. According to EPA, 
a typical urban area adopting the model program established by the 
regulation would, by 2000, reduce the levels of air pollutants more 
than they would have reduced them without an enhanced I&M program: for 
carbon monoxide, the additional reduction would be 31 percent, for 
VOCs, 28 percent, and for nitrogen oxides, 9 percent.
       enhanced inspection and maintenance flexibility regulation
    In response to strong public opposition to its initial enhanced I&M 
regulation, EPA issued a regulation known as the Inspection/Maintenance 
Flexibility Amendments on September 18, 1995. This regulation created a 
less stringent enhanced I&M program by allowing certain states more 
flexibility in implementing their programs. Specifically, the revised 
regulation allowed the states that can meet the requirements of the 
Clean Air Act Amendments of 1990 for VOC reductions and attainment 
without an enhanced I&M program as effective as the one adopted by EPA 
in the 1992 regulation to meet a less stringent low enhanced 
performance standard. The new standard, referred to as the low enhanced 
standard, did not include the IM-240 test as part of its model program. 
The regulation also modified other requirements of the 1992 regulation, 
such as extending the implementation of the minimum expenditure of $450 
until January 1998.
            national highway system designation act of 1995
    The National Highway System Designation Act of 1995 (P. L. 104-59, 
Nov. 28, 1995) also responded to public opposition to the 1992 enhanced 
I&M regulations. Specifically, the act prohibited EPA from requiring a 
centralized, IM-240 enhanced I&M program and stopped EPA's use of the 
50-percent discount rate for decentralized or hybrid programs. 
Additionally, the act allowed states to submit, within 120 days after 
enactment, revisions to their enhanced I&M programs by proposing 
interim enhanced I&M programs. The act required EPA to approve enhanced 
I&M programs on an interim basis if the proposed credits for each 
element of the program reflected good-faith estimates and the revised 
programs complied with the Clean Air Act Amendments of 1990. The act 
further provided an 18-month period for the states to demonstrate that 
the credits they had proposed were appropriate, with no opportunity to 
extend the 18-month period.
enhanced inspection and maintenance ozone transport region flexibility 
                         amendments regulation
    On July 25, 1996, EPA issued the Inspection and Maintenance Ozone 
Transport Region Flexibility Amendments regulation. The regulation 
created a special low-enhanced standard for areas within the Ozone 
Transport Region that would be exempt from I&M requirements if they 
were not located in the region. These areas included attainment areas, 
marginal ozone nonattainment areas, and certain moderate nonattainment 
areas with populations under 200,000 within the 12-state Ozone 
Transport Region. Emission reduction goals in these areas were lower 
than those required for low enhanced I&M and basic I&M programs. The 
regulation provided flexibility to certain Ozone Transport Region 
states to implement a broader range of I&M programs than allowed under 
earlier regulations. Elements of the program include performing annual 
tests of 1968 and newer vehicles, checking on-board computer equipment 
for 1996 and newer vehicles, conducting remote sensing tests of 1968 
through 1995 model year vehicles, and visual inspection of various 
control components on 1968 and newer vehicles.
                                 ______
                                 

              States' Progress in Performing Mandatory Enhanced Inspection and Maintenance Testing
                                                As of April 1998
----------------------------------------------------------------------------------------------------------------
                                          Approval status of     Actual/planned testing   Number of vehicles (in
                State                   enhanced I&M programs          start date               millions)
----------------------------------------------------------------------------------------------------------------
 Testing vehicles as of April 1998\1\
Colorado.............................  Approved...............  January 1995...........  1.69
Connecticut..........................  Conditional approval...  January 1998...........  1.20
Delaware.............................  Conditional approval...  October 1995...........  0.30
Indiana..............................  Approved...............  January 1997...........  0.56
Maryland.............................  Conditional approval...  October 1997...........  2.40
Nevada...............................  Approved...............  January 1995...........  0.75
Pennsylvania.........................  Conditional interim      October 1997...........  6.00
                                        approval.
Texas................................  Conditional interim      July 1996..............  4.30
                                        approval.
Washington...........................  Approved...............  June 1993..............  2.20
Wisconsin............................  Approved...............  December 1995..........  1.10
Vermont..............................  Status pending.........  January 1997...........  0.50
Virginia.............................  Conditional Interim      February 1998..........  1.30
                                        Approval.
    Subtotal.........................                                                    22.30
                                      --------------------------------------------------------------------------
            Not testing\2\
California...........................  Interim approval.......  June 1998..............  7.00
District of Columbia.................  Status pending.........  April 1999.............  0.24
Georgia..............................  Disapproved............  July 1998..............  2.40
Illinois.............................  Approved...............  December 1998..........  2.50
Louisiana............................  Disapproved............  Unknown\3\.............  0.27
Maine................................  Disapproved............  Unknown\3\.............  1.20
Massachusetts........................  Disapproved............  May 1999...............  4.20
New Hampshire........................  Disapproved............  January 1999...........  1.00
New Jersey...........................  Disapproved............  October 1998...........  5.00
New York.............................  Interim approval.......  November 1998..........  5.50
Rhode Island.........................  Disapproved............  Unknown\3\.............  0.70
                                                                                        ------------------------
    Subtotal.........................                                                    30.01
        Total........................                                                    52.31
----------------------------------------------------------------------------------------------------------------
\1\These states had begun testing vehicles under an enhanced I&M program.
\2\While some of these states are testing vehicles under an I&M program, their testing does not meet all of the
  requirements to qualify as testing under an enhanced I&M program.
\3\ The state has not submitted a revised enhanced I&M program plan that show a planned start date.
Source: GAO's analysis of information provided by EPA and the 23 states.

                               __________
 Testimony of Richard H. Lefebvre, Chairman, NYS Adirondack Park Agency
    The Adirondack Park Agency applauds the efforts of Senators D'Amato 
and Moynihan in sponsoring the Acid Deposition Control Act (S. 1097) to 
address the reduction of acid precipitation and to remediate its 
effects to the environment of the Adirondack Park and other areas of 
the nation. On November 14, 1997, the Agency formally endorsed the 
proposed legislation, and a copy of the resolution is attached.
    The Adirondack Park is important to the surrounding region, New 
York State, and the Nation. An area of six million acres, with over 2.6 
million acres of ``forever wild'' Adirondack Forest Preserve, the 
Adirondack Park is larger than the State of Massachusetts and contains 
20 percent of New York's land area. It has public lands larger than 
Yellowstone National Park within its boundary. The Park contains over 
500,000 acres of old-growth forest, and much of the balance of the 
``Forest Preserve'' is functionally nearing old-growth status because 
of more than a century of protection afforded State lands in the Park 
by Article 14 of the State Constitution. It is the largest formally 
designated wilderness area east of the Mississippi River.
    Ecologically, the Adirondack Region is a landscape dominated by 
large expanses of forest clearly visible from space in a sea of 
fragmented forest throughout the eastern United States. It forms the 
headwaters of five major river systems and has 30,000 miles of free 
flowing rivers, brooks, streams and pristine riparian habitat. Its 
mountains are interspersed with over 3,000 ponds and lakes, from tiny 
kettle-hole bogs to major waterbodies like Lake George and Lake 
Champlain. The lakes, forests, rivers, wetlands and even sand plains 
support an array of natural communities and species, many of which are 
among the best examples of their kind in the Nation.
    The Park is also a human community with 130,000 permanent residents 
in 130 different settlements, including the ``Tri-Lakes'' communities 
of Tupper Lake, Saranac Lake and Lake Placid at its heart. It is within 
a day's drive of 90 million people in the northeastern United States 
and southeastern Canada. The Park economy depends on tourism, forestry, 
public services and a wide variety of small-scale enterprises, all of 
which bear a strong relation to the quality of the natural setting the 
Park provides.
    New York State has a strong tradition for stewardship of the 
Adirondack Park. For over 100 years, the State has provided protection 
for the ``forever wild'' lands of the Park in Article 14 of its 
Constitution.
    For over 25 years, the State has addressed the environmental 
protection of the private lands of the Park with the Adirondack Park 
Land Use and Development Plan, contained in the Adirondack Park Agency 
Act, adopted in 1971. The Act created this agency to develop and 
administer State land and private land plans for the Park. This 
forward-thinking effort is recognized as an innovative framework for 
sustainable development, designed for partnership with local 
governments and the settlements in the Park as well as for the 
protection of the open spaces and the Park's working forest.
    For over 20 years, the Agency has administered New York's 
Freshwater Wetlands Act providing additional protections beyond the 
Adirondack Park Agency Act to the wetlands of the Park. Representing 
over 14 percent of the landscape, these critical hydrologic linkages 
between aquatic and terrestrial habitats continue to be the subject of 
analysis and concern by the Agency and its governmental, academic and 
not-for-profit partners in watershed characterization and protection 
efforts.
    For over 20 years, the Agency has administered New York's Wild 
Scenic and Recreational Rivers System Act, addressing over 1,200 miles 
of State-designated rivers within the Park for environmental protection 
and public enjoyment.
    These concerted efforts by the State of New York, to provide for 
the continued stewardship of the natural resources of the Adirondack 
Park, have been threatened for the last several decades by long-range 
transport of air pollutants, loosely described as ``acid rain.'' The 
solution to these threats to the Park and its natural and human 
communities lies beyond the reach of State policy with the Federal 
Clean Air Act. Much progress has been made, but the Adirondack Park 
Agency notes a substantial body of research that defines additional 
issues to be addressed if the Park ecology is to survive intact in the 
21st Century.
    Nearly half of the Park's more than 3,000 lakes and ponds are 
critically sensitive to atmospheric deposition of sulfates and 
nitrates, especially those sources of human activities upwind of the 
Adirondack Mountains. Thousands of miles of streams and rivers in the 
Adirondacks experience acidic conditions during the spring snowmelt 
period, adversely affecting aquatic life in these waters.
    The existing mechanisms under the 1990 Clean Air Act Amendments are 
inadequate to protect the sensitive forest, stream and lake resources 
of the Adirondack Park and other areas of the country similarly 
affected. Since 1990, a series of federally funded study reports have 
consistently shown that the scientific evidence calls for further 
reductions in both sulfur and nitrogen emissions beyond those required 
by the 1990 CAAA.
    The Adirondack Park Agency is a whole-hearted supporter of this 
bill because it contains the appropriate elements:
    Reduction of sulfur dioxide emissions;
    Limits on nitrogen oxide emissions, through a ``cap and trade'' 
program; A report on environmental indicators for each of the sensitive 
regional ecosystems, including the Adirondack Mountains;
    Identification of ecological endpoints;
    A tracking network to report on the health and chemistry of lakes 
and streams of the Adirondacks.
    This agency finds that several impressive reports have been 
generated by various Federal offices including the Environmental 
Protection Agency (EPA) in the last several years that are technical, 
scientifically based and credible. These provide the evidence to 
support the actions/elements of S. 1097. The first is the 1995 EPA 
Report to Congress which finds and concludes that:
    Scientific analysis indicates that nitrogen as well as sulfur 
deposition are important contributors to chronic and episodic 
acidification of surface waters. Further reductions in nitrogen as well 
as sulfur deposition may be necessary in order to realize protection of 
target-sensitive systems. Model projections indicate that if the time 
to nitrogen saturation in the Adirondacks is 100 years or less, 
maintaining the proportion of chronically acidic target surface waters 
in the Adirondacks in the year 2040 near proportions observed in 1984 
may require reducing anthropogenic sulfur and nitrogen deposition by 40 
to 50 percent or more below levels achieved by the CAAA (Executive 
Summary, page xvi). Environmental monitoring of deposition, ecological 
indicators, and ecological endpoints provides a parallel and 
complementary strategy to modeling in order to assess ecological 
resource issues (Executive Summary, page xix). It is reasonable to 
conclude that the natural resources most sensitive to acidic deposition 
are aquatic systems and high-elevation red spruce forests. Protection 
of sensitive aquatic resources should particularly focus on lakes and 
streams where watersheds are smaller, have shallow acidic soils with 
rapid, shallow subsurface flows, and are at higher elevations (page 
24). Adirondack, Pocono and Catskill Mountains and mid-Appalachian 
Region apparently are now at continuing risk from acidification effects 
(page 24). The Adirondack subregion, including Adirondack State Park, 
has the highest number and percentage of acidic lakes (14 percent) 
found for any National Surface Water Survey (NSWS) subregion, except 
Florida (page 32). The proportion of chronically acidic (ANC < 0 
<greek-m>eq/l) Adirondack target lakes is projected to increase by 
about 50 percent in 2015 and may double by 2040, relative to 1984 
proportions (page 47).
    This report recognizes that there is merit and importance to 
understanding the inherent ecological processes of sensitive regions 
and monitoring the health and changes of those ecosystems. Developing 
resource-specific goals would provide a guide to assessing whether 
existing programs are effectively protecting the environment (page 
119).
    The Adirondack Park Agency prepared a map showing the extent and 
distribution of lakes at risk from acid deposition including 
chronically acidified lakes, and the lakes sensitive to springmelt 
acidification.
    The most recently released Federal report on acid rain (1998) is 
the National Acid Precipitation Assessment Program's ``Biennial Report 
to Congress: An Integrated Assessment.'' It concludes:
    It is too early to determine whether changes in aquatic ecosystems 
have resulted from Title IV emission reductions. But over the last 15 
years, lakes and streams throughout many areas of the United States 
have experienced decreases in surface concentrations in response to 
decreased emissions and deposition of sulfur. For example, there is 
evidence of recovery from acidification in New England lakes. In 
contrast, the majority of Adirondack lakes have remained fairly 
constant while the sensitive Adirondack lakes have continued to 
acidify. In 1995, EPA reported to Congress that additional reductions 
in sulfur and nitrogen deposition would be required to fully recover 
sensitive Adirondack lakes (page 4). Sulfur and nitrogen deposition 
have caused adverse impacts on certain highly sensitive forest 
ecosystems in the United States. High-elevation spruce-fir forests in 
the eastern United States are the most sensitive. Forest ecosystems in 
the East, South, and West are not currently known to be adversely 
impacted by sulfur and nitrogen deposition. However, ii deposition 
levels are not reduced in areas where they are presently high, adverse 
effects may develop in more forests due to chronic, multiple-decade 
exposure (page 4).
    The gradual leaching of soil nutrients from sustained inputs of 
acid deposition could eventually impede forest nutrition and growth in 
several areas (page 4). Nitrogen deposition can significantly degrade 
forest ecosystems, especially in areas where nitrogen levels are 
already high and soil has reached or is approaching saturation (pages 
4-5).
    Canadian studies provide further support for these conclusions 
(1997 The Acidifying Emissions Task Group).
    In conclusion, S. 1097 is critical to protect the natural and 
economic resources of the Adirondack Park and related regions suffering 
the effects of acidic deposition.
                               __________
    State of New York, Executive Department, Adirondack Park Agency
    resolution adopted by the adirondack park agency in support of 
                      congressional acid rain bill
    WHEREAS, the six-million-acre Adirondack Park is abundant in 
natural resources and open space unique to New York and the United 
States. The Park contains a unique mixture of privately and publicly 
owned lakes, rivers and mountains. and the New York State Forest 
Preserve lands comprising over 40 percent of the Park are mandated by 
the New York State Constitution to be forever kept as wild forest 
lands;'' and
    WHEREAS, more than 1?0,000 New Yorkers live or work in the 
Adirondack Park; and
    WHEREAS, the Park is within a day's drive of 70 million people, and 
over nine million people from the United States, Canada. and elsewhere 
visit the Park annually to delight in its unique character, fostering 
tourism as a major pillar of its economy; and
    WHEREAS, nearly half of the Park's more than 3,000 lakes and ponds 
are critically sensitive to the atmospheric deposition of sulfates and 
nitrates. including those sources of human activities upwind of the 
Adirondacks; and thousands of miles of streams and rivers in the 
Adirondacks experience acidic conditions during the spring snow melt 
period. adversely affecting aquatic life in these watershed; and
    WHEREAS, in the 1990 Amendments of the Clean Air Act, Congress 
directed the U S Environmental Protection Agency to describe a program 
to protect critically sensitive aquatic and terrestrial resources in 
the Adirondacks and other areas similarly affected; and
    WHEREAS, EPA's 1995 Final Acid Deposition Standard Feasibility 
Report to Congress concludes that the Adirondack Park is the area most 
severely impacted by acid deposition and predicts that 43 percent of 
its lakes and ponds will become critically acidified by 2040 unless 
Congress mandates additional sulfate and nitrate reductions over and 
above that mandated by the present Clean Air Act; and
    WHEREAS, in response to the findings of this report, Senators 
Daniel P. Moynihan and Alphonse D'Amato and Congressman Gerald B. 
Solomon have drafted bills designed to require action to reduce acid 
deposition under the Clean Air Act and, by the establishment of a NOR 
allowance system in regions contributing to acid deposition in the 
Adirondacks, to provide for additional reductions in emissions of 
nitrogen oxides; and
    WHEREAS, the proposed bill calls for a report, with one of its the 
goals to identify as an objective ``to increase the proportion of 
waterbodies with an acid neutralizing capacity greater than zero from 
the proportion identified in surveys begun in 1984;'' and,
    WHEREAS, the report will also identify scientifically credible 
environmental indicators sufficient to protect sensitive ecosystems of 
the Adirondack Mountains and other sensitive receptor areas; and,
    WHEREAS, the proposed legislation also calls for the establishment 
of a competitive grant program to fund research on the effects of 
nitrogen deposition on sensitive watersheds and coastal estuaries in 
the Eastern United and calls for a report on the health and chemistry 
ot lakes and streams of the Adirondacks; and
    WHEREAS, the Adirondack Park Agency recognizes the initiatives of 
the New York State Department of Environmental Conservation to preserve 
and enhance the air quality of the Adirondack Park and notes that this 
resolution is consistent herewith and in support thereof, and
    WHEREAS, the existing mechanisms under the 1990 Clean Air Act 
Amendments appear inadequate to protect the sensitive aquatic resources 
of the Adirondack Parl;. that keN scientific knowledge is lacking on 
some aspects of the role of nitrogen in Adirondack ecosystems. and that 
further scientific investigation and analysis is necessary in order to 
accurately assess and predict outcomes from various emission scenarios; 
and
    WHEREAS, in order to fully support broader public understanding of 
the proposed legislation, the Adirondack Park Agency intends to 
continue its public discussion on the benefits and consequences of the 
legislation; furthermore, because of its staff's scientific expertise 
and the ability to contribute information and analysis, the Agency will 
request of EPA to be involved in the implementation of the technical 
aspects of the legislation.
    NOW, THEREFORE, BE IT RESOLVED, that the Adirondack Park Agency 
respectfully requests that this legislation be supported by all Members 
of Congress.
    Resolution adopted unanimously:
                               __________
         Statement of New York Attorney General Dennis C. Vacco
    In the three decades since the birth of the environmental movement 
and the creation of EPA, this nation has made amazing progress in 
improving our natural environment. The days of Love Canal and burning 
urban rivers are largely a thing of the past. Our children can now swim 
in lakes and rivers that our parents would not allow us near.
    However, acid rain is nowhere to be found on this list of 
environmental successes While our environment has improved in almost 
every other way, acid rain continues to cause more and more damage to 
our environment. My state of New York bears much of the brunt of this 
environmental scourge, which is killing our lakes' ponds and streams, 
particularly in the Adirondack Mountain region. That is why I support 
the Acid Deposition Control Act, which contains significant and 
effective provisions necessary to fight acid rain.
    In contrast to polluted air which may blow in and out of an air 
basin, acid rain stays--it stays in the soil, where it damages trees, 
crops and other vegetation, and it stays in our lakes and ponds, where 
it kills flash and other animal life.
    In New York State, we feel strongly that we cannot fiddle while 
Rome burns. It is rime to enact the Acid Deposition Control Act.
    Since I took office in 1995, I have made combating acid rain my top 
environmental priority. In the past 3 years, my office has filed three 
lawsuits against SPA, seeking to force it to take steps to address acid 
rain. In 1996, I took EPA to court over its decision to exempt portions 
of four midwestern states from the Clean Air Actors requirements for 
control of nitrogen oxides. In 1997, I sued EPA over its failure to 
comply with a Congressional mandate to define the nature and numerical 
value of an acid deposition standard that would be protective of the 
resources threatened by acid rain The Attorneys General of New 
Hampshire and Connecticut have joined me in the prosecution of that 
action.
    Then, earlier this year, joined by seven other northeastern states, 
I sued EPA over its failure to take timely action on petitions filed by 
New York and the other northeastern states, seeking reductions of NOx 
emissions from utilities under Section 126 of the Act.
The Problem of Acid Rain
    The toll of acid rain on New York's natural resources is, 
tragically, all too clear. At least 20 percent of the lakes in the 6 
million acre-Adirondack Park--which is nearly three times of size of 
Yellowstone National Park--are now identified by EPA as chronically 
acidic.
    These are not just the cold statistics of a government report. In 
fact, they can be attested to by sportsmen who have found many of their 
favorite destinations are devoid of fish.
    Without further emission reductions, the situation will just get 
worse. A 1995 EPA report concludes that the number of lifeless lakes is 
likely to double by the year 2040 unless controls beyond those 
currently anticipated by the Clean Air Act, are put into place. \1\ 
recent study by the National Acid Precipitation Assessment Program 
(NAPAP) confirms that the emission reductions under EPA's acid rain 
program are not stemming the further deterioration of the Adirondacks. 
\2\
---------------------------------------------------------------------------
    \1\ According to EPA's Acid Deposition Feasibility Study, Report 
Confess (the ``Report to Congress''), the percentage of lanes in the 
Adirondacks that will be chronically acidic (i.e. corresponding to a pH 
of 5.28, a level at which many species of fish can no longer survive) 
by the year 2040 may exceed 40 percent. Id at xv.
    \2\ NAPAP Biennial Report to Congress: An Integrated Assessment 
(``NAPAP Report'') at 50-51.
---------------------------------------------------------------------------
    Although our concern is primarily with New York's resources, acid 
rain is not a problem only for the Northeast. The NAPAP study informs 
us that continued deterioration is taking place nationwide: in 
Californian San Bernardino and San Gabriel Fountains, in Colorado's 
Rockies, in the Allegheny Mountains of West Virginia and the Great 
Smokies of Tennessee \3\ The Report singles out the pine forests in 
Southern California's San Bernardino mountains and alpine meadows in 
Colorado's Front Range as natural resources particularly threatened by 
continuing acid rain. \4\ The nitrogen in acid rain also contributes to 
the eutrophication of Long Island Sound and Chesapeake Bay.
---------------------------------------------------------------------------
    \3\ Id. at 49
    \4\ ``In the alpine areas of Colorado, about half of the nitrogen 
is deposited in snowpack and that is released with the spring thaw. 
This large release of nitrogen leaches through the soil, removes base 
cations from the soil, and degrades the quality of streams and lakes.'' 
Id. at 62. With regard to the San Bernardino Mountains, the NAPAP Study 
reports: ``Pine forests in the San Bernardino Mountains of Southern 
California receiving high levels of nitrogen saturation ( 25 kg/ha/yr) 
are already nitrogen saturated, while those receiving moderate levels 
(6-16 kg/ha/yr) show evidence of approaching saturation. Exposure to 
high levels of sulfur, nitrogen, and ozone, along with drought stress, 
weakens the trees and leads to premature mortality.'' Id.
---------------------------------------------------------------------------
    Acid rain also has a direct effect on public health. EPA has 
identified nitrate and sulfate particulates as among the primary 
constituents of fine particulate matter which are responsible for tens 
of thousands of premature deaths nationwide. In addition, acidified 
rainwater may leach lead and other heavy metals out of the soil and 
water supply pipes, raising the very real possibility of elevated lead 
levels in drinking water supplies.
The seasonal nature of the acid rain problem
    Acidification can take one of two forms: acute or chronic. Most of 
EPA's work to date has focused on chronic acidification which occurs 
when the acid precipitation exceeds the neutralizing capacity of a body 
of water. But, perhaps more important for water bodies fed by snowmelt, 
in the Rockies, the Adirondack and elsewhere, is the episodic 
acidification which results from spring snowmelt.
    EPA's report to Congress tells us that ``pulses of highly acidic 
water flushing into and through soils, streams, and lakes often expose 
soil and aquatic biota to short-term, acutely toxic, lethal chemical 
conditions.'' \5\ EPA has determined that event of episodic 
acidification are particularly significant because, coming in the 
springtime when fish are spawning, they can cause complete spawning 
failures. \6\ EPA has determined that approximately 70 percent of the 
Adirondack lakes can be affected by the worst annual episode. \7\
---------------------------------------------------------------------------
    \5\ Report to Congress at 9. (emphasis supplied)
    \6\ Id. at 9-10.
    \7\ Id. at 14.
---------------------------------------------------------------------------
    While the acidity of many of the lakes may return to relatively 
normal levels after the snow melt ends, the damage to the life in the 
lake has been done, for that reason at least.
The inadequacy of the current regulatory regime
    Acid rain was supposed to be solved by the 1990 amendments to the 
Clean Air Act. It included two key elements for addressing acid rain 
and related problems: the acid rain reduction program of Title IV and 
the Title I controls on nitrogen oxides as a precursor to ozone.
    EPA and NAPAP both recognize that the Title IV reduction 
requirements are insufficient to protect the Adirondacks and other 
resources threatened by acid rain EPA has estimated ``that between 40-
50 percent reductions of NOx in the Eastern United States beyond those 
already required in the Clean Air Act may be necessary simply to keep 
the number of acidified lakes in the Adirondacks in New York at 1984 
levels. `'Without additional reductions, the number of acidic lakes in 
the Adirondacks are projected to increase by almost To percent by 2040. 
\8\
---------------------------------------------------------------------------
    \8\ 61 Fed. Reg. 671-1, 67115 December 19, 1996).
---------------------------------------------------------------------------
    Not only are the anticipated controls insufficient, but JAPAN 
projects that NOx emissions will begin to increase in less than 2 
years. \9\ Nor will EPA's recent SIP call rulemaking sufficiently 
address acid rain. Any action which focuses only on summertime 
emissions, like the SIP call, will do little to prevent acid 
deposition, which in largely a wintertime problem for many parts of 
this country.
---------------------------------------------------------------------------
    \9\ NAPAP Report at 14.
---------------------------------------------------------------------------
    In fact, there is a danger that the SIP call may even be 
counterproductive in reducing acid rain, because it could nullify the 
Title IV acid rain controls. Those requirements anticipate year round 
reductions in NOx emissions.
    However, because the Title IV emission requirements are measured on 
a year-round average, a utility which complies with the stricter 
requirements of the SIP call in the summertime can meet the Title IV 
requirements simply by averaging the summertime emission reductions 
over the rest of the year, thereby allowing emission controls to be 
turned off in the winter.
    EPA recognizes that a year round emission reduction program is 
needed. In a report issued in August 1997, EPA explained clearly char 
Wintertime Box emissions reductions are especially important to 
lessening the incidence and severity of acidic episodes in certain 
areas. Continuous year-round NOx controls appear to be the most 
beneficial for decreasing acid deposition damage to natural resorces.'' 
\10\
---------------------------------------------------------------------------
    \10\ Nitrogen Oxides: Impacts on Public Health and the Environment, 
EPA 452/R-97-002 (August 1997), p. 27.
---------------------------------------------------------------------------
    Yet, EPA has taken no steps to ensure that the SIP call does not 
nullify the year round emissions reduction requirements of Title IV. A 
review of the 1990 amendments clearly shows Congress anticipated 
subsequent legislation may be necessary.
    While Congress could have provided EPA with the express authority 
to require additional NOx reductions, it chose instead to require that 
EPA simply describe the necessary acid deposition standards, leaving 
Congress, not the agency, with the choice of whether to enact them.
    The EPA and NAPAP reports were intended to provide Congress with 
the information necessary to enact any further reductions which may be 
needed.
    AN explained above, the results of those reports are now in and the 
conclusion is unambiguous; protection of the resources threatened by 
acid rain requires year round emission reductions beyond those 
anticipated by the Clean Air Act.
Requirements of Effective Acid Rain Legislation
    That is why I strongly endorse the Acid Deposition Control Act. It 
may finally put an end to the damage being caused by acid rain to our 
environment.
    It includes the following elements which I believe are essential in 
any effective acid rain legislation:
    It provides for year-round emission reductions. As explained above, 
there can no longer be any doubt that much of the worst damage caused 
by acid rain occurs in the winter and spring, when snowmelt and heavy 
spring storms send an ``acutely toxic, lethal'' shock to the lakes, 
ponds and streams most affected by acid rain. It should be emphasized 
that the additional cost of operating seasonal controls, as anticipated 
by the SIP call, on a year round basis is relatively minor.
    It will reduce acid rain in a cost-effective manner. In order to 
meet the SIP call, utilities will have to incur the cost of installing 
new pieces of control equipment. In order to obtain year-round, rather 
than seasonal reductions, utilities will simply have to incur the 
additional cost of operating these controls the other 7 months of the 
year It has been estimated that state-of-the-art NOx emission controls 
are twice an cost-effective (measured by cost per ton of NOx removed) 
when they are operated year-round. \11\ Furthermore, the development of 
an emissions credit trading program further serves to reduce the cost 
of emissions across an industry.
---------------------------------------------------------------------------
    \11\ In a 1995 report prepared for EPA entitled Estimated Effects 
of Alternative NOx Cap and Trading Schemes in the Northeast Ozone 
Transport Region, ICF Kaiser estimates that the annual cost-
effectiveness of selective catalytic reduction (SCR) is $1,000 to 
$1,500 per ton, as opposed to its seasonal cost-effectiveness of $2,OOO 
to $3,000 per ton. Id. at 29. A more detailed analysis, which includes 
calculations of the annual and seasonal cost-effectiveness of several 
control strategies, is contained in NESCAUM and MARAMA, Status Report 
on NOx Control technologies and Cost Effectiveness for Utility Boilers 
(June 1998), at 77-120. The NESCAUM and MARAMA report concludes all 
control strategies studied are significantly more cost-effective when 
operated annually, with SCR and coal reburning technologies being at 
least twice as cost-effective when operated year round. Id. at 114-16.
---------------------------------------------------------------------------
    It requires reductions of emissions rather than creating an 
administrative process that may lead to the development of further 
emission limitations. The experience of the past 8 years has 
demonstrated the need to provide firm direction to EPA. EPA has a poor 
record of complying with Congressional mandates to identify potential 
acid rain reduction programs. For example, EPA's response to the 
requirement that it describe the nature and numerical value of an acid 
deposition standard was to perform yet another acid rain study, even 
though NAPAP had already performed $500 million worth of studies. \12\ 
EPA did not even try to comply with another Congressional mandate, that 
it report to Congress on using the secondary standard provisions of the 
Act to address welfare effects, such as acid rain. \13\
---------------------------------------------------------------------------
    \12\ See Statement of Dr. James R. Mahoney, Director, National Acid 
Precipitation Assessment Project (NAPAP), at hearings before the Senate 
Committee on Energy and Natural Resources, January 24 and 25, 1990, 
Senate Hearing 101-826, at pg. 115.
    \13\ Section 817 of P.L. 101-549, required that EPA and the 
National Academy of Sciences undertake a study on the role of secondary 
standards in protecting welfare and the environment. Among other 
things, this study is supposed to ``determine ambient concentrations of 
each [criteria] pollutant which would be adequate to protect welfare 
ant the environment from such [welfare] effects.'' EPA was required to 
take public comment on a draft of the report of the study and provide a 
final report to Congress no later than November 15, 1993. In response 
to a recent FOIA request served by the New York Attorney Generals 
office, EPA has confirmed that it has not even commenced this study, 
even though nearly 5 years have passed since the deadline for 
completion of the study. As a result, New York sent EPA, on July 27, 
1998, a notice of intent to sue under Section 304 of the Act.
---------------------------------------------------------------------------
    It provides EPA with the explicit authority to require further 
emission reductions. If shown to be necessary, both EPA and NAPAP, as 
well as numerous academic institutions, will continue to monitor the 
resources affected by acid rain. If these research efforts show the 
need for more emission reductions, this legislation provides EPA with 
the clear authority to enact new emission reduction requirements, 
without the need for more legislation.
    Time is of the essence, you must act before more natural resources 
are destroyed.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
    Observations from the Hubbard Brook Experimental Forest on the 
      Environmental Effects of Changes in Sulfur Dioxide Emissions
    In 1972 scientists from the Hubbard Brook Ecosystem Study reported 
that rainfall and snowfall in the northeastern United States had become 
increasingly acidic. In response to this discovery, Congress passed the 
Clean Air Act of 1970 and its subsequent amendments of 1990. The 1990 
Amendments called for a 50 percent reduction of sulfur dioxide 
emissions below 1980 levels by the year 2010. Minor cuts in emissions 
of nitrogen oxides were also included.
    The following observations from the Hubbard Brook Ecosystem Study 
(HBES) are relevant to the recent 1998 National Acid Precipitation 
Assessment Program biennial report to Congress and subsequent news 
stories. This information draws from research conducted as part of the 
HBES by Drs. Gene E. Likens, Charles T. Driscoll, F. Herbert Bormann 
and Mr. Donald C. Buso. The HBES is conducted at the USDA Forest 
Service Hubbard Brook Experimental Forest, West Thornton, New 
Hampshire. Initiated in 1963, it is the longest running ecosystem study 
of its kind, and the site where acid rain was first documented in North 
America.
Progress Since the Clean Air Act: Headed in the Right Direction?
    The combustion of fossil fuel to produce energy generates sulfur 
dioxide (SO<INF>2</INF>) and nitrogen oxides (NOx) as by-products. Once 
emitted into the atmosphere, they mix with water to form sulfuric and 
nitric acid and are transported by prevailing winds to the northeastern 
U.S. where they fall to the ground in rain and snow. It has been well 
documented that acidity at Hubbard Brook is largely associated with 
human-produced emissions, rather than natural acidification processes.
    After the passage of the 1970 Clean Air Act and the 1990 Clean Air 
Act Amendments (CAAA), electric utilities nationwide cut SO<INF>2</INF> 
emissions 31 percent from 17.2 million tons in 1980 to 11.9 million 
tons in 1995. Long-term measurements as part of the HBES show a roughly 
45 percent decrease in sulfate in rain and snow since 1963.
    Likewise, stream water chemistry has shown some improvement. 
Sulfate in stream water at Hubbard Brook has decreased approximately 30 
percent since 1963. This decrease is consistent with declines in 
SO<INF>2</INF> emissions and sulfate in precipitation. The amount of 
toxic aluminum leached by acid rain from soils to stream water has also 
declined.
    These important gains in rain, snow and stream water chemistry 
indicate that reductions in SO<INF>2</INF> emissions have been 
important to the control of acid rain and the potential reversal of its 
effects. Nevertheless, continued acid inputs and marked changes in soil 
chemistry have hindered the rate and magnitude of ecosystem recovery. 
This suggests important lessons for policymakers.
Recent Research Shows Recovery Impeded--New Link to Forest Health
    Despite reductions in SO<INF>2</INF> emissions, there has been 
little improvement in acid levels in rain, snow and stream water at 
Hubbard Brook. Scientists predict that, with current pollution control 
measures, the acid-base status of stream water will not return to pre-
industrial revolution levels in the foreseeable future. Reasons for 
this arrested recovery include the failure of the 1990 CAAA to address 
NOX emissions fully, as well as the recently identified changes in soil 
chemistry resulting from acid rain.
    The policy debate of the 1980's focused almost exclusively on 
SO<INF>2</INF>. This emphasis on sulfur obscured the role of other 
elements in acid rain and in the acid-base balance of soils and surface 
waters. Data show that NOX emissions contribute significantly and 
increasingly to acid rain. Scientists estimate that nitrogen may now 
constitute 25-50 percent of acid in precipitation. It is reasonable to 
suggest that further recovery from acid rain may require cutting NOX 
emissions beyond the 2 million tons called for in the 1990 CAAA.
    Recent Hubbard Brook research reported in the journal Science links 
atmospheric dust, acid rain and forest health. Scientists found that 
the amount of calcium in the soil has declined by more that 50 percent 
since 1950. Acid rain has stripped away plant nutrients such as calcium 
and magnesium from soil particles. These essential nutrients, called 
base cations, are then leached out to streams and rivers and lost from 
the ecosystem. Years of leaching has depleted the antacid-like elements 
from the soil. With a diminished ability to neutralize acid, many 
forests are now more sensitive to continued inputs of acid rain and 
snow. Further, this loss of essential plant nutrients may prove 
limiting to biomass accumulation in forests. Overall, the depletion of 
base cations appears to retard the recovery of forests in response to 
decreases in SO<INF>2</INF> emissions.
Public Policy Implications
    The progress made in rain, snow and stream water chemistry verify 
the value of the SO<INF>2</INF> emissions reductions called for in the 
1990 CAAA. Yet, continued acidity of precipitation and surface waters 
at Hubbard Brook, and new links to long-term forest health, demonstrate 
that the acid rain problem has not been solved. Furthermore, the 
environmental effects of acid rain appear to be more subtle and 
insidious than first expected.
    Leaching of base cations from the soils of the Hubbard Brook 
Experimental Forest by acid rain over the past 50 years has reduced 
their neutralizing capacity. As a result, the reductions mandated by 
the 1990 CAAA are necessary but not sufficient to protect sensitive 
forest and aquatic ecosystems in the northeastern United States from 
continued inputs of acid rain. The policy implication of this research 
may likely be that current SO<INF>2</INF> and NOX emission limits are 
not adequate to achieve the level of ecosystem recovery envisioned by 
the 1990 CAAA. It is clear that continued long-term monitoring of acid 
rain and the health of forest and stream ecosystems is critical to 
assessing past legislation and directing future policy.
                               __________
                  Statement of the New England Council
    The New England Council would like to take the opportunity of this 
hearing on acid rain to restate its position on the important issue of 
ozone transport and the recent ruling by the EPA. In particular we 
believe this is important since nitrogen oxide is a primary component 
of smog and acid rain. The business community of our six state region, 
after several years of advocacy, is extremely gratified that EPA has 
set a course of action that will improve the air quality and economic 
competitiveness of the Northeast. The Council feels that EPA has put 
forth a solution that is equitable and cost-effective for all of the 22 
states that make up the Northeast.
    Since the time of the Clean Air Act of 1970, New England states and 
industries have struggled with the problems associated with ozone 
transport. Despite gradual mandatory and voluntary emission reductions 
over the years, the New England region was still unable to meet 
federally mandated air quality standards for public health due to the 
pollution that was crossing over its boarders from other regions. Other 
difficulties have included a chilling effect on industrial locations 
and expansions and the threat of monetary penalties.
    The New England Council views this action as EPA's first effort to 
protect public health in downwind states from the smog that originates 
in upwind areas. Not only does it recognize that it is the coal burning 
utilities and industries in the Midwest and South that generate a 
degree of our background pollution, but importantly, it holds these 
areas responsible for its clean up. It is worth mentioning that this 
plan will also significantly improve the air quality around these large 
emission sources, enhancing air quality for citizens in these regions.
    The opponents of this proposal claim that electricity reliability 
and the overall economy of the Midwest and South are at risk. New 
England utility companies have proven that conservation initiatives can 
be incorporated into management and operations to the benefit of its 
surroundings and bottom line. With very careful planning New England 
utilities were able to retool most of its power plants with the 
necessary controls during regularly scheduled maintenance checks to 
avoid interruptions. Similarly EPA's plan allows for the most 
economical reductions to be found utilizing the emissions ``cap and 
trade'' program.
    The Northeast States for Coordinated Air Use Management (NESCAUM) 
estimated in a recent study that it would cost the economy of the 
Northeast up to $4 Billion if EPA's proposal did not go through as 
originally written. Again, the New England Council is pleased that EPA 
has finalized this plan. We feel that there is still much to do to be 
sure that the technical aspects are understood and that the 
implementation of the rule has no unintended consequences.
    The New England Council is a broad-based business organization that 
represents the interests of the New England economy. Its mission is to 
promote Federal policies and legislation that improve the business 
climate of the region. It has offices in Boston and Washington, D. C.
                               __________
              Statement of the Ozone Attainment Coalition
    Audubon Society of New Hampshire
    Connecticut Fund for the Environment
    KeySpan Energy Company
    Natural Resources Defense Council
    PACE Energy Project
    Public Service Electric & Gas
    U.S. Generating Company
    Central Maine Power Company
    Consolidated Edison
    Merck & Company
    Northeast Utilities
    PECO Energy Company
    The United Illuminating Company
    October 13, 1998
    The Ozone Attainment Coalition has been an active participant 
throughout the Ozone Transport Assessment Group (OTAG) process and in 
EPA's regulatory development of the recently adopted NOx SIP Call 
regulations affecting 22 eastern states. The Coalition believes that 
EPA's action will result in cost-effective NOx reductions and provides 
each of the affected states with sufficient flexibility to meet its NOx 
budget requirements.
    The Ozone Attainment Coalition is composed of 13 organizations, 
including eight electric generating companies, and national, northeast-
regional, and state-based environmental advocacy groups. The Coalition 
supports the adoption of effective regulatory programs that are 
designed to achieve timely implementation of cost-effective ozone 
precursor emission reductions in the eastern United States, as a means 
substantially to reduce regional ozone transport.
    The Coalition is concerned that comments made during the October 6, 
1998 hearing on S. 1097, the Acid Deposition Control Act, before the 
Senate Committee on Environment and Public Works Subcommittee on Clean 
Air, Wetlands, Private Property and Nuclear Safety regarding the 
impacts associated with EPA's NOx SIP Call regulations represented only 
one perspective, a perspective that the Coalition believes is 
inaccurate.
    Enclosed for your review are two Coalition reports: ``A Comparison 
of EPA's Proposed NOx SIP Call and an Alternate NOx Reduction 
Proposal,'' and ``Comparison of Projected Cost Impacts of Implementing 
NOx Controls Needed to Reduce Ozone Transport in the Eastern U.S.,'' 
submitted to the EPA docket during the NOx SIP Call comment period. The 
first of these reports found that the Midwestern/Southeast Governors 
alternative proposal would deliver less than a 10 percent electric 
utility NOx reduction benefit, as compared to EPA's proposed 65 percent 
reduction. The second report found a surprising degree of agreement 
among six electric utility cost assessments, including those proposed 
on behalf of Midwest electric utility companies.
    I hope that these reports will be of assistance in assessing the 
projected impacts associated with EPA's NOx SIP Call regulation. Please 
contact me should you have any questions regarding these reports or if 
additional related information would be of further assistance to you.
                               __________
      NESCAUM, Northeast States for Coordinated Air Use Management
       Ozone Transport in the Eastern United States--October 1998
         once something is seen, it cannot be made to be unseen
                                Bertolt Brecht, The Life of Galileo
    The U.S. Environmental Protection Agency is in the process of 
implementing a regional strategy (``NOx SIP call'') in 22 eastern 
states to reduce oxides of nitrogen (NOx), an important pollutant 
responsible for ozone (smog) formation. Both supporters and detractors 
of EPA's NOx SIP call cite work by the Ozone Transport Assessment Group 
(OTAG) in support for their positions, but their respective arguments 
sometimes omit reference to a large body of information on ozone 
transport appearing in the peer-reviewed scientific literature. \1\ 
While OTAG was an important process that informed many state and 
Federal policymakers, it did not break new ground in the scientific 
understanding of the regional ozone problem.
---------------------------------------------------------------------------
    \1\ See, e.g., K. Jones & J. Bucher, ``Will Reducing Transported 
Ozone Improve Regulatory Compliance?,'' Envtl. Mgr., pp. 11-16 (July 
1998). The article asserts EPA's NOx SIP call has little scientific 
merit, citing statements from ``OTAG scientists'' but with no citations 
to the peer-reviewed scientific literature. While the author of the 
present paper holds a Ph.D. in chemical physics and participated in 
OTAG, he does not consider himself an ``OTAG scientist'' nor is he 
aware of any formal group of such persons. OTAG was a consensus-
building effort among state and Federal policymakers and scientists, 
industry stakeholders and public interest groups, but was not a 
scientific research effort in any traditional sense.
---------------------------------------------------------------------------
    The purpose of this paper is to present a brief synopsis of the 
scientific literature developed over the past 30 years that is relevant 
to the issue of ozone transport in the eastern United States. \2\ 
Numerous studies that have passed scientific peer review appear in 
well-regarded journals specializing in the atmospheric sciences. A 
review of this literature finds that ozone transport has been 
recognized by scientific researchers decades before the creation of 
OTAG. While not all policymakers and industry stakeholders seem to 
recognize (or perhaps understand) this body of literature, it provides 
a strong, consistent, and independent supporting basis for EPA's NOx 
SIP call that was not subject to the political and stakeholder 
positioning of the OTAG process.
---------------------------------------------------------------------------
    \2\ In the spirit of full disclosure, the author freely admits that 
he supports EPA's NOx SIP call and has argued for regional NOx 
strategies even prior to the formation of OTAG. See P.J. Miller, 
``Cutting Through the Smog: The 1990 Clean Air Act Amendments and a New 
Direction Toward Reducing Ozone Pollution,'' Stanford Envtl. Law 
Journal, Vol. 12 pp. 124-163(1993).
---------------------------------------------------------------------------
    The transport of ozone in power plant plumes has been known since 
at least the 1970's. Measurements of individual power plant plumes have 
documented high ozone levels transported within power plant plumes in 
Maryland [Davis, et al., 1974], from Wisconsin into Michigan [Miller, 
et al., 1978], from Tennessee into Indiana [Gillani, Kohli & Wilson, 
1981], from Missouri toward Chicago [Gillani & Wilson, 1980; White, et 
al., 1983], and across southern Alabama and Mississippi [Ridley, et 
al., 1998]. These studies show that NOx in power plant plumes produces 
ozone approaching or exceeding health standards, and the ozone can 
travel long distances into neighboring states. Two of the power plant 
studies also found that individual power plant plumes can produce ozone 
on a regional scale comparable to the amount of ozone generated in an 
urban plume [White, et al., 1983; Ridley, et al. 1998]. The two studies 
also demonstrate that power plant plumes and urban plumes both 
contribute to downwind ozone transport.
    Within the Ohio River Valley, where the concentration of large 
coal-fired power plants is greatest, there is a large and persistent 
area of high ozone during the summer months relative to air in other 
parts of the country [Husar, 1996]. In this region, winds intermingle 
ozone pollution from different power plant plumes (as well as other 
pollution sources). Because of this mixing, a large ``reservoir'' of 
ozone is formed across much of the east-central United States. People 
living in southern Indiana, southern Ohio, northern Kentucky and much 
of West Virginia can breathe elevated ozone over a more prolonged 
period of time than people living in Chicago or Boston.
    In addition to public health impacts, natural resources are 
affected by transported smog. Scientists are raising concerns that 
prolonged ozone exposure can increase the death rates of trees in 
forests of the Appalachian region [Heck & Cowling, 1997; Wills, et al., 
1997]. This will alter the long-term tree composition of eastern 
forests, thereby affecting the forests' value as timber and 
recreational resources. National parks in the East, once thought to be 
pristine, are especially vulnerable to transported pollution from 
sources far upwind. For example, beginning on the night of July 12, 
1997 just prior to a severe ozone episode in the Northeast, an ozone 
monitor in Shenandoah National Park, VA recorded a rolling 8 hour 
average ozone concentration above the Federal 8-hour standard that 
lasted for 28 consecutive hours [Source: USEPA AIRS data base].
    The large ozone reservoir in the Ohio River Valley returns each 
summer with little abatement. Researchers at Harvard University have 
found no significant downward trend in regional ozone levels from 1980 
to 1995 [Five, et al., 1998]. This is due in large part to the lack of 
NOx reductions from power plants. While urban NOx levels have decreased 
(as have urban ozone levels in a few large metropolitan areas) due to 
pollution controls on automobiles, regional ozone and NOx levels have 
not significantly changed. In fact, between 1987 and 1996, NOx 
emissions from power plants rose by 3 percent [EPA, 1998]. Because 
regional ozone is more sensitive to NOx emissions than VOCs (volatile 
organic compounds), the lack of significant NOx reductions from power 
plants is impeding progress toward reducing regional ozone levels.
    The demonstrated existence of regional ozone transport in the 
Midwest and Ohio River Valley calls for a regional strategy to reduce 
power plant pollution. Regional transport, however, is not limited only 
to these areas. A regional NOx control strategy is even more imperative 
in light of clear evidence that large amounts of ozone and its 
precursors are transported out of the Ohio River Valley and into the 
Northeast.
    The movement of ozone from the Ohio River Valley into the Northeast 
was seen as early as 1979. During early August 1979, scientists tracked 
a mass of ozone leaving Ohio, crossing Pennsylvania and southern New 
York, and entering into the Northeast Corridor [Clarke and Ching, 
1983]. When this mass of air from the Ohio River Valley entered into 
the Northeast Corridor, it contained about 99 parts per billion (ppb) 
of ozone and had the potential of generating an additional 35 ppb 
without the addition of any new emissions from within the Northeast. 
Therefore, despite even the most stringent possible controls within the 
Northeast, the amount of background ozone seen entering the Northeast 
can cause exceedances of air quality standards.
    As the persistent ozone reservoir re-establishes itself every 
summer in the Ohio River Valley, large amounts of ozone continue to be 
transported into the Northeast from the west. During the summer of 
1995, the North American Research Strategy for Tropospheric Ozone-
Northeast (NARSTO-NE) conducted aircraft measurements of ozone in air 
masses along the western edge of the Northeast Corridor. During 
overnight hours, scientists measured ozone levels above Shenandoah, VA, 
Gettysburg, PA, Poughkeepsie, NY and other locations in excess of 100 
ppb [Lurmann, et al., 1997; Zhang, et al., 1998; Ryan, et al., 1998]. 
During this time of night, the ozone could not have been formed locally 
(no sunlight is present to initiate the formation of ozone), so it must 
have been transported during the pre-dawn hours. Wind direction 
measurements during the highest ozone days (e.g., July 14, 1995) 
indicated the air flow was out of the west [Blumenthal, et al., 1997], 
therefore the ozone traveled into the Northeast from points to the 
west, i.e., the Ohio River Valley.
    Consistent with these field studies are evaluations of air mass 
histories associated with the highest ozone levels observed in southern 
New England. In a recent study, university researchers found that the 
highest ozone levels observed at a site in rural Massachusetts are 
associated with air masses arriving from the west, i.e., source regions 
in the Midwest [Moody, et al., 1998]. Based on an analysis of air 
masses arriving in Massachusetts, the researchers concluded:
    Anthropogenic pollutants (combustion-derived products) were highest 
under [southwest] flow conditions, which were generally warm, moist, 
and relatively cloudy. This is indicative of warm sector transport. The 
highest O3 concentrations did not occur under these conditions, which 
had a low O3 production efficiency. Instead, the highest average summer 
O3 occurred under [west] flow. . . which delivered well-aged air masses 
with high O3 production efficiency. This implies an important 
contribution of adverted pollutants from Midwest source regions[.] 
[Ibid.]
    Ozone trapped aloft and transported during overnight hours has been 
quantitatively shown to contribute significantly to ground-level ozone 
concentrations experienced later in downwind regions as the aloft ozone 
is mixed back down to the ground [McElroy & Smith, 1993; Berkowitz, et 
al., 1998; Zhang, et al. 1998]. The field observations of high ozone 
concentrations mixing down to the ground during later daylight hours 
demonstrate that reducing aloft ozone is more than of theoretical 
importance.
    With transported ozone pollution levels in excess of 100 ppb during 
pre-dawn hours, the Northeast is already over 80 percent on the way to 
a 1-hour ozone exceedance before the sun rises. The Northeast is in the 
predicament of achieving the 1-hour 120 ppb and the 8-hour 80 ppb 
Federal ozone standards in situations where 100 ppb of the ozone is 
beyond its control. The high levels of transported ozone virtually 
guarantee that the Northeast will not achieve air quality goals without 
regional NOx reductions.
    The extent of regional ozone transport into the Northeast from the 
Midwest is also seen in modeling by the Ozone Transport Assessment 
Group (OTAG). OTAG modeling predicts significant decreases in ozone 
above 120 ppb in major metropolitan areas of the Northeast due to 
reductions in emissions from source regions in the Midwest (Table 1).

    Table 1. Percent reduction in ozone exposure above 120 ppb 
predicted for downwind receptor areas by OTAG modeling for the July 
1995 ozone episode. Reductions are due to ``turning off'' all 
anthropogenic NOx and VOC emissions in the respective source regions. 
The ozone exposures were calculated by OTAG in units of concentration 
(parts per million) times time (hours) times area (square kilometers), 
or ppm-hrs-km\2\.

                Percent Reduction in Ozone Exposure above 120 ppb In Northeast Metropolitan Areas
----------------------------------------------------------------------------------------------------------------
                                                                                                    Baltimore-
                                                    New England    New York City   Philadelphia    Washington DC
                                                       area            area            area            area
----------------------------------------------------------------------------------------------------------------
Source region of emissions......................
Parts of IN, MI, OH.............................      -7 percent     -11 percent     -15 percent     -12 percent
Parts of IL, IN, KY, MO.........................              -4              -5             -11             -11
Parts of IN, KY, OH, WV.........................             -12             -16             -41            -43
----------------------------------------------------------------------------------------------------------------
The July 1995 modeling data used to derive the percentage reductions of Table I can be found at the OTAG
  Northeast Modeling and Analysis Center (NEMAC) web address: http://sage.mcnc.org/OTAGDC/aqm/uamv/jul95.

    When interpreting the modeling work of OTAG, one must be careful to 
place the results in the context of what is known about the physical 
world. Computer modeling can be interpreted to support almost any view 
if the interpretation is not constrained by real-world observations. A 
case in point is the OTAG modeling result for July 16, 1991 that is 
often cited as evidence for the lack of ozone and precursor transport. 
The OTAG Modeling Report (Draft 1.1, February 12, 1997, p. 47) states:
    Unfortunately, model performance based on surface measurements in 
the upper Midwest is poorest on July 16 and 17 [1991 OTAG episode]. 
This poor performance is also seen aloft on these 2 days. Simulated 
ozone concentrations are about 30 to 60 ppb lower than the 
observations.
    Because long-distance ozone transport occurs aloft, not at ground 
level, a model that poorly represents aloft ozone is virtually 
guaranteed to underestimate ozone transport. This is not to say that 
models should not have a role in developing regional solutions to the 
ozone problem, but that model interpretations should be bounded by 
real-world observations so that the greatest confidence will be given 
to modeling results which best comport with field measurements.
    A compelling need emerges for regional NOx reductions when the 
modeling results are put in the context of the real-world measurements 
of ozone transport. Power plants are responsible for about 50 percent 
of the NOx emissions in the Ohio River Valley, and represent the single 
largest pool of available low-cost reductions in the eastern United 
States. Even with the most stringent emission controls applied in the 
Northeast, ozone levels in excess of 100 ppb seen entering the region 
from the west will prevent the people of the Northeast from breathing 
clean air.
    References
    Berkowitz, C.M., J.D. Fast, S.R. Springston, R.J. Larsen, C.W. 
Spicer, P.V. Doskey, J.M. Hubbe, & R. Plastridge 1998. Formation 
Mechanisms and Chemical Characteristics of Elevated Photochemical 
Layers over the Northeast United States, J. Geophys. Res., Vol. 103, 
pp. 10,631-47.
    Blumenthal, D.L., et al. 1997. Transport and Mixing Phenomena 
Related to Ozone Exceedances in the Northeast U.S., Sonoma Technology 
Report STI-996133-1710-WD1.1, February.
    Clarke, J.F. & J.K.S. Ching 1983. Aircraft Observations of Regional 
Transport of Ozone in the Northeastern United States, Atmos. Envt., 
Vol. 17, pp. 1703-12.
    Davis, D.D., G. Smith & G. Klauber 1974. Trace Gas Analysis of 
Power Plant Plumes Via Aircraft Measurement: O3, NOx, and 
SO<INF>2</INF> Chemistry, Science, Vol. 186, pp. 733-36.
    EPA 1998. National Air Quality and Emissions Trends Report, 1996, 
EPA 454/R-97-013, p. 17, January.
    Fiore, A.M., D.J. Jacob, J.A. Logan, & J.H. Yin 1998. Long-Term 
Trends in Ground Level Ozone over the Contiguous United States, 1980-
1995. J. Geophys. Res., Vol. 103, pp. 1471-80.
    Gillani, N.V., S. Kohli, & W.E. Wilson 1981. Gas-to-particle 
conversion of sulfur in power plant plumes-I. Parametrization of the 
conversion rate for dry, moderately polluted ambient conditions, Atmos. 
Envt., Vol. 15, pp. 2293-2313.
    Gillani, N.V. & W.E. Wilson 1980. Formation and transport of ozone 
and aerosols in power plant plumes, Annals N.Y. Acad. Sciences, Vol. 
338, pp. 276-296.
    Heck, W.W. & E.B. Cowling 1997. The need for long term cumulative 
secondary ozone standard -An ecological perspective, Envt. Mgr., pp. 
23-32, January.
    Husar, R.B. 1996. Spatial Pattern of daily maximum ozone over the 
OTAG region, Web address: http://capita.wustl.edu/OTAG/Reports/
otagspat/otagspat.html.
    Lurmann, F.W., et al. 1997. Evaluation of the UAM-V Model 
Performance in the Northeast Region for OTAG Episodes, Sonoma 
Technology Report STI-996133-1716-WD2.1, March.
    McElroy, J.L. & T.B. Smith 1993. Creation and Fate of Ozone Layers 
Aloft in Southern California, Atmos. Envt., Vol. 27A, pp. 1917-1929.
    Miller, D.F., A.J. Alkezweeny, J.M. Hales, & R.N. Lee 1978. Ozone 
Formation Related to Power Plant Emissions, Science, Vol. 202, pp. 
1186-88.
    Moody, J.L., J.W. Munger, A.H. Goldstein, D.J. Jacob, & S.C. Wofsy 
1998. Harvard Forest Regional-Scale Air Mass Composition by Patterns in 
Atmospheric Transport History (PATH) J. Geophys. Res., Vol. 103, pp. 
13, 181-94.
    Ridley, B.A., J.G. Walega, J.-F. Lamarque, F.E. Grahek, M. Trainer, 
G. Hubler, X. Lin, & F.C. Fehsenfeld 1998. Measurements of Reactive 
Nitrogen and Ozone to 5-km Altitude in June 1990 over the Southeastern 
United States, J. Geophys. Res., Vol. 103, pp. 8369-88.
    Ryan, W.F, B.G. Doddridge, R.R. Dickerson, R.M. Morales, K.A. 
Hallock, P.T. Roberts, D.L. Blumenthal, J.A. Anderson, & K.L. Civerolo 
1998. Pollutant Transport During a Regional O3 Episode in the Mid-
Atlantic States, J. Air & Waste Manage. Assoc., Vol. 48, pp. 786-797.
    White, W.H., D.E. Patterson & W.E. Wilson, Jr. 1983. Urban Exports 
to the Nonurban Troposphere: Results from Project MISIT, J. Geophys. 
Res., Vol. 88, pp. 10, 745-52.
    Wills, K., O. Loucks, P. Kalisz, A. Fritsch, A. Rees, & W. Davidson 
1997. Patterns of Forest Health: A Report on Citizen Monitoring in the 
Eastern Mountains 1994-97. The Lucy Braum Association, September.
    Zhang, J., S.T. Rao & S.M. Daggupaty 1998. Meteorological Processes 
and Ozone Exceedances in the Northeastern United States during the 12-
16 July 1995 Episode, J. Applied Meteorology, Vol. 37, pp. 776-789.
                               __________
          NESCAUM Northeast States for Coordinated Air Use 
                                                Management,
                                                   October 9, 1998.

    Hon. Daniel Patrick Moynihan,
    U.S. Senate
    Washington, DC 20510

    Dear Senator Moynihan: The Northeast States for Coordinated Air Use 
Management (NESCAUM) is writing to commend your efforts to address the 
continuing problem of acid rain in the eastern United States. As you 
are well aware, acidic deposition from emissions of sulfur dioxide 
(SO<INF>2</INF>) and nitrogen oxides (NOx) are of special concern to 
our region. The Conference of New England Governors and Eastern 
Canadian Premiers recently passed an acid rain action plan that seeks 
to go beyond the provisions contained in Title IV of the 1990 Clean Air 
Act Amendments. While Title IV has been a great success in achieving 
significant SO<INF>2</INF> reductions at far lower costs than industry 
projections, there is a growing consensus that Title IV controls are 
not sufficient to protect sensitive ecological areas. Of particular 
concern is the inadequacy of Title IV NOx controls. We commend S. 
1097's provision to require year round NOx controls. By building upon 
the seasonal control requirements recently promulgated by the U.S. EPA, 
S. 1097 will achieve significant and extremely cost effective 
environmental improvement.
    At the recent October 6, 1998 hearing on S. 1097, two witnesses 
devoted substantial time to criticizing the smog transport rule 
recently finalized by EPA. (Testimony of Edward Kropp, Assistant Chief 
of the West Virginia Of floe of Air Quality, West Virginia Division of 
Environmental Protection; Testimony of William F. Tyndall, Vice 
President, Environmental Services, Cinergy Corp.) Because the testimony 
challenging EPA's smog plan strayed from the expected focus of the 
subcommittee hearing, we are concerned that the subcommittee received 
an unbalanced view of the EPA's smog plan. To remedy this imbalance, we 
would like to provide you with the Northeast states' understanding of 
ozone transport and cost-effective NOx control options.
Long-Range Ozone Transport is Well Documented
    The independent scientific community has long recognized the 
formation and transport of ozone smog. In 1973, shortly after passage 
of the first Clean Air Act, scientists assessing New York State's ozone 
problem concluded, ``local urban photochemical generation of ozone is 
not the dominant mechanism of ozone production. . .the high urban 
concentrations are principally the result of transport and mixing of 
ozone rich air into the city from the surrounding air mass.'' (see 
Coffey & Stasiuk Envtl Sci & Tech 1975). In 1976 the Organization for 
Economic Cooperation and Development (OECD) and the U.S. EPA sponsored 
an international conference on ozone transport. The published Summary 
Review for the Conference offers the following conclusions:
    <bullet>  elevated oxidant/03 concentrations can originate from 
upwind sources as far away as 1000 kilometers (km) or more; and
    <bullet>  regional (multistate) controls programs are needed, 
rather than on a state-by-state basis. (see Altshuller, JAPCA 1978) 
Given that over 20 years have passed between these conclusions and EPA 
action, arguments that EPA has acted rashly should be afforded little 
merit.
    In 1991, the National Research Council reviewed hundreds of 
empirical studies supporting and challenging ozone transport. The 
resulting report ``Rethinking the Ozone Problem in Urban and Regional 
Air Pollution,'' confirms the presence of multi-day ozone transport 
episodes in eastern United States.
    Generally, those seeking to dismiss or diminish the magnitude of 
ozone transport rely solely on computer modeling devoid of reference to 
the real world. Certainly, predictive models are necessary when seeking 
to evaluate and compare the effects of future scenarios. However, 
skepticism is appropriate when confronted with assertions based 
entirely upon predictive models to assess transport episodes that 
occurred in the past. We know ozone transport exists because we see it. 
Ozone levels in excess of 0.10 parts per million (ppm) have been 
observed entering the Northeast Corridor during field studies as early 
as 1979. The magnitude of transported ozone makes it extremely 
difficult, if not impossible, to achieve the ozone public health 
standards of 0.12 ppm (1-hour average) and 0.08 ppm (8-hour average) in 
the Northeast.
    Additional evidence of long-range transport is provided by measured 
violations of the ozone standard at remote sites in the eastern U.S. 
Field measurements at Acadia National Park in Maine, Shenandoah 
National Park in Virginia and Great Smoky Mountains National Park on 
the North Carolina/Tennessee border have all recorded substantially 
elevated ozone levels during the night or early morning hours when 
local ozone production is not possible due to the absence of sunlight. 
There is no logical explanation for these violations other than long 
range ozone transport.
    At the October 6, 1998 Senate subcommittee hearing, Edward Kropp, 
West Virginia Division of Environmental Protection, cited an ozone 
transport limit of 150-200 miles. This assertion is not supported by 
actual field measurements of ozone transport in the eastern United 
States. While the absolute distance ozone travels varies among 
pollution episodes, Mr. Kropp's assertion underestimates measured ozone 
transport by at least a factor of three. We are attaching two NESCAUM 
documents providing an overview of the peer-reviewed scientific 
literature on ozone transport, as well as information developed by the 
Ozone Transport Assessment Group. The numerous studies of ozone 
transport in the eastern United States that have undergone peer review 
by the scientific community embody a more objective view of ozone 
transport than was provided in testimony previously submitted to the 
Senate subcommittee.
Transport Rule Can Be Met With Highly Cost-Effective Measures
    Controlling NOx emissions from large power plants is the most cost-
effective strategy remaining in the eastern United States. Often times, 
states and EPA will adopt technology forcing regulations requiring the 
development of new pollution control approaches and greatly 
complicating cost-estimation. The transport rule however, is not a 
technology forcing regulation. In fact, the technologies to meet the 
emission limits contained in the rule have been in use domestically and 
abroad for many years. To assess utility compliance costs, NESCAUM 
conducted a study relying upon the real-world cost and operating 
experience from actual installations of advanced NOx control systems at 
14 U.S. facilities involving 52 coal, gas and oil fired boilers. The 
results, which summarize over 40 boiler years of actual experience with 
advanced controls, indicate that most coal power plants can achieve a 
reduction of up to 90 percent (or a 0.15 lb/mmBtu NOx emission rate) at 
a cost of $790-$1,200/ton. Even greater reductions are technologically 
feasible and cost effective. NESCAUM estimates that a 0.07 lb/mmBtu NOx 
emission rate can be achieved at some coal power plants in a cost range 
of $1,890-$3,350/ton. With a regional trading system, NESCAUM believes 
that the average compliance costs for the electric power industry will 
be substantially less than the $ 1,700/ton figure predicted by EPA. 
(``Status Report on NOx Control Technologies and Cost Effectiveness for 
Utility Boilers,'' June 1998 (attached)).
Transport Rule is a Responsible & Equitable Step Toward Clean Air
    The EPA transport rule does not seek to control all the ozone-
forming NOx emissions that undermine regional air quality. Instead, EPA 
focuses only on what it deems are the most ``highly cost effective'' 
controls (those estimated to cost less than $2,000/ton), leaving many 
other reasonably cost effective measures untapped. Far from a ``one 
size fits all'' strategy, the Transport rule presents a responsible 
first step that we in the Northeast and other regions must build upon 
in order to achieve clean air. Believing that additional pollution 
reduction measures beyond the smog transport rule must be implemented 
in the Northeast, the NESCAUM states held a workshop on September 16, 
1998 in New York City to receive public comment and recommendations on 
future control strategies. All testifying agreed that additional local 
measures are needed in the Northeast. Several Northeast industry 
representatives asserted the concern that additional measures are 
likely to be far more costly per ton than the measures required by the 
transport rule. This recognition underscores the importance of 
achieving NOx reductions from all cheaply controlled sources both in-
region and upwind. A recent analysis by NESCAUM determined that without 
the EPA regional NOx rule, it will cost the Northeast States $1.4 to 
$3.9 billion annually for local measures to offset transported ozone. 
While the Northeast will still likely incur many of these costs, 
diminishing upwind transport will allow these relatively more expensive 
local controls to make progress toward meeting health standards, rather 
than simply compensating for upwind pollution. (``The Costs of Ozone 
Transport: Achieving Clean Air in the East,'' July 1998 (attached).
Conclusion
    We are confident that the wealth of information on the science of 
ozone transport provides an objective, independent basis for EPA's smog 
transport rule. Moreover, controlling large coal-fired power plants is 
a proven and extremely cost effective means of reducing local and 
regional air pollution. It is unfortunate that some are so accustomed 
to their inequitable position that they will oppose cost-effective 
solutions in favor of the continued ability to harm their neighbors' 
health and economies. As the drafters of the Clean Air Act well 
understood, the perverse incentives created by interstate pollution 
transport necessitate Federal intervention. At long last, EPA has 
employed the authority granted by Congress to protect states from 
pollution beyond their control. Your efforts to reduce NOx emissions on 
an annual basis will go a great deal farther in protecting the air we 
breathe and the natural world we live in.
            Sincerely,
                       Jason S. Grumet, Executive Director,
                                                           NESCAUM.
                               __________
 Technical Support Document for Alternative Proposal by the Southeast/
                   Midwest Governors' Ozone Coalition
                           executive summary
    In a letter to President Clinton, dated March 9, 199S, the 
Governors of several southeast and midwest States committed to the 
preparation of a plan to achieve compliance with the nation's ozone 
ambient air quality standard in an effective and common sense manner. 
These Governors, having organized themselves as the Southwest/Midwest 
Governor's Ozone Coalition [``Coalition''], now offer a proposal that 
will:

    <bullet>  Fully accomplish the purposes of USEPA's ozone transport 
proposal without imposing overly prescriptive Federal solutions to 
problems that affected States are fully prepared to address;
    <bullet>  Equitably distribute the reductions where needed most;
    <bullet>  Be more consistent with the available science on regional 
transport;
    <bullet>  Alleviate any significant contribution of our States 
beyond our borders;
    <bullet>  Be more consistent with the requirements of the Clean Air 
Act and the flexibility and the goals articulated in your directive to 
USEPA in July, 1997;
    <bullet>  Assure that electricity supplies in the eastern United 
States will not be disrupted as initial steps are taken to clean the 
emissions of power plant and large industrial boilers; and
    <bullet>  Reflect our commitment to take whatever other steps that 
science and good public policy point us toward in the next 3 years to 
assure that clean air goals are met.

    The Coalition calls for States to assess the reductions that will 
assure that the 8-hour \1\ ozone ambient air quality standard will be 
achieved by the fall of 2009, well in advance of the deadlines set 
forth in the Federal Clean Air Act. To accomplish this objective, the 
Coalition proposes to complete attainment plans which identify 
reductions of both nitrogen oxides (NOx) and volatile organic compounds 
(VOCs) as may be needed to achieve compliance with the ozone standard. 
Modeling and other analytical work necessary to make this determination 
would be completed by 2001, legally enforceable control requirements 
would be adopted by 2003, and emission reduction controls would be 
implemented by sources prior to the start of the ozone season in 2007.
---------------------------------------------------------------------------
    \1\ The States of Michigan, Ohio and West Virginia have joined as 
Plaintiffs in the consolidated case styled American Trucking 
Associations. Inc. et. al. v. EPA Docket No. 97-1441, pending in the 
United States Court of Appeals for the District of Columbia.
---------------------------------------------------------------------------
    Even in advance of completing the modeling work necessary to 
determine the emission reductions appropriate to achieve the 8-hour 
standard, the Coalition calls for electric utility generating units to 
substantially reduce their emission of nitrogen oxides. Most Coalition 
States will require the system wide reduction of NOx emissions from 
electric utility generating units to at least 65 percent or .25 lb/
MMBtu, whichever is less stringent, (from 1990 levels). These 
reductions will be in place by April, 2004, unless a demonstration is 
made to the State that an additional year is necessary to avoid any 
demonstrated energy disruption.
    To assure early progress in achieving the Coalition's emissions 
reduction goal, most Coalition States will require the reduction of NOx 
emissions by 55 percent (from 1990 levels) or .35 lb/MMBtu, whichever 
is less stringent, by April 2002. An additional year to achieve this 
reduction would be allowed to avoid any demonstrated energy disruption.
    The Coalition also calls for large non-utility sources of NOx 
requiring that other large (greater than 250 MMBtu) be subject to 
Reasonably Available Control Technology (RACT) by April 2003.
   southeast/midwest governors ozone coalition ozone attainment plan
1.0 Introduction
    By letter dated March 9, 1998, the Governors of several midwestern 
and southern States advised President Clinton of their great concern 
over the November 7, 1997 proposal by the United States Environmental 
Protection Agency (EPA) to address the transport of ozone in the 
eastern United States.
    While the initial deadline for the submittal of the alternative to 
EPA's November 7, 1997 SIP call proposal was August 1, 1998, the 
reopening of the comment period on the proposed SIP call and the 
publication of the Supplemental Notice of Proposed Rulemaking (SNPR) 
has allowed the opportunity to submit the proposal as part of the 
formal comments on the SNPR.
    The Coalition States have cooperated in an initiative known as the 
Southeast/Midwest Governors Ozone Coalition committed to the 
development and implementation of a plan that will address the 
contribution of Coalition States to the attainment of the National 
Ambient Air Quality Standard [``NAAQS''] for ozone within the Coalition 
States, as well as characterizing the resultant benefits in the 
nonattainment area of the Northeast Ozone Transport Region through the 
implementation of control strategies which optimize the cost of 
compliance per unit of ozone improvement.
    The Coalition has organized itself into a Governors Committee, to 
address policy and other non-technical issues, and a Technical 
Committee, to address substantive issues involved in formulating the 
alternative proposal. Each Coalition State is represented on each 
committee and each Coalition State has one vote on matters which come 
before it for a vote.
    The Governors Committee first met on April 6, 1998 and again June 
16, 1998. The Technical Committee met on April 14 and 15, April 29 and 
30, May 13 and 14, June 4, and on June 16 with the Governors Committee, 
with numerous conference calls being conducted between meetings. The 
Technical Committee developed the following eight work elements to 
provide an appropriate basis for the development of a scientifically 
sound alternative proposal to the EPA SIP Call:

    1. Make Use of On-Going UAM-V Modeling--At least two groups, LADCO 
and a joint venture among Ohio, Kentucky and West Virginia, are 
conducting modeling germane to the development of its proposal.
    2. Review Existing UAM-V Modeling--A significant amount of UAM-V 
modeling has been completed since the OTAG process concluded. Some of 
this modeling may be post-processed to determine sub-regional impact 
estimates.
    3. Utilization of On-Going and Existing CAMx Modeling--A great deal 
of modeling using the CAMx model has been and is being conducted.
    4. Cost per Ton NOx Removed Analysis--The cost of various control 
scenario costs was also evaluated by the Coalition.
    5. Phase I NOx Reductions--One of the perspectives examined in 
developing the alternative proposal was to seek input from regulated 
sources as to the level of NOx reductions that might be appropriate 
even in advance of performing refined modeling.
    6. Liaison with EPA--A communication link with EPA on the 
Coalitions initiative was established.
    7. Additional 8-hour NAAQS Modeling--The Coalition recognized that 
sound air quality management demands that an air analysis of NOx 
controls based on attainment of the 8-hour standard be performed.
    8. Cost per ppb Ozone Improvement Analysis--The OTAG process 
concluded that, while any NOx reduction will result in ozone reduction 
downwind of the course, the amount of reduction decreases significantly 
with distance from the source. Accordingly, the Coalition believes that 
an analysis of ozone reductions based on the cost per ppb of ozone 
reduction in downwind areas is a logical and resource-conservative 
means to deal with the concept of NOx transport.
    Lead responsibility for the eight work elements was undertaken by: 
Task, Description, Lead, Responsibility.

    1. Utilization on On-Going UAM-V Modeling--Illinois
    2. Utilization of Existing UAM-x Modeling--Kentucky
    3. Utilization of CAMx Modeling--Michigan
    4. Cost per Ton NOx Removed Analysis--Ohio
    5. Voluntary Early NOx Reductions--Virginia
    6. Liaison with EPA--West Virginia
    7. Additional 8-hour NAAQS Modeling--Virginia
    8. Cost per ppb Ozone Improvement Analysis--South Carolina
2.0 Statements of Purpose
    The Southeast/Midwest Governors Ozone Coalition has as its purpose 
to develop an alternative proposal to U.S. EPA's proposal for NOx 
transport. The following statements of purpose guided the Coalition in 
this effort:

    1. To develop a control strategy that leads to attainment of the 
NAAQS for ozone throughout the multi-state area and the areas 
immediately downwind.
    2. To develop a control strategy to provide for attainment of the 
1-hour standard as soon as practicable and achieve the 8-hour standard 
within Clean Air Act deadlines, provided that the 8-hour standard 
survives its ongoing legal challenge.)
    3. To determine control strategies which optimize cost of 
compliance per unit of ozone improvement.
    4. To utilize good scientific principles and techniques to 
accurately characterize the amount of emission reductions, total cost, 
and expected air quality benefit related to the Coalition's recommended 
control strategy.
3.0 Proposed Attainment Plan
            3.1 Overview
    This plan describes the Coalition approach for developing 
quantitative estimates of the levels of ozone precursor reductions that 
are likely to be needed in the Southeast and Midwest States (i.e., the 
Coalition States) in order to reach attainment of the Federal 1-hr and 
8-hr ozone NAAQS. More specifically, the plan describes the use of 
state-of-science regional photochemical dispersion models to identify 
emissions control strategies over the eastern U.S. that will cost-
effectively abate those sources or source categories responsible for 
ozone exceedances where they occur in the ten Coalition States; the 
approach is also applicable across a broader geographic area, but would 
need commitments from other States.
            3.2 Goal
    The overarching Coalition goal consists of two inter-related 
components as follows:

    A. Develop and implement those anthropogenic VOC and/or NOx 
emissions reductions that are estimated to be required for attainment 
of the 1-hr and 8-hr ozone NAAQS within the Coalition States; and
    B. Develop and compare estimates of the cost-effectiveness of 
emissions in ameliorating violations of the 1-hr and 8-hr ozone NAAQS, 
assuming full and timely compliance with Clean Air Act (CAA) 
requirements in the affected nonattainment areas.
    In striving to achieve this goal, particular attention must be 
placed on identifying and selecting the most cost-effective controls 
possible and in complying fully with the Clean Air Act Amendment 
requirements. Here, cost-effectiveness is specifically defined in terms 
of $/ppb ozone reduced under ozone exceedance conditions.

    In summary, the Coalition is committed to implement controls in the 
Coalition States (and identify goals in neighboring States) to achieve 
attainment of the 1-hour violating counties in the Coalition addition, 
the Coalition is committed to the use of a comparative analysis of the 
most cost-effective control measures needed to achieve attainment of 
the 1-hour and 8-hour ozone NAAQS.
            3.3 Regulatory Time Frame and Proposal Schedule
    Attainment of the 1-hour ozone NAAQS is already overdue for many 
ozone nonattainment areas. As the CAA attainment deadline is missed, 
the nonattainment areas classification is typically ``bumped up'' to 
include new mandatory control provisions and the next attainment date. 
The most distant nonattainment areas in the eastern U.S. and 8-hour 
ozone NAAQS in and neighboring States. In attainment date for is 2007; 
thus the proposed approach needs to achieve attainment of the 1-hour 
ozone NAAQS by the year 2007.
    The schedule for implementation of the 8-hour ozone NAAQS is likely 
to involve designation of 8-hour nonattainment areas by the year 2000, 
submission of an 8-hour ozone SIP control plan is due 3 years later by 
2003; and attainment 10 years after designation (2010) with the 
possibility of a 2-year extension (2012). Thus, any 8-hour attainment 
plan needs to result in attainment of the 8-hour ozone NAAQS no later 
than 2010-12. Given that attainment is based on measured ozone 
concentrations during the latest three consecutive years, then all 
controls needed for attainment of the 8-hour ozone NAAQS need to be in 
place prior to the 2008 ozone season to minimize (no more than three 
per year) the occurrence of exceedances of the 8-hour ozone NAAQS 
during 2008-2010.
    The Coalition believes that attainment can be achieved by the end 
of the 2009 ozone season, at least 1 year in advance of the Clean Air 
Act requirement as proposed by EPA. However, implementation of controls 
can require from 1-3 years (e.g., implementation of stationary control 
measures or introduction of reformulated gasoline) or more (e.g., 
introduction new alternative fueled vehicles require many years of 
fleet turnover before the emission benefits are realized). Furthermore, 
once the most cost-effective control measures have been identified, 
then 1-2 years of review, public comment, and refinement are needed 
prior to regulation adoption. Thus, we estimate that all of the 
technical analysis to identify the most cost-effective control measures 
for achieving attainment of the 8-hour ozone NAAQS needs to be 
completed approximately 5 years before their spring implementation, 
e.g., by July, 2001.
    Further, the Coalition proposes that certain States provide SIP's 
to implement Phase I reductions by April of 2000 as well. The timeframe 
is based on giving regulated sources until April of 2002 to begin to 
implement Phase I reductions (see Section 5) and to implement 8-hour 
attainment strategy controls by April of 2007.
            3.4 Key Issues
    Several key technical issues will need to be addressed in the 
course of developing the technical analysis necessary to determine an 
8-hour control strategy. These include the following:
    3.4.1. Continue Diagnostic Evaluation of OTAG Models: Further 
            analysis of the UAM-V/CAMx base case model performance, 
            particularly at sub-regional and urban-scales, is needed 
            with particular focus on the models ability to reproduce 
            ozone exceedances, precursor species, and species ratios.
    3.4.2. Continue QA on OTAG Data Bases: Further quality assurance 
            should be performed on the OTAG emissions inventories and 
            aerometric data sets, particularly those being used in 
            post-OTAG analyses.
    3.4.3. Assess the Suitability of the OTAG Episode for 8-hr Modeling 
            in the Southwest/Midwest Nonattainment Areas. The rationale 
            for selecting the 4 OTAG episodes did not necessarily 
            ensure that the conditions ultimately chosen are the best 
            periods for 1-hr and 8-hr ozone attainment modeling in 
            areas such as Louisville, Cincinnati, Pittsburgh, Atlanta, 
            and so on. Consideration will need to be given to whether 
            additional episodes need to be examined as well.
    3.4.4. Assess Whether Attainment of the 8-hr Standard Implies 
            Attainment of the 1-hr Standard. The greater stringency of 
            the new 8-hr standard suggests that if it is met by States 
            within the Coalition region, then the 1-hr standard will 
            likely be met as well. While the OTAG modeling and other 
            stakeholder modeling has shown that there is strong 
            similarity in the responses of peak 1-hr and 8-hr ozone 
            concentrations to precursor controls, some investigation is 
            warranted into whether attainment of the 8-hr: standard 
            necessarily means that the 1-hr will be met or approached 
            as well. Particular attention should be given to whether 
            there are situations where emissions controls for 
            attainment of the 8-hr standard might, in fact, exacerbate 
            attempts to achieve the 1-hr standard in certain areas.
    3.4.5. Provide Adequate Time and Resources for the Subregional 
            Modeling Analyses: It will take considerable time and 
            resource requirements to carefully design subregional 
            control scenarios to cost-effectively mitigate local ozone 
            exceedance problems and avoid new exceedances while at the 
            same time contributing, were appropriate, to an 
            amelioration of the ozone exceedances in the most severe 
            areas. Beginning with the SIPs developed in the early 
            1970's, there has never been adequate time and resources 
            given to addressing this fundamental question. If 
            appropriate time and resources are again not provided, the 
            same incrementalism that has been the hallmark of the SIP 
            processes for nearly two decades may be expected to 
            continue.
            3.5 Technical Approach
    The Coalition urges that the implementation of this plan be pursued 
in accordance with the following schedule:
    <bullet>  04/01/00 Coalition States will submit legally enforceable 
Phase I emission reduction requirements
    <bullet>  07/31/01 Completion of modeling and analysis for 
attainment of 8-hour NAAQS
    <bullet>  04/01/02 Implementation of Phase I utility NOx reductions 
of at least the lesser of 55 percent or .35 lb/MMBtu from the 1990 
level, subject to a 1 year energy disruption exemption
    <bullet>  07/31/03 Submit ozone NAAQS attainment SIPs
    <bullet>  04/01/04 Implementation of Phase I utility NOx reductions 
of at least the lesser of 65 percent or .25 lb/MMBtu from the 1990 
level, subject to a 1 year energy disruption exemption
    <bullet>  04/01/09 Implementation of Phase II controls
    <bullet>  09/30/09 Attain ozone NAAQS
            3.5.1. Definition of the Analysis Improvements of Current 
                    Databases
    Completion of this task will result in available data and 
databases, data gaps and uncertainties, additional data needs, and 
definition of the analysis to be performed subsequently. The following 
activities will be considered in individual States or cooperating State 
assessment efforts:
    <bullet>  Develop a prioritized list of key nonattainment areas in 
the Coalition States region for which modeling analyses are to be 
targeted;
    <bullet>  Assess the suitability of current OTAG models and data 
bases for addressing 1-fur and 8-hr1 ozone attainment issues in these 
key areas. Develop new modeling episode(s) if necessary; diagnose poor 
model performance and rectify performance problems where necessary;
    <bullet>  Improve the OTAG emissions inventories where feasible, 
consistent with the scope of the refined subregional modeling;
    <bullet>  Review and synthesize pertinent past studies to help 
guide the analysis;
    <bullet>  Identify and integrate the new improved post-OTAG 
modeling databases into the analysis. These databases include both OTAG 
spin-off data bases and new higher quality data bases that are 
beginning to come available.
    OTAG spin-off data bases that are now complete or expected to be 
complete for use in this analysis include at a minimum:
    1. The LADCO/IEPA refined 4 km modeling data bases for 1991 LMOS 
episodes;
    2. The Tri-Sta data bases; and
    3. The Missouri Electric Utility Environmental Committee (MEUEC) 
refined 4 km data base.
    4. The Coordinating Research Council (CRC) NARSTO July 1995 CAMx 
and MAQSIP modeling data bases based on new high resolution emissions 
modeling and high resolution MM5 meteorological modeling;
    5. The CRC LMOS June/July 1991 CAMx and MAQSIP modeling data bases 
based on new high resolution emissions modeling and high resolution MM5 
meteorological modeling;
    6. NYSDEC/SUNY 3 month 1995 seasonal UAM-V modeling data base;
    7. EPA's MODELS3 data bases; and
    <bullet>  Identify models to be used in the analysis.
    <bullet>  Identify sources and uncertainties in economic data 
needed to perform cost-effectiveness analysis;
    <bullet>  Identify data gaps and shortfalls and what additional 
information needs to be obtained to perform a technically justified and 
comprehensive analysis; and Evaluation of Phase I emission controls to 
determine their benefits for achieving attainment of the 1-hour and 8-
hour NAAQS in the Midwest/Southeast nonattainment areas and level of 
reductions of ozone transport. Evaluate whether Phase I emissions 
reductions will result in ozone disbenefits.
            3.5.2. Data base Development and Model Performance 
                    Evaluation
    The second task is to develop the data bases and tools needed to 
perform the refined modeling and cost-effectiveness analysis to 
determine the optimal control measures for achieving attainment of the 
1-hour and 8-hour ozone NAAQS in the nonattainment areas in the 
Coalition States. Specific elements to be performed include the 
following:
    <bullet>  Acquisition of data bases and data to develop high 
quality refined modeling data bases. Acquisition or generation of 
missing data to fill data gaps and reduce uncertainties;
    <bullet>  Development of base case emissions and meteorological 
data bases (as necessary as defined in the first task);
    <bullet>  Performance of base case photochemical model simulations 
and comprehensive model performance evaluation. Model performance 
evaluation will be much more detailed than performed for OTAG and will 
(as well as many other consider the following elements):
    <bullet>  Ability of the model to reproduce ozone exceedances in 
the key nonattainment areas;
    <bullet>  Ability of the model to reproduce ozone precursors and 
key indicators to determine whether model is reproducing the chemical 
regimes that produced the ozone exceedances; and
    <bullet>  Establish 2007 CAA Baseline 1-hr and 2010 CAA Baseline 8-
hr ozone conditions throughout the OTAG domain for pertinent modeling 
episodes; and.
    <bullet>  Conduct Roll-Out modeling (see Imhoff and Gautney, 1998 
or Morris et al., 1998b) from each problem area to assess the extent of 
the geographical regions whose emissions influence 1-hr and 8-hr ozone 
concentrations in the problem areas.
            3.5.3. Identify Optimal Control Strategies for Coalition 
                    States, Nonattainment Areas
    EPA's SIP call is based on a massive reduction in NOx emissions 
throughout a 22-State area. EPA's justification is that such a large 
emission reduction will produce widespread ozone benefits. While it is 
not difficult to provide examples to contradict EPA's position nor is 
it difficult to show that their approach is counter to the Clean Air 
Act, the Coalition has chosen not to focus on the technical 
shortcomings of the SIP call. Instead, the Coalition has attempted to 
craft alternative proposals that are reasonable, cost effective and 
more universally supported. One of the tools employed by the Coalition 
to achieve this objective is the CAMx model.
    Regional models such as CAMx are beneficial in assessing transport. 
However, because of their relatively large grid size, they typically 
are not used to project ``attainment''. Unfortunately, since EPA has 
frequently supported the SIP call on the basis of projected attainment 
as indicated by the UAM-V model, we were forced to review model results 
with a view toward attainment. Doing so in no way infers that the 
Coalition believes that regional modeling can be substituted for 
subregional modeling when conducting attainment demonstrations. That 
would have serious consequences because, among other things, NOx 
disbenefits would be underestimated.
    The CAMx runs conducted for the Coalition allow several general 
conclusions to be made:
    <bullet>  The contribution of low level and elevated sources to 
ozone formation from the Coalition States is comparable.
    <bullet>  The largest fraction of the ozone in a receptor area is 
due to emissions from within that receptor area and from adjacent 
States.
    <bullet>  In some cases, the level of transport from non-SIP call 
States (a.k.a., the coarse grid States) is greater than that from the 
SIP call States. This is most evident for the receptor areas in the 
Midwest.
    <bullet>  Levels of ozone from biogenics, initial conditions and 
boundary conditions are sometimes as high or higher than from 
transport.
    For the 1-hour standard, at the majority of the receptors, most of 
the ozone (usually 60 percent or more) is due to emissions in the 
receptor State and adjacent States. This effect is most pronounced in 
the OTR States. For the 8-hour) standard, local and adjacent State 
contributions are also most significant, but less so than for the 1-
hour standard.
    An examination of the CAMx results performed by Alpine Geophysics 
for the application of the SIP call and several alternatives to it 
demonstrates that the SIP call will not result in attainment 
particularly in the Northeast. Moreover, application of NOx controls in 
the midwest and southeast will have little or no impact on the 
northeast beyond the benefits that would result from applying the SIP 
call only to the Inner Zone of the Northeast Ozone Transport Region.
    In the CAMx analyses contained in the enclosed graphics, impacts on 
the Northern, Central and Southern corridors are examined for each of 
the following 5 control strategies.

    1. Base--Clean Air Act Base (Year 2007 CAAA controls, Title IV, 
etc.)
    2. SIP/Inner--SIP call controls in the inner zone of the OTR; Phase 
II MOU controls in the outer zone of the OTR; Year 2007 CAAA controls, 
Title IV, etc., base elsewhere;
    3. 55 percent MU--SIP call controls in the inner zone of the OTR; 
Phase II MOU controls in the outer zone of the OTR; 55 percent /0.35 
lb/hr NOx on electric utility boilers >250 MMBtu in IL, IN, KY, MI, OH, 
TN, VA, WV, WI, the fine grid portion of MO, and in the outer zone of 
the OTR; Year 2007 CAAA controls, Title IV, etc., base elsewhere; and
    4. 65 percent/MW--SIP call controls in the inner zone of the OTR; 
Phase II MOU controls in the outer zone of the OTR; 65 percent/0.25 lb/
hr NOx on electric utility boilers > 250 to in IL, IN, KY, MI, OH, TN, 
VA, WV, WI and the fine grid portion of MO; Year 2007 CAAA controls, 
Title IV, etc., base elsewhere;
    5. SIP/Call--SIP call controls applied over the full OTAG domain 
for the 1991 and 1995 OTAG episodes.
    From the CAMx results it is apparent that in the development 
strategies the following conclusions are applicable:
    <bullet>  The SIP call reductions exceed what is necessary for most 
areas to address transport implications and will be counter productive 
in some areas.
    <bullet>  The SIP call will not result in attainment of either 
standard in many areas. CAMx results can be used to identify areas 
where detailed subregional modeling should be conducted as envisioned 
by OTAG.
    <bullet>  CAMx has quantified ozone contributions from each State. 
This information, coupled with control cost data, can be used to 
estimate benefits on a dollar per ppb basis. Attainment demonstrations 
must be based on more detailed subregional modeling as called for by 
OTAG.
    <bullet>  Contribution from individual States vary significantly, 
verifying that EPA's one-size-fits-all approach is inappropriate.
    <bullet>  Additional local controls will be necessary to comply 
with the new 8-hour standard in many areas.
    <bullet>  The model may result in underestimation of the benefits 
of VOC controls, overestimation of the benefits of NOx controls, is due 
to SIP call and underestimation of NOx disbenefits. This the high 
proportion of biogenic VOCs in EPA's inventory. This high level of 
biogenic emissions dominates the anthropogenic VOC emissions over most 
of the region.
    Identification of the optimal VOC and NOx control measures needed 
to attain the 8-hour ozone NAAQS in nonattainment areas of the 
Coalition States will involve the following activities.
    <bullet>  Develop candidate subregional emissions control programs 
for each problem area based on results of previous modeling analyses 
(e.g., pertinent OTAG and post-OTAG studies). Estimate control 
requirements for 8-hr attainment in each Southeast/Midwest Coalition 
State problem areas separately;
    <bullet>  Integrate findings from above problem area analyses into 
one or more composite subregional strategies aimed a providing for 8-hr 
attainment in multiple Southeast/Midwest problem areas. Included as 
part of this analysis would be identifying and mitigating the potential 
for ozone disbenefits to occur in an area as the result of a proposed 
control measure;
    <bullet>  Repeat preceding two steps if necessary to reach a matrix 
of subregional VOC and/or NOx emissions controls throughout the 
Coalition States that achieves the 8-hr standards in the problem areas; 
and
    <bullet>  Integrate cost data into the alternative VOC and/or NOx 
ozone attainment emission control strategies to identify a matrix of 
optimal most cost-effective VOC/NOx emissions control strategies that 
achieve attainment of the 8-hour ozone NAAQS in the Midwest/Southeast 
nonattainment areas.
            3.5.4 Comparative Analysis of the Cost-Effectiveness of 
                    Local Versus More Distant Control Measures for 
                    Reducing Ozone Exceedances
    In the development of control strategies, cost effectiveness should 
consider the cost as well as the effectiveness of the control; i.e. the 
downwind benefit that a control has on ozone concentrations. 
Recognizing that not all NOx is created equal, control strategies 
should not seek to reduce cost-effectively NOx, but rather to reduce 
cost-effectively ozone. Any control strategy should determine the most 
cost-effective controls available to produce a demonstrated downwind 
impact. Ultimate control strategies should not utilize cost/ton of the 
controls as the primary consideration in determining cost 
effectiveness. Rather, cost-effectiveness should be calculated in terms 
of a cost per ppb of ozone removed.
    The Cost/Benefit Analysis of OTAG Modeling Results was presented at 
the June 3, 1997 OTAG Policy Group Meeting. This document is not only 
part of the formal record for OTAG but is part of the NOx SIP Call 
Comments as well. To date this is the only known comparable analysis 
that has been publicly presented which takes into consideration cost 
per unit of ozone removed. While the analysis did not provide an 
absolute finding of cost-effectiveness, it did provide a relative 
comparison of cost-effectiveness across regional areas.
    This analysis normalized cost-effectiveness considering all four 
OTAG episodes for the three identified 1-hour nonattainment areas and 
assumed comparable controls across OTAG Zones I-V. This analysis showed 
that NOx reductions from sources internal to Zones I, III, and V 
containing the current 1-hour nonattainment areas were more cost-
effective on a per unit ozone removed basis than sources internal to 
Zones II and IV.
    For example, utility controls applied in the Northeast Corridor 
(Zone III), the Lake Michigan Area (Zone I), and Georgia (Zone V), were 
shown to be 24 times more cost-effective at reducing ozone in the 
Baltimore/Washington area, 22 times more cost effective at reducing 
ozone in the Lake Michigan area, and 11 times more cost-effective at 
reducing ozone in the Atlanta area, respectively, than utility controls 
applied in Zone IV. Similarly, utility controls applied in the Lake 
Michigan area and Georgia would be 54 and 150 times respectively more 
cost-effective than controls in Zone II.
    This analysis identified comparable costs between Zone II 
reductions and those in the Southern Corridor of the Northeast 
nonattainment area (Zone III). An important factor in this comparison 
was the exclusion of the costs associated with the OTC NOx-MOU in the 
Zone III area. This and other assumptions, such as using the costs 
associated across an entire Zone rather than limiting costs to a 
specific receptor area, as well as a uniform cost of controls across 
all Zones, contributed to this conclusion.
    A state-by-state demonstration of the cost-effectiveness of any 
reductions necessary to achieve attainment of the 1-hour standard is 
needed. A reduction of ``x'' tons of NOx in State A may have no impact 
on attainment in State B. However, an identical reduction of ``x'' tons 
in State B may have a marked effect on ozone in State B. Uniformity in 
control is not uniformity in effect. Less stringent controls in some 
areas may actually be more cost effective in terms of cost/ppb of ozone 
reduced (or dollars/percent ozone reduction) than the most stringent 
controls elsewhere. The only way to determine this is to examine the 
full range of controls and calculate the costs and downwind ozone 
benefits of each set of controls. Models have been developed which will 
provide least cost options for reducing ozone concentrations and 
studies utilizing such models are ongoing. States need sufficient time 
to perform such an analysis and to evaluate appropriate actions.
            3.5.5. Review, Refinement, and Public Outreach
    Public outreach regarding the control plan development will be 
critical to receiving comment from the regulated community, public and 
governmental entities. Accordingly, the Coalition will assure that a 
mechanism is provided for full, regular, and meaningful public 
participation in the Coalition States modeling and analysis program; 
and that refined final control plans be based on public comments.
            3.5.6. Rules and Implementation
    The final task of the initiative will involve the Coalition States 
making rules for the control measures and for affected sources to 
implement the control technologies. It will therefore be critical for 
States to develop and promulgate rules for the control measures in the 
Coalition States and affected sources to implement control measures to 
achieve necessary emissions reductions prior to the ozone season in 
2007.
4.0 Phase I Reductions
            4.1. Reduction Levels
    An integral part of the overall strategy for emission reductions is 
the commitment by States to Phase I emission reductions. Such 
reductions will be targeted for implementation during the ozone seasons 
in 2002 and 2004.
    It is anticipated that implementation of Phase I reductions will 
result in emission reductions that will vary on a state-by-state basis 
as companies elect to over-control some units and under-control others 
to achieve a company wide average. To determine the level of Phase I 
reductions, the geographic scope, and the resultant improvement in air 
quality, the following actions were undertaken:
    1. Use of On-Going UAM-V Modeling--At least two groups, LADCO and a 
joint venture among Ohio, Kentucky and West Virginia, conducted 
modeling which the Technical Committee felt is germane to the 
development of its proposal.
    2. Review Existing UAM-V Modeling--A significant amount of UAM-V 
modeling has been completed since the OTAG process concluded. Some of 
this modeling was post-processed to determine sub-regional impact 
estimates. A significant effort was necessary to coordinate and analyze 
the necessary post-processing. A summary of the studies conducted in 
the first two work elements regarding UAM-V modeling is appended to 
this Technical Support Document as Appendix 1.
    3. Utilization of On-Going and Existing CAMx Modeling--A great deal 
of modeling using the CAMx model has been and is being conducted. 
Analysis of existing results, including post-processing of the model 
output, was helpful in developing the alternative proposal.
    4. Cost per Ton NOx Removed Analysis--Another piece of the ozone 
management puzzle which the Technical Committee explored is the cost of 
various control scenarios.
    5. Initial Early NOx Reductions--One of the perspectives examined 
in developing the alternative proposal was to determine what regulated 
sources could achieve in NOx reductions in advance of refined analyses 
being performed.
    Upon completion of the work elements and following review of the 
results and recommendations by the Technical Committee, the Governors 
Committee met and adopted the following Phase I emission 
recommendation:
    <bullet>  All Coalition States other than Alabama and South 
Carolina will require a reduction of NOx emissions form electric 
utilities within our States equivalent to at least the lesser of a 
system wide emission rate of .25 lbs/MMBtu or a 65 percent level of 
reduction (from 1990 levels). These reductions will be in place by 
April of 2004, unless a demonstration is made that an additional year 
is necessary to avoid disruption of the energy supply in our States.
    <bullet>  To assure early progress in reducing emissions, these 
same tes will also require at least the lesser of a system wide 
emission rate of .35 lb/MMBtu or a 55 percent level of reduction (from 
1990 levels). These reductions would be in place by April of 2002, 
unless a demonstration is made that an additional year is necessary to 
avoid disruption of the energy supply in our States. We will also 
require reductions from other large (greater than 250 MMBtu heat input) 
non-utility sources of NOx by April of 2003. These State reductions 
will be coordinated with USEPA's on-going Industrial Combustion 
Coordinated Rulemaking. The control level for these non-utility sources 
will be based upon Reasonably Available Control Technology (RACT). 
State regulations requiring these reductions will be in place within 18 
months of the final rulemaking by USEPA.
    <bullet>  While we commit to limit the emissions of NOx from these 
sources in Phase I, we approach of a mandatory States. The Clean Air do 
not agree with USEPA's proposed emission cap, or budget, for our Act 
provides the States with the authority and responsibility for making 
this choice. While some of our States may choose to implement a cap, 
many may not.
            4.2. Air Quality Impacts
    The Coalition anticipates that substantial air quality benefits 
will result even from its Phase I reductions with additional reductions 
as necessary to achieve the 8-hour' standard within the Coalition 
States. CAMx modeling runs performed by Alpine Geophysics allow a side-
by-side comparison to be made between EPA's SIP Call and a 65 
percent/.25 control strategy similar to that recommended by the 
Coalition.
    The figures that follow make such a comparison first with respect 
to the 1991 episode and then the 1995 episode. The 65 percent/.25 
control strategy (on the right in each case) that is being compared 
against the SIP Call (on the left in each case) contains the following 
controls:

    07SIP2a controls in the inner zone of the OTR; Phase II MOU 
    controls in the outer zone of the OTR; 65 percent/0.25 lb/hr NOx on 
    electric utility boilers >250 MMBtu in IL, IN, KY, MI, OH, TN, VA, 
    WV, WI, and the fine grid portion of MO; 07EPA1a base elsewhere.

    The Coalition takes no position at this time as to the merit of any 
particular control strategy in Northeast Ozone Transport Regions and 
offers these graphics to illustrate the air quality benefits of its 
proposed Phase I reductions in a geographic area that closely 
proximates the scope of its proposal.
    Phase II analyses will be used to address all remaining hour areas 
projected to exceed the ozone NAAQS and the 8-hour ozone NAAQS within 
the Coalition States.
5.0 Trading
    The Coalition favors providing for an appropriate trading program. 
The alternative plan does not require an overall emissions cap, but 
does allow States the flexibility to establish such caps at their 
discretion.
6.0 Conclusion
    The Southeast/Midwest Governors Ozone Coalition is pleased to have 
the opportunity to advance its proposed alternative to EPA's proposed 
NOx SIP call. This proposal is offered in the belief that it offers an 
answer to the ozone dilemma facing the Nation that is not only 
equitable and cost effective, but which for the first time assures that 
there is the strongest possible commitment to attain and maintain the 
national ambient air quality standard for ozone.
    No one should minimize the extraordinary effort that will need to 
be undertaken to perform the assessment of air quality to determine the 
types of controls that will need to be put in place to achieve the 8-
hour national ambient air quality standard for ozone. This proposal 
provides for an appropriate opportunity to allow this assessment to be 
conducted to assure that the ultimate control strategy selected will 
indeed comply with the standard and do so on a cost-effective basis.
    In the meantime, the proposal brings about significant reductions 
of NOx principally through controls on electric utility boilers. Phase 
II controls, however, will likely require the imposition of controls on 
many other sources, including other point sources as well as area and 
mobile sources.
    The Coalition is committed to taking the actions set forth in this 
proposal to assure that all Americans are afforded the opportunity to 
live and work in an environment free of air quality concerns related to 
ozone.
                                 ______
                                 
                               references
    Cass, G.R., and G.J. McRae, 1981. ``Minimizing the Cost of Air 
Pollution Control'', Environmental Science and Technology, Vol.15, No.-
7.
    EPA, 1996. ``Guidance on Use of Modeled Results to Demonstrate 
Attainment of the Ozone NAAQS,'. EPA-454/B-95-007, U.S. Environmental 
Protection Agency, Office of Air Quality Planning and Standards, 
Research Triangle Park, NC.
    EPA, 1997. ``Calculation of Budget Components: Technical Support 
Document'' prepared by the Office of Air and Radiation, U.S. 
Environmental Protection Agency, Research Triangle Park, NC.
    Imhoff, R.E., and L.L. Gautney, 1998. ``Regional Photochemical 
Model Estimation of the Scale of Ozone Transport in the Eastern U.S.'', 
10th Conference on Applications of Air Pollution Meteorology with the 
Air and Waste Management Association, American Meteorological Society, 
11-16 January, Phoenix, AZ.
    Koerber, M, 1998. ``OTAG Modeling Results'', proceedings of the 
10th Joint Conference on the Applications of Air Pollution Meteorology, 
11-16 January, 1998, Phoenix, AZ.
    Lurmann, F. and N. Kumar, 1997. ``Evaluation of the UAM-V Model 
Performance in OTAG Simulations: Summary of Performance Against Surface 
Observations'', Final report prepared by Sonoma Technology, Inc., 
Prepared for the U.S. Environmental Protection Agency and the Ozone 
Transport Assessment Group, Research Triangle Park, NC.
    MOG, 1996. ``Ozone Attainment: Proceeding in the Right Direction?', 
prepared by the Midwest Ozone Group.
    Morris, R.E., 1996a, ``Review of Recent Ozone Measurement and 
Modeling Studies in the Eastern United States'', Draft Final Report, 
prepared for the Ozone Transport Assessment Group, prepared by ENVIRON 
International Corp., Novato, CA.
    Morris, R.E., 1996b, ``Preliminary UAMx Ozone Source Apportionment 
Modeling Using the OTAG July 1991 B2 Base Case Data Base,'' prepared by 
ENVIRON International Corp., Novato, CA.
    Morris, R.E. 1997. ``Review of NESCAUM Report on Long-Range 
Transport of Ozone and its Precursors in the Eastern U.S.'',
    prepared for the Midwest Ozone Group, prepared by ENVIRON 
International Corp., Novato, CA.
    Morris, R.E., 1998a. ``Review and Critique of the November 7, 1997 
EPA Ozone Transport SIP call and Assessment of the Contribution of 
Emissions from Missouri on Nonattainment Using the July 1995 OTAG Data 
base, prepared for the Missouri Electric Utility Environmental 
Committee, prepared by ENVIRON International Corporation, Novato, CA.
    Morris, R.R., E. Tai, G. Wilson, and D. Weiss, 1998b. ``Use of 
Advanced Ozone Source Apportionment Techniques to Estimate Area of 
Influence (AOI) Contributions to Elevated Ozone Concentrations'', 
presented at 91st Annual Meeting and Exhibition of the Air and Waste 
Management Association, San Diego, California June 14-18, 1998.
    National Academy of Sciences. 1991. Rethinkinq the Ozone Problem in 
Urban and Reqional Air Pollution, National Academy Press, Washington, 
DC.
    OTAG, 1996. ``Modeling Protocol'', Version 3.0, prepared by the 
Ozone Transport Assessment Group, 29 February.
    OTAG, 1997a. ``Modeling Report'', Draft Version 1.1, prepared by 
the Ozone Transport Assessment Group, 12 February.
    OTAG, 1997b ``Ozone Transport Assessment Group Executive Report, 
1997'', prepared by the Ozone Transport Assessment Group.
    Tesche, T.W., et al,. 1998a. `iReview of the EPA Ozone Transport 
SIP Call and Recent Post-OTAG Modeling and Analysis Studies'', prepared 
for the States of Ohio, West Virginia, and Kentucky, prepared by Alpine 
Geophysics, LLC, Covington, KY and ENVIRON International, Novato, CA.
    Tesche, T.W., et al., 1998b. ``Assessment of the Reliability of the 
OTAG Modeling System, proceedings of the 10th Joint Conference on the 
Applications of Air Pollution MeteoroloqY,-11-16 January, 1998, 
Phoenix, AZ.
    Tesche, T.W., et al., 1998c. ``Tri-State Regional Ozone Modeling 
Study: Results of the Sub-Regional Modeling of the EPA Section 110 SIP 
call'', prepared for the Greater Cincinnati Chamber of Commerce, 
prepared by Alpine Geophysics, LLC, Covington, KY.
    Tesche, T.W., et al., 1998h, ``Analysis of the Effects of VOC and 
NOx Emissions Reductions in the Eastern United States on Peak 1-hr and 
8-hr Ozone Concentrations'' prepared for the Midwest Ozone Group, 
prepared by Alpine Geophysics, LLC, Covington, KY.
    Yarwood, G., R.E. Morris, C. Emery, and G. Wilson, 1998b. ``Recent 
Advances in Regional Photochemical Grid Modeling and Application using 
the OTAG Modeling Data bases, presented at 91st Annual Meeting and 
Exhibition of the Air and Waste Management Association, San Diego, 
California June 14-18, 1998.
                                 ______
                                 
             Appendix 1 Summary of UAM-V Modeling Projects
                                summary
    Significant regional and subregional modeling efforts were 
undertaken by States and other stakeholders, both during and after the 
OTAG effort, using the UAM-V model. Additionally, important work by the 
Lake Michigan Air Directors Consortium (LADCO) was nearing completion 
while this report was being compiled. This work is critical in 
developing control strategies that appropriately address NOx reduction 
disbenefits noted below. The UAM-V model was the model of choice for 
the OTAG evaluations of transport into the serious 1 hour ozone 
nonattainment areas. Most efforts were designed to evaluate the impact 
of various levels of controls as well as the effectiveness of different 
control strategies. The large volume of additional modeling data 
provided additional insight into the degree and range of transport in 
ways not originally considered in the OTAG process. The results of 
these analyses indicate that there is not a modeling basis for the 
requested level of control contained in the OTAG SIP call notice nor a 
basis for extending those controls beyond the serious nonattainment 
areas.
    <bullet>  Local Controls Most Effective: Most of the ozone 
reduction benefits of the EPA's SIP Call control strategy in a 
nonattainment area are due to controls in or immediately downwind of 
the nonattainment area.
    <bullet>  Ozone Improvements Occur Predominantly in Non-Problem 
Areas: Most of the ozone reductions due to the EPA's SIP Call control 
plan occur in attainment or near-attainment areas, reducing ozone 
concentrations to levels well below the NAAQS.
    <bullet>  Diminishing Effectiveness of Point Source NOx Control: 
There is very little difference in the reductions in ozone 
concentrations due to the Run A control strategy (55 percent controls 
on major NOx point sources) versus the Run I control strategy (85 
percent control on major NOx point sources); the extra reductions in 
emissions from major NOx point sources from 55 percent to 85 percent is 
not cost-effective or justified based on the ozone air quality 
benefits.
    <bullet>  Controls on Nearest States Outside the OTR Yield Little 
Ozone Benefit in the North East: The high modeled 1-hr average ozone 
concentrations occurring in the northeast are not influenced 
appreciably by sources in the States of KY, OH, and WV. Results from 
modeling with two episodes (91, 95) reveals little (i.e., 2-6 ppb) or 
no ozone reduction in the Northeast Corridor. Also, Virginia UAM-V 
modeling results show that point source emissions from VA have little 
impact on the northeast.
    <bullet>  Regional NOx Reductions Cause Isolated, Local Ozone 
Disbenefits: OTAG modeling indicated NOx reduction disbenefits that 
generated some controversy. Subsequent modeling confirms that 
significant NOx reduction disbenefits do occur, as a result at EPA's 
SIP call, particularly around Lake Michigan and near certain urban 
areas including Baltimore (MD)-Washington (DC); Cincinnati, OH; 
Louisville, KY; and Pittsburgh, PA.
                               background
    On 8 July 1998 the OTAG Policy Group forwarded to EPA 
recommendations approved by 31 States and the District of Columbia. The 
most significant OTAG findings were:
    <bullet>  Modeling/Air Quality Conclusions: Regional NOx reductions 
are effective in producing ozone benefits; the more NOx reduced, the 
greater the benefit. Ozone benefits are greatest where emissions 
reductions are made and diminish with distance.
    <bullet>  Elevated and low-level NOx reductions are both effective. 
VOC controls are effective in reducing ozone locally and are most 
advantageous to urban nonattainment areas.
    <bullet>  Additional Modeling and Air Quality Analysis: ``. . . 
States must have the opportunity to conduct additional local and 
subregional modeling and air quality analyses, as well as develop and 
propose appropriate levels and timing of controls''. ``. . . priority 
should be given to the serious and severe nonattainment areas of 
Atlanta, Lake Michigan and the northeast, relative to transport''. 
``OTAG recommends EPA evaluate States, timely submittal of comments and 
subregional modeling regarding the proposed statewide budgets prior to 
EPA's finalizing the SIP calls within 12 months of their proposal''.
    <bullet>  Utility NOx Control: ``. . . the range of utility NOx 
controls in the fine grid fall between Clean Air Act controls and the 
less stringent of 85-percent reduction from the 1990 rate (lb/MMBtu) or 
0.15 lb/MMBtu in order to mitigate ozone transport and assist States in 
complying with the existing 120 ppb ozone standard''.
    <bullet>  Vehicle Emission Inspection and Maintenance Controls: 
``The OTAG States recommend that, where required by the Clean Air Act, 
appropriate and effective vehicle emission and inspection and 
maintenance (I/M) programs be implemented., ``. . . States [should] 
consider the option of enhanced I/M programs in all urbanized areas in 
the fine grid with a population greater than 500,000.''
    In response to the OTAG recommendation for additional regional and 
subregional modeling, many stakeholder groups performed additional UAM-
V analyses. This combined work element summarizes the work completed 
both during and after OTAG.
                                analysis
    This work element was undertaken to evaluate all available UAM-V 
modeling analyses which were performed during or after the OTAG 
process. The following are summaries of the approaches, assumptions and 
conclusions from UAM-V model efforts and ancillary studies performed 
outside of OTAG which have been completed since the beginning of the 
OTAG process.
MODELING STUDIES CONCURRENT WITH OTAG
OEPA State Specific UAM-V/CAMx Modeling
    The Ohio EPA and the Midwest Ozone Group (MOG) jointly commissioned 
a study to perform state-specific ozone control simulations using the 
UAM-V model and the July 1991 and July 1995 OTAG modeling episodes. The 
objective of this modeling was to test an underlying OTAG hypothesis, 
namely that emissions from Midwestern States have an impact on ozone 
concentrations in States farther to the east, including in the 
Northeast Corridor. The UAMV model was exercised to examine the impact 
of emissions reductions in several States (Kentucky, Illinois, 
Pennsylvania, and the northeastern U.S.). The July 1991 and July 1995 
OTAG episodes were used in conjunction with the 2007 Baseline OTAG 
Baselc emissions inventory to model a total of eight (8) scenarios 
based on the OTAG Round 2 Controls. Runs 11 and 8 defined with 2007 
CEMla applied everywhere in OTAG domain except where OTAG Round 2 
controls were applied:
    The OEPA/MOG study concluded that:
    <bullet>  OTAG Round 2 controls in Kentucky produce 2-16 ppb ozone 
reductions throughout large portions of northern Kentucky and southern 
Illinois, Indiana, and Ohio for both the July 1991 and July 1995 OTAG 
episodes. Reductions above 2 ppb to not extend beyond Pittsburgh; 
localized ozone disbenefits on the order of 2-9 ppb are predicted in 
the Louisville nonattainment area.
    <bullet>  OTAG Round 2 controls in Illinois produce 2-14 ppb ozone 
reductions throughout large portions of Illinois, Indiana, Michigan, 
western Kentucky and Ohio during the 1995 episode and Ohio and 
Pennsylvania during the 1991 episode. For the 1991 episode, reductions 
of 2 ppb or greater extend to New York City; localized ozone disbene-
fits of 2 -23 ppb are modeled in the Cincinnati-Hamilton nonattainment 
area.
    <bullet>  OTAG Round 2 controls in Pennsylvania produce 2-10 ppb 
ozone reductions throughout large portions of Pennsylvania and 
Maryland, southern New York State and western Connecticut during the 
1995 episode; localized ozone disbenefits of 1 ppb are modeled in the 
Pittsburgh-Beaver Valley nonattainment area.
    <bullet>  OTAG Round 2 controls in the Northeast U.S. produce a 
broad region of ozone reductions in the 2-22 ppb range throughout 
virtually the entire coastal northeast corridor during the 1991 
episode; localized ozone disbenefits of 2-19 ppb in a few metropolitan 
areas and over the Atlantic Ocean.
MOG Superregional Stakeholder Modeling
    The Midwest Ozone Group (MOG) and other business and trade 
organizations commissioned a Superregional ozone modeling study to 
respond to the OTAG initiative. The Stakeholder Superregional Modeling 
Study evolved, had three main objectives:
    The project analyzed several key ozone and NOx model evaluation 
statistics and graphical displays for the SAQM and UAM-V regional model 
simulations of the 13-21 July 1991 OTAG episode.
    This analysis focused on model inter-comparisons at the 12 km grid 
scale since this is the most highly resolved scale used in OTAG.
MOG Subregional UAM-V Modeling
    MOG also sponsored a subregional UAM-V ozone modeling study (Tesche 
and McNally 1996g) to corroborate the OTAG modeling results and to 
emphasize the need for subregional modeling as part of OTAG itself 
(Table 4-4). The following UAM-V simulations were performed with the 
13-21 July 1991 OTAG episode using the 07D2/Base B1 modeling inputs:
    <bullet>  Run 1: 60 percent NOx control from elevated sources in 
the nonattainment areas;
    <bullet>  Run 2: 30 percent VOC and NOx control from elevated 
sources in the nonattainment areas;
    <bullet>  Run 3: 60 percent NOx control from elevated sources in 
the nonattainment areas and surrounding 100 km areas;
    <bullet>  Run 5: 30 percent VOC and NOx control from ground level 
sources in the nonattainment areas; and
    <bullet>  Run 6: 30 percent VOC and NOx control from ground level 
sources in the nonattainment areas and surrounding 100 km areas.
    Key findings from the MOG subregional UAM-V emissions reduction 
simulations for the 13-21 July 2007 OTAG episode included:
Maximum Ozone Increases
    <bullet>  60 percent elevated source NOx control in nonattainment 
areas and nonattainment areas plus 100 km increases ozone 
concentrations on average by 25 ppb and 37 ppb, respectively;
    <bullet>  30 percent ground level VOC and NOx control in 
nonattainment areas and nonattainment areas plus 100 km increases ozone 
concentrations on average by 16 ppb and 15 ppb, respectively; 60 
percent elevated source NOx control throughout the OTAG domain 
increases ozone concentrations on average by 26 ppb.
Maximum Ozone Decreases
    <bullet>  60 percent elevated source NOx control in nonattainment 
areas and nonattainment areas plus 100 km decreases ozone 
concentrations on average by -18 ppb and -24 ppb, respectively;
    <bullet>  30 percent ground level VOC and NOx control in 
nonattainment areas and nonattainment areas plus 100 km decreases ozone 
concentrations on average by -13 ppb and -14 ppb respectively;
    <bullet>  60 percent elevated source NOx control throughout the 
OTAG domain decreases ozone concentrations on average by -27 ppb.
Grid Total Differences
    <bullet>  60 percent elevated source NOx control in nonattainment 
areas increases grid total ozone concentrations on average by 5,970 ppb 
while reductions in the nonattainment areas plus 100 km decreases grid 
total ozone by -19,020 ppb;
    <bullet>  30 percent ground level VOC and NOx control in 
nonattainment areas increases grid total ozone concentrations on 
average by 9,816 ppb while reductions in the nonattainment areas plus 
100 km decreases grid total ozone by -2,959 pub;
    <bullet>  60 percent elevated source NOx control throughout the 
OTAG domain decreases grid total ozone concentrations on average by 
77,468 ppb.
Reduction in Episode-Average Exceedance Grid Cells
    <bullet>  60 percent elevated source NOx control (in nonattainment 
areas and nonattainment areas plus 100 km) reduces the average number 
of exceedance grid cells from 202 to values of 169 and 146, 
respectively (-16 percent and -28 percent, respectively).
    <bullet>  30 percent ground level VOC and NOx control (in 
nonattainment areas and nonattainment areas plus 100 km) reduces the 
average number of exceedance grid cells from 202 to values of 165 and 
156, respectively (-18 percent and -23 percent, respectively).
The ``Ozone Free, States Modeling
    This report examines if there was any significant impact on ozone 
non-attainment problems in the upper Midwest or eastern U.S. at the 
result of the application of emissions controls in Iowa, Minnesota, 
Nebraska, North Dakota and South Dakota. The impact of controls from 
these northwest OTAG States were to be compared to emissions controls 
applied locally to ozone nonattainment areas and near the OTAG 12 ozone 
problem areas as a means for quantifying relative control 
effectiveness.
    Twelve (12) future year emissions control scenario simulations were 
performed with the UAM-V model using the 10-18 July 1995 OTAG modeling 
episode. The objective of these runs was to estimate the ground level 
ozone impacts from man-made VOC and NOx emissions from the western tier 
of States in the OTAG domain, i.e., the so-called Northwest OTAG 
States. Of particular interest was the establishment of data allowing a 
comparison of the impact of controls in the northwest OTAG States and 
control applied locally in the 12 OTAG ``ozone problem areas''. The 
scenarios included a progression of zero anthropogenic controls in the 
northwest OTAG States, a series of controls in the 12 OTAG defined 
``ozone problem areas'', and 5C controls on a state-by-state and 
combined basis. 5C controls were defined consistent with the OTAG 
sensitivity runs, with a 30 percent VOC reduction, 30 percent low level 
NOx reduction and 60 percent elevated NOx reduction referenced against 
year 2007 Base 1c projected emissions. The UAM-V modeling was performed 
in accordance with OTAG's ``Maverick Modeling,' guidelines stipulated 
by the Regional and Urban-Scale Modeling Workgroup co-chairs (Messrs. 
Koerber and Tikvart) in their 4 February 1997 memorandum governing 
stakeholder modeling. The principal conclusions drawn from the study 
included:
    <bullet>  When 5C controls are applied to each of the five States 
individually, the maximum difference on a region in the OTAG domain 
above 100 ppb in the 2007 base year was 1.0 ppb for the simulation with 
controls applied to Iowa;
    <bullet>  When 5C controls were applied to North and South Dakota 
the maximum impact on any grid cell above 100 ppb was 0.1 ppb;
    <bullet>  When 5C controls were applied to Minnesota the maximum 
impact on any grid cell above 100 ppb was 0.4 ppb;
    <bullet>  When 5C controls were applied to Nebraska the maximum 
impact on any grid cell above 100 ppb was 0.1 pub;
    <bullet>  When 5C controls were applied to the five States 
simultaneously, the maximum impact on any grid cell above 100 ppb was 
1.0 ppb;
    <bullet>  When 5C controls were applied to the 12 OTAG ozone 
nonattainment Problem areas'' the maximum impact on any grid cell above 
100 ppb was 43.8 ppb;
    <bullet>  At a threshold of 2 pub, the maximum difference of any 
emission control scenario on a region estimated to be above 100 ppb in 
the 2007 base year was 2.8 ppb for a simulation zeroing out all five 
States' anthropogenic emissions;
    <bullet>  When a simulation zeroing out anthropogenic emissions in 
the 12 OTAG ozone nonattainment areas was applied, the maximum impact 
on any grid cell above 100 ppb was a 141 ppb reduction in ground-level 
ozone; and
    <bullet>  When the 5C controls were applied to the five States 
simultaneously, the maximum impact on any grid cell above 80 ppb was 
less than a 2 ppb in regions outside of the five northwest States. A 
maximum local impact from application of 5C controls in the northwest 
States of 9 ppb was observed in isolated grid cells north of the Twin 
Cities and isolated grid cells near the eastern border of Iowa when an 
80 ppb threshold was applied.
EPRI CEM-Enhanced UAM-V Modeling Study
    A recent study by Enviroplan for the Midwest Ozone Group (MOG) 
indicated that the OTAG emissions inventory overstated utility NOx 
emissions based upon continuous emissions monitoring (CEM)data by 34 
percent over the 1995 episode. In response, an EPRI-sponsored study was 
performed (Emigh et al., 1997) to develop a CEM-enhanced inventory 
using the OTAG inventory as the starting point and to perform baseline 
and sensitivity UAM-V simulations using these CEM-enhanced emissions 
(Table 4-6). The CEM-enhanced emissions were grown to the year 2007 
using OTAG methodology, controlled using the OTAG 5C controls and UAM-V 
baseline and sensitivity simulations carried out. The major findings of 
this study were as follows:
    <bullet>  The CEM facility data were correlated with OTAG utility 
data for 737 facilities. The OTAG data were replaced with CEM data 
where the correlation could be made. The remaining utility temporal 
files were modified on a state-by-state basis to be consistent with the 
CEM temporal files;
    <bullet>  The CEM utility data were consistently less than the 
corresponding OTAG utility emissions data on a day-to-day basis. The 
CEM utility data were from 3.8 percent to 30.2 percent less than the 
corresponding OTAG data. The CEM emissions estimates were approximately 
13.4 percent less than the OTAG emissions estimates for the period of 
the ozone episode;
    <bullet>  The variation between the CEM and the OTAG utility 
emission data were the most pronounced on a state-by-state basis. The 
CEM data are significantly less than the OTAG data in the transport 
States;
    <bullet>  The UAM-V baseline simulation indicates little impact of 
using the CEM-enhanced emissions on the domain ozone maximum.
    However, there are significant differences in specific areas 
located within the domain. The largest positive difference during the 
1995 OTAG episode was 130 ppb on 11 July and the largest negative 
difference was 97 ppb on 15 July. Large differences, much larger than 
the regional differences, exceeded 50 ppb on several days during the 
1995 episode;
    In general, the CEM-enhanced emissions produced less ozone in the 
Ohio River valley and more ozone in the southern portion of the domain; 
and
    The UAM-V sensitivity simulation using 5C controls applied to the 
OTAG Subregions 5, 6 and 9 shows that controls placed on the CEM 
emissions have relatively more impact than controls placed on the 
Baselc inventory.
POST-OTAG MODELING STUDIES
Pittsburgh-Beaver Valley Attainment Demonstration Study
    The Pittsburgh Ozone Modeling Study was aimed at characterizing the 
processes whereby ozone is formed in and downwind of the seven-county 
Pittsburgh-Beaver Valley nonattainment area during high ozone episodes 
and to identify strategies for its control. Three major activities were 
carried out: (a) application of photochemical models to three recent 
ozone episodes, (b) evaluation of three emission control strategies 
developed by the Stakeholder's, and (c) additional modeling refinements 
and control strategy simulations for the Pennsylvania DEP in support of 
their efforts to develop an attainment demonstration for the region.
Modeling Methodology
    While the models used in the Pittsburgh study were generally 
consistent with EPA (1991) guidance, in several instances, notably in 
the preparation of the meteorological fields, emissions inputs, and 
boundary conditions to the guideline UAM-IV urban model, more 
technically advanced models were used. These included the Emissions 
Modeling System (EMS-95) (AG, 1995) and the PSU Mesoscale 
Meteorological Model (MM5), and three state-of-science nested regional-
scale photochemical models--UAM-V, SAQM, and CAMx.
    These regional models were used to develop and intercompare 
estimates of ozone and ozone precursor boundary conditions to the UAM-
IV for the base case and 1996 future year urban-scale ozone 
simulations.
    The modeling episodes were drawn from the most recent five (5) year 
historical record (1991 through 1995) with primary emphasis given to 
the existence of significant ozone exceedances at numerous monitoring 
stations during the episode and the availability of supplemental 
ground-level and aloft aerometric data. The episodes selected were 31 
July-2 August 1995, 13-15 July 1995 (the OTAG episode), and 17-19 June 
1995. The various meteorological and photochemical models were set up, 
exercised, and evaluated for the three episodes following an approved 
protocol (Tesche et al., 1996d). An evaluation of the MM5 
meteorological model for these episodes was reported by (Tesche and 
McNally, 1996h) and the emissions inputs were developed using the EMS-
95 model as described by Loomis et al., (1996).
Control Strategy Evaluation
    Future year (1996) emissions inventories for each episode were 
developed using EPA/OTAG growth and control methodologies and region-
specific information (Loomis et al., 1996). Baseline UAM-IV simulations 
were then performed for all three episodes using the interim 
Stakeholder modeling files. Since base case performance for episode 3 
was marginal, the emissions control scenarios developed by the 
Stakeholders were examined only with episodes 1 and 2. Results of these 
future year baseline and strategy simulations are summarized as 
follows:
    <bullet>  All strategies produce ozone benefits and some 
disbenefits (i.e., positive residuals);
    <bullet>  The ``1999 Equivalent Measures'' strategy for episode 1 
produced the largest average and grid total ozone reductions across the 
JAM--IV domain;
    <bullet>  The ``1999 Strategy'' for episode 1 produces the largest 
ozone disbenefits and ozone-benefits, using the maximum residuals as 
the measure of change;
    <bullet>  The ``1999 Strategy'' results for episodes 1 and 2 are 
similar in the average and grid total residuals but under episode 2 
conditions there are no ozone disbenefits (i.e., the maximum residuals 
are negative).
    <bullet>  The final flexible attainment demonstration for the 
Pittsburgh-Beaver Valley area, using EPA's ``weight of evidence 
approaches, indicated that it is likely that the emissions controls 
represented in the 1996 attainment year emissions inventory will be 
sufficient to lead to attainment of the 1-hr ozone NAAQS within the 
Pittsburgh-Beaver Valley ozone nonattainment area without recourse to 
relying on significant upwind VOC and/or NOx controls.
Cincinnati-Hamilton Interim Attainment Demonstration Study
    This study presents the results of a photochemical modeling study 
carried out for the States of Kentucky and Ohio to examine the levels 
of VOC and/or NOx emissions controls that might be needed in the 
Cincinnati-Hamilton region to bring the area into attainment with the 
Federal 1-hr ozone standard by 1999. Nested UAM-V model simulations 
were made using the 12-14 July 1995 OTAG episode to develop estimates 
of model performance for the base year. The emissions inventory was 
then projected to the year 1999 using OTAG-derived emissions growth and 
control estimates. Based on the 1999 baseline UAM-V model simulation 
which shows the region to attain the 1-hr standard, a generic emissions 
reduction scenario was modeled to assess the need for further precursor 
controls in the region.
    For the interim modeling analyses, one OTAG episode, 12-14 July 
1999, was modeled. The UAM-V was set up and applied over a nested 36/
12/4 km grid and tested the model's performance against measured 
ground-level ozone concentrations during this historical period. Having 
demonstrated model performance that does not reveal obvious performance 
problems or difficulties, the 1995 emissions inventory was then 
``grown'' to 1999 using the EMS-95 Emissions Modeling System and the 
OTAG growth and control files to create a 1999 baseline inventory. A 
subsequent UAM-V simulation on the 36/12/4 km grid provided an estimate 
of the levels of peak ozone that are expected in the region in the 
attainment year. This year 1999 baseline inventory did not assume any 
additional emissions controls in the region beyond those already ``on 
the books''.
    To examine the sensitivity of 1999 ozone levels in the region to 
emissions controls, one emissions reduction scenario was modeled: a 30 
percent reduction in all anthropogenic VOC and NOx emissions across the 
4 km domain. The implications of emissions controls upwind of the 
Cincinnati-Hamilton region were further examined with the results of 
recent UAM-V simulations for the July 1995 and 1991 episode in which 
SIP level controls (i.e., 07SIP2a) implemented individually in the 
States of Kentucky and Tennessee while the rest of the region was kept 
at year 2007 baseline (i.e., 07EPA1a) conditions. The results of these 
model calculations, presented in Subsection 5.10 under the Tri-State 
Study, suggest that an enlargement of the 4 km grid region currently 
proposed for the Cincinnati-Hamilton SIP demonstration may be 
appropriate.
    The main findings of this analyses are as follows:
    Future Year (1999) Baseline Results. UAM-V modeling with an interim 
future year (1999) emissions inventory revealed that the maximum ozone 
concentration on the 4 km grid on 14 July was 140 ppb northeast of 
Louisville, upwind of the seven-county Cincinnati-Hamilton ozone 
nonattainment area. The peak prediction in the nonattainment area was 
131.8 ppb in extreme southwestern Boone County (Florence, Kentucky). 
Once the EPA ``weight of evidence, analyses (EPA, 1996) are performed 
for Cincinnati, this episode will likely pass the attainment 
demonstration test without the need for significant further controls. 
The ozone exceedances modeled northeast of Louisville appear to be the 
result of emissions from Louisville and upwind Kentucky and Tennessee 
sources and not the Cincinnati-Hamilton nonattainment area.
    <bullet>  Effects of a 30 percent VOC and NOx Emissions Reduction 
Scenario: A future year 30 percent VOC and NOx emissions control 
inventory was modeled by reducing all anthropogenic emissions source 
categories in the 1999 baseline inventory by 30 percent. There was 
virtually no change in the maximum 4 km regionwide impact northeast of 
Louisville. The 30 percent VOC and NOx control scenario reduced the 
number of exceedance grid cells from 135 to 75. In addition, the peak 
concentrations in the nonattainment area were reduced to well below the 
standard (i.e., the peak prediction on 14 July 1999 was reduced to 
120.8 ppb).
    The results also showed that implementation of the 30 percent 
controls in the Cincinnati-Hamilton region are expected to lower peak 
ozone concentrations on the 14th by 2-6 ppb in several subregions. 
However, ozone increases are also modeled in several areas ranging from 
2 to 10 ppb. Thus, this result suggest that developing an optimal 
control strategy for the region may not be a simple task since the 
issue of ozone benefits and disbenefits must be carefully examined and 
considered.
    <bullet>  Role of Upwind States on Attainment Efforts in 
Cincinnati: Analysis of existing CAMx and UAM-V simulations for the 
full OTAG episodes indicates the existence of subregional plumes of 
ozone and its precursors extending up the Ohio river through 
Cincinnati. Examination of recent UAM-V modeling of the effects of SIP 
Call controls on sources in Kentucky and Tennessee indicates that 
sources in both States have a direct impact on ozone levels in the 
Cincinnati-Hamilton nonattainment region. Furthermore, reductions in 
emissions in Kentucky are predicted to lead to both ozone disbenefits 
(i.e., 2-6 ppb ozone increases) and benefits (2-10 pub) in Cincinnati-
Hamilton nonattainment area for both the 1991 and 1995 episodes. These 
results support the idea that attainment demonstration modeling in 
Cincinnati must take account the incoming transport of ozone and 
precursors from upwind areas as well as account for the downwind 
transport of ozone past the region.
Tri-State Subregional Modeling and Analysis Study Tri-State Objectives
    The three States of Ohio, Kentucky, and West Virginia are 
sponsoring a regional photochemical modeling and analysis study aimed 
at: (a) demonstrating attainment of the 1-hr ozone NAAQS in the 
Cincinnati-Hamilton moderate interstate nonattainment area, (b) 
evaluating the validity of the photochemical modeling used as the basis 
for the EPA SIP call, (c) estimating the impact of NOx emissions from 
Kentucky, West Virginia and Ohio sources on adjacent States and within 
Kentucky, Ohio, and West Virginia, including the impacts of emissions 
on the 1-hr and 8-hr ozone standards; and (d) assessing the impacts of 
emissions from Kentucky, Ohio, and West Virginia on Pennsylvania.
    For the Tri-State study, pertinent OTAG and regional modeling data 
sets were used dozen UAM-V simulations to elucidate the emissions, 
aerometric. to conduct nearly two potential impacts of emissions from 
sources in one or more States in the Midwest on peak 1-her and 8-hr 
ozone levels in the same or neighboring States as well as in more 
distant, downwind States. The model runs were analyzed to assess the 
reasonableness of the NOx controls set forth in the SIP call and 
whether and to what extent lesser levels of controls will also achieve 
the desired ozone reductions in key receptor regions within and 
downwind of the Midwest States.
UAM-V Modeling Methodology
    The Tri-State subregional modeling study consisted of the matrix of 
twenty-two (22) UAM-V model simulations. The July 1991 and July 1995 
OTAG meteorological episodes were used and the base year emissions were 
scaled using OTAG growth and control factors to the forecast year of 
2007. A 2007 base year inventory (i.e., 07EPA1a) and a year 2007 (i.e., 
07SIP2a) inventory reflecting the state-by-state emissions controls set 
forth in the EPA SIP call. With these two inventories, a range of 
emissions reduction scenarios (from less to more stringent) were 
constructed using the EMS-95 emissions modeling system. The control 
levels ranged from the year 2007 baseline (i.e., the ``EPA1a'' 
inventory) involving Clean Air Act required controls plus Title IV and 
other reductions to the most stringent case, i.e., year 2007 SIP Call 
controls reflected in the ``SIP2a'' inventory. An intermediate level of 
controls, referred to as the ``Cinergy package'', were also examined. 
The various SIP Call and Cinergy package controls were applied 
selectively to particular States of interest in order to quantify the 
impact of their emissions on local and more distant 1-hr and 8-hr ozone 
levels.
    The Tri-State UAM-V modeling was performed on the standard 36/12 Km 
OTAG grid and the simulation results were post-processed to develop 
estimates of the 1-hr and 8-hr ozone impacts in all States within the 
36/12 Km OTAG region. These estimates were quantified in a number of 
ways including: (a) of the number of hours throughout the episode that 
grid cells within each State exceed specific concentration levels 
(e.g., 100 ppb, 124 ppb, 140 ppb) for both base case model runs and 
emissions control scenario runs, and (b) through the use of the so-
called OTAG ``objective measures,. The principal graphical and 
statistical results of the 22 UAM-V modeling runs, summarized below, 
were archived on CD-ROMs.
Year 2007 Base Case and SIP Call Results
    Figures 5-10.1 and 5-10.2 present highlights of Runs 1 and 2, the 
so-called Clean Air Act Baseline. The figures contain daily maximum 1-
hr and 8-hr ozone tile plots for the year 2007 baseline conditions 
(i.e., 07EPA1a) for two high ozone days during each episode. These are 
14 July from the 1995 OTAG Episode and 19 July from the 1991 OTAG 
Episode. (The UAM-V results presented here are drawn from the 12 Km 
OTAG ``fine grid'' domain). Analysis of the full set of daily maximum 
ozone tile plots for these 2007 base case runs revealed the following:
    Run 1: 2007 EPA1a Base case (1995). Significant areas of ozone 
exceedances are predicted in the Lower Lake Michigan, Atlanta, 
Richmond, Baltimore-Washington, Birmingham, and Louisville areas as 
well as across a broad portion of the Northeast Corridor. The maximum 
1-hr ozone concentration modeled during the 2007 baseline was 211 ppb 
on 15 July in Atlanta. The number of daily maximum grid cells exceeding 
124 ppb ranged from 36 to 400, with the highest number of exceedances 
occurring on 15 July. (Most of these cells were over the Atlantic Ocean 
however). The maximum modeled 8-hr ozone concentration was 177 ppb on 
15 July in Atlanta. The number of daily maximum grid cells exceeding 
124 ppb ranged from 14 to 265, with the highest number of 8-hr 
exceedances occurring on 14 July. (Most of these cells were over Lake 
Michigan)
    Run 2: 2007 EPA1a Base case (1991). For the 1991 meteorological 
episode, significant areas of ozone exceedances are predicted in the 
Lower Lake Michigan, Atlanta, Cincinnati, and Baltimore-Washington 
areas as well as across a broad portion of the Northeast Corridor. The 
maximum 1-hr ozone concentration modeled during the 2007 baseline was 
171 ppb on 19 July near Boston. The number of daily maximum grid cells 
exceeding 124 ppb ranged from 15 to 383, with the highest number of 
exceedances occurring on 21 July. (Most of these cells were over the 
Atlantic Ocean). The maximum modeled 8-hr ozone concentration was 153 
ppb on 21 July near Cape Cod. The number of daily maximum grid cells 
exceeding 124 ppb ranged from O to 246, with the highest number of 8-hr 
exceedances occurring on 21 July. (Most of these cells were over the 
Atlantic Ocean).
    Figures 5-10.3 and 5-10.4 present daily maximum 1-hr and 8-hr ozone 
tile plots for Runs 3 and 4. These runs correspond to year 2007 
conditions assuming fu77 implementation of the EM SIP Ca77 (i.e., 
07SIP2a). The same two high ozone days are depicted. Analysis of the 
full set of daily maximum ozone tile plots for the Run 3 and 4 SIP Call 
simulations revealed the following:
    Run 3: 2007 SIP Call (1995). Significant areas of ozone exceedances 
are still predicted in the Lower Lake Michigan, Atlanta, Richmond, 
Baltimore-Washington, Birmingham, Louisville, and in broad portions of 
the Northeast Corridor although the magnitude of the peak ozone 
concentrations and the spatial distribution of the high ozone levels is 
diminished somewhat from the 07EPA1a base case (Run 1). The maximum 1-
hr ozone concentration was 181 ppb on 15 July in Atlanta. This 
represents a 30 ppb decrease from the Run 1 peak.
    The number of daily maximum grid cells exceeding 124 ppb ranged 
from 18 to 207, nearly a 50 percent reduction from Run 1.
    The highest number of exceedances (on 15 July) again were located 
the Atlantic Ocean. The maximum modeled 8-hr ozone concentration was 
162 ppb on 10 July in Atlanta. The number of daily maximum grid cells 
exceeding 124 ppb ranged from 0 to 120, with the highest number of 8-hr 
exceedances occurring on 14 July. (Most of these cells were over Lake 
Michigan)
    Run 4: 2007 SIP Call (1991). For the SIP Call run with the 1991 
meteorology, ozone exceedances are predicted in the Lower Lake 
Michigan, New York, Cincinnati, Baltimore-Washington and Boston. The 
maximum 1-hr ozone concentration modeled during the 2007 baseline was 
158 ppb on 18 July near Cincinnati. The number of daily maximum grid 
cells exceeding 124 ppb ranged from 5 to 108, with the highest number 
of exceedances occurring on 20 July. (Most of these cells were over 
Lake Michigan or the Atlantic Ocean). The maximum modeled 8-hr ozone 
concentration was 139 ppb on 18 July near Cincinnati. The number of 
daily maximum grid cells exceeding 124 ppb ranged from 0 to 41, with 
the highest number of 8-hr exceedances occurring on 21 July over Long 
Island.
    It is thus apparent that the modeled effects of the EPA SIP Call 
significantly reduce ozone levels across the eastern U.S. but do not 
even come close to attainment of the 1-hr standard in the key problem 
areas: Lower Lake Michigan and the Northeast Corridor.
    Run 5: SIP Call Controls in KY, OH, and WV (1995). The episode 
composite results indicate ozone reductions of -2 to -14 ppb or more in 
northern Kentucky, southern Ohio and through large portions of western 
West Virginia in the high ozone areas (> 100 ppb). In addition, broad 
regions of -2 to -10 ppb ozone reductions are modeled over Lake Erie 
and the southern portion of the Northeast Corridor.
    The daily maximum ozone residual plots (not shown) indicate broad 
regions of ozone reduction in the range of -2 ppb to -14 ppb or more 
throughout much of Kentucky, southern Ohio, West Virginia, Virginia and 
Pennsylvania on individual days. Localized ozone disbenefits of 2 to 14 
ppb are modeled on certain days in Cincinnati, Pittsburgh, Cleveland, 
Louisville, and at other locations along the Ohio River. The maximum 
daily ozone increase and decrease during the episode were 25 ppb 
(Paducah, 11 July) and -47 ppb (West Virginia, 15 July). Ozone 
disbenefits were modeled as far east as northern New Jersey and ozone 
reductions as large as 2 to 6 ppb were modeled in the Northeast on 14 
July. The episode total grid cell hours > 124 ppb were reduced from 
3200 to 2804 in Run 5 (-12.4 percent).
    Run 6: SIP Call Controls in KY, OH, and WV (1991). The episode 
composite results indicate ozone reductions of -2 to -14 ppb or more in 
northern Kentucky, southern Indiana, central Ohio and south-central 
Pennsylvania in the high ozone areas (> 100 ppb). Broad regions of -2 
to -10 ppb ozone reductions are modeled over the southern portion of 
the Northeast Corridor. Ozone disbenefits of 6 to 10 ppb are simulated 
in the Cincinnati region.
    The daily maximum ozone residuals indicate broad regions of ozone 
reduction in the range of -2 ppb to -14 ppb or more throughout much of 
Kentucky, southern Indiana, southwestern Missouri, Ohio, West Virginia, 
northern Virginia and Pennsylvania on individual days. Localized ozone 
disbenefits of 2 to 30 ppb are modeled on several days in Louisville, 
Cincinnati, Cleveland, and Pittsburgh.
    The maximum daily ozone increase and decrease during the episode 
were 33 ppb (Pittsburgh, 16 July) and -35 ppb , 17 July). Very 
extensive zone disbenefits were in Pittsburgh on 16 July and ozone 
reductions in -6 ppb range are modeled as far as NH and VT on some 
days. The episode total grid cell hours > 124 ppb were reduced from 
2129 to 1832 in Run 6 (-14.0 percent).
    Run 7: SIP Call Controls in KY and OH (1995). The episode composite 
results indicate ozone reductions of -2 to -14 ppb or more in northern 
Kentucky, southern Indiana, southern Ohio, over Lake Erie, and in 
western West Virginia. A few isolated locations of -2 to -10 ppb ozone 
reductions are modeled over the southern portion of the Northeast 
Corridor. Ozone disbenefits of 6 ppb are simulated near Bowling Green.
    The daily maximum ozone residuals indicate broad regions of ozone 
reduction in the range of -2 ppb to -14 ppb or more throughout much of 
Kentucky, southern Indiana, Ohio, West Virginia, northern Virginia and 
Pennsylvania on individual days. Localized ozone disbenefits of 2 to 20 
ppb are modeled on several days in areas such as Louisville, 
Cincinnati, Cleveland, and in various ``hot spots'' in western 
Kentucky. The maximum daily ozone increase and decrease during the 
episode were 25 ppb (southwestern KY, 11 July) and -37 ppb (near 
Huntington, KY, 15 July). Isolated spots of ozone disbenefits appear in 
Ohio and ozone reductions in the -2 to -6 ppb range are modeled no 
farther east than New Jersey. The episode total grid cell hours > 124 
ppb were reduced from 3200 to 2980 in Run 7 (-6.9 percent).
    Run 8: Cinergy Controls in KY, OH, and WV (1995). The episode 
composite results indicate ozone reductions of -2 to -14 ppb or more in 
central to northern Kentucky, southern Indiana, southern Ohio, over 
Lake Erie, and in major portions of western West Virginia. A few 
isolated locations of -2 to -10 ppb ozone reductions are modeled over 
the southern portion of the Northeast Corridor and in Atlanta. Ozone 
disbenefits of 2-4 ppb are simulated near Bowling Green and Memphis.
    The daily maximum ozone residuals of ozone reduction in the range 
of -2 to -14 ppb or more throughout much of Kentucky, Ohio, West 
Virginia, northern Virginia and Pennsylvania on individual days. 
Localized ozone disbenefits of 2 to 20 ppb are modeled on several days 
in areas such as southern Kentucky, Louisville, Cincinnati, Cleveland, 
Pittsburgh, and even into New Jersey. The maximum daily ozone increase 
and decrease during the episode were 31 ppb (Paducah, KY, 12 July) and 
-34 ppb (western WV, 15 July). Isolated spots of ozone disbenefits 
appear in Ohio and several of the other in the -2 to -6 ppb range are 
modeled as far as Rhode Island. The episode reduced from 3200 to 2862 
in Run 8 (-10.6 percent).
    Run 9: Cinergy Controls in KY, OH, and WV ( `91). The episode 
composite results indicate ozone reductions of -2 to -14 ppb or more in 
western Kentucky, southern Indiana, central Ohio, central Pennsylvania, 
and along the Ohio River in West Virginia. A broad region of -2 to -10 
ppb ozone reductions are modeled over the southern portion of the 
Northeast Corridor. Ozone disbenefits as high as 31 ppb are simulated 
near Cincinnati.
    The daily maximum ozone residuals indicate broad regions of ozone 
reduction in the range of -2 ppb to -14 ppb or more throughout much of 
Kentucky, Ohio, southern Indiana, West Virginia, northern Virginia and 
Pennsylvania on individual days. Localized ozone disbenefits of 2 to 30 
ppb are modeled on several days in areas such as Paducah, Louisville, 
Cincinnati, Cleveland, and Pittsburgh. The regions surrounding 
Pittsburgh and Cincinnati are very significant areas of ozone 
disbenefits on the 16th. The maximum daily ozone increase and decrease 
during the episode were 32 ppb (Pittsburgh, 16 July) and -28 ppb 
(Paducah, 17 July). Isolated spots of ozone disbenefits appear in Ohio 
and other Midwestern States; ozone reductions in the -2 to -6 ppb range 
are modeled as far as VT and NH. The episode total grid cell hours > 
124 ppb were reduced from 2129 to 1907 in Run 9 (-10.4 percent).
    Run 10: SIP Call Controls in KY (1995). The episode composite 
results indicate ozone reductions of -2 to -14 ppb or more in western 
Kentucky, southern Indiana, and in Ohio and West Virginia along the 
Ohio River. An isolated region of -2 to -10 ppb ozone reductions is 
modeled in Atlanta. Ozone disbenefits as high as 6 ppb are simulated 
near Bowling Green, KY.
    The daily maximum ozone residuals indicate modest regions of ozone 
reduction in the range of -2 ppb to -14 ppb or more throughout much of 
Kentucky, southern Indiana and Ohio, West Virginia, the western 
Carolinas, and northern Georgia. Very little impact in Pennsylvania is 
modeled on individual days. Localized ozone disbenefits of 2 to 20 ppb 
are modeled on several days in areas including western Kentucky, 
Louisville, and Maysville, KY. The maximum daily ozone increase and 
decrease during the episode were 25 ppb (near Bowling Green, 11 July) 
and -36 ppb (west-central KY, 15 July). Isolated spots of ozone 
disbenefits appear in southwestern Indiana and southern Illinois. Ozone 
reductions in the -2 to -6 ppb range are not modeled past eastern 
Pennsylvania. The episode total grid cell hours > 124 ppb were reduced 
from 3200 to 3051 in Run 10 (-4.7 percent).
    Run 11: SIP Call Controls in OH (1995). The episode composite 
results indicate ozone reductions of -2 to -10 ppb or more in western 
West Virginia and eastern Ohio, over Lake Erie, and in western Ohio. A 
few isolated locations of -2 to -6 ppb ozone reductions are modeled in 
Maryland. Ozone disbenefits of 2-3 ppb are simulated near Cincinnati.
    The daily maximum ozone residuals indicate broad regions of ozone 
reduction in the range of -2 ppb to -10 ppb or more throughout much of 
Ohio, West Virginia, and western Pennsylvania on individual days. 
Localized ozone disbenefits of 2 to 10 ppb are modeled on several days 
in areas such as Cincinnati, Cleveland, and in a few other locations in 
WV and Ohio. The maximum daily ozone increase and decrease during the 
episode were 15 ppb (Cincinnati, 12 July) and -19 ppb (near 
Parkersburg, WV 15 July). Isolated spots of ozone disbenefits appear in 
Ohio and ozone reductions in the -2 to -6 ppb range are modeled no 
farther east than New Jersey. The episode total grid cell hours > 124 
ppb were reduced from 3200 to 3122 in Run 11 (-2.4 percent).
    Run 12: SIP Call Controls in WV (1995). The episode composite--
results indicate ozone reductions of -2 to -14 ppb or more in western 
WV; smaller reductions are simulated in southwestern PA. Modest (6-8 
pub) ozone disbenefits are simulated in western WV.
    The daily maximum ozone residuals indicate modest regions of ozone 
reduction in the range of -2 ppb to -14 ppb or more throughout much of 
West Virginia and Pennsylvania and portions of Maryland and Virginia. 
Regions of ozone disbenefits of 2 to 20 ppb are modeled on several days 
in areas including central WV, Pittsburgh, and Newark. The maximum 
daily ozone increase and decrease during the episode were 21 ppb 
(Pittsburgh, 12 July) and -41 ppb (west-central WV, 15 July). Isolated 
spots of ozone disbenefits appear throughout West Virginia and 
Pennsylvania. Ozone reductions in the -2 to -6 ppb barely extend to 
Connecticut and Massachusetts on 2 days. The episode total grid cell 
hours > 124 ppb were reduced from 3200 to 3008 in Run 12 (-6.0 
percent).
    Run 13: SIP Call Controls in TN (95). The episode composite results 
indicate ozone reductions of -2 to -14 ppb or more in various parts of 
Tennessee, western Kentucky, eastern Missouri, and northern Alabama. 
Smaller reductions are simulated in southern Indiana and Mississippi, 
Alabama, and Georgia. Small ozone disbenefits (2-4 ppb) are simulated 
in eastern Arkansas.
    The daily maximum ozone residuals indicate broad regions of ozone 
reduction in the range of -2 ppb to -14 ppb or more throughout much of 
Tennessee and Kentucky, northern Mississippi, Alabama, and Georgia, and 
along the Ohio River valley upstream to Ashland, Kentucky. Only on 2 
days are regions of ozone disbenefits of 2 to 10 ppb are modeled. These 
occur in extreme western and eastern Tennessee. The maximum daily ozone 
increase and decrease during the episode were 12 ppb (northwestern 
Tennessee, 12 July) and -39 ppb (Paducah, 13 July). Unlike the other 
runs, there are very few regions of modeled ozone disbenefits in this 
scenario. Ozone reductions in the -2 to -6 ppb are confined to the 
Midwest and southeast States. There is no impact in the Northeast 
Corridor. The episode total grid cell hours > 124 ppb were reduced from 
3200 to 2930 in Run 13 (-8.4 percent).
    Run 14: SIP Call Controls in IN (1995). The episode composite 
results indicate ozone reductions of -2 to -14 ppb or more in northern 
Kentucky, southern Indiana, southern Ohio, and in the Gary, IN region 
adjacent to Lake Michigan. Two localized regions of 2 to 10 ppb ozone 
increases are modeled near Gary and Louisville.
    The daily maximum ozone residuals indicate modest regions of ozone 
reduction in the range of -2 ppb to -14 ppb or more throughout much of 
Kentucky, Indiana, Ohio, West Virginia, the western Carolinas, and 
eastern TN. Only little impact in Pennsylvania is modeled on individual 
days. Localized ozone disbenefits of 2 to 30 ppb are modeled on several 
days in areas including the Lower Lake Michigan area, Louisville, 
Cincinnati, and Indianapolis.
    The maximum daily ozone increase and decrease during the episode 
were 44 ppb (Louisville, 12 July) and -38 ppb (Maysville, Kentucky, 15 
July). Isolated spots of ozone disbenefits appear in throughout Indiana 
and Kentucky.
    However, a broad ozone disbenefit plume of 2 to 10 ppb extends 
eastward from Gary, Indiana on several days of the 1995 episode. Ozone 
reductions in the -2 to -6 ppb range are not modeled east of 
Pittsburgh. The episode total grid cell hours > 124 ppb were reduced 
from 3200 to 3036 in Run 14 (-5.1 percent).
    Run 15: Cinergy Controls in KY (1995). The episode composite 
results indicate ozone reductions of -2 to -14 ppb or more in western 
Kentucky, southern Indiana, and in Ohio and West Virginia along the 
Ohio River. An isolated region of -2 to -10 ppb ozone reductions is 
modeled over Lake Erie and in Atlanta. Ozone disbenefits as high as 6 
ppb are simulated near Bowling Green and Memphis.
    The daily maximum ozone residuals indicate modest regions of ozone 
reduction in the range of -2 ppb to -14 ppb or more throughout much of 
Kentucky, southern Indiana and Ohio, West Virginia, the western 
Carolinas, and northern Georgia. Essentially no impact is modeled in 
Pennsylvania or eastward on individual days. Localized ozone 
disbenefits of 2 to 30 ppb are modeled on several days in areas 
including southwestern Kentucky, Louisville, Maysville and Ashland, 
Kentucky. The maximum daily ozone increase and decrease during the 
episode were 31 ppb (Owensboro, Kentucky, 12 July) and -28 ppb (west-
central Kentucky, 15 July). A few isolated spots of ozone disbenefits 
appear in southwestern Indiana and southern Illinois. The episode total 
grid cell hours > 124 ppb were reduced from 3200 to 3076 in Run 15 
(-3.9 percent).
    Run 16: Cinergy Controls in OH (1995). The episode composite 
results indicate ozone reductions of -2 to -10 ppb or more in western 
wv and eastern Ohio, over Lake Erie, and in western Ohio. A few grid 
cells of -2 to -6 ppb ozone reductions are modeled in Maryland and 
southwestern PA. Ozone disbenefits of 2-3 ppb are simulated near 
Cincinnati.
    The daily maximum ozone residuals indicate broad regions of ozone 
reduction in the range of -2 ppb to -10 ppb or more throughout much of 
Ohio, West Virginia, and western Pennsylvania on individual days. 
Localized ozone disbenefits of 2 to 10 ppb are modeled on several days 
in areas such as Cincinnati, Cleveland, and in a few other locations in 
West Virginia and Ohio. The maximum daily ozone increase and decrease 
during the episode were 12 ppb (Cincinnati, 12 July) and -15 ppb (near 
Parkersburg, West Virginia 15 July). Isolated spots of ozone 
disbenefits appear in Ohio and ozone reductions in the -2 to -6 ppb 
range are modeled no farther east Pennsylvania. The episode total grid 
cell hours > 124 ppb were reduced from 3200 to 3139 in Run 16 (-1.9 
percent).
    Run 17: Cinergy Controls in West Virginia (1995). The episode 
composite results indicate ozone reductions of -2 to -14 ppb or more in 
western West Virginia; smaller reductions of order -2 to -10 ppb are 
simulated in southwestern Pennsylvania. Modest (4-5 ppb) ozone 
disbenefits are simulated in western West Virginia.
    The daily maximum ozone residuals indicate modest regions of ozone 
reduction in the range of -2 ppb to -14 ppb or more throughout much of 
West Virginia and Pennsylvania and portions of Maryland and Virginia. 
Regions of ozone disbenefits of 2 to 20 ppb are modeled on several days 
in areas including central West Virginia, Pittsburgh, and Newark. The 
maximum daily ozone increase and decrease during the episode were 22 
ppb (Pittsburgh, 12 July) and 30 ppb (west-central West Virginia, 15 
July). Isolated spots of ozone disbenefits appear throughout West 
Virginia and Pennsylvania. A major ozone disbenefit plume is simulated 
downwind of Pittsburgh on several days. Ozone reductions in the -2 to 
-6 ppb barely extend to New York on 1 day. The episode total grid cell 
hours > 124 ppb were reduced from 3200 to 3045 in Run 17 (-4.8 
percent).
    Run 18: SIP Call Controls in KY (1991). The episode composite 
results indicate ozone reductions of -2 to -14 ppb or more in western 
Kentucky, southern Indiana and Illinois, and in central Ohio. Ozone 
disbenefits of 10 ppb are simulated near Cincinnati.
    The daily maximum ozone residuals indicate modest regions of ozone 
reduction in the range of -2 ppb to -14 ppb or more throughout portions 
of western Kentucky and lower reductions in southern Indiana, Ohio, and 
West Virginia. Ozone reductions of -2 to -6 ppb were modeled in western 
Pennsylvania on a few days. Localized ozone disbenefits of 2 to 15 ppb 
are modeled on several days in Cincinnati or along the Ohio River 
valley. The maximum daily ozone increase and decrease during the 
episode were 18 ppb (Cincinnati, 19 July) and -35 ppb (Paducah, 
Kentucky, 17 July). Isolated spots of ozone disbenefits appear in 
southwestern Indiana and southern Illinois. Ozone reductions in the -2 
to -6 ppb range are not modeled past central Pennsylvania. The episode 
total grid cell hours > 124 ppb were reduced from 2129 to 2088 in Run 
18 (-1.9 percent).
    Run 19: SIP Call Controls in OH (1991). The episode composite 
results indicate ozone reductions of -2 to -10 ppb or more in central 
Ohio and western PA. A few isolated locations of -2 to -6 ppb ozone 
reductions are modeled in WV, Maryland, and New Jersey. Ozone 
disbenefits of as much as 34 ppb are simulated near Cincinnati.
    The daily maximum ozone residuals indicate broad regions of ozone 
reduction in the range of -2 ppb to -14 ppb or more throughout much of 
Ohio, southern Indiana, West Virginia, and western Pennsylvania on 
individual days. Localized ozone disbenefits of 2 to 30 ppb are modeled 
on all days in Cincinnati and Cleveland and in several other locations 
in Ohio. The maximum daily ozone increase and decrease during the 
episode were 34 ppb (Cincinnati, 19 July) and -17 ppb (near Columbus, 
18 July). Ozone reductions in the -2 to -6 ppb range extend on 1 day to 
New Jersey. The episode total grid cell hours > 124 pub were reduced 
from 2129 to 2062 in Run 19 (-3.1 percent).
    Run 20: SIP Call Controls in WV (1991). The episode composite 
results indicate ozone reductions of -2 to -14 ppb or more in western 
WV and southwestern PA; smaller reductions are simulated in the 
Delaware, Maryland, and Virginia region. Essentially no ozone 
disbenefits are simulated.
    The daily maximum ozone residuals indicate modest regions of ozone 
reduction in the range of -2 ppb to -14 ppb or more throughout much of 
southern Ohio, northern Kentucky, West Virginia and Pennsylvania and 
portions of Maryland and Virginia. The principal regions of ozone 
disbenefits (2 to 30 ppb) is modeled on several days in Pittsburgh. The 
maximum daily ozone increase and decrease during the episode were 34 
ppb (Pittsburgh, 16 July) and -23 ppb (Washington, PA, 17 July). 
Modeled ozone disbenefits occur within a broad plume encompassing the 
Pittsburgh-Beaver Valley nonattainment area. . Ozone reductions in the 
-2 to -6 ppb extend to CT and MA on a few days. The episode total grid 
cell hours > 124 ppb were reduced from 2129 to 1937 in Run 20 (-9.0 
percent).
    Run 21: SIP Call Controls in TN (1991). The episode composite 
results indicate ozone reductions of -2 to -14 ppb or more in western 
Tennessee, north-central Kentucky, and eastern Arkansas.
    The daily maximum ozone residuals indicate broad regions of ozone 
reduction in the range of -2 ppb to -14 ppb or more throughout much of 
Tennessee and Kentucky, northern MS, AL, and GA, along the Ohio River 
valley upstream to Ashland, KY, and through broad swaths of Ohio. Ozone 
disbenefits appear to be located principally in extreme northeastern 
and southwestern Tennessee. The maximum daily ozone increase and 
decrease during the episode were 12 ppb (northeastern TN, 16 July) and 
-28 ppb (northwestern TN, 18 July). There are very few regions of 
modeled ozone disbenefits in this scenario. There is no impact in the 
Northeast Corridor. The episode total grid cell hours > 124 ppb were 
reduced from 2129 to 2069 in Run 21 (-2.8 percent).
    Run 22: SIP Call Controls in IN (1991). The episode composite 
results indicate ozone reductions of -2 to -14 ppb or more in southern 
Indiana and in south-central Ohio. Localized regions of 2 to 10 ppb 
ozone increases are modeled over the lake and in Cincinnati and 
Louisville.
    The daily maximum ozone residuals indicate modest regions of ozone 
reduction in the range of -2 ppb to -14 ppb or more throughout much of 
southern Illinois, Indiana, Ohio, and north-western Pennsylvania. 
Localized ozone disbenefits of 2 to 40 ppb are modeled on several days 
in areas including the Lower Lake Michigan area, Louisville, 
Cincinnati, and Indianapolis. The maximum daily ozone increase and 
decrease during the episode were 45 ppb (Louisville, 18 July) and -17 
ppb (Cincinnati, 20 July). Isolated spots of ozone disbenefits appear 
in throughout Indiana. However, a broad ozone disbenefit plume of 2 to 
10 ppb emanates from Gary, IN on several days of the 1991 episode. The 
episode total grid cell hours > 124 ppb were reduced from 2129 to 2100 
in Run 22 (-1.4 percent).
    The total number of grid cell hours in each State in the OTAG 12 km 
domain for which predicted maximum 1-hr and 8-hr ozone concentrations 
exceed arbitrary cutoff levels were developed (Tesche et al., 1998b). 
For the 1-hr ozone results, these levels are 100 pub, 124 ppb, and 140 
pub, respectively. 1-hr and 8-hr tables were compiled to help determine 
the total number of grid cell hours in a particular State where ozone 
levels are predicted to decrease over the episode relative to the 2007 
EPA1a baseline simulation. Joint analysis of these grid cell hours 
tables and the daily maximum ozone difference plots (contained on the 
CD-ROM archives) reveals that in many cases, the absolute 
concentrations of ozone contributed in one State by another far upwind 
is well below a few ppb, even though the total concentration in the 
receptor State from all local and upwind sources is above 124 ppb.
Tri-State Subregional Modeling Results
    The results of the Tri-State subregional UAM-V modeling (Table 5-
10.2) in which SIP level controls and Cinergy controls were placed on 
the States of Ohio, Kentucky, West Virginia, Indiana and Tennessee 
suggest that:
            Effects of the SIP Call
    <bullet>  SIP Call controls are effective in reducing the OTAG 
domainwide peak ozone concentrations from 211 ppb (695) and 171 ppb 
(1991) to 181 ppb (30 ppb reduction) and 158 ppb (13 ppb reduction), 
respectively. The number of daily maximum grid cells > 124 ppb in the 
2007 Base case were reduced by factors of 2 to 4 for the two OTAG 
episodes. Despite these significant regionwide ozone reductions, 
exceedances are still modeled in the Lower Lake Michigan, Atlanta, 
Northeast Corridor, Baltimore-Washington, Cincinnati, Birmingham, 
Raleigh, and Louisville nonattainment areas.
Impacts on the Northeast
    <bullet>  The high modeled 1-hr average ozone concentrations 
occurring in the northeast are not influenced appreciably by sources in 
the States of Kentucky, Ohio, and West Virginia. Results from modeling 
with both episodes reveals little (i.e., 2-6 ppb) or no ozone reduction 
in the Northeast Corridor. More specifically:
    <bullet>  Impacts from Ohio, Kentucky, and West Virginia may be as 
much as 2-6 ppb in the Northeast Corridor on one or a few days, but the 
impact areas are very small;
    <bullet>  Impacts from Ohio in the 2-6 ppb range extend no farther 
east than New Jersey; Impacts from Kentucky in the 2-6 ppb range extend 
no farther east than central to eastern Pennsylvania: Impacts from West 
Virginia in the 2-6 ppb range extend into the Northeast Corridor 
(Connecticut, Massachusetts) on one or a few days.
    <bullet>  Impacts from Indiana in the 2-6 ppb range are not modeled 
much beyond Pittsburgh; and
    <bullet>  There are no modeled impacts from Tennessee in the 
Northeast Corridor.
Effects of Individual State Controls
    <bullet>  SIP controls in Kentucky increase/decrease maximum ozone 
concentrations by 25 ppb/-36 ppb for the 1995 episode and by 18 ppb/-35 
ppb for the 1991 episode. The net reduction in grid cell exceedance 
hours for the two episodes is -4.7 percent and -1.9 percent;
    <bullet>  SIP controls in Ohio increase/decrease maximum ozone 
concentrations by 15 ppb/-19 ppb for the 1995 episode and by 34 ppb/-17 
ppb for the 1991 episode. The net reduction in grid cell exceedance 
hours for the two episodes is -2.4 percent and -3.1 percent;
    <bullet>  SIP controls in West Virginia increase/decrease maximum 
ozone concentrations by 21 ppb/-41 ppb for the 1995 episode and by 34 
ppb/-23 ppb for the 1991 episode. The net reduction in grid cell 
exceedance hours for the two episodes is -6.0 percent and 9.0 percent;
    <bullet>  SIP controls in Tennessee increase/decrease maximum ozone 
concentrations by 12 ppb/-39 ppb for the 1995 episode and by 12 ppb/-28 
ppb for the 1991 episode. The net reduction in grid cell exceedance 
hours for the two episodes is -8.4 percent and -2.8 percent;
    <bullet>  SIP controls in Indiana increase/decrease maximum ozone 
concentrations by 44 ppb/-38 ppb for the 1995 episode and by 45 ppb/-17 
ppb for the 1991 episode. The net reduction in grid cell exceedance 
hours for the two episodes is -5.1 percent and -1.4 percent. A broad 
disbenefit plume (2-10 pub) is modeled downwind of Gary, Indiana on 
several days of the 1995 episode; The greatest number of grid-cell 
hours of ozone reduction occurs for SIP controls on West Virginia (32.9 
percent for 1995 and 31.0 percent for 1991 episodes).
    <bullet>  The greatest number of grid-cell hours for ozone 
increases occurs for SIP controls on Indiana (79.2 percent, 695 
episode) and Tennessee (75.3 percent, 1991 episode).
Differences Between SIP Call and Cinergy Controls
    Comparing the SIP Call and Cinergy controls on the aggregate States 
of Kentucky, Ohio, and West Virginia:
    <bullet>  For the 1995 episode, the Cinergy package produced larger 
peak ozone increases (31 ppb vs. 25 pub) and smaller peak ozone 
reductions (-34 ppb vs. -47 ppb) than the SIP Call and lowered the 
episode total grid cell hours > 124 ppb by a smaller percentage (-10.6 
percent versus -12.4 percent).
    <bullet>  For the 1991 episode the Cinergy package produced 
equivalent peak ozone increases (32 ppb vs. 33 ppb) and smaller peak 
ozone reductions (-28 ppb vs. -35 ppb) than the SIP Call and again 
lowered the episode total grid cell hours > 124 ppb by a smaller 
percentage (-10.4 percent versus -14.0 percent).
    <bullet>  Comparing the SIP Call and Cinergy controls on Kentucky 
sources for the 695 episode, the Cinergy package produced larger peak 
ozone increases (31 ppb vs. 25 ppb) and smaller peak ozone decreases 
(-28 ppb vs. -36 ppb) and a smaller reduction in grid cell exceedance 
hours (-3.9 percent versus -4.7 percent). Comparing the SIP Call and 
Cinergy controls on Ohio sources for the 695 episode, the Cinergy 
package produced nearly equal peak ozone increases (12 ppb vs. 15 ppb) 
and smaller peak ozone decreases (-15 ppb vs. -19 ppb) and a smaller 
reduction in grid cell exceedance hours (-1.9 percent versus -2.4 
percent).
    <bullet>  Comparing the SIP Call and Cinergy controls on West 
Virginia sources for the 695 episode, the Cinergy package produced 
essentially equivalent peak ozone increases (21 ppb vs. 22 ppb) and 
larger peak ozone decreases (-41 ppb vs. -30 ppb) and a greater 
reduction in grid cell exceedance hours (-6.0 percent versus -4.8 
percent).
    <bullet>  The effectiveness of the Cinergy package relative to the 
SIP Call appears to depend upon the State in which the controls are 
applied. Across the three State region of KY, OH, and WV and for 
controls individually in the States of Kentucky and Ohio, the SIP Call 
controls appear to provide greater ozone benefits, lower ozone 
disbenefits and a larger reduction in the total number of grid cells > 
124 ppb. In contrast, Cinergy level controls in the WV appear to 
produce greater reductions in the peak ozone concentration and a 
greater reduction in the number of grid cells > 124 ppb. These results 
corroborate the overall necessity for focused analyses of subregional 
control strategy effectiveness. A simplistic, regionwide control 
strategy (e.g., an eastern States SIP Call) may not be most effective 
in individual OTAG subregions.
TVA Scale of Ozone Transport Study
    The Tennessee Valley Authority (TVA) carried out a number of UAM-V 
modeling and analysis activities during and subsequent to the OTAG 
process. While many of the results were presented in public meetings 
during the OTAG process, no formal documentation was developed until 
the recent paper by Imhoff and Gautney (1998) summarizing a portion of 
the TVA analysis. Their work is briefly summarized here.
    Two unique applications of the UAM-V photochemical model were 
performed by TVA using primarily the July 1995 OTAG episode:
    <bullet>  Rollout Modeling: The rollout modeling assessment 
requires a number of UAM-V runs. In the rollout methodology, particular 
control strategy of interest' (e.g., the OTAG 5c controls) is first 
applied to the problem area itself, say the Northeast Corridor. 
Subsequently, controls are applied in successive UAM-V runs in which 
the geographical region over which the controls are imposed is 
increased in size in a stepwise fashion, either in circles of expanding 
radii or in tiers of grid cells added onto the original problem area. 
The effects of controls in each of the larger areas is compared back to 
the effects of controls on the original problem area. Applied in this 
manner, the rollout methodology allows one to determine quantitatively 
the distance beyond which additional controls cease being effective in 
improving ozone in the original problem area.
    <bullet>  Reactive Tracer Modeling: The reactive tracer UAM-V 
simulations were aimed at examining the rate at which ozone is removed 
from the atmosphere. Anthropogenic NOx and VOC emissions and biogenic 
NOx emissions are turned off 48 hours and 24 hours before a time of 
interest in the model simulation. The biogenic VOCs emissions are 
retained in the model simulation to give the NOx remaining in the 
system an opportunity to form ozone and to preserve on of the important 
ozone removal mechanisms. The concentrations in this run is then 
compared with the base case to estimate the amount of ozone formed due 
to emissions in the previous 24 hours. In other words, the results 
allow one to estimate the decay rate of ozone in the atmosphere due to 
natural removal, dilution, and conversion processes.
    Among the pertinent TVA findings reported by Imhoff and Gautney 
(1998) are:
    <bullet>  Both the rollout and reactive tracer modeling indicate 
that meaningful ozone reductions at high concentration locations (e.g., 
the Northeast Corridor) are difficult to achieve by controlling sources 
far away from the problem areas;
    <bullet>  Different regions of the eastern U.S. have very different 
characteristic scales of ozone transport, with Atlanta having the 
shortest and Lake Michigan the longest;
    <bullet>  Defining the Area of Influence (AOI) as the distance at 
which 75 percent of the overall effects of OTAG 5c controls are 
achieved, TVA found:
    <bullet>  Controls within the Atlanta region are sufficient to 
reducing peak ozone concentrations to 120 ppb (AOI = 0);
    <bullet>  Controls must extent additional 195 km beyond the Lower 
Lake Michigan region in order to aid in reducing concentrations to 
below 120 ppb (AOI = 195 km) and
    <bullet>  Controls must extend an additional 40 km beyond the 
Northeast corridor to achieve the 75 percent reduction potential 
available for 5c controls. To achieve 90 to 95 percent of the possible 
effectiveness of reducing cells below 120 ppb using the 5c controls 
would obviously require controls over a larger area--with the attendant 
costs.
    By the time controls have been extended beyond 96 km from the 
Northeast Corridor, their efficiency is less than one-half that of 
controls within the corridor itself; and
    Simulated ozone concentrations do not depend significantly on the 
amount of ozone that has been resident in the model for more than 48 
hours, but is strongly dependent on the anthropogenic emissions that 
have occurred within the preceding 48 hours. This UAM-V findings refute 
the popular conceptual notion of a cause and effect relationship 
between transport of localized high ozone from far upwind and 
nonattainment in the NE.
    The TVA analysis concludes that a strategy of regional NOx controls 
for controlling high ozone concentrations is not specifically focused 
at the locations in need, and is inefficient, impractical.
                              conclusions
    The analysis of the UAM-V air quality modeling addressing the 
proposed SIP Call plan reveals the following:
    <bullet>  Local Controls Most Effective: Most of the ozone 
reduction benefits of the SIP Call control strategy in a nonattainment 
area are due to controls in or immediately downwind of the 
nonattainment area.
    <bullet>  Ozone Improvements Predominantly in Non-Problem Areas: 
Most of the ozone reductions due to the SIP Call control plan occur in 
attainment or near-attainment areas, reducing ozone concentrations to 
levels well below the NAAQS.
    <bullet>  SIP Call Does Not Produce Desired Result in Regions of 
Greatest Need: The SIP Call control scenario produces much smaller 
reductions in ozone concentrations in the most serious ozone 
nonattainment areas (Northeast Corridor and Lake Michigan) because 
ozone in these areas is mainly due to area and mobile sources. What 
reductions that do occur are mainly due to local emissions reductions.
    <bullet>  Diminishing Effectiveness of Point Source NOx Control: 
There is very little difference in the reductions in ozone 
concentrations due to the Run A control strategy (55 percent controls 
on major NOx point sources) versus the Run I control strategy (85 
percent control on major NOx point sources); the extra reductions in 
emissions from major NOx point sources from 55 percent to 85 percent is 
not cost-effective or justified based on the ozone air quality 
benefits.
    <bullet>  NOx-Focused Plan Accelerates Ozone Formation Rates: The 
SIP Call NOx-focused control plan increases the rate of atmospheric 
ozone formation; States whose emissions are not affected by the SIP 
Call control strategy have higher contributions to nonattainment after 
implementation of the SIP Call controls.
    <bullet>  Regional NOx Reductions Cause Isolated, Local Ozone 
Disbenefits: OTAG modeling indicated NOx disbenefits that generated 
some controversy. Subesequent modeling confirms that significant NOx 
disbenefits do occur , particularly around Lake Michigan and near 
certain urban areas including Baltimore (Maryland)-Washington (DC); 
Cincinnati, Ohio; Louisville, Kentucky; and Pittsburgh, Pennsylvania.
    A very large number of photochemical model simulations have been 
performed to develop refined estimates of whether and to what extent 
precursor emissions from sources in the Midwestern U.S. actually 
contribute to the modeled high ozone concentrations in the Northeast 
Corridor. These simulations, employing the UAM-V and CAMx regional 
models and OTAG data sets, have examined specific controls on 
individual facilities, individual States and/or specific aggregations 
of States. As such, they constitute much more focused analyses than the 
generic ``zero-out'' runs performed by OTAG and used by EPA to justify 
the SIP Call. Overall these refined model simulations reveal a 
consistent picture. The expected effect of significant ozone precursor 
emissions in the Midwest:
    <bullet>  Has at most a -2 to -6 ppb reduction on modeled afternoon 
ozone concentrations in the Northeast Corridor under severe ozone 
episode conditions;
    <bullet>  Tends not to produce significant ozone reductions at the 
same time or location in the Northeast where the peak ozone 
concentrations are modeled or measured; and
    <bullet>  Produces far greater increases in peak ozone 
concentrations in local Midwestern attainment and nonattainment areas 
than decreases in ozone levels in the Northeast Corridor.
    Results from the Tri-State study evaluate the geographical extent 
and magnitude of expected ozone benefits in the Northeast Corridor from 
controls in the Midwest. These results very clearly reveal that in 
those instances where ozone benefits are modeled in the Northeast 
Corridor, the concentration reductions are very low (-2 to -6 ppb), 
tend not to occur in the most heavily populated areas, and do not occur 
in the areas of highest modeled ozone.
    The tables below (Tesche, T.W., et al, 1998a) summarizes the UAM-V 
modeling results from the Tri-State study with respect to the extent of 
modeled ozone disbenefits occurring in the Midwest, particularly in 
Kentucky and southern Ohio. These results very clearly reveal that one 
of the negative consequences of the SIP Call or Cinergy level control 
scenarios is the generation of significant ozone increases, 
particularly in the Cincinnati and Louisville nonattainment areas. 
Ozone increases on the order of 20 to 45 ppb are predicted in 
Cincinnati and Louisville under severe ozone episode conditions.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                   - 

</pre></body></html>
